<html>
<title> - BORDER SECURITY_2015 (VOLUME 1 OF 2)</title>
<body><pre>[Senate Hearing 114-516]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-516
 
                          BORDER SECURITY_2015

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               ----------                              

 DEFERRED ACTION ON IMMIGATION: IMPLICATIONS AND UNANSWERED QUESTIONS, 
                            FEBRUARY 4, 2015

VISA WAIVER PROGRAM: IMPLICATIONS FOR U.S. NATIONAL SECURITY, MARCH 12, 
                                  2015

 SECURING THE SOUTHWEST BORDER: PERSPECTIVES FROM BEYOND THE BELTWAY, 
                             MARCH 17, 2015

SECURING THE BORDER: ASSESSING THE IMPACT OF TRANSNATIONAL CRIME, MARCH 
                                24, 2015

         SECURING THE BORDER: UNDERSTANDING AND ADDRESSING THE
 ROOT CAUSES OF CENTRAL AMERICAN MIGRATION TO THE UNITED STATES, MARCH 
                                25, 2015

          SECURING THE BORDER: DEFINING THE CURRENT POPULATION
   LIVING IN THE SHADOWS AND ADDRESSING FUTURE FLOWS, MARCH 26, 2015

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



















                                                        S. Hrg. 114-516

                          BORDER SECURITY_2015

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

DEFERRED ACTION ON IMMIGRATION: IMPLICATIONS AND UNANSWERED QUESTIONS, 
                            FEBRURY 4, 2015

VISA WAIVER PROGRAM: IMPLICATIONS FOR U.S. NATIONAL SECURITY, MARCH 12, 
                                  2015

 SECURING THE SOUTHWEST BORDER: PERSPECTIVES FROM BEYOND THE BELTWAY, 
                             MARCH 17, 2015

SECURING THE BORDER: ASSESSING THE IMPACT OF TRANSNATIONAL CRIME, MARCH 
                                24, 2015

         SECURING THE BORDER: UNDERSTANDING AND ADDRESSING THE
 ROOT CAUSES OF CENTRAL AMERICAN MIGRATION TO THE UNITED STATES, MARCH 
                                25, 2015

          SECURING THE BORDER: DEFINING THE CURRENT POPULATION
   LIVING IN THE SHADOWS AND ADDRESSING FUTURE FLOWS, MARCH 26, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-899 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                  Christopher R. Hixon, Chief Counsel
     Brooke N. Ericson, Deputy Chief Counsel for Homeland Security
          Jena N. McNeil, Deputy Director of Homeland Security
              Jose J. Bautista, Professional Staff Member
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
               Mary Beth Schultz, Minority Chief Counsel
     Stephen R. Vina, Minority Chief Counsel for Homeland Security
               Holly A. Idelson, Minority Senior Counsel
       Harlan C. Geer, Minority Senior Professional Staff Member
 Jill B. Mueller, Minority U.S. Customs and Border Protection Detailee
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator1, 165 303, 425, 599, 771, 933, 1087, 1207, 1409, 1585, 1919
    Senator Carp3, 166, 305, 427, 600, 771, 934, 1098, 1208, 1410, 1587
    Senator Baldwin I60 , 1227...................................
    Senator Heitkamp.......................................24, 331, 963
    Senator Lankford.....................27, 204, 797, 1113, 1431, 1612
    Senator Booker..............................31, 182, 453, 950, 1097
    Senator Ayotte..................33, 179, 325, 977, 1229, 1420, 1481
    Senator Ernst.........................184, 171, 335, 795, 961, 1426
    Senator Peters.................202, 449, 789, 956, 1224, 1428, 1609
    Senator McCain.................................320, 958, 1422, 1920
    Senator Tester............................................446, 1104
    Senator Sasse................................................   953
    Senator McCaskill............................................  1605
    Senator Shaheen..............................................  1485
    Senator Flake................................................  1922
Prepared statements:
   43, 209, 351, 465, 645, 813, 981, 1129, 1241, 1443, 1515, 1625, 1961
    Senat45, 210, 353, 467, 646, 814, 982, 1130, 1243, 1444, 1517, 1626
    Senator Ayotte...........................................1519, 1964
    Senator Shaheen..............................................  1523
    Senator McCain...............................................  1963

                      Wednesday, February 4, 2015
                               WITNESSES

Stephen C. Goss, Chief Actuary, U.S. Social Security 
  Administration.................................................     6
Hon. Eileen J. O'Connor, Partner, Pillsbury Winthrop Shaw Pittman 
  LLP............................................................     8
Luke Peter Bellocchi, Of Counsel, Wasserman, Mancini and Chang, 
  and Former Deputy Ombudsman for U.S. Citizenship and 
  Immigration Services ath the U.S. Department of Homeland 
  Security.......................................................    10
Shawn Moran, Vice President, National Border Patrol Council......    12
Bo Cooper, Partner, Fragomen, Del Rey, Bernsen and Loewy LLP, and 
  Former General Counsel at the Immigration and Naturalization 
  Service........................................................    14

                     Alphabetical List of Witnesses

Bellocchi, Luke Peter:
    Testimony....................................................    10
    Prepared statement...........................................    68
Cooper, Bo:
    Testimony....................................................    14
    Prepared statement...........................................    91
Goss, Stephen C.:
    Testimony....................................................     6
    Prepared statement with attachment...........................    47
Moran, Shawn:
    Testimony....................................................    12
    Prepared statement with attachment...........................    80
O'Connor, Hon. Eileen J.:
    Testimony....................................................     8
    Prepared statement...........................................    61

                                APPENDIX

Chart submitted by Senator Johnson...............................   104
Goss Actuarial Note submitted by Senator Johnson.................   105
Statement submitted for the Record from American Immigration 
  Council........................................................   110
Responses to post-hearing questions for the Record:
    Mr. Goss.....................................................   141
    Ms. O'Connor.................................................   143
    Mr. Bellocchi................................................   147
    Mr. Moran....................................................   161

                        Thursday, March 12, 2015
                               WITNESSES

Hon. Michael Chertoff, Co-Founder and Executive Chairman, The 
  Chertoff Group.................................................   168
Marc E. Frey, Ph.D., Senior Director, Steptoe and Johnson, LLP...   170
Brian Michael Jenkins, Senior Adviser to the President, The RAND 
  Corporation....................................................   172
Mark Koumans, Deputy Assistant Secretary for International 
  Affairs, Office of Policy, U.S. Department of Homeland Security   189
Maureen Dugan, Deputy Executive Director, National Targeting 
  Center, U.S. Customs and Border Protection, U.S. Department of 
  Homeland Security..............................................   191
Edward J. Ramotowski, Deputy Assistant Secretary for Visa 
  Services, U.S. Department of State.............................   193

                     Alphabetical List of Witnesses

Chertoff, Hon. Michael:
    Testimony....................................................   168
    Prepared statement...........................................   212
Dugan, Maureen:
    Testimony....................................................   191
    Joint prepared statement.....................................   239
Frey, Marc E., Ph.D.:
    Testimony....................................................   170
    Prepared statement...........................................   219
Jenkins, Brian Michael:
    Testimony....................................................   172
    Prepared statement...........................................   228
Koumans, Mark:
    Testimony....................................................   189
    Joint prepared statement.....................................   239
Ramotowski, Edward J.:
    Testimony....................................................   193
    Prepared statement...........................................   246

                                APPENDIX

Responses to post-hearing questions for the Record:
    Dr. Frey.....................................................   251
    Mr. Jenkins..................................................   254
    Mr. Koumans and Ms. Dugan....................................   266
    Mr. Ramotowski...............................................   295

                        Tuesday, March 17, 2015
                               WITNESSES

Chris Cabrera, Border Patrol Agent, Rio Grande Valley Sector, 
  U.S. Customs and Border Protection, on behalf of the National 
  Border Patrol Council..........................................   308
Mark J. Dannels, Sheriff, Cochise County, Arizona................   310
Howard G. Buffett, Chairman and Chief Executive Officer, Howard 
  G. Buffett Foundation, and Arizona Landowner...................   313
Othal E. Brand, Jr., Farmer, McAllen, Texas......................   315
Monica Weisberg-Stewart, Chairwoman, Committee on Border Security 
  and Immigration, Texas Border Coalition........................   318

                     Alphabetical List of Witnesses

Brand, Othal E., Jr.:
    Testimony....................................................   315
    Prepared statement with attachment...........................   394
Buffett, Howard G.:
    Testimony....................................................   313
    Prepared statement...........................................   364
Cabrera, Chris:
    Testimony....................................................   308
    Prepared statement...........................................   355
Dannels, Mark J.:
    Testimony....................................................   310
    Prepared statement...........................................   358
Weisberg-Stewart, Monica:
    Testimony....................................................   318
    Prepared statement...........................................   400

                                APPENDIX

Statement for the Record:
    American Civil Liberties Union...............................   406
    National Immigration Forum...................................   414
Responses to questions for the Record:
    Ms. Weisberg-Stewart.........................................   422

                        Tuesday, March 24, 2015
                               WITNESSES

General Barry R. McCaffrey, USA (Ret.), Former Director (1996-
  2001) of the Office of National Drug Control Policy............   430
John P. Torres, Former Acting Director and Former Deputy 
  Assistant Director for Smuggling and Public Safety at U.S. 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security..............................................   433
Elizabeth Kempshall, Executive Director, Arizona High Intensity 
  Drug Trafficking Area, Office of National Drug Control Policy..   435
Benny Martinez, Chief Deputy Sheriff, Brooks County, Texas.......   437
Bryan E. Costigan, Director, Montana All-Threat Intelligence 
  Center, Division on Criminal Investigation, Montana Department 
  of Justice.....................................................   439

                     Alphabetical List of Witnesses

Costigan, Bryan E.:
    Testimony....................................................   439
    Prepared statement...........................................   539
Kempshall, Elizabeth:
    Testimony....................................................   435
    Prepared statement...........................................   487
Martinez, Benny:
    Testimony....................................................   437
    Prepared statement with attachment...........................   494
McCaffrey, General Barry R.:
    Testimony....................................................   430
    Prepared statement...........................................   469
Torres, John P.:
    Testimony....................................................   433
    Prepared statement...........................................   477

                                APPENDIX

Picture submitted by Senator Johnson.............................   552
Statement submitted for the Record from AIC......................   553

                       Wednesday, March 25, 2015
                               WITNESSES

William A. Kandel, Analyst in Immigration Policy, Congressional 
  Research Service, U.S. Library of Congress.....................   603
Hon. Roger F. Noriega, Visiting Fellow, American Enterprise 
  Institute, and Former Assistant Secretary for Western 
  Hemisphere Affairs at the U.S. Department of State.............   605
Hon. Adolfo A. Franco, Former Assistant Administrator for Latin 
  America and the Caribbean at the U.S. Agency for International 
  Development....................................................   607
Eric L. Olson, Associate Director, Latin American Program, 
  Woodrow Wilson International Center for Scholars...............   610
Hon. Alan D. Bersin, Acting Assistant Secretary and Chief 
  Diplomatic Officer, Office of Policy, U.S. Department of 
  Homeland Security..............................................   627
Francisco Palmieri, Deputy Assistant Secretary for Central 
  America and the Carribean, Bureau of Western Hemisphere 
  Affairs, U.S. Deparment of State...............................   629
Lieutenant General Kenneth E. Tovo, USA, Military Deputy 
  Commander, U.S. Southern Command, U.S. Department of Defense...   631

                     Alphabetical List of Witnesses

Bersin, Hon. Alan D.:
    Testimony....................................................   627
    Prepared statement...........................................   683
Franco, Hon. Adolfo A.:
    Testimony....................................................   607
    Prepared statement...........................................   673
Kandel, William A.:
    Testimony....................................................   603
    Prepared statement...........................................   648
Noriega, Hon. Roger F.:
    Testimony....................................................   605
    Prepared statement...........................................   659
Olson, Eric L.:
    Testimony....................................................   610
    Prepared statement...........................................   677
Palmieri, Francisco:
    Testimony....................................................   629
    Prepared statement...........................................   689
Tovo, Lt. Gen. Kenneth E.:
    Testimony....................................................   631
    Prepared statement with attachment...........................   694

                                APPENDIX

Chart submitted by Senator Johnson...............................   734
Statement submitted for the Record from Church World Service.....   735
Statement submitted for the Record from United Nations High 
  Commissioner for Refugees......................................   736
Responses to post-hearing questions for the Record:
    Mr. Bersin...................................................   741
    Mr. Palmieri.................................................   749

                        Thursday, March 26, 2015
                               WITNESSES

Jeffrey S. Passel, Ph.D., Senior Demographer, Hispanic Trends 
  Project, Pew Research Center...................................   774
Daniel Garza, Executive Director, The LIBRE Initiative...........   776
Madeline Zavodny, Ph.D., Professor of Economics, Agnes Scott 
  College, and Adjunct Scholar, American Enterprise Institute....   779
Randel K. Johnson, Senior Vice President, Labor, Immigration, and 
  Employee Benefits, U.S. Chamber of Commerce....................   781
Marc R. Rosenblum, Ph.D., Deputy Director, Immigration Policy 
  Program, Migration Policy Insitute.............................   784

                     Alphabetical List of Witnesses

Garza, Daniel:
    Testimony....................................................   776
    Prepared statement...........................................   848
Johnson, Randel K.:
    Testimony....................................................   781
    Prepared statement...........................................   862
Passel, Jeffrey S., Ph.D.:
    Testimony....................................................   774
    Prepared statement with attachment...........................   816
Rosenblum, Marc R., Ph.D.:
    Testimony....................................................   784
    Prepared statement...........................................   881
Zavodny, Madeline, Ph.D.:
    Testimony....................................................   779
    Prepared statement...........................................   853

                                APPENDIX

Charts submitted by Senator Johnson..............................   906
Statements submitted for the Record from:
    AFL-CIO......................................................   909
    Farmworker Justice...........................................   912
    International Brotherhood of Electrical Workers..............   920
    Immigration Myths............................................   921
    Jobs with Justice............................................   927
    National Association of Home Builders........................   929
    National Roofing Contractors Association.....................   931

                       Wednesday, April 22, 2015
                               WITNESSES

Michael J. Fisher, Chief, U.S. Border Patrol, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security........   936
James C. Spero, Special Agent in Charge Buffalo, Homeland 
  Security Investigations, U.S. Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security..............   938
John Wagner, Deputy Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security...........................................   939
David Rodriguez, Director, Northwest High Intensity Drug 
  Trafficking Area, Office of National Drug Control Policy.......   942
Hon. Richard S. Hartunian, United States Attorney, Northern 
  District of New York, U.S. Department of Justice...............   944

                     Alphabetical List of Witnesses

Fisher, Michael J.:
    Testimony....................................................   936
    Prepared statement...........................................   984
Hartunian, Hon. Richard S.:
    Testimony....................................................   944
    Prepared statement...........................................  1019
Rodriguez, David:
    Testimony....................................................   942
    Prepared statement with attachment...........................  1002
Spero, James C.:
    Testimony....................................................   938
    Prepared statement...........................................   992
Wagner, John:
    Testimony....................................................   939
    Prepared statement...........................................   984

                                APPENDIX

Charts submitted by Senator Johnson..............................  1027
Chart submitted by CBP to Senator McCain.........................  1029
Prepared statements submitted for the Record by:
    John Ghertner, Director, Greater Rochester Coalition for 
      Immigration Justice........................................  1030
    Northern Border Coalition....................................  1034
    New York Civil Liberties Union...............................  1038
Responses to post-hearing questions for the Record:
    Mr. Fisher & Mr. Wagner......................................  1046
    Mr. Spero....................................................  1082
    Mr. Rodriguez................................................  1086

                        Wednesday, May 13, 2015
                               WITNESSES

Randolph D. Alles, Assistant Commissioner, Office of Air and 
  Marine, U.S. Customs and Border Protection, U.S. Department of 
  Homeland Security..............................................  1088
Mark Borkowski, Assistant Commissioner, Office of Technology 
  Innovation and Acquisition, U.S. Cusoms and Border Protection, 
  U.S. Department of Homeland Security...........................  1090
Ronald Vitiello, Deputy Chief, Office of Border Patrol, U.S. 
  Customs and Border Protection, U.S. Department of Homeland 
  Security.......................................................  1091
Anh Duong, Director, Borders and Maritime Security Division, 
  Directorate of Science and Technology, U.S. Department of 
  Homeland Security..............................................  1092
Rebecca Gambler, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office...............................  1094
Michael John Garcia, Legislative Attorney, Congressional Research 
  Service, U.S. Library of Congress..............................  1095

                     Alphabetical List of Witnesses

Alles, Randolph D.:
    Testimony....................................................  1088
    Joint Prepared statement.....................................  1131
Borkowski, Mark:
    Testimony....................................................  1090
    Joint Prepared statement.....................................  1131
Duong, Anh:
    Testimony....................................................  1092
    Prepared statement...........................................  1147
Gambler, Rebecca:
    Testimony....................................................  1094
    Prepared statement...........................................  1153
Garcia, Michael John:
    Testimony....................................................  1095
    Prepared statement...........................................  1175
Vitiello, Ronald:
    Testimony....................................................  1091
    Joint Prepared statement.....................................  1131

                                APPENDIX

Chart referenced by Senator Johnson..............................  1190
Prepared statements submitted for the Record by:
    American Civil Liberties Union...............................  1191
    National Immigration Forum...................................  1194
Responses to post-hearing questions for the Record from:
    Mr. Borkowski & Ms. Duong....................................  1200

                         Tuesday, July 7, 2015
                               WITNESSES

Juan P. Osuna, Director, Executive Office for Immigration Review, 
  U.S. Department of Justice.....................................  1212
Mark H. Greenberg, Acting Assistant Secretary, Administration for 
  Children and Families, U.S. Department of Health and Human 
  Services.......................................................  1214
Philip T. Miller, Assistant Director of Field Operations, 
  Enforcement and Removal Operations, U.S. Immigration and 
  Customs Enforcement, U.S. Department of Homeland Security......  1216
Joseph E. Langlois, Associate Director, Refugee, Asylum, and 
  International Operations Directorate, U.S. Citizenship and 
  Immigration Services, U.S. Department of Homeland Security.....  1218

                     Alphabetical List of Witnesses

Greenberg, Mark H.:
    Testimony....................................................  1214
    Prepared statement...........................................  1252
Langlois, Joseph E.:
    Testimony....................................................  1218
    Prepared statement...........................................  1273
Miller, Philip T.:
    Testimony....................................................  1216
    Prepared statement...........................................  1267
Osuna, Juan P.:
    Testimony....................................................  1212
    Prepared statement...........................................  1245

                                APPENDIX

Chart referenced by Senator Johnson..............................  1279
Prepared statements submitted for the Record by:
    American Immigration Council with an attachment..............  1280
    American Immigration Lawyers Association.....................  1307
    Alliance To End Slavery and Trafficking......................  1313
    Center for Gender and Refugee Studies........................  1319
    Church World Service.........................................  1328
    Evangelical Lutheran Church in America.......................  1329
    First Focus Campaign for Children............................  1332
    Freedom Network USA..........................................  1334
    Kids Post....................................................  1339
    Kids in Need of Defense......................................  1343
    Lutheran Immigration and Refugee Service and Women's Refugee 
      Commission.................................................  1347
    National Immigration Forum...................................  1356
    National Immigrant Justice Center............................  1360
    Safe Passage Project.........................................  1366
    United Nations High Commissioner for Refugees................  1369
    U.S. Committee for Refugee and Immigrants....................  1375
    Young Center with an attachment..............................  1377
Responses to post-hearing questions for the Record
    Mr. Osuna....................................................  1393
    Mr. Greenberg................................................  1396
    Mr. Miller and Mr. Langlois..................................  1400

                        Wednesday, July 15, 2015
                               WITNESSES

Rear Admiral Peter J. Brown, Assistant Commandant for Response 
  Policy, U.S. Coast Guard.......................................  1412
Randolph D. Alles, Assistant Commissioner, Office of Air and 
  Marine, U.S. Customs and Border Protection, U.S. Department of 
  Homeland Security..............................................  1414
Peter T. Edge, Executive Associate Director, Homeland Security 
  Investigations, U.S. Immigration and Customs Enforcement, U.S. 
  Department of Homeland Security................................  1416

                     Alphabetical List of Witnesses

Alles, Randolph D.:
    Testimony....................................................  1414
    Prepared statement...........................................  1452
Brown, Rear Admiral Peter J.:
    Testimony....................................................  1412
    Prepared statement...........................................  1446
Edge, Peter T.:
    Testimony....................................................  1416
    Prepared statement...........................................  1462

                                APPENDIX

Response to post-hearing questions for the Record from Mr. Alles.  1475

                       Monday, September 14, 2015
                               WITNESSES

Enoch ``Nick'' Willard, Chief, Manchester Police Department, 
  Manchester, New Hampshire......................................  1486
Doug Griffin, Father of Courtney Griffin, Newton, New Hampshire..  1488
Heidi Moran, Clinical Administrator, Southeastern New Hamsphire 
  Services, Dover, New Hampshire.................................  1491
Hon. Michael P. Botticelli, Director, Office of National Drug 
  Control Policy.................................................  1499
Hon. R. Gil Kerlikowske, Commissioner, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............  1501
John ``Jack'' Riley, Acting Deputy Administrator, Drug 
  Enforcement Administration, U.S. Department of Justice.........  1503

                     Alphabetical List of Witnesses

Botticelli, Hon. Michael P.:
    Testimony....................................................  1499
    Prepared statement...........................................  1544
Griffin, Doug:
    Testimony....................................................  1488
    Prepared statement...........................................  1531
Kerlikowske, Hon. R. Gil:
    Testimony....................................................  1501
    Prepared statement...........................................  1568
Moran, Heidi:
    Testimony....................................................  1491
    Prepared statement...........................................  1536
Riley, John ``Jack'':
    Testimony....................................................  1503
    Prepared statement...........................................  1576
Willard, Enoch ``Nick'':
    Testimony....................................................  1486
    Prepared statement...........................................  1525

                                APPENDIX

Photos submitted by Chief Willard................................  1529

                      Wednesday, October 21, 2015
                               WITNESSES

Kimberly M. Gianopoulos, Director, International Affairs and 
  Trade, U.S. Government Accountability Office...................  1590
Chris Cabrera, Border Patrol Agent, Rio Grande Valley Sector, 
  U.S. Customs and Border Protection, on behalf of the National 
  Border Patrol Council..........................................  1591
Kevin Casas-Zamora, D.Phil., Senior Fellow and Program Director, 
  Peter D. Bell Rule of Law Program, Inter-American Dialogue.....  1593
Duncan Wood, Ph.D., Director, Mexico Institute, Woodrow Wilson 
  International Center for Scholars..............................  1595
The Most Reverend Mark J. Seitz, Bishop, Diocese of El Paso, 
  Texas, on behalf of the U.S. Conference of Catholic Bishops....  1597

                     Alphabetical List of Witnesses

Cabrera, Chris:
    Testimony....................................................  1591
    Prepared statement...........................................  1641
Casas-Zamora, Kevin, D.Phil.:
    Testimony....................................................  1593
    Prepared statement...........................................  1643
Gianopoulos, Kimberly M.:
    Testimony....................................................  1590
    Prepared statement...........................................  1628
Seitz, Bishop Mark J.:
    Testimony....................................................  1597
    Prepared statement...........................................  1666
Wood, Duncan, Ph.D.:
    Testimony....................................................  1595
    Prepared statement with attachment...........................  1656

                                APPENDIX

Documents submitted by Senator McCaskill.........................  1681
Charts submitted by Senator Johnson..............................  1831
Document submitted by Bishop Seitz...............................  1833
Statement submitted for the Record from:
American Immigration Council with an attachment..................  1834
Interfaith Immigration Coalition.................................  1895
Women's Refugee Commission, Lutheran Immigration and Refugee 
  Service (LIRS) and Kids in Need of Defense (KIND)..............  1907
Responses to post-hearing questions for the Record
    Ms. Gianopoulos..............................................  1913
    Mr. Casas-Zamora.............................................  1917

                       Monday, November 23, 2015
                               WITNESSES

Hon. Douglas A. Ducey, Governor, State of Arizona; accompanied by 
  Colonel Frank Milstead, Director, Arizona Department of Public 
  Safety.........................................................  1922
Hon. R. Gil Kerlikowske, Commissioner, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............  1926
Hon. Bill Montgomery, County Attorney, Maricopa County...........  1930
Hon. Mark J. Dannels, Sheriff, Cochise County....................  1940
Dawn Mertz, Executive Director, Arizona HIDTA, Office of National 
  Drug Control Policy............................................  1944
Brandon Judd, President, National Border Control Council.........  1945
Jeff Taylor, Member, Public Advisory Board/Public Policy, The 
  Salvation Army.................................................  1948

                     Alphabetical List of Witnesses

Dannels, Hon. Mark J.:
    Testimony....................................................  1940
    Prepared statement with attachments..........................  1987
Ducey, Hon. Douglas A.:
    Testimony....................................................  1922
    Prepared statement...........................................  1966
Judd, Brandon:
    Testimony....................................................  1945
    Prepared statement...........................................  2026
Kerlikowske, Hon. R. Gil:
    Testimony....................................................  1926
    Prepared statement...........................................  1971
Mertz, Dawn:
    Testimony....................................................  1944
    Prepared statement...........................................  2017
Montgomery, Hon. Bill:
    Testimony....................................................  1930
    Prepared statement with attachment...........................  1981
Taylor, Jeff:
    Testimony....................................................  1948
    Prepared statement...........................................  2029

                                APPENDIX

Wilmot statement for the Record..................................  2033
Chart submitted by Senator Johnson...............................  2053


 DEFERRED ACTION ON IMMIGRATION: IMPLICATIONS AND UNANSWERED QUESTIONS

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Paul, Lankford, Ayotte, Ernst, 
Sasse, Carper, Baldwin, Heitkamp, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    First of all, I would like to thank all the witnesses for 
your very thoughtful testimony. I have read it and appreciate 
you taking the time to be so thoughtful. I want to thank all 
the people attending this very important hearing.
    I do have a written opening statement that, without 
objection, I would like to enter into the record.\1\ Hearing 
none, so ordered.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    The subject of this hearing is complex. That really made an 
impression on me as I was reading the testimony. I come from a 
manufacturing background. This, to me, is the definition of a 
real problem. There are no easy solutions. So, the attempt of 
this hearing is really trying to, in a very honest, very 
forthright way, lay out the problem and what we need to do to 
try and grapple with the problem.
    Let me say, the problem starts with the fact that we do not 
have secure borders. We have not had secure borders for 
decades, and that creates the second problem, which is more the 
subject of the hearing today. As a result of those borders that 
are not secure, we have almost enticed people to come into this 
country illegally. Now, we have a population estimated 
somewhere between 11 and 12 million people in this country 
illegally. That is a problem. That is not good for them. That 
is not good for this country. That is not good for our national 
security, for public health and safety. And, it certainly does 
not promote a functioning legal immigration system.
    So, the purpose of this hearing, I think, is laid out just 
in the title: Deferred Action on Immigration: Implications and 
Unanswered Questions. What I would really like to explore is, 
obviously, President Obama has now a couple of times through 
executive action, through memorandums published, deferred 
action first on childhood arrivals, and now he is deferring 
action on parents of American citizens and other legal 
permanent residents.
    The question I have, and I think it is a legitimate 
question, is are those executive actions, are those going to 
help the problem or is it going to exacerbate the problem? Is 
it going to make it worse? And, I think that is a legitimate 
question to ask. I think we have some history which we will be 
exploring.
    Our witnesses, and I will introduce you before you testify, 
but we have the Chief Actuary of Social Security to talk about 
the effects on our Social Security system. We have an expert on 
tax compliance and tax fraud, which I think will be interesting 
to hear the effects of the executive actions in that situation. 
We have a former deputy ombudsman for the U.S. Citizenship and 
Immigration Services (USCIS) to find out, is that agency going 
to be able to cope with the increased number of applications 
and people seeking this legal status. We have an official with 
the National Border Patrol Council, basically the union of 
Border Patrol Agents. And, we have a former General Counsel of 
the Department of Homeland Security's (DHS) predecessor 
organization, the Immigration and Naturalization Service (INS) 
agency. Again, I think there is going to be some very 
thoughtful testimony. I am looking forward to it.
    Here is my main concern. If we can put up a chart \1\ that 
we have prepared here, we have seen the results of deferred 
action in the past, and I think it is relatively stark. We had 
unaccompanied children coming across the border historically, 
but the numbers were actually declining until basically 2012, 
when President Obama issued the first series, or members of his 
Administration issued memos on deferred action on childhood 
arrivals. I think just pictorially, graphically, it is pretty 
stark what the result was. We had a flooding of unaccompanied 
children to our border, creating that humanitarian crisis.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 104.
---------------------------------------------------------------------------
    And, even though those memoranda did not apply to people 
coming into this country at that time, that did not make any 
difference. If you take a look at the bottom line there that is 
in yellow, that is showing the percentage of those 
unaccompanied children that were actually removed from this 
country, actually sent back to their countries of origin. You 
can see how that has declined from 21.4 and 21.7 percent in 
2009 and 2010 to only 2.2 percent in the last year, 2014.
    So, I think this is certainly evidence, and it is my 
concern that President Obama's deferred action now in this 
latest round of memoranda could create that same dynamic, 
actually increase the incentives for illegal immigration--no 
matter what the memoranda say, actually create the incentives 
for more people to come into this country illegally, increasing 
the pressure on the border. And, again, I think that is a 
legitimate question to ask.
    Now, I would like to conclude my comments by acknowledging 
the fact that we are a nation of immigrants. We always have 
been. It has made our Nation strong and vibrant. The vast 
majority of people coming into this country as immigrants, 
whether legally or illegally, are doing it for the same reason 
that our ancestors came here. They are seeking the opportunity, 
the hope, the promise of this great Nation. So, I understand 
that and we need to value their contributions.
    But, we have to recognize there are literally hundreds of 
millions of people that would like to become American citizens, 
who would like to come to this country. We have to make that a 
legal process. We have to control that. We have to make sure 
that what immigration we do allow in this country is done for 
the benefit of all Americans, and so it has to be a legal 
system.
    So, again, I am looking forward to the testimony. I am 
looking forward to a very thoughtful discussion.
    Chairman Johnson. And with that, I would like to turn it 
over to our Ranking Member, Senator Carper, for his opening 
comments.

             OPENING STATEMENT OF SENATOR CARPER\1\

    Senator Carper. Thanks very much, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    To our witnesses, welcome and thank you for joining us 
today.
    We are here today to learn more about the implementation of 
the President's executive actions on immigration. I think it is 
fair and reasonable oversight for this Committee to take and I 
am glad that we are here and I am glad that you are here. As 
with any new government initiative, there are likely to be a 
variety of bureaucratic challenges that need to be addressed, 
and we will talk about those today. So, I look forward to 
hearing from all of our witnesses about the challenges that 
might lie ahead, as well as some possible solutions to those 
challenges.
    Last Congress, this Committee--and the entire Senate--spent 
a great deal of time examining our Nation's broken immigration 
system. And after months of debate, two-thirds of the U.S. 
Senate, including Democrats and Republicans, came together to 
pass a comprehensive immigration reform bill. The bill was not 
perfect. There are plenty of ways to improve it, and my hope is 
that we will.
    But, it did address a number of issues that have plagued 
our immigration system for years. Perhaps just as important, it 
would have also reduced our budget deficits by--listen to 
this--nearly $200 billion over the next 10 years, and by 
another $700 billion in the 10-years after that. Moreover, it 
would have grown our Gross Domestic Product (GDP) by 5 percent 
over the next 20 years.
    As we know, unfortunately, the House did not act on that 
legislation, and as a result, we continue to be left with a 
broken immigration system that meets neither our economic nor 
our security needs as a Nation. Faced with paralysis here in 
Congress and continued inefficiency and unfairness in our 
immigration system, whether you like it or not, the President 
has decided to try and make several temporary improvements, 
hoping it would spur those of us in Congress to finish the job 
that we began almost 2 years ago. Those improvements or changes 
were not meant to be permanent, but they are what brings us to 
this debate today.
    Look, I know many of our colleagues, some on this Committee 
and some not on this Committee, have strong misgivings about 
the President acting on his own on these matters. Nonetheless, 
I hope we can set aside any frustrations over tactics and look 
at the substance of what the Administration is trying to do. If 
we can find a way to do that, I think we just might find room 
for common ground at the end of the day. After all, that is 
what the American people sent us here to do.
    There are more than 11 million people living in this 
country without documentation. We would not be able to remove 
all of them even if we wanted to try, and we should not try. 
Some of these individuals are young adults, brought here as 
children with no choice of their own in that matter. They are 
Americans in every way except on paper. Others are productive 
and law abiding parents of U.S. citizens or legal residents who 
have lived here in some cases for decades. Allowing these folks 
who live in our communities to work legally and pay full taxes 
will be good for both our economy and for our Federal budget.
    In fact, the Council on Economic Advisors has estimated 
that these new Administration initiatives, along with other 
immigration policies announced in November, would increase our 
Nation's Gross Domestic Product by $90 billion over the next 10 
years. These changes will also lead to a decrease in Federal 
deficits by somewhere between $25 and $60 billion over the next 
10 years, as well.
    Blocking or repealing the Administration's initiatives 
would take us backward. In fact, just last week, the 
Congressional Budget Office (CBO) reported that the House bill 
to block these deferred deportation programs that the Senate 
declined to take up and consider yesterday would cost our 
economy $7.5 billion over 10 years.
    Estimates indicate that more than 4 million immigrants will 
be eligible for the temporary deportation relief outlined by 
the President. And, while not all those eligible are expected 
to apply, many will, and that will allow the Administration to 
focus its limited enforcement resources on the highest 
priorities for removal, those who pose security risks to our 
country or recent arrivals without longstanding ties to our 
Nation. That is more than enough work for our border security 
and immigration enforcement officials to handle, even at the 
record deportation levels that we have seen in recent years.
    So, in sum, based on what we know so far, I have come to 
the conclusion that the initiatives whose implementation we are 
examining today are feasible, are fair, make good economic 
sense, and actually enhance our Nation's security. And, whether 
we agree with that or not, these initiatives are interim steps. 
Let me just say, these should not be the final steps. Those are 
the ones that we need to take by doing the hard work of 
rebuilding the consensus that allowed two-thirds of the Senate 
just 2 years ago to support compromise immigration reform 
legislation.
    And, so as I close, I want to thank the Chairman for 
calling this hearing together. While there is some disagreement 
about what the President has done, I hope we can all agree that 
this hearing is the proper forum to have the debate on 
immigration policy.
    I do not believe that we should be threatening to shut down 
the Department of Homeland Security, an agency vital to our 
Nation's security, over disagreements with the President's 
policies. All three former Homeland Security Secretaries, two 
of them Republicans, one of them a Democrat, agree with me on 
that point.
    In the next several days, I hope that most of us can come 
together to do what I believe is the right thing, and that is 
support the passage of a clean 4-year appropriations bill for 
the Department of Homeland Security by February 27, and then we 
have to work to pass a thoughtful, comprehensive immigration 
reform bill that is worthy of this body into which all of us 
are privileged to serve.
    Let me just say, if I could, last night I got home and I 
had a late dinner with my wife and she was troubled and I said, 
``What is bothering you? '' And, she said, ``The Jordanian 
pilot that was burned to death in a cage today, that is what is 
bothering me.'' And, my friends, we live in a world that is 
scary. It is scary.
    And, it is not just people being burned to death in a cage 
by the Islamic State of Iraq and Syria (ISIS), or ISIS 
beheading people. It is not just them doing mass murders or 
enslaving women into servitude to them. It is not just that. It 
is not just lone wolves in Detroit trying to gather the 
munitions and the equipment to enable them to come down here 
and attack this place where we work. It is not just Ebola. It 
is not just people trying to get drugs into this country 
illegally or trafficking human beings. All that is going on. It 
is not just about trying to make sure our airplanes are safe 
and our airports and our ports are secure, that we are able to 
move products through our borders.
    All that stuff is being done this day in large part because 
of the work of the Department of Homeland Security. And, for 
anybody to be thinking that it might make some sense to let 
that Department go out of business, to put them on the 
sidelines at this time in this age in which we live, have we 
lost our minds? I hope not. Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    I think Mrs. Carper, by the way, is voicing the concerns of 
most Americans. We all share the same goal. We want a 
prosperous country. We want a safe and secure Nation, which is 
why the mission of this Committee is to enhance the economic 
and national security of America. And, so, again, I appreciate 
your comments. I do not believe there is anybody serving in the 
U.S. Congress that does not want to keep this Nation safe and 
secure.
    We want to make sure that the Department is going to be 
funded. It is one of the reasons that a number of our leaders, 
including myself, did ask President Obama not to initiate this 
executive action, which so many of us do disagree with. That is 
what has created this issue. Without those actions, DHS would 
have been funded through the end of the fiscal year (FY) and we 
would be talking about funding for the next fiscal year.
    It is unfortunate we are going to have to grapple with this 
and I think the best way to do it is what we are doing here 
today, is to let us have an honest discussion and let us talk 
about what the intended and unintended consequences of that 
action would be.
    It is the tradition of this Committee to swear in 
witnesses, so if you could all rise. Raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Goss. I do.
    Ms. O'Connor. I do.
    Mr. Bellocchi. I do.
    Mr. Moran. I do.
    Mr. Cooper. I do.
    Chairman Johnson. Thank you. The witnesses are sworn in.
    We will begin testimony with Mr. Stephen Goss. He has been 
the Chief Actuary for the Social Security Administration (SSA) 
since 2001 and has worked in the Office of the Chief Actuary 
for over 40 years. Mr. Goss.

  TESTIMONY OF STEPHEN C. GOSS,\1\ CHIEF ACTUARY, U.S. SOCIAL 
                    SECURITY ADMINISTRATION

    Mr. Goss. Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you very much for the 
opportunity to come and talk to you today. Immigration, as both 
Chairman Johnson and Senator Carper have mentioned, is an 
incredibly important part of the evolution of the population of 
the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Goss appears in the Appendix on 
page 47.
---------------------------------------------------------------------------
    We are here to talk today and for me to share with you some 
estimates that we have developed in my office about the 
implications of the recent executive actions put forth by the 
President on November 20 of last year. It includes, if I may 
give the short form, the Deferred Action for Childhood Arrivals 
(DACA) extension and the Deferred Action for Parents of 
Americans (DAPA) program, along with several other provisions. 
It is not just those two that are included in these executive 
actions.
    These proposals, these actions that have been put forth, 
will have significant implications for the population, the 
economy, and also Social Security finances. They will also have 
significant implications beyond even just Social Security and 
Medicare.
    Let me just share with you that net immigration into the 
United States adds about one million extra people into our 
population every year. Now, compare that with four million 
births that we have in our shores every year. That is a 
substantial component of the growth of our population that not 
only causes our population to grow faster than it would 
otherwise, but it also changes the age distribution, which is a 
long topic, but it is incredibly critical to the financing of 
Social Security, Medicare, and all retirement plans in this 
country. With the drop in birth rates that we had back in 1965, 
if we did not have the kind of net immigration that we have now 
with young people coming in about a million every year, we 
would have much more severe challenges for Social Security, 
Medicare, and all of our retirement plans in the country.
    Now, let me just address a little bit the financial 
implications for the national economy of the executive actions 
as we have estimated them, and many assumptions need to be 
made, as you know. We have made those assumptions.
    We assume that individuals, first of all, who come to the 
United States without documentation or who have overstayed 
visas and are not currently legally documented status will be 
working in our economy at about the same rate as other people 
at the same age and sex. Per Senator Johnson's comments, people 
come here because it is a land of economic opportunity. That is 
why people come here, by and large, so we assume the rate of 
people being employed and working in the economy is about the 
same. Thus, extra employment from extra immigration by whatever 
means does generate extra gross domestic product (GDP), as 
noted from some other sources.
    By 2024, we estimate that as a result of these executive 
actions the increase in our overall population of the United 
States will be about 359,000 individuals, about 248,000 of 
which will be additional employed individuals in our economy, 
and this will cause the Gross Domestic Product in 2024 to be 
about 0.15 percent more than it would otherwise be. It is not a 
lot, but these are small actions relative, especially, to S. 
744 passed by the Senate just a year ago.
    By 2050, we project that the added population as it ages 
from especially the DAPA/DACA groups, will be about 922,000 
increase in the population about 408,000 of whom will be 
workers, and that will cause GDP at that time, in 2050, to be 
about 0.22 percent higher than it would otherwise be.
    Now, implications for Social Security, sort of our 
bailiwick. The net annual cash-flow, that is tax income coming 
into Social Security less the cost that we pay out from Social 
Security for all purposes, for the combined Social Security, 
Old-Age and Survivors Insurance (OASI), and Disability 
Insurance (DI) Trust Funds will be increased for 2015 through 
2045 when the individuals granted legal work status under these 
provisions will still be at younger working ages. However, for 
2046 through 2082, as these same groups will be aging, they 
will be moving from working ages into benefit ages, and 
assuming that they stay around with us, that they have worked, 
that they have gotten earnings credits and get benefits later, 
then we will have the reverse and the cash-flow for Social 
Security will go negative for that period of time.
    As it happens, for the estimates that we worked out for the 
totality of all the provisions in these executive actions, we 
have a small long-range positive, but it is very small. It is 
0.01 percent of payroll, and that is relative, by the way, to a 
2.88 percent of payroll shortfall for Social Security as a 
whole over the next 75 years. So, it is a small positive, not a 
big thing, but it is essentially neutral.
    Now, we project by 2024 that we will have 925 thousand 
additional workers paying taxes into the Social Security 
system. This increase comes from increases in workers in the 
national economy mentioned above, but in addition, it comes 
from people who are now in the informal economy, sometimes 
called the underground economy, who will be moved into the 
formal economy and will begin paying taxes, by our estimates. 
The added workers paying taxes is fairly stable, at about a 
million for years 2024 through 2050.
    Now, let me just address very briefly the totality of 
components of the executive actions, just to make sure that we 
have them all on the table. There are two components that 
principally address--well, they really address legal permanent 
residents. One is the entrepreneurs, about 10,000 per year 
additional entering the country. That will create a significant 
increase over time in our population of people who are legal 
permanent residents, working and contributing. Also, from all 
the provisions, the net effect we estimate will be an increase 
in the population at childbearing ages, and, therefore, there 
will be additional children born on our soil who, of course, 
will be natural born citizens. Those are the components that 
are on the legal permanent resident side.
    There are several components, that operate on the 
undocumented side, and I see we are getting really low on time 
here, so I will be very brief on this. Of course, the first 
thing that we point to is the increased border security, and 
the second item is emphasis on enforcement for people within 
our borders to go after people mainly who are security risks. 
We see those as having some offsetting effects. As for the 
exact magnitudes, we have made estimates. It is not clear, but 
we think that those will be probably largely offsetting.
    Of course, there is the expansion of the DACA and the 
introduction of the DAPA. We estimate that those will result in 
substantial numbers of people filing for and receiving 
authorization. But, the key point about those groups is that 
they are groups that are, particularly for the DACA, still 
generally very young. For the DAPAs, they are still sort of 
relatively low ages, so they are what we would refer to as a 
closed group of people. It is a temporary action. Those people 
would get work status. We assume they will be re-upped if they 
do not do bad things along the way, and that they will continue 
to work in our economy and eventually get the ability to get 
benefits.
    And, with that said, I guess I should conclude and just 
say, again, thank you very much for the opportunity and I look 
forward to hearing all the other testimonies and any questions 
you might have. Thank you.
    Chairman Johnson. Thank you, Mr. Goss.
    Our next witness is Eileen O'Connor. She is a partner at 
Pillsbury Winthrop Shaw Pittman LLP, where she practices tax 
law. Ms. O'Connor has served as Assistant Attorney General of 
the Tax Division at the Department of Justice (DOJ), on the 
President's Corporate Tax Fraud Force, and previously worked at 
the Internal Revenue Service (IRS). Ms. O'Connor.

  TESTIMONY OF THE HONORABLE EILEEN J. O'CONNOR,\1\ PARTNER, 
              PILLSBURY WINTHROP SHAW PITTMAN LLP

    Ms. O'Connor. Thank you, Chairman, Ranking Member, Members 
of the Committee. Thank you for inviting me to speak with you 
today, and for those of you who are new to the Senate and 
Washington, welcome. Glad to have you here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. O'Connor appears in the Appendix 
on page 61.
---------------------------------------------------------------------------
    I am speaking today on my own behalf, not on behalf of my 
partners, my firm, or my firm's clients. I am speaking to you 
on the basis of my experience with tax enforcement.
    There are a couple of concepts that we need to keep in mind 
when we are talking about the effects of the deferred actions. 
One is the Individual Tax Identification Number (ITIN). My 
colleague to the right just mentioned that some people who were 
subject to the deferred action might be moving from the 
informal to the formal economy and, therefore, start paying 
taxes. A great number of people who are in the country 
illegally are already paying taxes, so I think that when we 
look at the numbers that were offered for that movement, we 
need to keep that in mind.
    The Individual Tax Identification Number, was developed 
because the Internal Revenue Code applies to all U.S.-source 
income and all U.S. persons. Not everyone who has U.S.-source 
income is a U.S. person and, therefore, qualified for a Social 
Security number (SSN). So, Individual Tax Identification 
Numbers were established to permit the Internal Revenue Service 
to track the returns and the tax payments of people who are not 
U.S. persons but have U.S. tax liabilities.
    In 1996, the Internal Revenue Service started issuing ITINs 
to illegal aliens. In 1999, the Treasury Inspector General for 
Tax Administration reported to Congress and to the Internal 
Revenue Service that this created a direct contradiction with 
the obligation of the government to enforce the immigration 
laws and asked Congress or the IRS to do something about that. 
That has yet to happen.
    The Treasury Inspector General also reported to Senator 
Roth that illegal aliens were being given the Earned Income Tax 
Credit (EITC). Senator Roth then saw to it that legislation was 
enacted making it clear that in order to receive the Earned 
Income Tax Credit, you have to have a Social Security number, 
meaning you are a U.S. person authorized to work in the United 
States.
    I need to talk just a second about the Earned Income Tax 
Credit. It is a refundable credit. There is more than one 
refundable credit. There is the Earned Income Tax Credit and 
the Additional Child Tax Credit. A refundable credit is not a 
refund and not really a credit. It is a credit that exceeds the 
amount of tax somebody has paid in. My colleague to the right 
has mentioned the increase in Social Security taxes that will 
be collected. Social Security taxes are collected from people 
who are earning wages, but then they are given back in the form 
of the Earned Income Tax Credit. So, a refundable tax credit 
will reduce tax liability below zero and result in checks being 
paid to the person who claims the credit.
    The Earned Income Tax Credit is not available for people 
who do not have Social Security numbers, but the law on the 
Additional Child Tax Credit, also a refundable credit, is not 
that clear. Some people think it is clear, and unless you have 
a Social Security number, you are not eligible for the credit. 
Other people--most importantly the Internal Revenue Service--
believe that it is very clear that a Social Security number is 
not required. So, the Internal Revenue Service makes no effort 
to determine the alien or legal status of people who are 
claiming the Additional Child Tax Credit.
    The Treasury Inspector General for Tax Administration 
(TIGTA) issues report after report, year after year, about the 
Internal Revenue Service's handling of ITIN-filed returns and 
refundable credits, and reports such horrifying statistics as, 
in one year, the Internal Revenue Service sent 24,000 checks to 
a single address ``refunding'' tens of millions of dollars in 
tax that probably had not been paid to begin with, and this is 
where some of my experience at the Justice Department comes in.
    There are many tax scams. These refundable credits and 
ITINs create an attractive nuisance. Just like securities 
criminals have pump-and-dump schemes, there are ITIN refund 
mills, and the Treasury Inspector General for Tax 
Administration estimates that over a 10-year period, $122 
billion in taxpayer dollars was sent to said criminals.
    Now, this is not to say that everyone who files an ITIN 
return is a criminal, but it is a fact that we have refundable 
credits in the Internal Revenue Code that are paid to anybody 
who asks for them--and ITINs are available very easily. The 
Government Accountability Office (GAO) reported to the Internal 
Revenue Service years ago that ITINs were easily obtained on 
bogus documents, and once obtained, they were also used for 
other purposes.
    Many States permit the use of an ITIN, although it requires 
no proof of identity--permit the use of an ITIN as 
documentation supporting a driver's license or property 
ownership or other things, purposes for which the ITIN was 
never intended. It was intended only to permit the Internal 
Revenue Service to track payments and to track returns.
    So, my time is running out, but I have many more horrifying 
statistics in my written testimony. I hope that you will refer 
to it. It includes largely summaries of many of the Treasury 
Inspector General for Tax Administration's reports over the 
years, which, in turn, contain many more statistics. I have 
just summarized them ever so briefly in my testimony.
    We know from experience that the actions upon which the 
Administration has embarked are guaranteed to inflict 
substantial damage on tax administration and enforcement and to 
drain even more billions of dollars from the Treasury, even 
more than the past follies are already costing and continue to 
cost us.
    I look forward to answering your questions. Thank you very 
much.
    Chairman Johnson. Thank you, Ms. O'Connor.
    Our next witness is Luke Bellocchi. He is of Counsel at 
Wasserman, Mancini and Chang, and former Deputy Ombudsman for 
U.S. Citizenship and Immigration Services at the Department of 
Homeland Security and Assistant Commissioner of the Customs and 
Border Protection (CBP). Mr. Bellocchi.

   TESTIMONY OF LUKE P. BELLOCCHI,\1\ OF COUNSEL, WASSERMAN, 
MANCINI AND CHANG, AND FORMER DEPUTY OMBUDSMAN FOR CITIZENSHIP 
  AND IMMIGRATION SERVICES AT THE U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Bellocchi. Mr. Chairman, Ranking Member, Members of the 
Committee, thank you for the honor of allowing me to testify 
today before this Committee, for which I was once a staff 
member.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bellocchi appears in the Appendix 
on page 68.
---------------------------------------------------------------------------
    The President's new initiative to stay deportation for an 
estimated 4 to 5 million undocumented immigrants will create 
incredible pressure on U.S. Citizenship and Immigration 
Services to handle millions of new applications. This will be 
the largest wave of applications USCIS has ever seen.
    USCIS is still primarily a paper-based, mail-based 
application adjudicatory body. USCIS has 13,000 employees, or 
13,000 officers, and 5,000 contractors to handle about six 
million applications per year. USCIS plans to hire about a 
thousand new employees to handle DAPA. It is hard to imagine 
how they are going to be able to get those 1,000 people on-
board, go through security clearance, and be trained to handle 
that many applications.
    More likely, USCIS will divert resources from processing 
other applications to handle DAPA applications. This is, in 
fact, what they did with DACA applications, and that has 
created some backlogs in other types of applications; for 
example, I-130 family Green Card applications, and Employment 
Authorization Document Cards (EADs). An EAD is very important 
to an immigrant who is working. If the EAD expires, usually in 
1 or 2 years, they cannot continue to work, and this puts their 
employer and employees in a lurch.
    But, in fact, that is what is happening in good numbers. In 
fact, it is happening to DACA applicants who applied 1 or 2 
years ago and their EADs are expiring now. By one estimate, 25 
percent of EADs for DACA applicants are not being renewed in 
time for them to continue work. This is the problem with trying 
to push through so many applications all at once without having 
the proper resources.
    This reminds me of a program that was handled by INS in the 
mid-1990s called Citizenship USA, in which one million people 
were naturalized. The INS hired a lot of people very quickly, 
in some cases only gave them about 40 hours of training, and of 
course, mistakes were made. In fact, in that case, more than 
60,000 people were naturalized without any kind of background 
check and over 10,000 felons were actually naturalized. The 
Department of Justice had to go back and denaturalize a lot of 
them.
    You would think USCIS would try and avoid this problem 
again, but we are seeing evidence from e-mails that have been 
released by management that managers are telling their front-
line people to use streamlined, light background checks, 
abbreviated Treasury Enforcement Communications System (TECS) 
checks, and to accept pretty much any kind of documentation of 
their identity when they go for biometric checks. This is a 
population that we have to be very careful about. Unlike visa 
applicants who came through the border and were checked at one 
time, if they entered without inspection at all, crossed the 
border at some point, they may have never gone through any kind 
of check.
    Now, the fingerprint checks are going to be run through the 
Federal Bureau of Investigations (FBI), and, of course, if they 
were ever arrested or convicted in this country, they are going 
to show up with that identity. But, if they ever committed a 
crime in a foreign country, we are not sure that they would be 
flagged.
    Further, there is some evidence that the background checks 
are not being checked against the entire counterterrorism 
database, as evidenced by the Boston Marathon bomber who was 
naturalized 7 months before he perpetrated his crime. He was 
on, actually, the expanded Counterterrorism Watch List, as 
well.
    As far as anti-fraud goes, the Fraud Detection and National 
Security Directorate (FDNS), which is the USCIS anti-fraud 
office, I have been told, has been taken out of document review 
for DACA cases. And, the evidentiary standard for getting 
through DACA is actually quite low, as I alluded to earlier, in 
terms of identity and so forth.
    With DAPA applicants, they will be dealing with family 
relationships. I understand that mostly assertions and 
documents will be used to confirm family relationships and 
Deoxyribonucleic acid (DNA) testing will not be used.
    In summary, I will just say that USCIS officers are very 
hard working, patriotic people, but they are a service oriented 
agency and they will try and get through all these applications 
in the time frame given to them. But, in doing so, if they are 
not realistic and honest about the resources they will need and 
the time it will take to process these applications properly, 
they are going to run into problems and I urge them to take 
that into consideration. Thank you.
    Chairman Johnson. Thank you, Mr. Bellocchi.
    Our next witness is Shawn Moran. He is Vice President of 
the National Border Patrol Council and has over 17 years of 
experience as a Border Patrol Agent. Mr. Moran.

 TESTIMONY OF SHAWN MORAN,\1\ VICE PRESIDENT, NATIONAL BORDER 
                         PATROL COUNCIL

    Mr. Moran. Chairman Johnson, Ranking Member Carper, Members 
of the Committee, on behalf of the 16,500 Border Patrol Agents 
who I represent, I want to thank you for having this hearing 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Moran appears in the Appendix on 
page 80.
---------------------------------------------------------------------------
    My name is Shawn Moran. I am the Vice President and 
National Spokesperson of the National Border Patrol Council. I 
am a 17-year veteran of the U.S. Border Patrol and have spent 
the majority of my career in the Imperial Beach and El Cajon 
Border Patrol Stations in California. I have also been 
temporarily assigned to several sectors and stations along the 
Southwest Border during that time.
    Before I discuss how I believe the President's decision 
will impact border security, I want to be clear that I am not a 
lawyer and I am not here to comment on the legality of the 
President's actions. I am here as a Federal law enforcement 
agent to discuss how the amnesty provided in November will 
impact border security. Unfortunately, I do not believe that 
border security implications were fully considered prior to the 
issuance of the Executive Order (EO) and that concrete actions 
need to be taken by Congress and the Administration this year 
to bolster border security.
    Albert Einstein's definition of insanity is doing the same 
thing over and over again, expecting a different result. If you 
look at the history of our response to illegal immigration, we 
certainly meet that definition.
    In 1986, Congress passed and President Reagan signed the 
Immigration Reform and Control Act (IRCA). The legislation was 
supposed to solve the illegal immigration problem in this 
country and in the process legalized illegal aliens who had 
been in the country prior to 1982. What was the result? Illegal 
immigration exploded in this country. The Pew Research Center 
estimates that the population of illegal aliens in this country 
in 1990 immediately following the passage of IRCA was 3.5 
million. By 2007, that population had swelled to 12.2 million. 
Cities like San Diego, where I live, and El Paso were nearly 
overrun.
    In my career, I have arrested and interviewed thousands of 
illegal aliens. In deciding whether or not to attempt to enter 
this country illegally, these individuals weigh the risks and 
potential rewards. These individuals are risking not only a 
lifetime of savings to pay the smugglers, but literally their 
own lives in the process. They know the border is a dangerous 
place. They know that they are opening themselves up to 
predation from smugglers in addition to the physical hazards of 
crossing the Rio Grande River, the Arizona desert, or even the 
wilderness of Montana.
    Unfortunately, since the passage of IRCA, there is a 
perception among illegal aliens that if you can get over the 
border and can hide in the shadows long enough, eventually, 
there will be a pathway to legal status. This pathway may be by 
virtue of the duration you have been in this country or through 
your children. We need to only look to the debacle last summer 
with unaccompanied minors to see how prevalent this perception 
is among potential illegal aliens.
    Last year, the Administration took great pains to point out 
that their most recent expansion of deferred action for 
childhood arrivals, was a continuation of deferred actions that 
had been taken by previous Administrations. We were all told 
that there was precedent for their actions, and the 
Administration was completely correct. There were ample amounts 
of precedent, and therein lies the problem. We will never be 
able to stop illegal immigration until potential illegal aliens 
believe that it is a losing proposition. They need to know that 
they will be found and that hiding in the shadows will do them 
no good. Employers need to know that if they hire illegal 
aliens, there will be credible sanctions.
    The question then becomes what steps this Committee, within 
your jurisdiction, can take to strengthen border security 
before the next wave of illegal immigration occurs. Several 
suggestions that I have include increased manpower. Currently, 
there are 21,370 Border Patrol Agents in this country. Under 
sequestration, we effectively lost 1,500 full-time equivalents 
that have, thankfully, been restored under the Border Patrol 
Pay Reform Act introduced by Senators Tester and McCain.
    We do not have to double the size of the Border Patrol to 
gain operational control of the border, but we are, in my 
opinion, approximately 5,000 agents short of where we should 
be. The National Border Patrol Council would advocate that of 
this number, 1,500 be sent to the Northern Border, which is 
woefully understaffed, and the remaining 3,500 positions be 
allocated to interior enforcement, which is virtually 
nonexistent.
    Supervising staffing levels--the Border Patrol is an 
extremely top-heavy organization with far too many layers of 
management and a convoluted chain of command. Although Congress 
has provided the funding to double the size of the Border 
Patrol, we have not doubled the number of agents at the border. 
Let me explain that.
    The average large police department has one supervisor for 
every 10 officers. The Border Patrol has one supervisor for 
every four agents. The Committee should mandate a 10-to-1 ratio 
and achieve it through attrition in the supervisory ranks. The 
second problem is that we have agents doing duties like 
processing and transportation that could be handled more cost 
effectively by non-law enforcement personnel.
    Every night, we effectively play goal line defense because 
all of our resources and assets are concentrated right at the 
border instead of having a defense in depth. Let me give you an 
example. In Arizona, we have 7,000 agents, and of all those 
agents, we have--I am sorry. Do you know how many agents we 
have assigned to Phoenix, which is an important transit point 
for traffickers? The answer is zero. The Border Patrol's 
northernmost station in Arizona is Casa Grande, which is 50 
miles south of Phoenix.
    We also advocate for better training. During the buildup of 
the Border Patrol during the Bush Administration, the Border 
Patrol Academy's duration was reduced from approximately 20 
weeks to as little as 54 days if you spoke Spanish. This is 
simply not enough time to properly train an agent and weed out 
those who are not up to the challenge. The Committee should 
require that the Academy revert back to 20 weeks.
    Again, I want to thank the Committee for the opportunity to 
testify today, and if you have any questions, I would be happy 
to answer them to the best of my ability. Thank you.
    Chairman Johnson. Thank you, Mr. Moran.
    Our next witness is Bo Cooper. He is a partner at Fragomen, 
Del Rey, Bernsen and Loewy LLP and former General Counsel at 
the Immigration and Naturalization Service from 1999 to 2003. 
Mr. Cooper.

TESTIMONY OF BO COOPER,\1\ PARTNER, FRAGOMEN, DEL REY, BERNSEN 
 AND LOEWY LLP, AND FORMER GENERAL COUNSEL AT THE IMMIGRATION 
                   AND NATURALIZATION SERVICE

    Mr. Cooper. Chairman Johnson, Ranking Member Carper, and 
distinguished Members of the Committee, I appreciate very much 
the opportunity to join you today for this important 
discussion.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cooper appears in the Appendix on 
page 91.
---------------------------------------------------------------------------
    The perspectives I will offer are based on decades of 
involvement with the U.S. immigration system, about half in the 
government and about half in private practice and teaching. 
When I was General Counsel of the INS, I served Administrations 
of both parties and was a career public servant.
    Every new government initiative, especially one of this 
scale, needs to be examined for cost, achievability, risk, and 
benefits, and the Committee is right to be doing so here, and I 
acknowledge and respect the view you expressed, Chairman 
Johnson, that you disfavor the decision of the President to 
initiate these programs. But, I also appreciate very much the 
spirit of open discussion that you have established and I would 
like to try to offer some suggestions for why I believe that 
DAPA and DACA are sensible policy initiatives that can be 
carried out effectively by DHS and that deserve the support of 
the Congress and the American public.
    First, DACA and DAPA will help the U.S. economy. As you 
noted, Ranking Member Carper, the Council of Economic Advisors 
has concluded that DACA and DAPA will increase Gross Domestic 
Product by $90 billion over the next decade. They also estimate 
that the programs will help and not harm American workers by 
growing wage levels overall, modestly, but growing. At the same 
time, we have heard from Mr. Goss that the addition of new 
taxpayers should positively affect the Social Security safety 
net.
    In addition, the programs are designed not to cost the 
taxpayer anything in implementation because they will be funded 
by the user fees that support U.S. Citizenship and Immigration 
Services. And, then, just last week, CBO concluded that if DACA 
and DAPA are eliminated by legislation, that decision would 
increase the Federal deficit by $7.5 billion over the next 
decade. DACA and DAPA are smart economically.
    Second, DACA and DAPA are smart public safety policy. Law 
enforcement currently has too little idea who the undocumented 
immigrants in our country are, where they work, and where they 
live. DACA and DAPA will help to change this, not completely, 
but they will significantly help to change this. Millions of 
people who are now in the shadows will come forward and provide 
biographical information, including biometrics, to the Federal 
Government.
    On this point, we can take it from the public safety 
experts. In the lawsuit that has been filed and heard in 
Brownsville, Texas, in the District Court to challenge DACA and 
DAPA, a brief was filed by the Major City Chiefs Association. 
This organization represents chiefs and sheriffs that serve 
nearly 70 million people in this country. In that brief, those 
law enforcement officials explained the significant advantages 
that DACA and DAPA will bring to them and their work.
    First of all, the programs will firmly establish identity 
for a far greater number of people. Better identification means 
better coordination of law enforcement data, including prior 
crimes and arrests. Also, when police officers encounter people 
who lack identification, typically, they have to then arrest 
the person and bring them in for further processing. Where that 
person has proper identification, that issue comes off the 
table and the officers then can make better decisions about how 
to prioritize their resources and where to focus.
    In addition, DACA and DAPA will make undocumented victims 
and witnesses more likely to come forward to speak to police 
trying to prevent and investigate crimes, and more information 
means better law enforcement.
    Third, DAPA and DACA are smart immigration policy. With 
resources to remove only about 400,000 people each year out of 
the estimated 11 million people who are subject to removal, DHS 
necessarily must exercise prosecutorial discretion and 
establish enforcement priorities. They have made the decision 
to place maximum focus on those who present security threats, 
on criminals, and those with the most recent border violations 
and removal orders. It is equally sensible to formally identify 
those people who are not enforcement priorities and to provide 
them with temporary authorization to be present and to work.
    With DAPA, that decision is being made with respect to 
people who have lived in this country for at least a half a 
decade, who do not pose criminal and security threats, and who 
have children who are U.S. citizens or lawful permanent 
residents. That is a strong set of ties. It strikes me as sound 
immigration enforcement policy for DHS to conclude that with 11 
million people to choose from as enforcement targets and the 
resources to remove about 400,000 of those people per year, 
this is a group whose presence we can reasonably allow.
    Fourth, I believe DHS can carry this out. There is no doubt 
that these programs are going to pose an operational challenge, 
but DHS is working from a position of several advantages.
    First, they have a model in the DACA program. They put it 
in place pretty quickly, pretty efficiently, and they have been 
through the caseload in an efficient way. There is no question 
that this is a larger program and, therefore, will have much 
larger challenges, but that is the beauty of a fee-funded 
agency. With more applications come more resources to deal with 
those applications.
    Third, there is every reason, I believe, that DHS has the 
technological and other capacity to manage carefully the very 
important anti-fraud and security concerns that are going to 
come with a program like this. Since September 11, 2001, there 
has been an explosion in the contents and the interoperability 
of Federal, State, and even international law enforcement 
databases and in the sophistication of the agency and its 
ability to deal with those.
    I understand that DHS plans to run DAPA applicants very 
thoroughly through their fingerprinting and background checks 
across several Federal databases and will be able to use this 
information to more effectively identify and track the people 
in this country. I think that will make this country safer in 
the long run.
    I would be very happy to address any questions that the 
Committee has and I appreciate again the opportunity to join 
you today.
    Chairman Johnson. Thank you, Mr. Cooper.
    I will start off the round of 7 minutes of questioning.
    Mr. Goss, I just want to make sure I understand the 
assumptions that you certainly made in your actuarial 
assessments here. You do assume that we have the border secure 
and that there is interior enforcement as we would have 
achieved under the Senate comprehensive immigration bill, 
correct?
    Mr. Goss. Well, to a degree. We have assumed, actually, 
about half as much effectiveness on the border security as we 
were for S. 744, only half. There are certain features that 
were built into S. 744 that we are not aware would be part of 
what is going on.
    Chairman Johnson. But, you assumed greater border security 
than we have right now?
    Mr. Goss. Absolutely. Yes.
    Chairman Johnson. OK. So, that is not the case, because we 
have not passed a border security bill, which, by the way, that 
is a top priority of this Committee, give the American people 
what they have been demanding, a border security and 
immigration enforcement bill. That would be handy.
    Ms. O'Connor, another assumption--I want both of you to 
speak to this, supposedly, all these people that are currently 
here and living in the shadows are all in the underground 
economy, all of a sudden, they come into the formal economy and 
now they start paying taxes. I mean, is it not really the case 
that, and I do not know where we get the number on this, but 
how many do you think, what percentage actually are either 
paying taxes through ITINs or actually with false Social 
Security numbers?
    Ms. O'Connor. I do not know the numbers and I do not know 
whether the IRS actually has the numbers, either, because it 
tells the Treasury Inspector General for Tax Administration 
that it does not identify the legal status of people who file 
returns using ITINs. There are a large number, however, of 
returns that are filed using false Social Security numbers. 
Sometimes those are used as a vehicle for theft from the 
Treasury generally. Sometimes they are used just because the 
person wants to get a job and use a Social Security number for 
that and files a return using it and it ends up not matching 
the Social Security Administration's records.
    Chairman Johnson. I mean, do you think they are kind of 
over-estimating the number of people that really are in this 
underground economy that are all of a sudden going to start 
paying taxes, that they probably already are paying taxes?
    Ms. O'Connor. I am not an economist, so I do not have the 
ability to analyze that data, but that is certainly my 
impression. I am a big consumer of economic reports and that is 
certainly my impression. Millions of tax returns are filed 
every year using ITINs.
    Chairman Johnson. OK. Thank you.
    Mr. Bellocchi, I want to talk a little bit about potential 
document fraud. How prevalent is it? How easy is it? What kind 
of shortcuts are you concerned might be made because of this 
onslaught or this surge of applications that are going to have 
to be handled by USCIS?
    Mr. Bellocchi. Well, it is going to be hard to tell how 
much fraud there is in DACA since I mentioned that, as I 
understand it, FDNS, USCIS, Anti-Fraud Office is not involved 
in document review for those cases at all. However, even if 
they were, the evidentiary standard for meeting DACA 
requirements is quite low, and I alluded to one--even the 
formal instructions on the application say, well, we need some 
proof of identity. You have a passport? Well, if you do not 
have a passport, how about a driver's license? If you do not 
have that, well, we will just take anything with a photo on it. 
And, as I alluded to before, there are e-mails from my 
management that say, do not turn anyone away from biometric 
checks because you do not have their identity, so----
    Chairman Johnson. Do you believe that legal immigrants that 
are looking to apply for different benefits through USCIS, that 
their applications will be put to the back burner, that some of 
those folks will be harmed as USCIS redeploys assets trying to 
take care of the surge?
    Mr. Bellocchi. Yes, indeed. In fact, I think they already 
have. As I mentioned, EADs are not being produced fast enough, 
before people's Employment Authorization expires, and that is 
just with DACA, which had about 700,000 applications over 2 
years. DAPA applications start coming in--or, expanded DAPA 
will start coming in later this month, and by May, there may be 
millions of applications for DAPA, which will probably knock 
out a lot of the other kinds of immigration applications.
    Chairman Johnson. And again, in your testimony, you said 
there are about 18,000 total employees now at USCIS handling 
about six million applications a year?
    Mr. Bellocchi. That is correct.
    Chairman Johnson. Now, we are going to add a thousand to 
process, nobody really knows, but probably millions, correct?
    Mr. Bellocchi. Correct.
    Chairman Johnson. Real quick, Mr. Goss, why would the 
administration be issuing permanent Social Security cards for a 
temporary deferred action program, and what are the 
implications of those permanent Social Security cards?
    Mr. Goss. I really could not speak to the motivation of the 
Administration on that, but our assumptions are that once 
people are granted this authority, as long as they are re-upped 
every 3 years and the executive actions stay in force, that 
they will be able to maintain the status, and with the SSNs 
that they have been provided, much as the SSNs provided to 
people who have temporary visas for work or education and get 
those re-upped or even overstay those visas, those SSNs stay 
with them.
    Chairman Johnson. Ms. O'Connor, do you have an opinion on 
that in terms of why they would do that and what implication 
that might carry?
    Ms. O'Connor. I find it completely perplexing. I have no 
explanation.
    Chairman Johnson. OK. Mr. Moran, can you describe to me the 
base burden of proof Customs and Border Protection Agents have 
when they encounter an illegal immigrant--are there magic words 
that immigrants are basically trained to say to get a certain 
adjudication?
    Mr. Moran. I think illegal aliens that we encounter know 
our authority. They know the loopholes that they can exploit. 
And, just recently, the surge we saw in South Texas, we had 
people that we had apprehended that had scripts on them where 
they would recite it and say that they claimed credible fear--
--
    Chairman Johnson. So, that is the magic word currently. You 
claim credible fear, and then what happens?
    Mr. Moran. Eventually, they will most likely be released. 
As your chart showed, we are removing approximately 2.5 percent 
of them. So, their end goal of what they wanted, which was to 
come to America, is now fulfilled at taxpayer expense.
    Chairman Johnson. Have you been given training in terms of 
how you are going to handle illegal immigrants now with the 
DAPA?
    Mr. Moran. Yes, sir, we have. There is going to be an 
additional layer of checks. There is a checklist and we will 
now be screening people to see if they qualify for DACA or 
DAPA.
    Chairman Johnson. Will the magic words now be, ``I have 
been a permanent resident for more than 5 years,'' and then 
will that imply lack of action?
    Mr. Moran. I believe it will be----
    Chairman Johnson. Will that tie your hands?
    Mr. Moran. I think the claims will be made. I do not know 
if Border Patrol Agents or CBP Officers will be the ones that 
are then adjudicating whether or not a document is authentic 
and whether they qualify under this program. That is a concern 
we have.
    Chairman Johnson. What will you do as a Border Patrol Agent 
when an illegal immigrant says, ``No, I have been here 6 or 7 
years''? How will that affect your actions?
    Mr. Moran. Well, Senator, we have a checklist and it is 
pretty simple and it is a yes or no checklist. I am sorry. I 
have to find here--it says, has he or she resided continuously 
in the United States since January 1, 2010? If we check 
``yes,'' I do not know if that means they qualify. Personally, 
I do not feel it is my decision to make. I think somebody above 
my pay grade needs to make that decision.
    Chairman Johnson. Will you just let them go?
    Mr. Moran. Personally, I would not. I would put that 
decision on one of my supervisors.
    Chairman Johnson. OK. Thank you very much. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Again, our thanks to all of you for your willingness to 
stick around to answer our questions.
    A long time ago, I was a Naval Flight Officer (NFO) and I 
served in the Navy for about 23 years, all in, and I remember 
being in Southeast Asia on one of our tours and to the office 
of my Commanding Officer and he had on the wall a cartoon that 
he had enlarged. It was a cartoon, and you may have seen this 
in your own lives, where a guy is on a desert island, or what 
looks like to be a desert island, by himself. There is one tree 
on the island. He is surrounded by alligators trying to get him 
and he is trying to climb up the tree to get away. And, the 
caption under the cartoon was, ``It is hard to remember that 
our job was to drain the swamp when we are up to our eyeballs 
in alligators.'' Think about that.
    I have had the privilege as Chairman of this Committee the 
last couple years to go down, not just to the border of 
Mexico--the Chairman and I, and I think Senator Sasse, are 
going to go down there very soon again--but, I have also had a 
chance to go to Mexico, to Guatemala, El Salvador, Honduras, to 
Colombia to try to understand why people would literally risk 
life and limb to try to travel 1,500 miles through Mexico for 
an uncertain future here. Why would people do that? And the 
reason why is because they are living in hell holes in many 
cases in Honduras, Guatemala, and El Salvador.
    Let me just tell you one quick story. We have a number of 
Guatemalans who have come to the Delmarva Peninsula over the 
years to be part of the poultry industry, and when we had an 
influx of new young people into our country a year or so ago, a 
few more came into Southern Delaware from Guatemala and they 
were helped, in part, by Catholic Charities and by an outfit 
called La Esperanza, which means ``hope.'' Among the young 
people I talked to, I talked to a guy who is 15 years old from 
Guatemala and his 13-year-old sister, and he ended up here, and 
here is how he ended up here.
    He was asked by a gang in Guatemala in his community to 
join the gang and he said, ``No, I am not interested.'' They 
asked him again a little while later and he said, ``I am not 
interested.'' They asked him again and he said, ``I am not 
interested.'' They said, ``If you do not join, we are going to 
kill somebody in your family.'' He joined the gang. Part of his 
initiation requirement was to rape his 13-year-old sister. He 
told his parents. The two of them a week later were with a 
coyote on their way to our country.
    Most of the people coming into the border these days are 
not coming from Mexico. There are as many people, almost, last 
year going from the United States into Mexico as coming from 
Mexico into the United States. The reason why so many people 
are coming from Guatemala, Honduras, and El Salvador to this 
country is because they lack hope, they lack opportunity, their 
businesses are shut down by extortion, gangs, and a lot of the 
crime that we inspire by virtue of our dependence on drugs. We 
are a big part of the cause of that. And, most of the people 
that are coming from those three countries who are coming to 
our border, they are not slipping through. They are basically 
turning themselves in and saying, ``I want to have a safe place 
to live and to work.''
    We spent a quarter-of-a-trillion dollars in the last 10 
years beefing up our border security. Is it more secure? You 
bet, it is. Is it perfect? No, it is not. Rather than continue 
to spend another quarter-of-a-trillion dollars over the next 10 
years, we have only spent 1 percent, not even 1 percent of that 
to try to say, how do we help make the lives of the people in 
Guatemala, El Salvador, or Honduras durable, something that 
they can endure so they have some hope, rather than just feel 
they have to go to someplace else. Why can they not be 
comfortable and say, ``I want to live here.'' ``I want to raise 
my family here.''
    Fortunately, the presidents of those three countries have 
put together, something like Plan Colombia, and it is a good 
blueprint and it calls for addressing the root causes: lack of 
rule of law, the cost of energy, workforce, any number of 
things where they need to do a better job. And it is like in 
Home Depot. What do they say in Home Depot, ``You can do it, we 
can help.'' Well, they can do it, but we need to help--not just 
us, Mexico, Colombia, Inter-American Development Banks, all 
kinds of people, nonprofits. We can all help.
    And, if we spend the next 10 years saying, yes, well, you 
have to strengthen the borders more, we have to do more to 
strengthen the borders, and we do not address the underlying 
and root causes, we have wasted a lot of money and we will end 
up, as one of you said, I think, Shawn, I think it was maybe 
you who quoted Albert Einstein, keep doing the same thing over 
and over again and expect the same result. Well, that applies 
to this, as well. So, I would ask that we keep that in mind.
    The other thing I want to do, in terms of a question, we 
talked about the economic impacts of the deportation programs, 
GDP growth, that sort of thing, the reductions in the cost of 
spending. I want to ask a couple of questions, one for you, Mr. 
Goss, and then maybe one for Mr. Cooper.
    But, I think in your testimony, Mr. Goss, your testimony 
addresses some of these economic effects we mentioned earlier. 
You calculate that the program will boost GDP by, I think you 
said, $43 billion for 2024 and more after that. What is driving 
that growth, please?
    Mr. Goss. Well, driving the growth in the Gross Domestic 
Product itself--and, an important distinction here. As the 
numbers are developed for estimated Gross Domestic Product by 
the Bureau of Economic Analysis of the Department of Commerce, 
GDP is not dependent on people working in the above-ground 
economy. People who are undocumented and people who are working 
in the underground economy, whether they are documented or not, 
also contribute toward the estimated GDP.
    So, we do estimate that the Gross Domestic Product as 
affected by our population as a whole, and as I mentioned, 
people even who are undocumented, we assume that they will, at 
any given age and sex, be as likely to be working and 
contributing toward the Gross Domestic Product. Our estimates 
of the implications of these executive actions as a whole would 
be that it will grow our population of working age to a greater 
extent, and there are especially some features here which we do 
not focus on that much, like the entrepreneurs that are 
expected to be about 10,000 per year additional coming in, 
which would significantly contribute toward the extra workforce 
and the extra people that are working and contributing toward 
our GDP.
    Senator Carper. Let me ask a follow-up to it. You studied 
the financial impacts on the Social Security system 
specifically. I think you told us you concluded that the 
deferred deportation programs would have a modest, but a net 
positive impact on the system. Just explain to us, why is that 
so?
    Mr. Goss. Well, the reason for it is because the large 
majority of the people who would be additionally coming in and 
being covered under Social Security would actually be newly 
paying taxes. We estimate that of the people who would be 
paying into the Social Security system in addition, that only 
about 15 percent initially of those who would be newly covered 
workers under these deferred actions and the other features 
would be people who were going to what we call our suspense 
file, that is people who had, in effect, maybe made up a nine-
digit number and were paying taxes in already, that about 85 
percent initially would be people who were working in the 
underground economy or would be new people coming to the 
country like the entrepreneurs and would be paying additional 
taxes.
    By the time we get up to 2050, we estimate that the 
implications will be at more like 10 percent of the additional 
workers will be people who would be from where they would 
already have been paying taxes through some other means.
    So, the bottom line is that the additional people coming at 
relatively young ages will, for two to three decades, be paying 
taxes into the system. That will be to the plus. I think the 
CBO estimates indicated the same in their 10-year projections. 
Following that, of course, there is the other side. As this 
group ages, they will have then earned the right to get 
benefits and we will pay out benefits that translate to be a 
very close call, and essentially a wash with a very small 
positive. It is basically neutral over the 75-year projection 
horizon.
    Senator Carper. OK. Thank you so much. Thanks, Mr. 
Chairman.
    Chairman Johnson. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman, Ranking Member 
Carper, and I want to thank the witnesses today for sharing 
your perspectives and expertise.
    I believe that the deferred action programs that we are 
discussing today constitute an important step in trying to 
address our broken immigration system. It will give 
individuals, families, and employers greater certainty, ensure 
that more workers are paying taxes and paying into Medicare and 
Social Security, and allow individuals who contribute to our 
communities and our economy, in many cases, people who have 
been doing so for years, even decades, to come out of the 
shadows.
    But, make no mistake, these programs, in my opinion, are, 
at best, a short-term step because Congress must act. We must 
act on a comprehensive, permanent reform to our immigration 
laws, and we have talked already about the fact that the Senate 
passed such a measure during the last Congress. And, while it 
was not perfect by any means, I voted for it because it is 
critical to our Nation and our economy that we fix the broken 
system.
    It is because of that belief that I am frustrated by my 
colleagues who have chosen to play politics as we consider the 
Homeland Security Department's funding bill. It puts critical 
national security programs on the line in order to play out 
this attack on the President's actions on immigration. And, we 
are having this important hearing today in which we can learn 
more about making DACA and DAPA work best for our country and 
our economy while at the same time Republican leaders of this 
chamber are trying to undo these very programs on the Senate 
floor this week.
    This is a very important conversation about the economic 
benefits of making our immigration system work and I am glad we 
are having it, and I hope that all of my colleagues will listen 
closely so that we can get back to working together to advance 
real and lasting reform that our economy and our communities 
desperately need.
    I want to turn to the panel to help us further that 
discussion. I wanted to start with Mr. Cooper. In your 
testimony, you outline some of the estimates from the Council 
on Economic Advisors and the Congressional Budget Office on the 
fiscal impacts of these deferred action programs. We heard from 
Mr. Goss regarding the Social Security Administration's 
estimates on the impact on the Social Security Trust Fund. From 
your review of these and other assessments of the potential 
impact of these programs, have you found sources that indicate 
that they would have a negative impact on our economy?
    Mr. Cooper. There certainly are economists who take varying 
positions on immigration in general. The sources that I have 
seen indicate a positive result.
    Senator Baldwin. Did not the Congressional Budget Office 
actually conclude that eliminating these programs would be a 
fiscal negative?
    Mr. Cooper. Absolutely, a very large scale fiscal negative, 
to the tune of an increase in the Federal deficit by $7.5 
billion over the coming 10 years.
    Senator Baldwin. Mr. Cooper, you have seen the 
implementation of the original DACA program, which has been in 
place now for more than 2 years. The Department of Homeland 
Security has outlined the new resources and personnel that it 
will put in place to administer DACA and DAPA. I am wondering, 
in your opinion, do you believe that the Department of Homeland 
Security and the U.S. Citizenship and Immigration Services will 
be able to effectively administer these new programs?
    Mr. Cooper. I do believe that. The immigration agencies are 
built to have a capacity to scale, because immigration flows 
and immigration policies evolve, and so that is a dynamic that 
the agencies have had to contend with always. And, as I 
mentioned before, it is a dynamic that they are especially well 
equipped to contend with because they get more resources as 
more applications come in. Resources are statutorily required 
to match adjudications demands.
    In addition, there are technological sophistication and 
there are technological relationships, database, data sharing 
information, data sharing relationships with law enforcement 
elsewhere in the Federal Government and at the State level, it 
is far more sophisticated than it ever was. And, their anti-
fraud abilities are far more sophisticated than they have ever 
been. I understand that FDNS is very much engaged in the 
planning of DACA expansion and DAPA implementation, that they 
have been involved in interactions with other governments to 
get document templates, with schools to get exemplars for 
enrollment materials and all similar kinds of documentation 
that would be analyzed to evaluate eligibility.
    I think they will face some challenges, of course, but, 
yes, I think they are well equipped to implement these changes.
    Senator Baldwin. You just mentioned the ability to focus in 
on fraud, and by that, I interpret somebody trying to defraud 
the U.S. Government.
    Mr. Cooper. Right.
    Senator Baldwin. One of the things I have heard from 
immigration groups is a concern for potential unscrupulous 
lawyers and notarios who take advantage of the people who are 
going through the application process. Can you tell me what 
your experience was in addressing that type of fraud at the INS 
and what advice you would have to help us prevent applicants 
for these programs from being taken advantage of?
    Mr. Cooper. Yes. That is actually an issue that has, I 
think, a couple of related dimensions, one with respect to 
notarios, representatives here in the United States, and the 
other with respect to smugglers and the issue that Officer 
Moran and the Chairman were discussing, and they are very 
closely related.
    With respect to fraud and unscrupulous representatives, 
that is an issue that the agencies have been focused on, 
including the Department of Justice. They bear a very strong 
role in trying to attack representative fraud for years, and it 
has gotten better and stronger. There are more significant 
requirements to qualify as a representative. There are 
increasingly strict representations that you have to make as a 
preparer of materials. And, there is increased law enforcement 
vigilance against notarios, and there is a very strong ability, 
as well, for the community to report information about this 
kind of misuse. So, I believe that that is a very important 
problem to keep focused on, but one that the Departments of 
Justice and Homeland Security do have a strong focus on.
    They also have a lot of anti-fraud measures in place along 
the lines that we discussed before, the standard of proof, 
someone who comes forward and requests deferred action has to 
demonstrate their eligibility and the standard of proof is, 
more likely than not, the same standard that would apply if any 
of us sued each other in the courts. And, there are criminal 
and other penalties in place for people who make 
misrepresentations to the government in order to gain 
advantages under the immigration statutes. So, the tools are 
there. Again, it is a large-scale program. It will pose 
challenges. But, the tools, I believe, are there.
    If I could just mention briefly the related issue of abuse, 
not just by representatives but also by smugglers. I understand 
Officer Moran's front-line experience and I agree with the 
concern he expressed that there are people who are engaged in 
facilitating unlawful migration to this country that are very 
sophisticated in their ability to help people game the system. 
And, there is no question that there are smugglers who try to 
take advantage of that.
    But to take, for example, the scenario that we were 
concerned with before, that someone appears at the border and 
says, ``I have been here for 5 years.'' First of all, in my 
experience, Border Patrol members tend to have highly refined 
experience and instincts in these situations and would be able 
to see through false statements and examine them. But, even if 
they were to take such a statement at face value, the way the 
programs are structured, DAPA relief is unavailable to anyone 
who falls within any of the enforcement priorities, and in the 
very highest tier of the removal priorities is the category of 
people who are apprehended while crossing the border.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    I want to just for a moment examine the chart that the 
Chairman released, if somebody could put that up.\1\ And, my 
question is for anyone on the panel. As we look at the increase 
in undocumented children across the border, what percentage of 
those in 2014 would be eligible for the relief in this program 
that we are talking about? Mr. Bellocchi.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Heitkamp appears in the 
Appendix on page 104.
---------------------------------------------------------------------------
    Mr. Bellocchi. I am sorry, the----
    Senator Heitkamp. You may not, and I just want to kind of 
better understand, because I think the implication is that DACA 
was announced and, obviously, that led to a 2014 increase in 
the unaccompanied minors. Now, I could make an argument that 
might have had more to do with conditions that Ranking Member 
Carper talked about and also the anti-trafficking laws that 
were passed that gave free entry to people from Central 
America. But, is it not true that no one who crosses the border 
in 2014 is eligible for this program? Is that not true?
    Mr. Bellocchi. I understand that is correct, yes.
    Senator Heitkamp. And, it might be driven by false 
knowledge of what is happening or an impression about what is 
happening, but no one crossing the border in 2014, who is 
caught crossing the border in 2014, would be eligible, is that 
correct? Mr. Moran.
    Mr. Moran. Yes, unless they fell under a DAPA program if 
they were a parent of a U.S. citizen or a legal permanent 
resident, they might be able to qualify, but----
    Senator Heitkamp. Right.
    Mr. Moran [continuing]. Not children.
    Mr. Goss. Could I just offer that I think the rules for the 
new DACA are that people have to have entered the country 
before sometime in June 2010. So, people who have entered after 
June 2010, which are these people, would not qualify under the 
extension of DACA.
    Senator Heitkamp. That would be correct, and also if we 
drew a line in November when the President announced the 
expansion and then took a look at when most of those 
unaccompanied minors crossed the border, it would be early in 
the spring during the civil unrest in El Salvador and Honduras, 
is that not correct? Anyone?
    Mr. Bellocchi. Well, I will just mention that the 
regulations for DAPA have not actually been issued yet, so the 
thresholds and requirements we are not too clear on what they 
are yet.
    Senator Heitkamp. I have no doubt, and I think we saw that 
in the spring, that there is a combination of issues that drive 
this kind of rush to the border, one of which I share, Mr. 
Moran, your concern about updating border strategy and taking a 
look at what actually is going to work. I have had a fair 
amount of opportunity to spend time on the border, some 
officially, some unofficially, meet with ranchers, meet with 
farmers, who are encountering this every day, and are very 
concerned about the safety of their family. We know that. Very 
concerned about the safety of your officers as we move forward 
with border security.
    And, I will say that this is the wrong way for Congress to 
adopt policy. I do not think any one of you on this panel can 
say this is the right discussion to be having, whether it is 
politicizing the Department of Homeland Security because of an 
Executive Order, or whether it is ignoring true, honest to 
goodness border concerns and border issues that we have, and 
taking a look at doing the right thing that is going to 
discourage policy to cross the border illegally long-term.
    And, so, the frustration that I have is that there are tons 
of challenges in all this, and comprehensive immigration 
reform, comprehensive border security analysis is what we need, 
not politicizing this issue.
    And, if I can just, Ms. O'Connor, you may not know this, 
but I used to be the Tax Commissioner in North Dakota and I 
spent a lot of time dealing with tax fraud and schemes, and 
during my time, it was all those horrible people in prison who 
were filing false returns and, actually, IRS was issuing 
refunds to people who were felons and had been locked up for 
20, 30 years.
    Ms. O'Connor. They still do.
    Senator Heitkamp. Right. So, as we are analyzing this, the 
concern that I have about the IRS goes way beyond the potential 
for abusing the Child Tax Credit and the potential for abusing 
the Earned Income Tax Credit. It goes to an antiquated system 
that should immediately be able to indicate and catch when you 
are mailing a refund to one address that numbers in the 
millions. That should not happen in any kind of automated 
system.
    Ms. O'Connor. Twenty-four-thousand checks to a single 
address in a single year should have raised somebody's 
suspicion.
    Senator Heitkamp. Right. And, so, we are talking about this 
in the context of border security when I am saying we need to 
take a look at what the IRS does not do in terms of automating 
their system to prevent that from happening, whether it is 
checks to prisons, whether it is unmatched Social Security 
numbers and Tax Identification Numbers, to actual work product. 
I mean, these are issues that the IRS could solve with the 
right amount of resources and the right amount of attention. I 
question whether we should be just focusing on the challenges 
that these kinds of frauds present as a result of illegal 
immigration.
    Mr. Moran, it looked like you wanted to----
    Senator Carper. Would the Senator from North Dakota yield 
just for a quick clarification? The problem that has been 
raised here, 24,000 checks sent to a single address, IRS has 
changed the rules to allow only three checks to a single 
address or account, so message heard.
    Senator Heitkamp. Yes, but I will tell you this, that for 
every time you think you have closed this kind of opportunity, 
another opportunity will open, and the IRS needs to be more 
vigilant as we look at a system that, I think, encourages a 
rapid refund. We are getting more and more automated and we are 
very proud that we can turn around refunds and get them in 
people's bank accounts, but maybe we ought to take a pause and 
take a look at what we are giving up in terms of security of 
the system for rapid turnaround.
    Mr. Moran, you looked like you wanted to offer a comment.
    Mr. Moran. When you were asking, Senator, who qualifies for 
this, I think one of our concerns is that the messaging on the 
training from CBP has been inconsistent, at best. It says that 
the Presidential priorities, level one, aliens apprehended at 
the border or ports of entry while attempting to unlawfully 
enter the United States. And then in the same document it says, 
the impact of DACA and DAPA on CBP, it says, Immigration and 
Customs Enforcement (ICE) and CBP are instructed to immediately 
begin identifying persons in their custody as well as newly 
encountered individuals who meet the above criteria and may 
thus be eligible for deferred action to prevent the further 
expenditure of enforcement resources with regard to these 
individuals.
    If we are encountering people, the vast majority of people 
that Border Patrol Agents encounter are newly arrived in this 
country illegally. Our concern is that this will be watered 
down and that these people who should be ineligible will 
somehow be made eligible.
    Senator Heitkamp. And if, in fact, that happens, I would 
share your concern. But, at this point, based on what I 
understand the program to be, those folks currently crossing 
would not be eligible.
    If I could just ask one additional question for Mr. Moran, 
because I believe that the officers' voices at the border 
should be heard. I agree with your points of view in terms of 
training. Really appreciate that you mentioned the Northern 
Border, being from North Dakota, being understaffed. And, I 
just want to explore a litte bit about the one thing that you 
did say that was you think that there should be Border Patrol 
Agents in Phoenix. Where do you see the boundary between ICE 
and Border Patrol, and I mean, I could make an argument that at 
the Phoenix location, that is ICE's responsibility, correct?
    Mr. Moran. It is a very difficult line to demarcate. Our 
former Chief, David Aguilar, had delegated that authority in an 
memorandum of understanding (MOU) to ICE, that they would have 
the primary interior enforcement capabilities. We both have the 
same authority. Our opinion is that both agencies should be 
working to secure the United States, whether that be at the 
border or at the interior.
    Unfortunately, in the past several years, policy within CBP 
has restricted the ability of Border Patrol Agents to work at 
these transportation hubs, and it seems that any enforcement 
activity that is successful is restricted and we are now 
looking at the possibility of our checkpoints disappearing, for 
lack of a better term, because they have been successful, and 
that would basically cede the egress routes from the border 
into the interior of the United States.
    So, to answer your question, I do not know where the line 
is, but somebody needs to be working in the interior, and in 
our opinion, ICE does not have the resources or the 
institutional priorities to go after that, and I think that is 
very evident in the rebranding of some of their agents from ICE 
Agents to Homeland Security Investigations. Immigration seems 
to have been forgotten in their title.
    Senator Heitkamp. OK. Thank you.
    Chairman Johnson. Before I call on Senator Lankford, I 
think at least twice, maybe three times now, we have heard the 
charge, and I want to add a little balance to the conversation 
here, that somebody is politicizing the defunding of DHS. The 
fact is, yesterday, we held a vote to proceed to debate on the 
DHS funding bill. I think every Democrat voted against 
proceeding to that debate. I mean, if we want to have an honest 
debate, I think that is the way to do it, on the floor of the 
Senate. Allow an open amendment process and let us actually 
debate the issue. But, the Democrats denied that cloture vote. 
So, if there is a charge of politicization, I think we need to 
at least look at the facts. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Thank you all for being here, as well, and for the 
conversation. I was in Central America last September, and to 
go back to this chart, as well, and some of the conversation, I 
led a bipartisan delegation there, met with individuals from 
the government, from our government, from resident governments, 
from embassies and others to be able to visit and ask some 
specific questions. Why did we see this big surge? Was it in 
Guatemala? Was it in Honduras? Was it in El Salvador?
    In all three countries, we heard the exact same thing. 
There are push and pulls. The push are the gang violence and 
the lack of jobs and all those things. But, all of them came 
back and said the spark, the pull, was DACA, that when DACA 
went through, the coyotes in Central America spread the word 
that if you get to the United States right now and you are a 
minor, you can stay. And, the reality of the number of adults 
that were already here and the connection that we have with the 
children that are crossing unaccompanied connecting with a 
parent, typically--in some statistics, 80 to 85 percent of the 
children that were coming already had a parent in the United 
States--that when they came and were connected, those children, 
I heard over and over again, when they got to the United States 
were posting on their Facebook page a picture of them holding 
up their notice to appear in court saying, ``I have legal 
papers,'' telling all their friends, ``Come.''
    Now, my question is, to follow-up on Senator Heitkamp's, 
how many of those individuals that we have seen from 2012, 
2013, and 2014 have been returned back to their home country? 
We talked before about how many were eligible. How many of 
those folks have been returned? They came illegally across the 
border. They were moved to the interior. Does anyone know the 
percentage of returns there?
    Chairman Johnson. James, it is actually on the bottom of 
the graph here. Again, it is not certain, but we got this, I 
think, from an L.A. Times report.
    Senator Lankford. Correct.
    Chairman Johnson. It is very difficult to get the 
information.
    Senator Lankford. It is very difficult because no one is 
answering back and forth on it from any of the agencies. I can 
tell you, when I have talked to the different agents, the 
different folks, the numbers that I get are no higher at any 
time than 5 percent, that 80 percent-plus do not show up for 
their notice to appear, and those that do often are given some 
sort of deferred ability to be able to stay.
    And, so, while we can debate about are they going to be 
returned, do they have legal status, they are here. They are 
not being returned. And, so, they are back into what Officer 
Moran was talking about before. They are living in the shadows, 
knowing if I stay here long enough, as has already been seen--
the previous DACA was only for 2007, and then a year later it 
was extended to 2010, and the assumption is from every coyote 
in Central America, get there as fast as you can. They will 
keep moving the target.
    So, that is the challenge that we face at this point. I 
understand what it says. That is not what is happening. And, 
everyone in Central America is telling us that over and over 
again, and we have to be able to resolve this and what do we do 
here.
    So, let me ask just a couple of quick questions. Does 
anyone know what data we are getting for background checks for 
these individuals going through DACA and through DAPA from 
Central American countries? When we do a background check, are 
we getting information on that individual from El Salvador, 
from Honduras, from Nicaragua, from Panama, from Venezuela, on 
the activities of that individual while they were in that 
country?
    Mr. Bellocchi. I interviewed a number of people regarding 
background checks when I prepared for this testimony and I 
asked that question, how many background checks, or will the 
background checks really check foreign country criminal 
background, and the only answer I got was that the FBI does 
have a relationship with Interpol. They may have red flag 
notices and things like that. But, that really is talking about 
mainly Western European countries and high-profile criminals.
    Senator Lankford. So, if we have an individual coming to 
the United States from Venezuela, if they have stayed here long 
enough, at this point, we are not checking Venezuelan records 
to find out what happened, what they did in that country, to be 
able to have some sort of legal status here?
    Mr. Bellocchi. Not to my knowledge.
    Senator Lankford. Does DHS require in their new guidelines 
the processing or payment of taxes before they can go through 
this? Is DHS requiring before you get legal status that they 
pay back taxes?
    Mr. Bellocchi. Well, with DAPA, again, the regulations are 
not out, but I understand that is one of the requirements. 
Perhaps my colleague can answer that better.
    Ms. O'Connor. It is not a requirement under DACA, and as my 
colleague says, the DAPA regulations are not out yet. But, no, 
there is no requirement that taxes already have been paid.
    Mr. Cooper. Senator, my understanding is that if anyone is 
given deferred action under the program, then they will be able 
to get a Social Security number and then tax compliance can be 
enforced, and that previous tax behavior can be a positive or 
negative discretionary factor, and that discretion is something 
that the officers are instructed to observe.
    Senator Lankford. But, at that point, they already have 
other legal paperwork. So, you are saying they get legal 
paperwork and they are told, you should pay back taxes.
    Mr. Cooper. I think their past tax behavior, whether they 
paid taxes or not, is something that can be considered 
discretionarily up or down in the process of deciding whether 
to give deferred action, but that once you get deferred action, 
then you have a Social Security number and tax compliance can 
be fully enforced.
    Senator Lankford. But, DHS does not require, before they 
give deferred action to an individual, that they pay back taxes 
before they get that deferred action.
    Mr. Cooper. I do not believe so.
    Senator Lankford. That is not a requirement.
    Mr. Cooper. I do not believe that is a requirement.
    Senator Lankford. So, it is not a requirement that they do 
a background check in a home country. It is not a requirement 
that they pay back taxes before they get deferred action.
    Mr. Cooper. DHS would have to supply you with the more 
precise information about what happens between the law 
enforcement authorities and other governmental authorities of 
the sending countries and ours, but my strong understanding is 
that, especially ever since these spikes, that there has been a 
great deal of interaction in those countries with law 
enforcement there between not just the Department of Homeland 
Security, but the Justice Department and other law enforcement 
authorities----
    Senator Lankford. No, the spike, as I can tell you from 
being in Central America and asking some of those questions, 
the spike is for the individuals that we are returning that we 
are trying to verify before they return to their home country, 
who this individual is, and those are typically adults. 
Obviously, adults typically, as the Border Patrol Agent can 
tell us on that, that have said, ``I want to voluntarily 
return,'' because if you get to the border and you are picked 
up and you are apprehended and you say, ``I want to voluntarily 
return,'' it cleans your record up.
    The coyotes in Central America, as we talked to everyone 
there, said they are now doing a three-for-one deal. You pay 
$4,000 and they will give you three attempts to be able to get 
in the United States. If you are picked up the first two times 
and say, ``I want to voluntarily return,'' they will bring you 
back. Literally, they meet you at the bus station when you 
return and start the return trip again. So, for one amount, 
they can do three times there. As long as you keep saying, 
``voluntarily return,'' there is no strike on your record. You 
just keep coming until you actually penetrate the system. So, 
that is part of the challenge. It is getting us off-topic on 
this, though.
    The individuals that come in to register for DACA and DAPA 
and DHS determines they are not eligible for this program, what 
happens to those individuals? They have come in and said, ``I 
am not legally in this country. I would like to get some sort 
of deferred status.'' For whatever that percentage may be, what 
happens to those individuals?
    Mr. Cooper. Well, one thing that happens is, at that point, 
DHS has all their information under circumstances where they 
did not before, and then I think the second is that applying 
the removal priorities that were set out in revised form in 
November, DHS would then make a decision whether or not to add 
that person to the----
    Senator Lankford. So, they may say they are not eligible to 
have deferred status, but they also may say you can also stay 
here just in the shadows?
    Mr. Cooper. That is correct.
    Senator Lankford. That is up to their discretion. So, they 
have already said, ``I am in this country illegally. I am not 
eligible for deferred status.'' That has just been determined. 
But, it is also, ``You can stay.'' It is also under their 
purview to be able to do.
    Mr. Cooper. It is not, ``You can stay.'' It is, rather, I 
am going to spend my enforcement efforts on higher priorities, 
according to the----
    Senator Lankford. And you stay.
    Mr. Cooper. That is right, but the nature of the 
determination is a different one.
    Senator Lankford. But, the result for that individual is 
the same.
    Mr. Cooper. Then they would be part of the millions of 
people who are subject to removal, but not within the removal 
resources of the Department of Homeland Security, which is, I 
think, one more argument in favor of legislative reform.
    Senator Lankford. And one more argument why Agent Moran and 
his counterparts have such tough morale issues in trying to 
face the issues of what they try to do.
    I yield back.
    Chairman Johnson. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you very much, Mr. Chairman.
    I just, as Senator Baldwin had said, I just want to express 
my frustration and concern. Whether it is politics or not, the 
reality is last year, we passed a spending bill for every other 
Department agency in the United States of America, but 
separated one out, the Department of Homeland Security, and the 
stated reason was over immigration issues.
    But, as a guy who has stood in my city and watched the 
terrorist attacks across the river, as a guy who has the third-
busiest port in my State, as a person who has seen Hurricane 
Sandy sweep through and kill people in my State, the fact that 
now, for whatever reason, politics or not, we did not include 
last year as part of the omnibus funding for the Department of 
Homeland Security. Our inability to pass a bill has now put at 
risk many of the issues and concerns that we are briefly 
touching on here, which is the safety and the security of our 
Nation, whether it is the nuclear detection equipment that 
needs to be upgraded at my port or whether it is issues related 
to coordination of personnel.
    All of this right now is in jeopardy, and we would not do 
this to the Department of Defense, but somehow, the Department 
of Homeland Security, which is our buffer and often the 
preventative agency for our safety and security, whether it is 
from natural disaster--and, by the way, I am concerned because 
the funds necessary to respond to wildfires, to floods, to 
hurricanes, is now in jeopardy because we are not moving 
forward. Whether it is politics or not, I do not know, but I 
know we have the leadership that should be able to address what 
are the common concerns of our country.
    These issues are really important, and Shawn Moran, I want 
to thank you, not only for having the best haircut on this 
panel---- [Laughter.]
    But I want to thank you, sir. You and the people you 
represent do this country a great service. You are honorable, 
and from my experience, courageous in what you all face every 
day, and your testimony, I think, in some ways is the most 
important testimony here.
    We are not doing enough to support you, to give you the 
resources you need. And, as a guy who oversaw a municipal law 
enforcement agency, when you do not support your officers in 
the proper way, you put them at risk. A lot of the things that 
you brought out in your written testimony and your spoken 
testimony really was important for my staff, and things that I 
know are important, like the ratio of supervisors. You guys 
have a lot of supervisors, it seems, but not enough folks that 
are actually doing the work in the field. And, these are things 
that we should pay attention to and react to.
    So, I want to thank you and just compliment you on the 
record, because I know from personal experience how important 
the work you do and you stand out there.
    The only small issue--and for me, it is not a small issue--
and I think that Senator Lankford, who I really appreciate 
actually having gone down to Central America to see for himself 
what was going on, he talked about the push and the pull 
factors. You really do not have the resources to know if 
somebody is telling the truth or not. And, the one thing you 
said about these folks having written scripts before them about 
what to say, just because a person has a written script and has 
practiced that script, kind of like the five of you have done 
preparing for this, does not mean that they are not sincere 
people and really facing a threat, is that correct?
    Mr. Moran. That is correct. We do spend a lot of time when 
we apprehend people, because, obviously, when it is busy it is 
going to take quite a bit of time to transport them, so, 
obviously, you are going to talk with them, and we have even 
had our intelligence people interview them, and I believe it 
was six or seven out of ten claimed it was because of DACA, 
rumors of immigration reform, amnesty, and the like that they 
were coming here. There were those that claimed violence, 
economic conditions, but by and large, the majority was because 
they had heard from somebody else that was released into 
American society.
    Senator Booker. I really appreciate that, and I imagine 
what you are saying, there is a lot of voracity to that. But, 
there are people that are escaping violence and rape and 
torture and----
    Mr. Moran. Absolutely.
    Senator Booker [continuing]. As we see with--and have 
encouraged other people to do, right now, Jordan, we are 
telling them, hey, take people into your country that are 
coming from Syria, and the way that Canada has stepped up to 
help. This is a nation that has a history that when people are 
being persecuted, that we do something for them. You understand 
that, correct?
    Mr. Moran. I do. I would add, though, that the incentive 
for people to come here to this country puts our members at 
risk. We have had 120 agents die in the line of duty. The 
majority of them have been since I became a Border Patrol 
Agent. So, the trend is definitely increasing, that it is more 
dangerous----
    Senator Booker. And just because I am losing time, I agree 
with that point very well.
    Real quick, Mr. Cooper, you talked about the tremendous 
economic benefits that have been put forth by a non-political 
organization called the Congressional Budget Office, the boon 
to our economy. You talked about $90 billion. You talked about 
money off of the national debt, which concerns me. You talked 
about the improving of the social safety net, greater 
contributions. The one thing you did not mention is jobs, jobs 
for Americans. If you are driving an economy, increasing GDP, 
if you are having more entrepreneurs, is there a job benefit to 
expanding job opportunities for the United States, for 
Americans, as well?
    Mr. Cooper. I think that the Council of Economic Advisors 
also concluded in its report that with the economic expansion 
that would come with DACA and DAPA, there would also be a job 
expansion, and their conclusion was that these programs would 
help, not harm, American workers in searching for jobs.
    Senator Booker. Right, and you get more entrepreneurs in 
our country under a legal pathway. You are increasing a lot of 
economic benefits. One is job creation, as well.
    Mr. Cooper. Right.
    Senator Booker. I appreciate the law enforcement aspects 
you said. As a guy, again, who was frustrated as mayor that I 
could not get undocumented immigrants to come--there is fear 
coming forward and reporting crimes, cooperating with the 
police. It was very difficult. And, they are also victimized by 
crimes because people singled them out. I appreciate you 
speaking to law enforcement.
    The last question I just want to ask, to be respectful of 
the time, and I am still trying to get in good with the new 
Chairman, real quickly, is about the Child Tax Credit. The idea 
is that if you have a child, right, that is a U.S. citizen, you 
may not be a documented immigrant, you may not have 
citizenship, but the idea is that for an American child to 
claim that credit, right, we do not want to punish a child just 
for having undocumented parents, right? And, the way this is 
structured, the claim of the Child Care Tax Credit is really to 
get money and have a more stable household for that child, is 
that correct?
    Mr. Cooper. It is to benefit the child. My understanding is 
that that tax credit and the Earned Income Tax Credit effects 
were taken into account in the CBO's estimate of the effects 
that elimination of DACA and DAPA would have on the Federal 
deficit.
    Senator Booker. So, you still get the economic benefits. It 
does not diminish that, as the estimates of the CBO was doing, 
and American children, who may have undocumented parents, have 
more food on the table, are better prepared to go to school, 
and have the benefits of the resources that a tax credit is 
intended to do and have a better start in life, is that 
correct?
    Mr. Cooper. Correct.
    Senator Booker. Thank you very much, Mr. Chairman.
    Chairman Johnson. I appreciate your stylish haircut, but 
you still went over time---- [Laughter.]
    But we will not write it down.
    Senator Booker. I assert to you, I will try to get better, 
sir.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chairman and I want to 
thank all of our witnesses that are here.
    First of all, I would like to follow-up, Ms. O'Connor, on 
the Additional Child Tax Credit (ACTC) issue, because I know 
that Senator Booker just made the point that if you are an 
American child but you are the child of an illegal immigrant, 
that this is something that you should receive. But, as I 
understand it, the Treasury Inspector General (IG) has done a 
lot of looking at not only the Additional Child Tax Credit, but 
the Earned Income Tax Credit, and one of the issues is that, 
right now--some people did some individual work and studies on 
that tax credit, as well, and there are people being claimed 
for that tax credit, children that do not even live in this 
country. In other words, because right now, you can seek that 
tax credit whether or not you have a Social Security number for 
the recipient or the child, so can you speak a little bit about 
some of the fraud we have seen in the Additional Child Tax 
Credit.
    Ms. O'Connor. Certainly. You are exactly right. The studies 
have shown that--the Inspector General's studies have shown 
that tens of billions of dollars are paid every year with 
respect to children who might not exist at all, and if they do, 
they might live in a foreign country. One of the requirements 
is that the child is supposed to live with the person who is 
claiming the credit, but the IRS does not really have the 
wherewithal or maybe the motivation to confirm that that is the 
case. So, while it is very nice to think that the Additional 
Child Tax Credit is going to give some worthy kid more Cheerios 
in the morning and make sure he gets to school on time, that is 
not necessarily the way it is working out.
    Senator Ayotte. Yes, and I think that most Americans would 
be very troubled to think that we are giving refundable tax 
money that is all of the taxpayer dollars to fraudulent 
situations.
    Ms. O'Connor. If I might just emphasize, as you said, we 
think of a refund as getting something back that you have paid, 
but this is not that. This is getting something back that you 
have not paid.
    Senator Ayotte. Correct, because based on what you are 
eligible, you have not paid it, but because it is an income 
eligibility issue and you get that--and it is $1,000, I 
believe, or more per child----
    Ms. O'Connor. Right. It is a welfare program operated 
through the Internal Revenue Code.
    Senator Ayotte. So, one of the questions I also wanted to 
follow-up on--so, under DACA and DAPA--and, let me just say for 
the record, I am someone who supported the immigration reform 
bill. I want to solve this problem. But, as I look at these 
Executive Orders, we are in a position where some of the things 
that I thought were very important in that bill, like the 
people that were patiently waiting in line getting--the 
individuals that were here illegally getting to the back of the 
line as a matter of fairness, the back tax issue as a matter of 
fairness, a whole host of provisions on securing our border 
that were incredibly important in that, and as I look at these 
Executive Orders, we are in a situation, just we have talked 
about the Additional Child Tax Credit, but I want to put in 
perspective for people how much money that is to the Treasury.
    As we got the last figures which we were able to get, which 
were actually 2011, $30 billion going out each year on the 
Additional Child Tax Credit. The other big refundable tax 
credit that we all need to understand is the Earned Income Tax 
Credit, and the Earned Income Tax Credit is also a refundable 
tax credit, like the Additional Child Tax Credit. Right now, to 
receive that tax credit, you have to have a Social Security 
number, is that right, Ms. O'Connor?
    Ms. O'Connor. Yes, Senator.
    Senator Ayotte. And, so, these individuals under this 
Executive Order, as far as I can see, are immediately getting 
Social Security numbers, and with that immediate receipt of 
Social Security numbers, do we have any sense of the numbers--
we are already paying out $65 billion a year on this Earned 
Income Tax Credit. How many more billions are going to go out 
on the Earned Income Tax Credit for people who, by the way, are 
immediately getting Social Security numbers, who are, of 
course, not getting in the back of the line of the people who 
are diligently waiting here, and, so, do we have a sense of 
what those numbers are?
    Ms. O'Connor. I do not have that number. Maybe one of my 
colleagues at the table does. But, I will also remind everyone 
that the Internal Revenue Service interpretation of these 
provisions is that you get the credit not just this year, but 
you can file amended returns for the prior 3 years.
    Senator Ayotte. Wow.
    Ms. O'Connor. So, everybody who gets a Social Security 
number now, multiply that by four to get the total impact this 
year.
    Senator Ayotte. Oh, I had not appreciated. So, if I get a 
Social Security number immediately, these millions of people 
that will receive this, then you could file back, presumably, 
for 3 years?
    Ms. O'Connor. That is how the IRS interprets the rule, 
right.
    Senator Ayotte. And, by the way, we have talked about fraud 
in the ACTC. As I understand it, we have an improper payment 
rate overall even in the Earned Income Tax Credit of 22 to 26 
percent.
    Ms. O'Connor. That is right. That is what the Inspector 
General says.
    Senator Ayotte. So, I want to make sure that as we look at 
all of this, we think about the prior 3 years. One of the 
things I see in the Executive Orders is it is not clear. it 
says that you would be eligible for Social Security benefits, 
Mr. Goss, with 10 years of work history, as I understand it. Do 
we know what counts for work history? So, if someone was here 
illegally and working, could they use that work as their 10-
year history and then immediately be eligible for Social 
Security benefits, as well?
    Mr. Goss. That is an extremely good question and many 
people have raised this issue, that people who have--and the 
primary potential source for that would be people who have been 
here in an undocumented form, but have been working with their 
employer and have been paying in the taxes, but not with a 
match between their name and a Social Security number because 
they have not been issued a Social Security number. In theory, 
if they can come to our offices and prove with pay stubs or 
whatever that, in fact, those were their earnings in the past, 
they could reclaim those earnings.
    In practice, this is a rare event. We estimate that about 7 
percent of all of the earnings that go to our earnings suspense 
file, because names and SSNs do not match, only about 7 percent 
is ever reclaimed, and the vast majority of that could be any 
one of us where an employer might have messed up our SSN when 
they submitted the numbers. So, very little of that, we expect, 
will be going out as benefit credits in the future, as very 
little has gone out in the past.
    So, our estimates of the number of people receiving 
benefits, and from what I understand CBO has done mostly the 
same, is based largely on earnings that people will have going 
forward, developing their insured status.
    And, Senator Ayotte, you are exactly right. For retirement 
benefits, you have to have 10 years' worth or 40 quarters of 
coverage. You can gain insured status if you are younger for, 
if you were to die, a survivor's benefit or disability benefit 
with less work time than that. But, again, relatively few 
people, we expect, will be actually achieving that in the 
relatively near term, and we have estimates in our testimony 
that show you, year by year, how many.
    Senator Ayotte. There are, I think, a lot of questions that 
are raised by all this on how it is going to work, and Mr. 
Moran, thank you for your work, and many questions raised for 
those who do serve and defend our Nation and help us with the 
borders. So, I think this is one of the issues and challenges 
you face when something is done by Executive Order versus laws 
that are in place, and also for these individuals who are going 
to be in this status, what is the permanency of it. I think 
that that is why legislation is the way that we should do these 
things and why I have been someone who has been trying to solve 
this problem and I am very disappointed that the President has 
decided to take executive action on this.
    Thank you.
    Chairman Johnson. Thank you, Senator Ayotte.
    I have just got a couple other questions. And, again, just 
to quickly bring balance to some of the comments made.
    We would not be discussing DHS funding today had President 
Obama not taken the unilateral executive action. We would have 
probably passed an omnibus through the end of this fiscal year. 
So, that is the reason DHS funding is up in the air at this 
point in time.
    And, again the way to address this DHS funding would 
actually be to put a bill on the floor and open it up to 
debate. We were denied cloture on that, not Republicans, that 
was basically Democrats who decided not to allow us to proceed 
to debate on the bill. I am not quite sure why, but that is 
just a fact.
    Mr. Goss, I have an actuarial note\1\ that you issued in 
April 2013 to kind of answer the question that I was asking Ms. 
O'Connor about how many of the immigrant population, what 
percent is actually in the underground economy. Back then, you 
were saying about 3.9 million of 8.3 million, so less than half 
were actually in the underground economy. More than half, then, 
actually were paying into the system in some way, shape, or 
form, either with an illegal Social Security number or through 
the ITIN. Is that about what your estimates were in this 
current----
---------------------------------------------------------------------------
    \1\ The document referred to by Senator Johnson appears in the 
Appendix on page 105.
---------------------------------------------------------------------------
    Mr. Goss. That is correct, yes.
    Chairman Johnson. OK.
    Mr. Goss. It is actually a little bit higher than that at 
this point, because our estimates back at the time of 2009 and 
2010, had a significant number of people in the undocumented 
population who had, prior to 2001, when things were really 
tightened up about being able to get issued an SSN after birth, 
prior to that time, people could come in with perhaps not 
legitimate documentation and relatively easily get an SSN. 
After a specific time in 2001 that we all too well remember, 
especially Senator Booker, that has been tightened up and we 
see a much diminished number of people getting SSNs 
illegitimately.
    Chairman Johnson. So, there are more people or less people 
in the underground economy versus 2013?
    Mr. Goss. We would say a larger share of the workers who 
are in the undocumented population now are in the underground 
economy.
    Chairman Johnson. OK.
    Mr. Goss. And, if I might just add on that one little 
thing, so important in terms of tax policy, one of the biggest 
issues I would hope that you all would pay attention to would 
be the fact that, according to the Bureau of Economic Analysis 
of the Department of Commerce, one-half of all of the 
compensation to independent contractors and self-employed 
individuals in this country is not reported for tax purposes. 
That is obviously not all from undocumented individuals, but 
there is an awful lot of non-reporting----
    Chairman Johnson. Right.
    Mr. Goss [continuing]. Of income, and that would make a big 
difference if all of that income was reported for payroll taxes 
to Social Security and Medicare as well as for income taxes.
    Chairman Johnson. Oh, yes, and that is kind of a side 
view----
    Mr. Goss. That is a different thing.
    Chairman Johnson. So, I do want to explore the assumptions 
and the estimates in terms of this being a boon to our GDP. 
Now, I certainly understand, because I come from the private 
sector, that what makes up an economy is human capital combined 
with financial capital and that is what drives an economy. When 
you increase the supply of human capital through births and 
through immigration, that will increase the size of GDP.
    What puzzles me about the estimates coming out of here is 
we have already got this population of 11 to 12 million people 
in this country illegally. Many of them are working either in 
the formal or underground economy. So, I do not know what this 
temporary deferred action, how that all of a sudden causes this 
surge in economic activity. It just really makes no sense to me 
whatsoever. Mr. Goss.
    Mr. Goss. Thank you very much. Excellent question. 
Actually, the component of the very small extra increase of 
only about 0.15 percent increase in the level of GDP in 2024, 
relatively little of that is from the DACA-DAPA. The only 
extent is because we assume that once people gain this status, 
they will be less likely to leave the population. If they 
remain in the population, as you indicate, they will be part of 
our population and our base for employment. The biggest share 
of increased GDP that, really, is the other net flows, the 
entrepreneurs coming in by 2024.
    Chairman Johnson. Again, that should occur through a legal 
process, and there is no denying that. If we have more 
entrepreneurs coming through legal immigration process----
    Mr. Goss. Exactly.
    Chairman Johnson. By the way, I am supportive of if we get 
the smartest minds in the world, we want them here in America. 
If we educate them, we want them to stay to produce those 
innovations and grow our economy. But, again, that is a legal 
immigration system versus an illegal one, which creates all 
kinds of problems from the standpoint of national security, 
public health and safety. And, again, it is a broken 
immigration system, which I am all for fixing.
    But, my final comment is, until we secure the border it is 
never going to be perfect, but until we do a better job--and I 
think Americans are way ahead of us, the public is way ahead of 
the political process here in terms of wondering why we have 
not done that--until we do that, any part of our immigration 
law, tax law, that creates an incentive for illegal 
immigration--I would say DAPA and DACA have created that 
incentive--as long as we create those incentives for illegal 
immigration, we will have more of it. It will create higher 
pressure on the border, give Mr. Moran and his compatriots real 
fits, make their job far more difficult.
    So, this really, from my standpoint, is the top priority of 
this Committee: to craft an effective and a workable border 
security bill combined with an immigration enforcement bill 
that really does take a look at our current immigration laws 
and try to eliminate or at least drastically reduce the 
incentives for illegal immigration, because as long as those 
incentives remain and we have not secured the border, it is 
going to be right back to 1986. I mean, you can do whatever you 
want to do to grant amnesty or take executive action, but as 
long as we have those incentives in place without a secure 
border, we are just going to make the problem worse.
    But with that, that kind of concludes my participation. 
Senator Carper.
    Senator Carper. Good. Thank you, Mr. Chairman.
    I just want to go back on a couple of issues that were 
raised just to try to provide some clarity, and Mr. Goss, if I 
am misstating, just let me know. But, I think in instances 
where formerly undocumented immigrants now have Social Security 
numbers and can now claim Earned Income Tax Credit 
retroactively, they have to have paid taxes. They have to have 
gone back and also filed tax returns for, I think, at least 3 
years, is that correct?
    Mr. Goss. That would be my assumption for----
    Senator Carper. That is correct.
    Mr. Goss. Yes----
    Senator Carper. That is correct. Thank you.
    Another point, just for clarification, I think, also, in 
2012, I am told that the IRS reformed the ITIN application 
process and far fewer people apply today. As a result, we have, 
probably, I expect we have a lot less fraud.
    So, some of the concerns that have been raised, it is 
important that they have been raised. Some of them have been 
addressed, and those that have not, we need to address them, so 
thank you for doing that.
    I am just reminded of a couple of thoughts here as we come 
to the end, and one of those is--it is unfortunate that we are 
having this conversation. It is unfortunate that we are having 
this hearing, because it is unfortunate that we did not pass 
comprehensive immigration reform in the last Congress. We 
should have. We would not be having these questions, these 
battles, and spending your time and our time dealing with this. 
That is what we should be doing.
    And, to the extent that our Republican friends have 
concerns, and I appreciate those, over what the President, what 
the Administration has done, they have recourse in court. They 
are doing that. But, I sure as heck hope that we do not shut 
down the Department of Homeland Security on February 27 when 
they have a heck of a lot to do. That would be tragic.
    Mr. Moran, I want to also thank you and the folks that you 
represent for your continued service, to our country. And, 
there is plenty we can do, and when the Chairman and I and 
Senator Sasse are down on the border, we will hear about some 
of the things that we ought to do and I think your input is 
appreciated and helpful.
    But, one of the problems in the immigration reform bill 
that was passed was I think we doubled the number of people on 
the Border Patrol on the border. We do not need to do that. Do 
we need some extra people? Yes, we do. But, we especially need 
people at the ports of entry to do the job there, and we need 
what I call force multipliers, force multipliers that are 
actually between the ports of entry that will enable your folks 
to be more effective in the work that they do.
    I will continue to make this point to my grave--I have 
always been a big believer in addressing not just the symptoms 
of problems, but root causes for problems. That is the key. We 
are really good around here at addressing symptoms of problems. 
We are not so good at going at the underlying causes, and we 
need to do both.
    Do we need to strengthen our defenses on the border? Of 
course, we do. Do we need some more people? Yes, we do. Do we 
need better technology? We do. The idea that we put drones up 
in the air and fixed-wing aircraft in the air without advanced 
radar systems which can actually from 25,000 or 30,000 feet see 
exactly what is going on on the ground in all kinds of weather, 
day or night, and the fact we just send aircraft out, maybe 
with the guys or gals with binoculars looking for people coming 
to the border, that is crazy.
    I spent a lot of time in my life in airplanes, some of it 
overseas and over the water around the world and looking for 
people in ships, in wreckage from ships, people in life rafts 
with binoculars from 500 feet or 1,000 feet. It is hard to do. 
And, when we have the technology and we are not using it, shame 
on us. That is the kind of thing we should be doing. I call 
them force multipliers.
    But, the other thing that is imperative as part of the, on 
all of the above, is thoughtful policy to better strengthen our 
borders. A key element of that is to make sure that in places 
like Honduras, Guatemala, and El Salvador, which is where we 
are getting most of the illegal immigration across the South 
Texas Border, where they have police that do not police, where 
they have prosecutors that do not prosecute, where they have 
judges that do not administer justice, where they have 
correctional institutions that do not correct behavior, where 
they have school systems where, in Honduras, grades one through 
six, that is it. Half of the kids only make it to grade six. Of 
those that make it to grade six, only half can read at a sixth 
grade level. Only 5 percent can do sixth grade math.
    In these countries, Honduras, Guatemala, El Salvador, they 
pay two or three times more for energy than they ought to be 
paying because they use petroleum. They use oil. Meanwhile, 
they have low-cost natural gas from Mexico, and that ought to 
be made available to those three countries to help create a 
more nurturing environment, lower their energy costs.
    So, while we do all the stuff on the border that we are 
talking about, we need to help them restore the rule of law. We 
need to make sure that they are doing the kinds of things that 
they ought to be doing--they want to be doing--with respect to 
their workforce.
    Hurricane Mitch came through Honduras in 2007, destroyed 
half of the secondary roads. And, you have folks in Honduras, 
one part of Honduras would like to be able to export to a 
neighboring country and the roads do not even let them go 10 
miles to make that work.
    It is not for us to fix all these things. It is not all on 
America. We can be part of the solution and we need to be. 
Again, they can do it. We can help. And the other countries, 
including Mexico and Colombia, the Inter-American Development 
Banks, they need to be a part of it.
    The last thing, the last question I want to ask is this, 
and I want to go back to security implications, if I can. 
Secretary Johnson and some others have cited several security 
benefits from deferred deportation initiatives. First, these 
programs will prompt many of the people living in the shadows 
to step forward and undergo background checks and enter 
biometrics into our systems.
    Second, it will help DHS and others focus limited 
enforcement resources on the highest priorities for 
deportation, those with criminal backgrounds or national 
security risks, and recent arrivals without ties to the 
community.
    Third, it will facilitate better trust and communication 
among immigrant communities and local law enforcement, 
improving the safety of communities nationwide. That is why a 
number of law enforcement organizations have endorsed the 
deferred deportation initiatives.
    A question for you, Mr. Cooper. You dealt with some of 
these issues of prioritization while at INS, I believe, which 
included the immigration functions of what is now CBP and ICE, 
as well as USCIS. Do these arguments make sense to you based on 
that experience and your work since?
    Mr. Cooper. They do. I think the abilities of the 
Department have improved since that time, but that makes entire 
sense to me, and I think that that helps focus on the key 
question that is before the Committee, is comparing a world 
without DACA and DAPA to a world with DACA and DAPA and does 
that enhance the ability of the Department to carry out its law 
enforcement responsibilities more effectively. And, it seems to 
me to take the two scenarios that have been raised.
    One, why would DAPA and DACA expand economic activity, and 
my understanding is that the answer to that is that with DAPA 
and DACA, there is going to be more people moving into the tax-
paying category. There will be more people who are able to work 
lawfully and, therefore, able to get better paying jobs, 
consequently, wage growth pressures and so forth. That would 
not be the case without the authorization of employment for 
these people who are, after all, here in the country already, 
and in most cases working already, just in the shadow economy.
    On the law enforcement side, with DAPA, there is the 
scenario that the Senator was raising before about what happens 
when someone is not eligible but has presented themselves. I 
agree that it is counterintuitive that you might just decide 
not to try to remove that person when they are right there in 
front of you. On the other hand, what you have which you did 
not have without DAPA is all that person's information in the 
law enforcement database which allows for better enforcement if 
they become a removal priority, or if the resources roll 
around, or if there is a criminal issue later. And, if that 
officer has made the decision, well, you are someone who does 
have a U.S. citizen child but cannot prove that you have been 
here for 5 years, you are not eligible for DAPA, but I have 
bigger fish to fry, I think most people would regard that as a 
reasonable exercise of discretion given the finite resources 
that are facing the Department.
    Senator Carper. Good. Thanks.
    Mr. Chairman, I think it has been a good hearing. Let us 
work on comprehensive immigration reform. Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    Coming from a manufacturing background, root cause analysis 
is just in my DNA. I am hoping this was kind of that first step 
in trying to develop that root cause analysis.
    I want to thank all the witnesses again for your thoughtful 
testimony, both written and oral here.
    This hearing record will remain open for 15 days, until 
February 19 at 5 p.m., for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      VISA WAIVER PROGRAM: IMPLICATIONS FOR U.S. NATIONAL SECURITY

                              ----------                              


                        THURSDAY, MARCH 12, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ayotte, Ernst, Sasse, 
Carper, Booker, and Peters.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. This hearing will come to 
order. I want to welcome all the witnesses here. We have some 
excellent people here to describe the Visa Waiver Program 
(VWP), both the benefits and the potential vulnerabilities. I 
do not want to spend a whole lot of time because we have two 
panels, but just basically point out this is a program that 
dates back to 1986.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 209.
---------------------------------------------------------------------------
    The first countries that entered into this cooperative type 
of arrangement with the United States was the United Kingdom 
and Japan, and currently we have 38 different countries that 
participate in this program. It obviously was designed to ease 
travel, to promote commerce, and I think it has done a really 
good job. Today 19 million visitors enter the United States 
using this program for a period of under 90 days. It is about 
40 percent of everybody that comes to America, so you can see 
the significance of this program.
    Unfortunately, with the threats we face today, particularly 
with the Islamic State of Iraq and Syria (ISIS), one number 
being used is 3,400 foreign fighters that are from the West. We 
have to review this program for potential vulnerabilities. But 
I think it is safe to say that the standards have been created 
after September 11, 2001. When we took a look at this and tried 
to strengthen the security standards with our participating 
partner countries, I think there is a great deal to be said in 
terms of enhancing security.
    So, again, the purpose of this hearing is to lay out that 
reality, to fully explore the benefits, and to look at 
potential vulnerabilities caused by these new and emerging 
threats. Also we want to consider if there is anything we can 
do to help Secretary Jeh Johnson in his efforts of keeping this 
Nation safe, see if there is something we need to do 
legislatively.
    On that end, I appreciate Senator Ayotte's dedication to 
this and joining in the letter with myself and Ranking Member 
Carper, again, offering our willingness to work with the 
Secretary to strengthen this program.
    So, with that, I will end my comments and turn it over to 
our Ranking Member, Senator Carper.

             OPENING STATEMENT OF SENATOR CARPER\1\

    Senator Carper. Thanks, Mr. Chairman, and, Kelly, thank you 
for suggesting that we have this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 210.
---------------------------------------------------------------------------
    Mr. Secretary, nice to see you again. I would be interested 
to know how many times you sat at this table, but we are 
grateful you are willing to do it again today. And to Marc and 
to Brian, thank you all for joining us today.
    As the Chairman said, this is an important hearing, and the 
Visa Waiver Program, which has been around for actually quite a 
while, continues to evolve and to hopefully be improved. It is 
a valuable economic and security tool for our country.
    Congress and the Department of Homeland Security (DHS), 
which you once led, have worked hard to balance the natural 
tension in the Visa Waiver Program between the need to 
facilitate, on the one hand, international travel and, on the 
other hand, trying to make sure that we are going to be safe in 
this country from the evolving terrorist threats that we all 
face.
    When travelers from Visa Waiver countries visit our 
country, they spend more than $80 billion every year. That is a 
lot of money. They stay in our hotels, they buy our goods, they 
visit our parks, they visit our national parks, they visit our 
five-star beaches, they eat at our restaurants, and do a lot of 
other things as well. They do a lot of those things in 
Delaware, I might add. All in all, the Visa Waiver tourists 
support more than a half million American jobs.
    But the Visa Waiver Program is more than just a revenue 
generator. It also serves as an important national security 
tool for our country. When countries participate in the Visa 
Waiver Program, they must implement and maintain strong travel 
screening measures. More importantly, these countries must 
share robust amounts of traveler information with the United 
States--information that we would likely not otherwise get. 
This valuable information has proven to be essential to our 
counterterrorism officials as they seek to prevent foreign 
threats from crossing our borders.
    With that said, the threats that we face from terrorists 
have evolved during the life of this program. When the Visa 
Waiver Program was enhanced in 2007, the preeminent threat to 
our homeland was from al-Qaeda's central branch led by Osama 
bin Laden. As we know, today bin Laden is no more. al-Qaeda's 
core branch in Afghanistan and Pakistan has been severely 
weakened. But in their place, al-Qaeda splinter groups in 
places like the Middle East and in Africa have arisen and 
adopted new tactics that pose new threats for our country.
    Today, we face the threat posed by ISIS and its 
determination to use social media to rally recruits and to 
incite attacks against the West, including attacks by 
individuals who live in Visa Waiver countries. Moreover, 
conflicts in Syria and Iraq have attracted thousands of foreign 
fighters from all across the world who have now joined the 
ranks of those who wish to do us harm here at home. According 
to reports, more than 3,400 foreign fighters have traveled from 
Western countries to join in these conflicts. Many of these 
countries have Visa Waiver privileges with the United States.
    As the number of foreign fighters grows, so do the concerns 
that the fighters from Western countries may use the Visa 
Waiver Program to bypass our screening efforts at consular 
posts abroad, where State Department officials have the first 
opportunity to identify dangerous travelers. Late last year, 
the Department of Homeland Security took steps to enhance the 
requirements of the Visa Waiver Program to directly address the 
new threats that we face. I commend the Department for 
proactively taking these measures.
    This hearing is an opportunity for us to examine the Visa 
Waiver Program more closely and to see if there are some 
additional steps that we can and should take to improve the 
program and to ensure that it continues to evolve and adapt as 
our enemies and their tactics do the same. We will never make 
the program perfect, but our goal should be to see if we can 
create, to paraphrase our Founding Fathers, a more perfect 
program.
    This hearing is also an example to remember that the Visa 
Waiver Program does not exist in a vacuum. There are many 
layers to the Department of Homeland Security's system for 
securing our borders. That includes robust intelligence 
collection and analysis, passenger prescreening, and 
inspections by Customs and Border Protection (CBP) officers at 
our ports of entry (POE). Each of these layers contributes to 
our overall security.
    But we should strive for smart improvements where we can. 
With each of the Department's key programs, however, we must 
strike the appropriate balance between security and commerce, 
between risk and opportunity.
    Again, we appreciate you holding this hearing, Mr. 
Chairman, and for all who have joined us here today. And, 
again, thank you, Kelly.
    Chairman Johnson. It is the tradition of this Committee to 
swear in witnesses, so if you will stand and raise your right 
hand. Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Chertoff. I do.
    Mr. Frey. I do.
    Mr. Jenkins. I do.
    Chairman Johnson. You may sit.
    Our first witness will be the Honorable Michael Chertoff. 
Mr. Chertoff served as Secretary of the Department of Homeland 
Security from 2005 to 2009. Currently he is the executive 
chairman and co-founder of the Chertoff Group.
    Mr. Secretary, please proceed.

TESTIMONY OF THE HONORABLE MICHAEL CHERTOFF,\1\ CO-FOUNDER AND 
             EXECUTIVE CHAIRMAN, THE CHERTOFF GROUP

    Mr. Chertoff. Thank you, Mr. Chairman, and thank you, 
Ranking Member Carper. It is a real privilege to be back in 
front of this Committee again, and I am delighted to be of 
assistance here. I would just observe that my views here are 
based on my experience as Secretary of Homeland Security as 
well as the experience I have had since I left, and as the 
Chairman pointed out, I do chair a security and risk management 
company that advises on a wide range of security matters, 
including some of those that are touched on here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chertoff appears in the Appendix 
on page 212.
---------------------------------------------------------------------------
    I think as both the Chairman and the Ranking Member pointed 
out, we obviously are at a dangerous period of time now. And to 
go back to the Visa Waiver Program, at the time it was first 
created, it was when we were mainly focused on the issue of 
people coming into the United States and overstaying their 
visas. And we were looking to find out a way to maybe expedite 
for those countries where the risk of overstays was considered 
to be low.
    After September 11, 2001, obviously the issue of terrorists 
and violent actors coming into the country became a much more 
important feature of what we do with our border security 
program. And certainly now with the spread of Islamist 
terrorism in other parts of the world and the issue of foreign 
fighters, it is a very opportune time to look at the program 
and make sure that it is operating robustly.
    I think the good news is that the program, as Senator 
Carper said, is part of a series of layers. While we do not 
have the interviews you have when you typically give visas out, 
we have many more tools that we put into place since September 
11, 2001 that give us good visibility into who comes into the 
country. And, in particular, there are three tools I would want 
to talk about.
    One is the Electronic System for Travel Authorization 
(ESTA), which we put into effect when I was Secretary of 
Homeland Security. Secretary Johnson recently added some 
additional information to be collected, and the purpose of this 
is to allow us to get some advance notice of people who are 
eligible to come in under visa waiver, but as to whom with some 
biographic data we can run against various intelligence 
databases. And that gives us a little bit of early warning and 
an ability to triage with respect to people that need a closer 
look.
    In fact, just earlier this year, somebody seeking to come 
across the land border who was a person of interest was able to 
be observed and detained because we had that advance word from 
the ESTA Program. So that has worked as an effective tool in 
giving us some advance warning for our intelligence analysis.
    Added to that is the collection and analysis of Passenger 
Name Record (PNR) data. That is data that is collected by the 
airlines. It includes information about contact, telephone 
numbers, residence, past travel, method of payment, and how 
payment is executed. And, again, these data items, although 
they are not particular intrusive, when added to the 
intelligence we collect from a wide variety of other sources, 
give us an ability to show linkages between people coming into 
the United States and others who we know to be terrorists.
    In fact, we ran an experiment when I was Secretary looking 
back at the 9/11 hijackers to see whether we would have been 
able to establish links among them had we had the PNR program 
in effect at the time that they were coming into the country. 
And at least 11 of them we would have seen connected to each 
other and connected to potential terrorists. So this is a 
program that works, and it creates an additional layer of 
defense.
    Finally, as members of the Committee know, we have the US 
Visitor and Immigrant Status Indicator Technology (US-VISIT) 
Program. We now collect biometrics when people arrive at the 
port of entry. We have very skilled Customs and Border 
Protection inspectors who use their ability to question people 
as an additional way of ferreting out risk. And these layers 
taken together I think have been quite successful, if we look 
back historically, in keeping dangerous people out of the 
country.
    I should observe, of course, this does not address the 
issue of U.S. citizens who might be coming back from other 
places in the world. They obviously do not have to give their 
fingerprints. We do get their Passenger Name Record data, and 
that also gives us at least some ability to screen them as 
well.
    There are a couple of other things we are in the process of 
doing and can do to, again, further shore up our security. One 
is to expand preclearance overseas. Currently, preclearance is 
available in 15 foreign airports in 6 countries, and that, just 
for the record, is a system in which people essentially go 
through the customs and immigration process before they get on 
the airplane. That not only gives us more time to evaluate 
people, but it actually enhances aviation security because we 
can use some of the tools we use at the border before people 
get on the airplane.
    I also have to say that it is critically important to 
continue to support our intelligence collection measures, which 
are a very important tool in doing what we do to secure the 
border.
    Let me conclude by just making two observations. Senator 
Carper rightly pointed out the economic benefits that accrue 
from the Visa Waiver Program, but there is also a national 
security benefit. I have had the occasion to be over in Eastern 
Europe and in Central Europe over the past year, and it is no 
secret that Vladimir Putin is putting on a very big push to try 
to woo Eastern and Central Europeans away from the alliance 
with the United States. And there is a lot of anti-Americanism 
now which he is propagating in the region.
    One of the best tools we have to keep the hearts and minds 
of the Central and Eastern Europeans oriented to the West and 
to the United States is the Visa Waiver Program. Every time I 
go over, I hear from people how grateful they are and how much 
it means to them to have been admitted to the program. To them 
it is the final badge of having joined the West. And for us to 
undercut that program would be giving Putin maybe the best gift 
he could get from a propaganda standpoint. And so I think from 
that perspective as well, this is a very important program for 
the United States.
    Thank you very much. I am happy to answer questions.
    Chairman Johnson. Thank you, Mr. Secretary.
    Our next witness is Marc Frey. He is the Senior Director at 
Steptoe & Johnson LLP and former Director of the Visa Waiver 
Program. Dr. Frey.

TESTIMONY OF MARC E. FREY, PH.D.,\1\ SENIOR DIRECTOR, STEPTOE & 
                          JOHNSON LLP

    Dr. Frey. Thank you, Chairman Johnson, Ranking Member 
Carper, Members of the Committee. It is an honor to be here 
today, in particular to be on this distinguished panel. I was 
at the Department directing the Visa Waiver Program during the 
time we implemented many of the reforms that the Secretary just 
talked about, and so I want to spend a few minutes this morning 
talking in a little bit more depth about those reforms, because 
as you both noted, this is a timely hearing, and it is our 
responsibility to continually evaluate security programs like 
the VWP to see what we can do better and make sure that they 
are adapted to the current threat environment.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Frey appears in the Appendix on 
page 219.
---------------------------------------------------------------------------
    I think the good news in this case is that there is a 
history of Congress and the Executive Branch working together 
with the VWP to do just that, most notably in 2007, and that 
led to some of the enhancements like ESTA and a few others, 
which I want to spend a few minutes talking about, because, in 
my view, education about the VWP is critical. How it works, it 
is often misunderstood. Perhaps that has something to do with 
the name. People think ``waiver,'' and the view is, well, you 
can just wave a passport and get on a plane and come to the 
United States and security requirements are waived as part of 
the program.
    As the Secretary indicated, and as I am sure we are going 
to hear from other panelists, that is precisely the opposite of 
the case. The Visa Waiver Program does waive a consular 
interview, but it puts a number of other security measures in 
its place to compensate for that. And it puts requirements on 
both individual travelers and, equally important, on the 
countries that they come from. So I just want to spend a minute 
or two talking about what those additional security 
requirements are so we can fully understand what the Visa 
Waiver Program does and use that as the basis to think about 
common-sense improvements to it in today's environment.
    So the first security component I would mention is ESTA. 
The Secretary already pointed to this Electronic System for 
Travel Authorization that allows individualized prescreening of 
travelers, so we know when they are coming, they have to go 
online and submit information, and DHS runs that against a 
number of security and law enforcement databases.
    The Visa Waiver Program also mandates information and 
intelligence sharing with participating countries, and that is 
good on its own, but it is equally--or it is even better, I 
should say, in part because DHS is able to use that information 
to inform the ESTA vetting, the idea being that the United 
Kingdom or France, for example, would have a better idea of the 
bad guys in their country than we would, and they are required 
to share that information with us, and we use that to improve 
our vetting and screening processes.
    The third element that I think is important to talk about 
is the secure travel documents, in particular the electronic 
passports incorporating biometric elements--fingerprints and 
digital photographs--that help assure identity of travelers 
under the Visa Waiver Program. If you are coming from a non-
visa waiver country, you do not have these same documentary 
requirements to ensure secure passports.
    And the final thing--and this often gets lost--is the Visa 
Waiver Program mandates audits and assessments of participating 
countries, both prior to designation and then continuously 
during--at least every 2 years to maintain eligibility. And 
having participated in quite a number of these assessments, 
they are in-depth. A DHS-led interagency team goes to the 
country for perhaps as long as a week, meets with 
counterterrorism officials, security officials, views aviation 
security procedures, border security procedures, passport 
production and issuance procedures, and that not only gives us 
visibility into how member countries operate these systems; it 
also gives us the opportunity to suggest improvements if the 
audit finds things that are lacking or that are not up to U.S. 
standards. And that is an extraordinarily powerful tool to 
ensuring that these standards in these countries and global 
travel standards more broadly are up to our standards.
    So with that as a background, I would say there are things 
that we can do with respect to the Visa Waiver Program. We have 
already talked about one of them. DHS last fall added new data 
fields to ESTA to help with the screening. I think that is a 
good idea and something that can continually go forward as we 
find we need more information to improve the vetting. There are 
other things that can be done such as tightening some passport 
security requirements. There is a small loophole in the current 
program that allows an increasingly small number of travelers 
in the program not to have these electronic passports.
    We can take some measures that were formerly discretionary 
in the law but which are, in fact, implemented by DHS in 
practice and make them mandatory to increase DHS' leverage over 
these countries if we find something. And we can talk about 
more of those during the question-and-answer period. I would 
just reiterate what the Secretary said in particular. There are 
ways to reform the program sensibly, but we should not lose 
sight of the fact that it works, and we should not lose sight 
of the fact that steps to end, suspend, or terminate the 
program would have security consequences that would really 
undermine our security, to say nothing of our diplomatic 
relationships and our economic security as well.
    So with that said, thank you again for letting me testify 
today, and I look forward to answering any questions you may 
have.
    Chairman Johnson. Thank you. I mispronounced your name Dr. 
Frey. I apologize.
    And I have also been made aware of the fact that the 
Ambassador of Poland, Ambassador Schnepf, is in the audience as 
well, and I realize that Poland has certainly an interest in 
this hearing as well, and I think we are sensitive to that.
    Our next witness is Brian Jenkins, a Senior Adviser to the 
RAND president at the RAND Corporation. Also, he is a Research 
Associate at the Mineta Transportation Institute, where he 
directs the continuing research on protecting surface 
transportation against terrorist attacks. Mr. Jenkins.

 TESTIMONY OF BRIAN MICHAEL JENKINS,\1\ SENIOR ADVISER TO THE 
                PRESIDENT, THE RAND CORPORATION

    Mr. Jenkins. Chairman Johnson, Ranking Member Carper, 
distinguished Members of the Committee, thank you very much for 
the opportunity to address this important subject today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jenkins appears in the Appendix 
on page 228.
---------------------------------------------------------------------------
    The written testimony I have provided addresses two 
fundamental questions: One, what is the threat posed by Western 
fighters who have joined jihadist fronts in Syria and Iraq? 
And, two, what can the United States do to enhance its ability 
to identify and intercept returning foreign fighters with 
passports from European and other countries that are currently 
covered by the Visa Waiver Program?
    Let us begin with the threat. Syria's continuing civil war, 
the military victories achieved by the Islamic State of Iraq 
and the Levant (ISIL), and, above all, ISIL's announced re-
creation of the Caliphate have attracted would-be jihadist 
warriors from around the world.
    According to the latest estimates, 20,000 foreign fighters 
have gone from other countries to fight in Syria and Iraq. Most 
are believed to have joined ISIL. If that number is close to 
correct, then foreign fighters now comprise a large portion of 
ISIL's total strength. Most of these are volunteers coming from 
other Arab countries, but more than 3,000 come from Europe and 
other Western countries and, therefore, may be eligible to 
enter the United States without a visa.
    This is a dangerous bunch. ISIL recruits individuals who 
are not repelled by graphic images of mass executions, 
beheadings, burnings, and who indeed may be attracted by the 
opportunities to participate in that kind of violence. And that 
is going to pose a long-term terrorist threat.
    For now, rather than sending fighters abroad, ISIL appears 
more focused on the expansion and defense of the territory it 
controls as the Islamic State. However, ISIL may at some point 
alter its strategy and, of course, its defeat could shatter the 
enterprise into a host of small, desperate groups bent upon 
revenge.
    Some ISIL fighters will migrate to other fronts. Western 
volunteers may try to come home. Fortunately, the number of 
individuals coming from the United States to jihadist fronts is 
low, between 100 and 150, according to the most recent 
estimates. They add a layer of threat, but given they are still 
modest numbers, it is manageable, I think, within existing law 
and resources. And as our focus here is on visa waiver, 
returning Americans are a separate problem, although one that 
should be part of an overall strategy.
    As Secretary Chertoff has pointed out, there are several 
lines of defense, each of which offers opportunities to 
intercept foreign fighters. The first consists simply of all 
international efforts, here and abroad, to reduce the number of 
volunteers going to jihadist fronts. Second, the United States 
could also and is pushing to increase international efforts to 
prevent their return, not come back here but simply to come 
back to their countries of origin. Right now, Turkey is key to 
stemming that flow.
    Meanwhile, intelligence sources may identify groups engaged 
in planning terrorist attacks against the West and try to 
disrupt their plots there instead of here.
    Lists of names derived from intelligence sources are 
currently the primary mechanism for identifying returning 
foreign fighters. We need to be sure we know who has gone and 
who has come back.
    Now, America's visa waiver partners do share our concerns. 
In the wake of the recent terrorist attacks, European nations 
have taken steps to reduce radicalization, improve 
intelligence, increase criminal penalties, impose 
administrative measures to prevent travel, and enhance 
information collection and sharing.
    The Electronic System for Travel Authorization offers the 
rough equivalent of a visa application, and information through 
ESTA, as the Secretary has mentioned and Dr. Frey has 
mentioned, is checked against terrorism databases. Matches have 
been found, preventing potential terrorists from entering the 
United States.
    Pre-boarding passenger screening also offers possibilities. 
We currently rely on matching names with current watchlists. 
What about the instances where we do not have a name on a list?
    The Transportation Security Administration (TSA) has 
invested in a number of measures aimed at screening and 
behavioral detection training. There are a number of new 
technologies based upon detecting subtle physiological 
responses to prompts. These are in development, but we still do 
not have an X-ray for a man's soul.
    Instead of flagging those who may pose higher risk, we can 
try to identify populations of passengers who pose minimal 
risk, thereby allowing security officials to more efficiently 
focus their efforts.
    Preclearance procedures, which the Secretary has mentioned, 
allow passengers to complete immigration and customs 
formalities before boarding. They provide opportunities for 
observation and interviews.
    Arrival screening and secondary interviews by U.S. 
immigration and customs officials offer the final line of 
defense before entry into the United States. And if all else 
fails, arriving terrorists would still have to acquire weapons 
or explosives here, which would increase their risks of 
exposure to domestic intelligence efforts.
    Now, no doubt many of these elements, as has been 
mentioned, are already being examined by those in government. 
But from the perspective of congressional oversight, it is 
worth asking whether such examinations are, in fact, occurring, 
and the challenge for us will be to integrate them into a 
national strategy.
    Thank you.
    Chairman Johnson. Thank you, Mr. Jenkins.
    I will start with the questioning. We are comparing a Visa 
Program versus a Visa Waiver Program. I would like whoever 
thinks they are best to answer this question. I want that exact 
comparison. Mr. Jenkins, you talked about lines of defenses. 
Compare, for example, what happens today in Poland where they 
do not have a Visa Waiver Program in terms of one of their 
citizens trying to get into the United States. What are they 
going through versus what is a citizen of the United Kingdom 
going through? And where is the enhanced security versus where 
are the vulnerabilities of going through the actual visa 
process versus the visa waiver? Let us start with you, 
Secretary Chertoff.
    Mr. Chertoff. I would say, Mr. Chairman, the main 
difference is in the interview. What ESTA does in effect is it 
collects the same basic information you would normally collect 
in a visa process, but you will have an interview with a 
consular official if you are in a visa country. That often 
tends to be, from a scheduling standpoint and a distance 
standpoint, a little bit of an impediment, which is one of the 
reasons countries like to be in the Visa Waiver Program.
    Now, does an interview at the time of the visa add 
something? Yes, although we do interview people when they come 
into the United States, and if we do preclearance, we interview 
them before they board the plane.
    Is the interview foolproof? No. I mean, if you look back to 
9/11, some of the hijackers got into the country with visas. 
They were obviously interviewed.
    So I would say the marginal value of the interview, at 
least as it relates to terrorism issues, is to my mind not 
great. And remember, the process of having these kinds of 
interviews originally began at a time we were focused on people 
who were going to overstay. They were going to come to the 
United States and not leave, and they did not have a job at 
home, although, I do not want to understate the value of the 
interview, particularly in some countries. And I know we have, 
for example, DHS personnel in some of the Middle Eastern 
countries who do some interviewing and some work with the local 
intelligence agencies. I think at least as it relates to 
Western Europe, it is of marginal value. But the measures put 
in place since then coupled with our better intelligence 
analytic capabilities I think largely closes that gap.
    Chairman Johnson. During those in-person interviews, 
basically do we fill out an ESTA application so that the result 
of that is you basically go into the exact same process, exact 
same security system as we have with the Visa Waiver Program 
but you just have that additional in-person interview? Is it 
the exact same way that way, or are there differences? Dr. 
Frey, you are shaking your head.
    Dr. Frey. Yes, I am sorry. I am nodding. Yes, Chairman, 
that is generally right. I would say a couple of points to 
that.
    One, the VWP deals with one particular category of visa, 
the so-called B visa for business or tourism purposes up to 90 
days. So even in visa waiver countries, if personnel are coming 
for other reasons, they still have to go through the visa 
process. Just so we are clear on the scope of what we are 
talking about. And ESTA gives us and gives the government 
enough information to run the vetting against the same 
databases that the visa applicants are run against. There are 
other questions on the visa form, but most of those related, as 
the Secretary noted, to economic issues, do you have a job at 
home, do you have a house, things like that. And so the vetting 
is precisely the same. And then once you are done with that 
process, the layers that we have been hearing about that CBP 
performs, the PNR vetting, the airline information vetting, the 
vetting done at the ports of entry, that is precisely the same 
for all travelers, whether they come with a visa or with a Visa 
Waiver Program.
    And I guess the final thing I would add, for an apples-to-
apples comparison, is the interview, which, again, you should 
not discount the interview, but that happens the first time you 
apply. And many of these citizens from these countries get 10-
year visas that are good for multiple entries during those 10 
years.
    So after that first time, it is essentially like VWP anyway 
without the additional ESTA every 2 years.
    Chairman Johnson. With 40 percent of travelers going 
through the Visa Waiver Program, with that statistic, with that 
reality right now, are we already having backlogs in certain 
embassies in terms of the non-visa waiver countries where there 
may be pressure on embassy and consulate personnel to quickly 
do an interview and not be as thorough as what might be 
required with the Visa Waiver Program? Is that a possibility? 
And if we were to move away from a Visa Waiver Program, would 
we start overwhelming the system and potentially reduce 
security? Mr. Jenkins.
    Mr. Jenkins. In all of these matters of the screening 
processes and intelligence processes, volume is an issue. And 
if we were to take the statistics that were cited at the 
introduction to this hearing, if we were to take the 19 million 
people currently traveling to the United States on the Visa 
Waiver Program and dump them back into the consular interview 
process, we would either have a tremendous backlog or we would 
end up really overwhelming the consular capability to handle 
that kind of volume, and then you worry about an erosion of 
performance.
    So while I agree that the interview process is an important 
component to expand its capacity to deal with the kinds of 
volumes that it would be faced with, it would not guarantee us 
necessarily an improvement in performance.
    Chairman Johnson. I am concerned right now. Are there 
countries where there is such a backlog? Have you heard reports 
where people are not being thoroughly interviewed, where even 
just the visa system itself might create a greater security 
risk than having a Visa Waiver Program?
    Mr. Chertoff. I think probably the State Department is best 
positioned to answer this, but I have certainly heard over the 
years in certain countries complaining about long wait periods, 
the lack of availability of consular offices in remote areas. I 
think they have moved to some degree to doing it via, 
telepresence of some kind. But all these things do wind up--
there is a risk of eroding the value of the interview. And, 
again, the more skilled the person trying to get in is, the 
harder it is to detect it.
    So there is no question that dumping more people into the 
system would run the risk of actually affecting even those 
interviews that continue to operate in visa waiver countries 
because, as Dr. Frey said, we do interview for visas other than 
the quick tourist or business visa.
    Chairman Johnson. OK. Well, Mr. Secretary, I went a little 
over time. I know you have to leave for a plane. Having been 
the Secretary--boy, I just lost my train of thought in terms of 
what I wanted to ask you. I am not kidding. I will come back 
right after Senator Carper.
    Senator Carper. Where are you going on the plane?
    Mr. Chertoff. I am headed to the Midwest.
    Senator Carper. All right. Good.
    Mr. Chertoff. I do not need a visa to go there.
    Senator Carper. Good. I just want to follow-up on the 
Chairman's question. Folks on our Committee here and my staff 
hears me say ad nauseam, find out what works, do more of that; 
find out what does not work, do less of that. And I like to 
quote the former football coach for the Green Bay Packers, 
Vince Lombardi, who used to say, ``If we are not keeping score, 
we are just practicing.'' So I want to talk about keeping 
score. I want to talk about how we measure success and how do 
we know that this is a successful program, and that would be 
just for you, Dr. Frey, and Mr. Jenkins. How do we know this is 
working?
    Mr. Chertoff. Well, I guess the best measure is we have had 
very little penetration into the country by people who have 
been able to evade our current systems and come in and carry 
out terrorist acts. I lived through the 2006 aviation plot, 
which, as you will recall, involved efforts to blow planes up, 
I guess a dozen planes going from Heathrow to the United 
States. That was foiled in Great Britain. But we were able to 
use the data and the information that we had collected using 
these kinds of systems like PNR to assure ourselves there were 
no people operating in the United States and to allow us to 
restore the aviation system very quickly.
    To be honest, the cases we have had here where people have 
carried out or attempted to carry out terrorist attacks have 
largely been U.S. citizens or people who are permanent 
residents who do not go through that system.
    So I think that is the best measure of success. As I 
indicated earlier, I had a recent example this year of somebody 
caught from this system. I think the PNR data has generated our 
stopping people or preventing them from coming in. I do not 
have the most recent statistics, but I do know that we monitor 
those things very carefully to make sure that the program is 
effective.
    Senator Carper. All right. Thanks.
    Dr. Frey, do you want to add anything or take away anything 
there?
    Dr. Frey. Thank you, Senator. I guess I would just add that 
if you are looking to measure success, let us think about 
examples over the last few years or perhaps even decade of 
people abusing the Visa Waiver Program and posing a security 
threat. And, frankly, I cannot think of one except going all 
the way back to Richard Reid, the so-called Shoe Bomber. When 
was that? December 2001, well before any--not any, but most of 
the security enhancements we have been talking about today were 
put into place. And, in fact, it was incidents like that which 
led to precisely these security enhancements.
    So I would say that the measure is that it has now been a 
decade and a half or so since we have had at least a public 
issue with respect to someone trying to abuse the Visa Waiver 
Program.
    Senator Carper. Good.
    Mr. Chertoff. And I would actually add one thing, because 
we did have the so-called Underwear Bomber in 2009, but he came 
from a non-visa waiver country. He was based in Nigeria. So, 
again, even getting a visa is not a foolproof system.
    Senator Carper. All right. Thanks.
    Mr. Jenkins, do you want to add anything, just briefly?
    Mr. Jenkins. No, just the analytical problem here. It is 
always difficult to measure success because we cannot count 
things that do not occur. But the fact is if we do look back at 
the history, let us say, going back to 9/11, No. 1, most of the 
events that have occurred here have been carried out by U.S. 
citizens, and it has not been--with the exception of the one 
event that Dr. Frey talked about, we have not had people coming 
in on visa waiver that have carried out attacks in this 
country.
    Senator Carper. OK. This program has been around for a 
while, as we said earlier, and each of you has mentioned 
enhancements that have been made to it. This is not our 
grandfather's Visa Waiver Program. It is quite different.
    In addition to the enhancements that have been made, each 
of you has mentioned--one or two of you have mentioned 
enhancements that perhaps could be made or should be made. One 
of the things I like to do in a hearing of this nature with 
smart witnesses, experienced witnesses, is to see is there any 
consensus among the three of you as to what further we should 
do or the Department should do to make it even better?
    Mr. Chertoff. Well, again, I think from a legislative 
standpoint, I think Dr. Frey pointed out that there are some 
things that are discretionary on the part of DHS that putting 
into law has some particular value, and that is because 
particularly when we require other countries to cooperate with 
us, supply information or things of that sort--and I spent a 
considerable amount of time when I was in office negotiating 
with other countries--sometimes having a legislative 
requirement as opposed to an administrative requirement gives 
you a little bit more leverage to say, look, we have to do 
this, it is a matter of law.
    So to me, I think it is a great area where the Department 
can cooperate with the Committee and say, look, here are some 
areas that we would like to pursue; if they can be embodied in 
an authorization bill, that will give us a better ability to 
work with countries overseas and make sure they cooperate with 
us.
    Senator Carper. Thank you.
    Dr. Frey, same question. And you can agree. You can just 
say, ``I agree with him.''
    Dr. Frey. Well, of course I do. [Laughter.]
    I do think that is right. I think there are some things DHS 
can do and has done on their own, and we have talked about the 
changes to ESTA, and I think they can continue to do things 
like that, and should.
    But, for example, one of the things where they probably 
could do it by themselves but where legislative backing would 
be useful is closing this passport loophole that I mentioned. 
And just to discuss that very briefly, all Visa Waiver Program 
travelers for the most part are required to use these 
electronic passports. There is a small percentage who have a 
passport issued prior to October 2006 that, because of the way 
the law was implemented, were grandfathered in. That number is 
decreasing every day because those passports are expiring, and 
once you have to get a new one, you must get an electronic 
passport. But there are still people who potentially have one 
of these older-style passports.
    DHS could probably decide to change that policy on its own, 
but that may be--because it will affect a number of people, may 
be something that legislation helps.
    Senator Carper. Good. Mr. Jenkins.
    Mr. Jenkins. First would be fully exploiting the PNR data 
that we get. I served on the White House Commission on Aviation 
Safety and Security, and we had recommended the introduction of 
the Computer-Assisted Passenger Prescreening System, which 
worked for a while, but it has been changed over the years. It 
depended primarily on information from the PNR.
    The PNR itself is being changed in Europe. They are adding 
fields to it, and they are looking at longer periods of 
retention, and we should make sure that we are able to take 
advantage of the improvements that they are making, and that we 
look at how we can tweak or develop algorithms that will enable 
us to focus on the specific issue of returning foreign 
fighters, not simply those, as we used it before, who might 
sabotage an aircraft or hijack an aircraft, but looking 
specifically at that issue.
    The other thing is that the United States is a big, complex 
government, and it has all of these bits and pieces. You really 
have to think of how we can take all these pieces and 
incorporate them into a national strategy focused on this 
specific issue. So making sure all of the components are 
working together to contribute to an overall strategy of 
intercepting foreign fighters I think is something we need to 
look at.
    Senator Carper. Great. I am going to slip out. We have a 
Finance Committee hearing going on right now on tax reform, and 
it is an ongoing hearing. It has been going on about 20 years, 
so I want to be a part of that. But I will be back in. So if I 
miss you before you leave, thanks a million. Thanks for your 
service to our country. Good to see you all. Thank you.
    Chairman Johnson. Thank you, Senator Carper. My senior 
moment passed almost immediately. The reason I wanted to catch 
the Secretary before he leaves, coming from a manufacturing 
background, I am familiar with ISO certification, and that 
occurs--I think the full audit is once every 2 or 3 years, but 
then you have 6-month surveillance audits. In testimony in 
prior meetings, these evaluations, these audits, occur every 2 
years. Would it be much of a burden to go in with a skinnied-
down team, at least doing a surveillance audit every 6 months 
just to keep things up to date? Would that have value or would 
that be too great a burden on the Department? Would that be a 
good idea?
    Mr. Chertoff. I think in terms of the Department's current 
resources, you will have to ask them in terms of, obviously we 
are all living in a time of budget discipline, and all these 
things cost money. I think, within reason, increasing the 
frequency at least of light surveillance audits always adds 
value. The challenge is, of course, if you are overseas and 
dealing with host countries, they have their own issues. But I 
think in principle, at least asking the question and saying 
what additional could be done between 2-year periods is a good 
way of remediating problems that may be cropping up that you 
are not aware of. And I would say that after what happened in 
Europe in the last few months, the Europeans may be more in a 
mind-set to work with us on that than would have been the case 
perhaps a couple of years ago.
    Chairman Johnson. Thank you. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chairman for holding 
this hearing, and I want to thank all of you for being here 
today. And I wanted to get your thoughts on the issue of the 
roughly 3,000 estimated so-called Western foreign fighters that 
would include even countries, like France and others in the 
European context. The issue that troubles me I do not think 
goes directly to the Visa Waiver Program, but I think all of 
you can help me understand how it fits with that and what we 
can do about it, and that is the issue--if you look at, for 
example, the Charlie Hebdo attacks, you have individuals in 
France, but the allegations are that some of them traveled to 
Yemen to get training with al-Qaeda in the Arabian Peninsula.
    So those borders are relatively porous. Whether you are 
trying to go into Syria through Turkey or some other means or 
you are slipping into Yemen, how do we get at information and 
how does the Visa Waiver Program assist us or not assist us 
overall in not only, where is your country of origin, where is 
your home, what are you doing right now, but to indicate 
whether they have country hopped and whether they have traveled 
to other countries and received training?
    Now, to me, that goes to the heart of intelligence, and I 
will tell you, Secretary Chertoff, in having in both classified 
and unclassified settings asked our intelligence officials 
about this issue, we are not getting full information. They 
cannot tell me--they know more about the American citizens than 
they do necessarily about the Europeans. And so if you can help 
me understand, how do we in the context of the Visa Waiver 
Program look at that particular country-hopping issue, to have 
the information, to ensure that we know what someone's history 
is when they come in?
    Mr. Chertoff. This is a challenging area, and I think you 
are quite right to focus on it. Part of it is, of course, what 
the Europeans themselves collect. Part of it is the fact that, 
we in the United States have an advantage that at some point if 
you want to get to the Middle East, you are going to have to 
cross an ocean. And unless you swim, you are going to need to 
get on an airplane.
    Senator Ayotte. Right.
    Mr. Chertoff. So that is going to be data somewhere. Not 
true in Europe, and there are--not only Turkey but, for 
example, Greece I think does not have a particularly robust 
system.
    Senator Ayotte. Right.
    Mr. Chertoff. So I would say there are a number of measures 
that need to take place. One is the Europeans need to raise 
their game a little bit, and we need to have not only more 
exchange of information about the kind of travel you are 
describing, but we need to help them collect better. Now, that 
is only going to deal with part of the problem. The other parts 
of the problem will deal with people who transit, let us say, 
by getting on a boat, which you can do in a place like Greece 
and Turkey and going someplace else. But that is where 
financial data, communications data, things like that give you 
additional granularity.
    Now, that plunges us into this big controversy about the 
collection of meta data, and I must tell you that the ability 
to collect meta data is a huge advantage, and efforts made to 
prevent us from doing that in Europe is really a problem.
    Senator Ayotte. And that is in the wake of the Edward 
Snowden revelations.
    Mr. Chertoff. Correct. And part of the problem is people 
ask the wrong question. They say, well, does the collection of 
this data lead immediately to the disruption of a plot? That is 
not what the data does. What it does allow you to do is exactly 
what you are talking about: look at communication, finance, and 
travel arrangements that are held in databases and see whether 
these indicate that somebody has an unexplained absence, a 
disruption of behavior, or some indication that money or 
communications are emanating from a place like Yemen. It does 
not mean that the person does not have an innocent explanation, 
but that is exactly what you need when you are looking for a 
needle in a haystack.
    And I guess my bottom line is if you are looking for 
needles in haystacks, you have to make sure you have the whole 
haystack. And that is an area where I think we and the 
Europeans need to make sure we are not handicapping ourselves 
because of the Snowden stuff.
    Senator Ayotte. Other thoughts?
    Mr. Jenkins. A couple of things. Some of the problems that 
were illustrated in the Charlie Hebdo attack, first of all, the 
French authorities in particular--and there is a handful of 
countries in Europe that are just sending tremendous numbers of 
foreign fighters.
    Senator Ayotte. Right. France happens to be one of them.
    Mr. Jenkins. Right. And they are really being overwhelmed 
to a degree by volume. Indeed, there was a public statement 
most recently by the Prime Minister of France that said he 
would not be surprised to see the number of fighters from 
Europe going to the so-called Islamic State increase to 10,000 
by the end of the year. So these are just huge numbers, and it 
is difficult to keep them under surveillance and keep track, 
effectively monitor all of them.
    The second problem that they have that was apparent in the 
Charlie Hebdo attack is persistence. I mean, the Kouachi 
brothers had been on the French radar for more than 10 years 
before this attack. They had been arrested. One of them had 
served time in jail. They had been under surveillance for 
years, and----
    Senator Ayotte. And I believe one or more of them were also 
on our no-fly, so that is a good thing.
    Mr. Jenkins. Yes. They were on our list as well, and so the 
problem is, as I say, this persistence. This is a long-term 
issue, and because somebody does not necessarily do something 
for 6 months does not necessarily mean they should fall off the 
radar. Now, that creates some dilemmas for civil liberties, I 
realize, but it is an issue.
    The second thing--and Secretary Chertoff referred to this--
in terms of land borders, we can be of assistance to a number 
of our European allies, particularly those who are on the front 
line, Greece and Bulgaria, who have land borders with Turkey, 
and help them deal with this issue. We are, I understand, 
providing some training now to some border security issues in 
Bulgaria. We can also work with Turkey, because, as I say, they 
are on the front line. And I understand that the cooperation 
there is improving recently.
    The third area is in terms of these roundabout, indirect 
travel ways. The young man who carried out the attack on the 
Jewish museum, killing people in Belgium, he had gone on a 
roundabout way of travel, and so this is not simply looking at 
trying to plug these gaps by looking at visa waiver countries, 
but being able--and this is where PNRs become helpful; this is 
where intelligence sharing becomes helpful--to be able to pick 
up people who may fly from the Middle East to Southeast Asia 
back to another country and then up into yet another country, 
not necessarily their home European country. And so we want to 
be able to pick that up.
    And then, finally, this issue of sharing, this is always a 
complicated business in the area of intelligence, the sharing 
arrangements, but the Europeans are having some difficulty 
sharing information with each other on this issue. Intelligence 
is one of the last bastions of sovereignty, and in some cases, 
because of visa waiver, it is easier for them on a bilateral 
basis to share with us than it is to join a common 28-nation 
European sharing system. And so we have to be able to help out 
in this.
    Senator Ayotte. I am sorry. I know my--go ahead.
    Dr. Frey. I am sorry, too. I just wanted to elaborate on 
two quick points, particularly with what Mr. Jenkins said.
    No. 1, information sharing and intelligence sharing is a 
requirement of visa waiver countries, and that gives us 
potential leverage. For example, if the intelligence community 
or if DHS is reporting, well, we are not getting everything we 
think we should be getting, the VWP allows you to use that tool 
to say, well, you are required to do so, please give it to us.
    And the second thing I would add quickly is the inspections 
and the audits we talked about give our government much greater 
visibility into which of these countries do this well, identify 
and track foreign fighters, and which do not, which then leads 
to, OK, we need to help Greece with additional training or we 
need to help Belgium put in a system to help track fighters. So 
we would lose that visibility into how these countries do this 
work without the insight the Visa Waiver Program gives us.
    Senator Ayotte. I know my time is well expired, but I hear 
two things from asking the three of you these questions.
    No. 1, to Secretary Chertoff's point that perhaps we can 
put legislatively the intelligence-sharing requirement rather 
than just through the Department rulemaking, and a way we can 
work with the Department on that to allow them to sort of say 
here is the teeth of what we need to do to fulfill our 
responsibility.
    And, second of all, I think perhaps working together better 
on the PNR information and sharing among countries and our own 
gathering of that information as we look at the challenge of 
people kind of traveling around in different areas.
    Thank you.
    Chairman Johnson. Thank you, Senator Ayotte. Senator 
Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you, Mr. Chairman. And thank you, 
Senator Ayotte, for initiating this very important discussion. 
It is great to see the panelists, and I appreciate your 
testimony so far.
    I just want to hone in on one issue around illegal 
immigration and the problem we have in this country. So much of 
the focus is border crossings on our Southern Border, but the 
reality is about 40 percent of the illegal immigration 
population is due to visa overstays.
    So, again, being a little bit new here, I know there have 
been lots of congressional committees that have requested 
individual overstay rates for VWP countries. However, the 
Department of Homeland Security has not provided this data, 
citing a lack of confidence in the collection figures.
    Mr. Chertoff, I understand you are leaving, and you would 
not need a visa to come back to Jersey, either. But could you 
maybe shed some light on this for me? You are no longer with 
the agency, obviously, but can you speak to why it is so hard 
to collect this, what I consider very critical data?
    Mr. Chertoff. This issue has been discussed for years now, 
and it has to do with the exit process. How do we record when 
people exit the country?
    Right now we have the biographic process for exit as 
opposed to a biometric process for entrance. So if you come in 
from a foreign country by air or by sea, you have to give your 
fingerprints. If you come in by land and you are not a Canadian 
or a Mexican, you have to give your fingerprints. But there is 
no exit requirement. There is no requirement to give your 
fingerprints when you leave.
    In the air domain, if memory serves me, we get it 
biographically, because the manifest will tell you who leaves. 
But there is always the potential that there will be a mix-up 
with respect to the name or it will not correlate with the 
entrance.
    If you leave by the land border, we do not really record 
your exit, and we have not built an exit facility. We have 
talked over the years about cooperating with the Canadians and 
the Mexicans so that they could exchange who is crossing the 
land border there, and we could get a better picture.
    In terms of putting US-VISIT biometrics in departure, the 
obstacle has typically been money, and the fact that the 
airlines have often resisted it on the ground they think it is 
going to be cumbersome.
    I will tell you, traveling around the world quite a bit, 
almost every other country I am in does have some exit process 
where you have to leave. So, again, if we had the willpower and 
the money, we could get a better sample of who leaves.
    The one thing I will, however, underscore is this: For 
understandable reasons, the emphasis has mainly been in 
preventing dangerous people from getting in. Once they are in 
and they have 90 days, let us say, legitimately to be here, 
they can do a lot of damage in 90 days. So it is perhaps to be 
expected that, to the extent that there has been an investment 
of resources, it has been largely on the preventing bad people 
from coming inside and not so much worrying about the overstays 
who are not causing harm but maybe violating the terms of their 
admission.
    Senator Booker. And ``not causing harm'' is, I guess, a 
relative term. Obviously, we are concerned about terrorism. But 
there are folks who come here legally and stay here for years 
and years and intend not to leave. One could say that is a 
violation of the law, obviously.
    Mr. Chertoff. Yes.
    Senator Booker. And it is problematic. And so I am 
wondering--and maybe, Mr. Chairman, you can comment, and also 
Dr. Frey and Mr. Jenkins as well--is there a legislative role 
for us with the Visa Waiver Program? Could Congress add a 
requirement for low visa overstay rates to be a part of the 
program and drill down more deeply in what we as Congress 
require to be a part of the program?
    Mr. Chertoff. I may be mistaken about this, but my 
recollection is that actually there was legislation at the time 
we expanded the program that requires visa exit, US-VISIT exit 
to be implemented, and the obstacle has been that money has not 
been appropriated for it. So if Congress wanted to actually 
authorize it and appropriate the money for it, I think that you 
could get it over a period of years.
    Senator Booker. Dr. Frey, do you have any thoughts on that?
    Dr. Frey. Yes, Senator. I think the Secretary is right. 
There are a number of requirements in current law both for DHS 
to publish overstay rates and for the Department to implement 
an exit system, both biographic and, then particularly with 
respect to the VWP, biometric. I am not sure what another 
requirement would do because the problem is one of resources 
primarily than it is meeting a particular congressional 
mandate.
    I do think it has been a difficult problem. There have been 
steps working with Canada, for example, to record entries into 
Canada, obviously as exits from the United States, and that has 
been kicked off in the last couple of years to help us improve 
our data.
    For Visa Waiver Program travelers, obviously 99 percent 
probably plus are by air. People do not come here via the land 
border for visa waiver. That gives us a better sense of who is 
coming and who is leaving, but the airline manifests, some have 
problems. Some airlines do a better job than others is getting 
us complete manifests or manifests without errors. But I think 
that is slowly improving as well.
    Senator Booker. Mr. Chairman, I will let Senator Ernst go, 
but I just have to say it seems with great alacrity we seem to 
appropriate a lot of money for the Southern Border. But when we 
have 40 percent of our illegal immigration coming through air 
travel, especially through air travel, through places like 
LaGuardia and this great airport in New Jersey called Newark, 
that we should be focusing some of our resources where the 
actual problem is. And I just would like to note for the record 
I hope it is something that this Committee can focus on to deal 
with that problem.
    Chairman Johnson. Well, I do not want to leave this moment 
pass here. Does anybody know what the estimated cost of that 
exit system would be? Have we had Congressional Budget Office 
(CBO) estimates of that or Department estimates?
    Mr. Chertoff. I am sure someone knows; I do not. What you 
would need to do is--and it depends on how you want to 
implement it. The good news is nowadays biometric recording 
devices are less expensive and more capable. We have those, for 
example, with global entry when you come in. So the question is 
you would have to construct a system architecturally at the 
airport that basically led people, maybe when they were 
boarding, to give their fingerprints so there would be a record 
of that for international flights.
    Then you get into issues about who actually makes sure that 
gets done. Is it the airline employees? They do not want to do 
that. So it is probably a little more complicated than I can 
give you here, but I would suspect the cost is actually going 
down, of the infrastructure, because there is simply--
biometrics are now becoming more ubiquitous, and it may be 
pretty soon you will be able to do it on your phone. So it is 
worth looking at.
    Chairman Johnson. Thank you. And we will start getting that 
information. It could be possibly part of our hearings on 
border security and immigration as well.
    Senator Booker. Thank you.
    Chairman Johnson. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman, for holding this 
important meeting today. I think this is a great discussion to 
have, very timely. I want to thank the panelists for being here 
today as well.
    I just left our Armed Services Committee hearing, and 
actually the topics really do dovetail quite nicely today 
because we were speaking with the NORTHCOM and SOUTHCOM 
commander. And as Senator Booker mentioned, we are talking 
about the Visa Waiver Program. A lot of the infractions are not 
necessarily caused by those that are traveling by land. But we 
have so many issues right now with illegal immigration, with 
human trafficking, with drugs coming in from really an open or 
porous border. So the discussion there was there are great 
concerns with this. Well, maybe not so much by air, some of 
these same types of issue, but we do have people that are 
overstaying.
    There is a great concern, though--I want to follow-up with 
what Senator Ayotte was visiting with you about--in the 
security measures that are put in place by those members in 
Europe. There was a Washington Post article in January that 
talked to some of the failures in Europe, and, I will cite one 
example. There is no European No Fly List. We have a No Fly 
List here. They do not have that. And in Belgium, their law 
enforcement, all they do is use an honor code. All you have to 
do is say, ``Oh, I am not in any trouble,'' and it is OK. They 
do not really follow-up on anything.
    So I have real concerns that we have perhaps terrorists 
that are coming in from these European nations that have very 
little security or very little method of tracking. Could you 
maybe just speak a little more to that on some of these 
European--like the honor code that Belgium has or the No Fly 
List that is non-existent in Europe? Could you please give your 
perspective on that?
    Mr. Chertoff. Well, the good news is we do not have an 
honor code. I mean, we get the data, and you give fingerprints, 
and we do vet everybody who comes in. But I will agree that I 
think in Europe there is an uneven level of security. Some of 
it is a resource constraint issue. Some of it has to do with 
laws in terms of data protection and data privacy that differ 
among the European countries.
    One of the challenges they have under the Schengen 
Agreement is once you are in Europe, you can move freely 
without a border. That is understandably a great benefit 
economically, but what it means is your ability to protect the 
population within Europe is essentially subject to the lowest 
common denominator of who guards the particular border.
    Now, I do know from talking to colleagues and friends in 
Europe that they are focused on this, and they are trying to 
raise their game, so to speak, in terms of both their perimeter 
security and their ability to monitor what goes on inside. But 
they are contending with a very strong impulse, maybe 
understandable from a historical basis, against collecting and 
maintaining and retaining data about their citizens. And I can 
tell you, again, when you are looking for the unknown 
terrorist, whose name you do not have, the ability to correlate 
what I consider to be relatively trivial data--it is not deeply 
personal. But the ability to correlate that really does give 
you insight into what are the anomalies that require a closer 
look.
    I do think, however, that we have built the visa waiver 
system and the protections that we talked about earlier with 
the understanding that there are going to be unevennesses in 
terms of what the Europeans do internally and that, therefore, 
we are not going to take it on faith. We are going to make sure 
that everybody who comes in who is a citizen of a visa waiver 
country is going to be scrutinized through the processes we 
have talked about.
    Senator Ernst. Dr. Frey?
    Dr. Frey. Thank you, Senator. I think I would, as I guess I 
have a habit of doing during this hearing, generally agree with 
what the Secretary said. Some of the practices in Europe are 
uneven. Certain countries do a better job of these things than 
others. Some of that is cultural; some of it is political and 
otherwise. And I am searching my memory in part--I do not 
recall reading the article about the Belgian honor code, but 
having participated now several years back in a review of 
Belgium for the Visa Waiver Program, I do not recall that 
coming up or hearing about that. But that has been several 
years now.
    But what I would say is that if something like it is the 
case, if we find that a particular country's standards are not 
up to our standards, are not up to what they need to be for 
Visa Waiver Program participation, the program gives us the 
ability and the leverage to work with those countries to help 
fix the problem, whether that is giving them our expertise, 
whether that is giving them some training, whether that is 
showing them how we do business successfully so that they can 
try and replicate it. And I think that is one of the real 
values of the program, because without that and in places the 
program does not exist, we are blind to those failures. So, in 
my view, it is better to at least know about them and then have 
the opportunity to either fix them or know that, you know what, 
for Belgian travelers, maybe we ought to institute additional 
restrictions--again, hypothetically, if that happens to be the 
case for Belgium.
    Senator Ernst. Yes, thank you.
    Mr. Jenkins. Just a few things. First of all, as I 
mentioned before, there are difficulties in Europe in getting 
agreement among all of the nations of the EU, and so we see a 
number of initiatives that either will affect only those 
countries that are in Schengen or in some cases smaller groups 
of nations, some of the recent initiatives are being pursued by 
the Group of Nine as opposed to the 28 European nations, 
because there are just historically and continuing, there are 
strong civil liberties-based resistance to these things that 
deal with records and data and papers and things of this sort.
    There is change going on, and this change is very recent, 
and it is being propelled by the events currently in Syria and 
Iraq. If we look at the time frame here, this exodus of people 
going from Europe to Syria and Iraq really took off in 2012, 
2013. Some went earlier than that, but at the beginning stages, 
it was as more innocent thing; that is, people going to Syria 
in response to the brutal repression of the Assad regime.
    As that has changed, it has a more malevolent component to 
it, and so the Europeans now are just catching up with this and 
putting into place a number of changes that we see taking place 
in terms of all of them have new legislation in place or 
administrative procedures to try to deal with this, because 
they are far more threatened than we are. I mean, our numbers 
are tiny; their numbers are big.
    But, finally, to underscore the point made by Secretary 
Chertoff, it is that we, the United States, do not depend on 
the levels of cooperation among the European nations. Our basis 
is their cooperation with us on the Visa Waiver Program and 
other things on a bilateral basis, on intelligence exchanges, 
and so on.
    So whether or not Germany and Belgium and France and 
another country can all get together on one thing is less 
important to us--it would be nice if they could, but--and I am 
not even sure I want to say that, because, as the Secretary 
points out, these things, when you get 28 nations that have to 
agree, tend to go down to the lowest denominator, and I do not 
think that is necessarily the acceptable level of performance 
that we would accept. So we have our own set of demands which 
we can enforce and achieve unilaterally.
    Senator Ernst. Certainly. Thank you so much, gentlemen. I 
appreciate your perspective. And thank you, Mr. Chairman. I do 
believe this is an important program. I want to emphasize that. 
This is an important program. But it is critical that we are 
protecting our folks here on our own homeland. So thank you 
very much.
    Chairman Johnson. Thank you, Senator Ernst.
    And as Mr. Jenkins was talking about, we do have the 
mechanism for enforcement. We maybe ought to take a look at 
should we strengthen those enforcements. But we have suspended 
the Visa Waiver Program three times. With Argentina and 
Uruguay, those suspensions are still in effect. We did suspend 
the program for Belgium from 2003 to 2005. So I think that is 
part of the purpose of this hearing, should there be greater 
enforcement? Should we do some things legislatively to 
strengthen the hand of DHS to negotiate with those countries? 
That is very thoughtful testimony.
    Just before I let the Secretary go to his plane, I do want 
to give you all the opportunity--if I were in the witness 
chair, there would be things I would just be thinking about, 
``I have to say this,'' you do not necessarily get the 
opportunity with the questions, so I will just give you all the 
opportunity to, if there is one final comment you would like to 
make prior to being dismissed.
    Mr. Chertoff. Well, thank you, Mr. Chairman. I appreciate 
the hearing. I think it is terrific that the Committee is 
focused on this. I think the one thing I would reiterate is on 
the positive side. We have spent most of the time, 
understandably, talking about making sure the security element 
is properly embedded in the program. But what is striking to me 
when we are strategic about our national security is the 
national security benefit we get from the relationships that we 
form here, and I am frankly dismayed by the level of anti-
Americanism that you now find in certain parts of Europe, and 
that is not accidental, because I think it has been reported in 
the papers and my own experience is that the Russians really 
are quite systematic in using all of their levers to try to 
drive a wedge between us and certainly the Central and Eastern 
Europeans. They use their economic levers. They use Russia 
Today television. And our inviting countries into the program 
has been a major positive element in a couple of ways. First, 
it has sense a message that we view them as natural friends and 
allies and as part of the ``West.'' It has also increased 
travel and trade, and that has bound them closer to us.
    So this is not just a question of making it easy for 
Europeans or giving them a gift. This is really about advancing 
geopolitically what our interest is in terms of dealing with 
what is unfortunately an increasing threat of aggressiveness 
coming from Putin's Russia.
    Chairman Johnson. Dr. Frey.
    Dr. Frey. Thank you, Mr. Chairman. I think I would 
reiterate two things.
    First, what I said at the beginning, which is that I think 
in the visa waiver context, education is critical. It is 
important to understand what this program does and how it 
works, and, in particular, as I think you will hear from the 
next panel, how it fits into what DHS in particular does as 
part of this layered approach we have talked about. It cannot 
be viewed in isolation. It needs to be put in context and 
understand the security elements it brings and how those 
elements interact with other countries. And so I think hearings 
like this are excellent for that purpose.
    And the second thing I would add, actually following up on 
something the Secretary just said, there are very positive 
security benefits not only for the countries in the program, 
but holding the program out as an incentive for countries who 
want to be in the program. They begin to take steps well in 
advance of the program to elevate their security standards, to 
increase the security of their passports, to increase their 
information sharing with the United States, all with the hope 
of, as the Secretary said, becoming a member of the club and 
joining us. So I think that aspect is often missed as well, and 
it is valuable to keep in mind that it has proven to be a 
powerful incentive, both for our foreign policy and for 
elevating security standards.
    Chairman Johnson. Thank you. Mr. Jenkins.
    Mr. Jenkins. In today's conflict, there is no distinction 
made between the homefront and the front line anymore. So these 
measures that normally are not considered as part of a national 
security strategy in fact do become part of our national 
security strategy. And while clearly the Visa Waiver Program 
has been the focus of this specific hearing, nonetheless that 
has to be viewed within the context of a broader national 
strategy, both to deal with foreign fighters, but also to 
achieve other national security goals. And as I say, sometimes 
because of the nature of our government, we tend to look at 
these in isolation and to lose that national security sense of 
it. And that is where the Senate can be extremely helpful in 
ensuring that the agencies of government look at it in that 
fashion.
    The second point is that this conflict is going to go on. 
It has gone on for years, and it will continue in some form, 
morphing into different variations for the foreseeable future. 
We are going to be dealing with the effluent of the conflicts 
in Syria and Iraq for the foreseeable future. So this is really 
a long-term challenge, not something we are simply going to fix 
this year and get past it.
    Chairman Johnson. OK. Well, thank you all for your 
thoughtful testimony. Just for the record, I want you thinking 
about the requirements to qualify for the Visa Waiver Program, 
are there any of those that are too high, in light of your 
comments, Secretary Chertoff? But, again, thank you for your 
thoughtful testimony, and could the next panel----
    Senator Carper. Could I----
    Chairman Johnson. Senator Carper.
    Senator Carper. Before you all leave, just one last quick 
one, if you could. I am going to give you a question for the 
record. We spend so much time, money, and energy focusing on 
symptoms of problems. We do not do a very good job drilling 
down on the underlying causes, the root causes of problems. And 
one of the good examples is the migration of folks from 
Honduras, Guatemala, and El Salvador to our border.
    I am going to give you a question for the record and ask 
you just to think for us out loud about some root causes here 
in this regard. That would be very helpful.
    The other thing, I want just a clarification, if I could, 
before you all leave. My understanding is that on the consular 
interviews that take place in other countries, they actually 
collect fingerprints. I think you have all said that they 
collect fingerprints as part of the visa project. The ESTA 
process, as I understand it, does not collect fingerprints. 
Could somebody clarify that for me?
    Mr. Chertoff. Well, you get your fingerprints collected 
when you arrive in the United States.
    Senator Carper. Right.
    Mr. Chertoff. Or if you have a preclearance, you get them 
collected for preclearance. So they are run against a database 
through the US-VISIT program at the latest when you appear at 
the port of entry.
    Senator Carper. All right. Good.
    Do you guys agree with that? Do you approve that message?
    Dr. Frey. I do. Yes, I think it is a question of timing. 
For Visa Waiver Program travelers, the biometrics, the 
fingerprints and photograph are taken upon entry. They are not 
taken as part of ESTA, and, frankly, it is hard to imagine, at 
least in the current technological environment and logistical 
environment, how it could be taken as part of ESTA, at least 
without really completely changing the way the program 
operates.
    Senator Carper. Good. Thanks so much. Good to see you all.
    Chairman Johnson. Again, thank you all, and we will welcome 
the next panel.
    [Pause.]
    Again, welcome to everybody. Thank you for taking the time 
and for your testimony. We will start with Mr. Mark Koumans, 
who serves as the Deputy Assistant Secretary for International 
Affairs at the Department of Homeland Security. Mr. Koumans.

 TESTIMONY OF MARK KOUMANS,\1\ DEPUTY ASSISTANT SECRETARY FOR 
  INTERNATIONAL AFFAIRS, OFFICE OF POLICY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Koumans. Chairman Johnson, Ranking Member Carper, and 
distinguished Members of the Committee, thank you for your 
steadfast commitment to and support of my Department as it 
carries out its duties to protect the American people.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Koumans appears in the 
Appendix on page 239.
---------------------------------------------------------------------------
    Thank you as well for the opportunity to testify on the 
Visa Waiver Program, an important vehicle for enhanced security 
cooperation as the United States faces new threats. I have 
submitted a longer written statement for the record.
    Nearly 20 million travelers visit the United States each 
year without visas thanks to the three pillars of the Visa 
Waiver Program. Those three pillars are data, partnership, and 
layers of security--data about travelers and data from foreign 
governments, partnership with United States and foreign law 
enforcement and security agencies, and multiple layers of 
border control.
    Concerning the first pillar, data, under the appropriately 
named Secure Travel and Counterterrorism Partnership Act of 
2007, DHS requires several different kinds of data from 
travelers and their governments. Via the Electronic System for 
Travel Authorization, travelers provide information about 
themselves and their travel plans. Customs and Border 
Protection conducts interagency vetting to verify the 
eligibility of these travelers and their documents. Tens of 
millions of ESTAs have been approved within seconds since 2008. 
Also during these years, tens of thousands of ESTAs have been 
denied for security and document reasons.
    Last November, we strengthened ESTA by adding a number of 
data fields, an effort that has identified travelers of 
concern. Furthermore, we require VWP countries to share 
terrorist information. Thousands of potential terrorist 
identities previously unknown to the United States have been 
made available to us thanks to the information sharing under 
these agreements. We also have criminal information-sharing 
agreements that also strengthen our ability to unmask unlawful 
travel.
    Another form of data sharing is that VWP countries must 
report lost and stolen passports so that DHS can prevent the 
use of those passports for travel to the United States.
    Now let me turn to the second pillar, partnership. The 
agreements and the vetting I have already described are only 
possible thanks to DHS partnerships with VWP countries and also 
with the Departments of State and Justice, including the 
Federal Bureau of Investigations (FBI), as well as the 
intelligence community. Let me describe other ways that exhibit 
our partnership.
    DHS leads intensive interagency reviews at least once every 
2 years of VWP countries, focusing on five core areas: 
counterterrorism, law enforcement, border security, 
immigration, and travel document security. In between those 
reviews, DHS monitors all VWP countries to ensure compliance 
with program requirements and to collaborate to address 
challenges. We could not do this without our international 
partnerships. We seek to enhance our security as well as the 
security of our partners.
    European VWP countries, as well as others, share our 
concern about the threat posed by foreign fighters. These 
nations have taken steps to strengthen their abilities to 
detect and prevent the travel of these fighters, steps such as 
those called for under U.N. Security Council Resolution 2178. 
Countries are adopting border security measures that DHS 
already uses. Secretary Johnson has urged them to do so. We 
want them to continue, and we want to strengthen those moves.
    Last, let me turn to the third pillar, our layers of 
security, because whether travelers have an ESTA or a visa, by 
the time travelers arrive at U.S. airports, DHS will have had 
three opportunities to review their information:
    First, when a traveler applies for a visa or an ESTA, the 
United States conducts multiagency vetting.
    Second, when a traveler makes a flight reservation, DHS 
obtains the data from the airline and conducts additional 
vetting.
    Third, when a traveler checks in for a flight, now DHS 
obtains that passport swipe information and has the ability to 
deny boarding, and checks the names again.
    In addition, CBP has personnel stationed at key airports 
around the globe, and TSA deploys air marshals for additional 
layers of security.
    So those three pillars--data, partnerships, and layers of 
security--underpin the Visa Waiver Program.
    In closing, let me emphasize that, as Secretary Johnson has 
said, DHS continues to review the safeguards of the VWP. We are 
prepared as threats change to consider additional 
administrative and legislative steps to achieve our goal of 
even stronger security for the United States. We will continue 
to partner with Congress to explore ways to enhance the program 
security requirements while promoting travel to the United 
States.
    Chairman Johnson, Ranking Member Carper, other 
distinguished Members of the Committee, thank you for the 
opportunity to appear before you today. It will be my pleasure 
to answer your questions.
    Chairman Johnson. Thank you for your very well organized 
presentation.
    Our next witness is Maureen Dugan. Ms. Dugan is currently 
the Deputy Executive Director of the National Targeting Center 
at U.S. Customs and Border Protection. Ms. Dugan.

   TESTIMONY OF MAUREEN DUGAN,\1\ DEPUTY EXECUTIVE DIRECTOR, 
NATIONAL TARGETING CENTER, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Dugan. Thank you. Chairman Johnson, Ranking Member 
Carper, and distinguished Members of the Committee, thank you 
for the opportunity to discuss the role of U.S. Customs and 
Border Protection in securing international travel and the Visa 
Waiver Program.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. Dugan appears in the 
Appendix on page 239.
---------------------------------------------------------------------------
    CBP continually adjusts and aligns our resources to address 
the evolving nature of terrorist threats to the homeland. Our 
ability to rapidly leverage information and respond to emerging 
threats is key to our intelligence-driven counterterrorism 
strategy and one of CBP's greatest strengths.
    In response to a broad spectrum of threats, CBP has 
extended our border security measures outward to address risk 
at the earliest possible points. Every day CBP inspects more 
than a million international travelers at our Nation's ports of 
entry, approximately 300,000 of these arriving at airports.
    We have developed and strategically deployed our resources 
to detect, assess, and mitigate the risk at every stage along 
the international travel sequence, including when an individual 
applies for U.S. travel documents, reserves or purchases an 
airline ticket, checks in at an airport, is arriving en route, 
and applies for admission at a U.S. port of entry.
    In general, before foreign nationals travel to the United 
States, they are first required to apply for a non-immigrant 
visa with Department of State or, for eligible Visa Waiver 
Program travelers, a travel authorization from CBP through the 
Electronic System for Travel Authorization. Before issuance, 
visa and ESTA applications are vetted against the terrorist 
watchlist and law enforcement holdings and assessed for risk 
and eligibility. After issuance, they are continually vetted 
against new derogatory information that may arise subsequently.
    Before a U.S.-bound flight departs, CBP's National 
Targeting Center obtains and analyzes traveler data to assess 
the risk of all passengers, regardless of citizenship or visa 
status, and applies intelligence-driven targeting rules. If 
derogatory information or other data indicating a risk is 
discovered, CBP is able to take a number of actions overseas to 
mitigate the issue prior to travel or to prevent travel 
altogether.
    For example, the CBP Immigration Advisory Program deploys 
CBP officers in plainclothes at 11 strategic foreign airports 
in 9 countries to work with air carriers and foreign 
authorities to identify and address potential threats. These 
officers can question travelers, recommend additional security 
screening, coordinate with air carriers to prevent passengers 
who may pose a security threat, have fraudulent documents, or 
would otherwise be inadmissible upon arrival from boarding 
flights to the United States.
    At all points in the travel continuum, even while a flight 
is en route to the United States, CBP continues vetting 
passengers and traveler information, including visas and ESTA 
authorizations, to ensure that any change in a traveler's 
eligibility are identified in real time and appropriate actions 
taken, such as recommending visa revocation, revoking travel 
authorization, preventing travel, coordinating with other 
agencies for further investigation or enforcement action, or 
requiring secondary inspection upon arrival.
    Upon arrival in the United States, all persons are subject 
to inspection. To determine a traveler's identity, intent, and 
admissibility, CBP officers review entry documents, conduct 
personal interviews, and run appropriate biometric and 
biographic queries against law enforcement databases.
    CBP also conducts outbound operations, leveraging all 
available advance travel information and using targeting rules 
specific to the outbound environment to identify and, when 
appropriate, interview and/or apprehend travelers for law 
enforcement or security-related reasons.
    CBP, in conjunction with our investigatory partners, has 
longstanding protocols for identifying, examining, and 
reporting on encounters with persons on the terrorist watchlist 
or of law enforcement concern. As the foreign fighter threat 
grows, CBP works in close partnership with the Federal 
counterterrorism and intelligence communities, State and local 
law enforcement, the private sector, and our foreign 
counterparts to develop greater situational awareness of 
emerging threats, leverage each other's capabilities to disrupt 
threat networks, and coordinate enforcement actions.
    CBP has implemented a rigorous targeting program, placed 
officers in strategic airports overseas, and build strong 
liaisons with carriers to improve our ability to address 
threats as early as possible and effectively expand our 
security efforts beyond the physical borders of the United 
States.
    Thank you for the opportunity to join my colleagues to 
testify on this important subject, and I am happy to answer any 
questions you may have.
    Chairman Johnson. Thank you, Ms. Dugan.
    Our next witness is Edward Ramotowski. Mr. Ramotowski is 
the Deputy Assistant Secretary for Visa Services in the Bureau 
of Consular Affairs of the Department of State.
    That is a pretty big title, but thank you, Mr. Ramotowski. 
You have the floor.

    TESTIMONY OF EDWARD J. RAMOTOWSKI,\1\ DEPUTY ASSISTANT 
     SECRETARY FOR VISA SERVICES, U.S. DEPARTMENT OF STATE

    Mr. Ramotowski. Thank you, Mr. Chairman, Ranking Member 
Carper, and distinguished Members of the Committee. Thank you 
for calling this hearing today and for your strong commitment 
to the Department of State's twofold mission to keep America 
safe while welcoming legitimate visitors who grow the U.S. 
economy and create jobs. The Visa Waiver Program is a vital 
part of our strategy to safely and effectively achieve both of 
those objectives, and I appreciate the opportunity to elaborate 
how this is done.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ramotowski appears in the 
Appendix on page 246.
---------------------------------------------------------------------------
    DHS is the lead agency for determining a country's 
eligibility to join the Visa Waiver Program. Our role in that 
process is to nominate a country for participation once all the 
statutory requirements for the program are met.
    After admission into the program, a country's continued 
participation is subject to the biennial DHS-led review of 
country conditions, including the security of its travel 
documents, border controls, immigration and nationality laws, 
and other national security concerns. Our diplomatic missions 
abroad work very hard to assist our DHS colleagues with these 
reviews and with any necessary follow-up actions.
    The Department's visa screening policy is founded on a 
risk-based approach focused on greater and more effective 
information sharing. This approach enables the United States to 
channel more resources toward the prevention of high-risk 
travel while simultaneously increasing the number of legitimate 
visitors who come to our country.
    As my colleagues have testified, all intending VWP 
travelers must first receive DHS approval through the ESTA 
system. If an ESTA authorization is denied, that individual is 
barred from boarding a U.S.-bound air carrier without first 
applying for and obtaining a U.S. visa. Any foreign national 
denied an ESTA clearance is referred to the appropriate U.S. 
embassy or consulate for additional review, which would include 
a visa interview as well as biometric screening. So DHS always 
has an alternative whenever a potential visa waiver traveler 
raises any possible concerns.
    The cooperation between State and our interagency partners 
is a dynamic process which is constantly refined to adjust to 
today's realities and real-time security information. Most 
recently we collaborated on an enhanced list of questions for 
VWP travelers through the ESTA program. These questions help to 
identify possible threats attempting to travel through the 
program without introducing an onerous administrative burden or 
raising privacy concerns.
    We also work very closely with DHS and other agencies on 
the continuous vetting of foreign travelers, including visa 
holders and VWP participants, to ensure that we can revoke a 
travel benefit if derogatory information surfaces after the 
adjudication of the case.
    The Department of State embraces a layered approach to 
border security screening. The data we obtain through 
information-sharing agreements required by the Visa Waiver 
Program comprises a key element of that approach. To date, the 
Department has negotiated over 40 arrangements with foreign 
partners to exchange terrorist screening information. With our 
interagency counterparts, the Department of State has engaged 
numerous VWP countries to better identify and counter terrorist 
foreign fighter threats between Europe and Syria.
    Our efforts also go beyond visa and travel screening. The 
Department has also focused on an initiatives and programs to 
counter violent extremism abroad and prevent the radicalization 
and recruitment of individuals by terrorist organizations. In 
particular, State works with DHS to both design capacity-
building activities and to share the benefits of DHS' domestic 
experience with our international partners.
    The Department recognizes that the United States' long-term 
interests in security are served by protecting our country from 
those who seek to do us harm while continuing the flow of 
commerce and ideas that are the foundations of our prosperity 
and security. The Visa Waiver Program is a key component of 
that effort. We have built strong relationships throughout the 
U.S. Government and with our international partners to ensure 
the real-time flow of information necessary for keeping our 
borders secure.
    Thank you again, Mr. Chairman, and I am happy to answer any 
questions.
    Chairman Johnson. Thank you, Mr. Ramotowski. I think I will 
start with you. The question I was asking the last panel based 
on Secretary Chertoff's comment about how important this Visa 
Waiver Program really is in terms of our outreach to certain 
Eastern European countries, in light of that, are there any 
requirements within the program for qualification that are 
either too high or too low? In other words, are the hurdles set 
at an appropriate level?
    Mr. Ramotowski. Mr. Chairman, I think some of the countries 
that wish to join the program might say that the statutory 
requirement for a 3-percent visa refusal rate is their most 
difficult hurdle to cross, because that is one thing that they 
cannot directly affect through their own actions.
    When we are interviewing applicants for U.S. visas, we make 
our decision on a case-by-case basis on that applicant's 
individual circumstances. And it is the aggregate of those 
decisions that determines the overall visa refusal rate. And 
current law requires a rate of 3 percent or less to join the 
program, and that is a difficult hurdle for some countries to 
meet.
    Chairman Johnson. So I understand, those countries have a 
problem with it. Does the State Department or does this 
Administration think that maybe is too high a hurdle? And 
should that be potentially revisited?
    Mr. Ramotowski. The Administration has endorsed proposals 
made in Congress to consider a 10-percent refusal rate, and in 
the past the rate has been at 10 percent for a period of time. 
And so the Department of State would support those efforts.
    Chairman Johnson. Well, thank you. We did have a couple of 
suggestions in terms of potential legislative initiatives to 
help strengthen the program. One by Secretary Chertoff talked 
about maybe we could increase the requirements for information 
and intelligence sharing.
    Mr. Koumans, would you agree with that? Would that help 
strengthen the Department's hands in trying to negotiate better 
compliance?
    Mr. Koumans. Thank you, Mr. Chairman. I think that we 
actually have a pretty robust system in place with respect to 
that kind of information sharing, and I just want to emphasize, 
in preparation for this hearing, in collaboration with our 
interagency partners, information about 5,500 known and 
suspected terrorists has been provided to us by our Visa Waiver 
Program partners already. So those agreements are in place. 
Those agreements are working.
    I think what was discussed in the first panel was also 
their own abilities, and we are working with them to improve 
some of their abilities, and I think that that is something we 
want to continue to focus on as part of that partnership that 
we have with them.
    Now, they know more about their citizens than we do, and so 
that is something that we continue to work on to improve. I am 
not saying that it is perfect, but I think the agreements that 
we have in place in that area I think are quite strong. And as 
they build their systems, the PNR that was talked about in the 
previous panel, I think they will be in an even stronger 
position to share lessons learned, knowledge about the kinds of 
travel patterns that they are seeing, and, of course, the 
particular suspicious and criminal and terrorist individuals 
that they are encountering and preventing from traveling.
    Chairman Johnson. Now, it is the Department of Homeland 
Security that is charged with doing these audits every 2 years, 
correct?
    Mr. Koumans. Yes, Mr. Chairman.
    Chairman Johnson. Again, having come from the business 
world, with the ISO certification, with 6-month surveillance 
audits, that was one of the questions I asked the last panel. 
Is that something that you think would be helpful? Again, not a 
full-blown audit but just a skinnied-down--with fewer 
personnel, just checking in on a more frequent basis.
    Mr. Koumans. Thank you, Mr. Chairman. Just so that it is 
clear about what we do, what we do now when we say we make the 
biennial assessments, we already have the capability--and there 
is one country that I will not name that is under a provisional 
status, so they are getting more frequent reviews. We already 
have the capability to do more frequent reviews, and do that 
when it is warranted. And it is important to mention that these 
biennial reviews--because in many cases, in most countries, it 
is every 2 years. It is not as if we do the 2-year review and 
then we do not look at them. The reviews take from 6 to 9 
months. It is a pretty intensive period of information 
collection from our interagency partners and working with the 
host government, working with the embassy there overseas, 
learning from other agencies how they are cooperating with 
their counterparts, then compiling the data, vetting it, 
checking it, then writing the reports. That is a pretty 
intensive period.
    But then in that year, year and a half, when we are not in 
the active cycle, they are still subject to continuous 
monitoring. On a daily basis we are hearing the statistics, a 
daily, weekly, monthly basis from CBP, what is CBP's experience 
with respect to people arriving at the port of entry? Are we 
starting to turn around a larger number of them? We would see 
an uptick there. Or from the Immigration and Customs 
Enforcement (ICE), are they starting to see any issues with 
removal of people? Because VWP countries are required to accept 
the return of their citizens.
    From Interpol, the lost and stolen passport database, are 
there any problems? Are these countries still reporting as they 
are supposed to on a regular basis, many 20, 30 times a month?
    Chairman Johnson. So you are saying there is really 
continuous monitoring already.
    Mr. Koumans. There is continuous monitoring.
    Chairman Johnson. OK. Well, that is comforting.
    Senator Booker was talking about the exit system, and the 
response was we do not have the money. Have there been cost 
estimates on kind of a layered basis, maybe biometrics, an exit 
system for airline travel? Does the Department have any of 
those estimates prepared? Or is that something that you will 
have to work up?
    Mr. Koumans. I may turn to my colleague on specific 
estimates, but I might just want to mention one thing to 
highlight because it was discussed in the previous panel. We do 
have currently an operation with Canada so that a land entry 
into Canada from the United States counts as an exit from the 
United States. Two and a half million records we have already 
gotten in this project, and we would like to do the same with 
Mexico. A little bit more of a challenge there, but to have 
that capability, Canada has been very valuable in order to help 
us get a better understanding of those leaving the country.
    Chairman Johnson. OK. I was looking for a cost. Ms. Dugan.
    Ms. Dugan. Mr. Chairman, there have been costs associated. 
I think the issue is that the idea of what the solution would 
look like is really something that we are testing. So what is 
feasible without causing a great deal of difficulty on the 
departure? So we are very excited about a number of pilots that 
we are going to be running this year with regard to biometrics, 
and this spring we are going to have a pilot program in Otay 
Mesa with a biometric exit and the pedestrian environment. We 
are also running a biometric mobile pilot in Atlanta this 
spring and a facial recognition pilot in Dulles starting in 
April.
    So we have a number of environments we would like to test 
possible solutions and where we can go that is going to be 
feasible and still facilitating for the traveling public. We 
have a test facility in Landover, Maryland, that we in 
partnership are working with the Science and Technology Group, 
and it is very exciting. As the panelists mentioned, there are 
so many changes with biometrics. I think that solution is 
viable. We are just looking for what is feasible, and it may 
not be the same solution across all environments.
    Chairman Johnson. OK. Again, the other panel said the 
problem was a cost problem, and I realize that with technology 
those costs should be declining. But, again, have there been 
cost estimates? Is the Department aware of that? Is that 
something that has to be developed? I realize you are testing 
different systems, but are there cost estimates? Just give us 
some kind of ballpark of what we are talking about here in 
terms of appropriations?
    Ms. Dugan. Well, the reason the resource implication has 
been high is really with regard to the officer involvement. So 
when we did tests several years ago, the requirement would be 
to increase the number of officers that would have to be doing 
those outbound inspections.
    Chairman Johnson. Again, are there cost estimates or not 
that we can get from the Department? Just a quick answer, just 
yes or no. I want to move on.
    Mr. Koumans. Mr. Chairman, I am more than happy to take 
that question and----
    Chairman Johnson. OK. Do it for the record. Thanks.
    Senator Carper.
    Senator Carper. A yes or no answer. Were you all present 
for the testimony of the first panel?
    Mr. Ramotowski. Yes.
    Ms. Dugan. Yes.
    Mr. Koumans. All three of us, yes.
    Senator Carper. All right. Did you hear anything you agreed 
with? Yes or no.
    Mr. Koumans. I heard very much that I agreed with, yes, 
sir.
    Senator Carper. Ms. Dugan.
    Ms. Dugan. Absolutely, sir.
    Mr. Ramotowski. Yes, absolutely.
    Senator Carper. Hear anything you disagreed with?
    Mr. Koumans. I am not sure if I would say disagree, 
Senator. I just tried to clarify that one point concerning 
Canada.
    Senator Carper. OK.
    Mr. Koumans. There are a few things, just being a little 
bit more close to the program, more immersed in it, as we are 
on a day-to-day basis, there might be a few things that we 
could explore further if you would like, sir.
    Senator Carper. Ms. Dugan.
    Ms. Dugan. With regard to the use of PNR, Senator, we have 
a very robust system, as you know from your visits to the NTC. 
From our position we work closely with our foreign counterparts 
to try to build that capacity with their use of travel 
information as well as targeting. So those are areas to 
explore. But the gentleman from RAND Corporation, as far as 
U.S. Government use of travel information, I think that we have 
a very robust program.
    Senator Carper. Mr. Ramotowski.
    Mr. Ramotowski. I think Secretary Chertoff did an excellent 
job characterizing both the security value of the program and 
its favorable diplomatic impact for U.S. interests abroad. So I 
fully support what the first panel said.
    Senator Carper. All right. Good.
    The Ambassador from Poland was here at the beginning of the 
hearing. I do not know if he is still here. It is not every day 
that an ambassador pops in. We are always happy when that 
happens. I looked down the list of visa waiver countries, and 
Poland's name does not appear, I do not believe, and I think 
there are 38 nations whose names do appear.
    Give us some idea why--and in a case like Poland, Poland by 
all accounts has been very successful at the the breakup of the 
Warsaw Pact, the end of the Iron Curtain and all that, and they 
have been integrated very nicely into the economy of the rest 
of the world. Why may they not be included? And what kind of 
criteria is used to decide who is and who is not? Please, Mr. 
Ramotowski.
    Mr. Ramotowski. Yes, thank you, Senator. You are quite 
right; Poland is one of our strongest and most closest allies. 
With respect to the Visa Waiver Program membership, however, 
they have to meet all of the statutory requirements. And the 
one that they have had the most difficulty with is the mandated 
3 percent or less visa refusal rate. The refusal rate in Poland 
has been coming down. It also declined from 2013 to 2014 from 
over 10 percent to about 6.7 percent just now, but it does not 
meet the statutory requirement of 3 percent or less, and that 
is the obstacle.
    Senator Carper. OK. Fair enough. Thank you.
    Let us talk about lost or stolen passports. A question, and 
this would probably be for you, Mr. Koumans. Are countries 
admitted into the Visa Waiver Program required to report lost 
or stolen passports to Interpol?
    Mr. Koumans. Yes, they are, Senator. And actually I think 
that is a real success story. I can give you just a couple of 
details on that, if you would like.
    Senator Carper. Please. Just a couple.
    Mr. Koumans. Just a couple. Since 2008, we have refused 
35,000 ESTAs as a result of people going online and attempting 
to get that ESTA using a passport that was previously reported 
lost or stolen to Interpol. So we check that Interpol database 
for every person applying for an ESTA, every person making a 
flight reservation, every person coming to the United States. 
So we are a very heavy user of that Interpol database, so that 
has been a real success story. And not only has this been a 
powerful--I mean, one other way to look at it is if you ask 
Interpol, so 190-some-odd countries in Interpol, how many of 
their records--how are the rest of those countries doing, 70 
percent of Interpol's records-- nearly three-quarters--come 
from the 38 countries in the VWP. So the best reporters of lost 
and stolen passports are our VWP partners, providing the data 
to us so we can use it and prevent the entry, as I said, of 
35,000 people.
    Senator Carper. Let me get just some further clarification. 
Those countries that are admitted into the program, are they 
required to regularly check Interpol's lost and stolen database 
against their own databases of travelers? And if it is not 
required, do you think it ought to be?
    Mr. Koumans. You are asking now the second layer of 
question, which is, Should we require or should we encourage 
other countries, our VWP partners, to do the same thing that we 
do? In other words, we check that database for people coming 
into the United States. Should they do the same? I think it is 
something----
    Senator Carper. What do you think?
    Mr. Koumans [continuing]. That they should strongly 
consider. I think the loss of Malaysia Airlines Flight 370, I 
believe it was, and it came to light that there were a number 
of passengers on board who were traveling on documents, travel 
documents that were known to Interpol to have been reported 
lost or stolen, they were allowed on that plane. They were 
allowed to be flying to China, and that is not something that 
would have happened in the United States because we check that 
database.
    And so I think it is something that other countries should 
consider more strongly, and Interpol has encouraged them to do 
the same as well.
    Senator Carper. Good. Thank you.
    This will be, Ms. Dugan, for you and for Mr. Koumans. I 
believe that the State Department has a division within 
Diplomatic Security that investigates potential visa fraud. And 
since the Department of Homeland Security manages the Visa 
Waiver Program, is there any comparable office or entity within 
the Department of Homeland Security that focuses on fraud 
within the Visa Waiver Program?
    Ms. Dugan. We do have an ESTA Program Management Office 
that looks at fraud trends and fraud schemes that they see 
within the ESTA applications. We also at the National Targeting 
Center will look for smuggling schemes and through visa free 
travel as well as with visas and misuse of visas and other 
types of fraud. But the Program Management Office specifically 
monitors the use of those applications and red flags where 
there are particular issues or trends. For example, let us say 
a travel agency that has been linked to a particular fraud or 
mala fide travelers.
    Senator Carper. Do either of you have any idea how many 
instances of visa waiver fraud DHS may have found?
    Ms. Dugan. I can take that back, Senator.
    Senator Carper. Would you? And I will ask you to answer 
that question for the record, if you would, please. It is good 
to know that somebody is thinking about it. It would be 
interesting to know how many instances of fraud have been 
found.
    All right. Thanks. We appreciate very much your being here 
and your service. Thank you.
    Chairman Johnson. Senator Ayotte.
    Senator Ayotte. I want to again thank the Chairman and 
Ranking Member for holding this important hearing, and I thank 
all of you for what you do for the country.
    I wanted to follow-up on a couple of different things. 
First of all, on the passenger name records, the issue on the 
passenger name records, as I understand it, we are requiring 
that for advance passenger information for inbound flights to 
the United States of America. Is that true?
    Ms. Dugan. For inbound and outbound.
    Senator Ayotte. Inbound and outbound. OK. And so how do our 
European counterparts deal with this? Do they? And why do we 
not require them also to do the same?
    Mr. Koumans. Thank you, Senator. The picture in Europe, and 
wider than Europe, with our other VWP partners, is mixed. This 
is their own sovereign decision. A number of VWP countries in 
Europe have PNR systems where they collect and analyze, and 
there is a first step before PNR, which is, as it is called, 
Advance Passenger Information (API). That is the passport 
swipe, the manifest. So this is name, date of birth, 
nationality, passport number. That is sort of the basic level 
of information, and that is collected when people check in for 
a flight, and across Europe there is a requirement actually 
that countries collect and check API information.
    The second step is PNR. So this is when you make a flight 
reservation, you might also be providing your e-mail address, 
your phone number----
    Senator Ayotte. Right, it is more detailed.
    Mr. Koumans. More detailed, a richer source of data, and a 
handful of European countries have such a system. The European 
Commission in Brussels is funding the creation of PNR systems 
in 14 EU countries, which we think is a welcome step, and the 
European Parliament is grappling with this issue, as was 
discussed in the first panel. There are privacy interests at 
play here. But they have talked about the end of this year 
being their deadline for an EU-wide PNR directive that would 
set the stage for all 28 EU member States having a PNR system.
    Ms. Dugan. And I just wanted to add a couple comments. We 
frequently meet with our foreign counterparts on building that 
capacity. They are very much aware of the foreign fighter issue 
and are looking for ways to build a more robust vetting system. 
And so we offer technical expertise as well as expertise on the 
legislative requirements of whatever is dependent in their 
particular country to build that. In some cases, they need to 
pass a law in order to require the carriers to provide that 
information to them.
    Senator Ayotte. It strikes me as we think about this idea 
of, one of our challenges which I mentioned to the earlier 
panel on this foreign fighter issue, it is not just a matter of 
ingress and egress. If I am a European and then I travel and go 
to Syria or I go to Yemen or I find another way to get there, 
the more information we are able to gain gives us better 
information to be able to prevent that person that had gone, 
for example, to Yemen and trained with al-Qaeda to then be 
traveling at some point to our country or vice versa.
    So, obviously, I think this is an issue we should be 
pressing our counterparts to do more on, and when it comes to 
information sharing, Secretary Koumans, I was very interested 
in your comment based on what the earlier panel had said. And 
did I hear you say that we have 5,500 agreements or something 
like that? So help me understand how it is done now. We have 
agreements, whether they are bilateral or multilateral, with 
these countries, and are all agreements the same? In other 
words, are we requiring the same kinds of conditions on 
information sharing with every country in this program? Or are 
there different terms with different countries?
    Mr. Koumans. Thank you, Senator. I am happy to try to 
clarify that. Under the Visa Waiver Program, as was required 
under the Secure Travel and Counterterrorism Partnership Act of 
2007, part of the 9/11 Act, the 9/11 Commission Implementation 
Act, they are required to provide us with information about 
those who could pose a threat to the United States. And that 
has been implemented via criminal information-sharing and 
terrorist information-sharing agreements. And so each of the 
VWP countries has been obliged to meet that obligation and to 
sign those agreements.
    I will give one example. You have Andorra, San Marino, you 
have some small countries out there, and you have different 
legal regimes in the different countries, and so we have made--
--
    Senator Ayotte. So we have negotiated different terms with 
different countries, essentially.
    Mr. Koumans. Very analogous. There is a template, and so 
there are minor tweaks for each country. But the bottom line is 
they are all required to provide us with terrorist information, 
and that is what the 5,500 comes from. That is the data that we 
have gotten from the implementation of those agreements.
    Senator Ayotte. It strikes me as one of our biggest 
vulnerabilities in the sense that the information that we have 
and the willingness of countries to share amongst themselves is 
critical, and with us is really critical as we think about the 
foreign fighter challenge, which goes beyond the Visa Waiver 
Program. Obviously, the Visa Waiver Program is a component of 
our system that is important, and we want to make sure that 
whatever improvements we can help with you to have the tools 
that you need, you have for this program. But ultimately it is 
going to come down to information sharing, and I think that is 
why when I heard Secretary Chertoff say in the prior panel that 
perhaps rather than just an agreement, making sure that in 
statute we are clear, I understand you are going to have to 
still negotiate with some countries, but we are clear about 
what our intent is to make sure that, you are, as you negotiate 
these agreements, are quite clear about what we are expecting 
of people. I appreciated that, and I would love to have more 
feedback from all of you on that recommendation that he made. I 
know you just heard it today, but I would like to hear, if you 
can follow-up with us on it, about how you think we could help 
with that and work together. We want to make sure you have the 
tools that you need.
    I wanted to follow-up on Senator Carper's question about 
Interpol and lost and stolen passports and the database. How 
often or at what interval are countries required to submit to 
Interpol when they have lost or fraudulent passports? So, in 
other words, is there a requirement that as soon as I know I 
have a fraudulent case, I have to get it to Interpol? Is it a 
periodic requirement? Do we have a variation among countries? 
And while we are quite proud, obviously, of the success of it, 
any lost or, obviously an fraudulent passport that is made or 
lost creates a lot of vulnerability. So how often are they 
required to do it? And what is the consistency among countries?
    Mr. Koumans. Thank you, Senator. I am happy to try to 
clarify that. The way that it is stipulated and as we explain 
it to countries, they are required to comply with Interpol's 
best practices. Interpol's best practices call for basically 
daily reporting.
    Senator Ayotte. So as soon as you know.
    Mr. Koumans. As soon as you know. And so we tell them you 
need to have an infrastructure in place so that if you say you 
take Italy. All of the police stations throughout Italy 
domestically need to be reporting centrally, to Rome, 
presumably, and all of the Italian consulates and embassies 
throughout the world need to be reporting back to Rome--and 
Italy's is just an example--so that that can be reported daily 
to Interpol.
    Now, I can tell you that if a country--and there are many, 
and as I mentioned, in the monitoring that we do, we follow 
this, and there are many that do, in fact, report daily. 
Weekends, national holidays, they are reporting daily, even if 
it is to report that they have nothing today.
    Now, are we going to really ding them if they get down to 
29 or 28 a month? We may give them a couple of weekends off. 
But anything under, when you start to get under that it is not 
as if we have a firm number, but, yes, we basically expect 
reporting on all work days but daily is what they are held to.
    Senator Ayotte. I know my time is up, but it was actually 
quite shocking to me that these other countries are not 
checking Interpol's database on their flights. It seems to me 
it is a real vulnerability for them. It is also less 
information for us to be able to stop among travel among other 
countries, not just our own people who are using fraudulent 
documents. So I hope that is something that internationally we 
are focusing on as well, because it seems like a vulnerability. 
Thank you.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
our panelists for your discussion today and the previous panel 
as well.
    I think the Visa Waiver Program is a very important program 
for encouraging travel to the United States and promoting 
economic development. In fact, in Michigan, in my home State, 
tourism is a $17 billion industry, and it supports about 
200,000 jobs in the State. Our award-winning Pure Michigan 
brand promotes the State both in the United States as well as 
countries all across the globe, and as an international 
destination and it is a leading place to do business and it has 
been successful bringing people from all over.
    Allowing preapproved citizens of participating countries to 
easily travel to the United States to visit our landmarks, 
attend our conferences, or do business serves as an important 
economic engine for the country. And since September 11, 
Congress and the U.S. Government have implemented 
recommendations from the 9/11 Commission, and the evidence 
seems to support the notion that the Visa Waiver Program's 
focus on enhancing security is indeed working.
    In fact, I am told that earlier this year we had a German 
citizen who applied for authorization to travel to the United 
States via the ESTA system, and during the vetting process, the 
individual was connected to a subject with a national security 
concern, and the CBP was able to deem the applicant ineligible 
for admission to the United States and was denied ESTA.
    Five days later, that same German citizen arrived at the 
Detroit-Windsor Tunnel in a taxi attempting to enter into the 
country, and the CBP identified the individual as a match to 
the ESTA denial, and they denied this person entry into the 
United States, which was a success, obviously, of the system.
    DHS denied over 50,000 applications last year out of the 13 
million applicants that came in. The Visa Waiver Program allows 
us to provide additional security to a small number of select 
travelers while encouraging the vast majority of citizens from 
friendly countries to more easily visit our country.
    And now while I recognize that there are concerns about the 
Visa Waiver Program--and this hearing has allowed us to discuss 
some of those concerns--I would like to focus on how this 
program can strengthen our security as well as move us forward.
    Ms. Dugan, the National Targeting Center has certainly 
played an important role in the program's expansion to focus on 
security concerns. Do you believe that the Visa Waiver Program 
and our national security are mutually exclusive?
    Ms. Dugan. Senator, we are constantly working for ways to 
improve the security of international travel while also making 
it facilitating for the travelers who wish to come here. We 
know that the vast majority of travelers are bona fide, valid 
travelers, and that is played out with the percentage of ESTA 
applications, the vast majority are approved within seconds, so 
not mutually exclusive. It is two sides of the same coin. We 
are always segmenting risk so that when we know someone is of 
low risk, we can expend our resources on those individuals who 
require additional scrutiny. Whether that means a secondary 
inspection, whether that means referring to the embassy for a 
more targeted interview because they are not immediately 
approved for an ESTA, we want to take that extra time with 
those individuals that we have specific information or through 
our rules we believe maybe has some derogatory information. So 
until that is resolved, we will not allow them to travel to the 
United States.
    So there are a number of options we can take, but it is 
always a matter of segmenting those of low risk; for example, 
with our Trusted Traveler Programs, they go through a rigorous 
vetting program, and they can go through global entry at our 
major airports. They are segmented as low risk. Again, that 
allows us to employ our resources on those areas that need it 
most and require additional scrutiny.
    Senator Peters. Great. This next question is really to any 
of the panelists that want to answer, one or all of you. 
Basically my experience is that any system is only as good as 
the information that you put into it, and we have heard quite a 
bit of discussion about that today. Our allies want to 
participate in the Visa Waiver Program because of the economic 
benefits they receive from American travelers who can now 
easily visit their countries. And because of the value of this 
program, we are able to require stronger, better information-
sharing agreements. And, Mr. Koumans, I know you talked about 
that just recently on that issue. But how does our security 
cooperation with the Visa Waiver Program countries compare to 
non-participants? Some kind of feedback from one or all of you.
    Mr. Koumans. Thank you, Senator. I would say that our 
cooperation with VWP countries sets the standard for what we 
aspire to reach with other countries, and it also sets--as was 
also discussed in the previous panel, it is a powerful 
incentive, and we have seen countries that hope one day to 
qualify and meet the dozen criteria that they have to meet 
begin the information sharing and begin issuing higher-quality 
passports and signing the agreements with us and reporting data 
to Interpol, so that incentive is there to have the higher 
level of security cooperation with us. And so it increases 
border security even in countries that are not yet in the Visa 
Waiver Program. But, yes, visa waiver countries set the 
standard for cooperation.
    I have to give a word to Canada. Canada is in a separate 
category, we have an extremely close security partnership with 
them as well.
    Senator Peters. And we are happy about that in Michigan.
    Mr. Koumans. We are very much.
    Mr. Ramotowski. Senator, I would just add that the 
Department of State and our interagency partners work with all 
countries to encourage good border security practices, and so 
we are not exclusively focused on just visa waiver countries. 
We encourage all countries to report lost and stolen passports, 
to exchange antiterrorism information, and to work with us to 
meet those threats.
    Senator Peters. Great. Thank you so much for your answers.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    I do want to return back to the conversation that the 
Chairman initiated earlier about the exit program. We are 
getting better and better and more and more efficient at 
checking people in. I want to know our progress of checking 
people out to know when people leave, leaving on time, status 
of their whereabouts while they are in the country and such. 
Give me a progress update. We talked a little bit about some of 
the budget issues. Give me a progress update. Where are we in 
that process?
    Ms. Dugan. Senator, we are rolling out a number of pilot 
programs this year to test what options might be viable for the 
solution to biometric exit, so we are very excited about the 
potential. And as I mentioned earlier, the solution may not be 
the same across all environments. We may be able to provide a 
number of different solutions. In terms of outbound operations, 
we have very targeted operations where we can employ an 
inspection where warranted. So we do vet all outbound travelers 
as well. We are not necessarily doing an inspection or an 
examination, but we are looking at all of that information 
going outbound as well as inbound travelers.
    Senator Lankford. So give me an idea on time frame. We have 
some pilots going. Those pilots are how long?
    Ms. Dugan. The pilots are this year, and I believe fiscal 
year (FY) 2016 they will begin to realize what those solutions 
would be as well as provide to Congress the estimated cost for 
a full solution. But it would be phased in in terms of all 
environments.
    Senator Lankford. So pilots finished by this year, Congress 
gets the recommendations around, let us say, a year from now, 
18 months from now, whatever it may be. All that data is 
compiled. We get it, we look at it, we gripe about the cost, 
figure out how to be able to do it anyway, and then to be able 
to start implementing that, start rolling it out 2017, 2018, in 
key areas, have it done by 2020. What is the goal here?
    Ms. Dugan. Well, I think there are some statutory 
requirements where we are looking at airports first.
    Senator Lankford. Right.
    Ms. Dugan. Major airports, and then a land border solution, 
which, of course, is much more challenging. But as far as time 
frame, I can take that back as a question. I cannot say 
specifically, but I believe it is phased in, and at the major 
locations first.
    Senator Lankford. OK. Then let us talk about this: We have 
a million visitors come in, let us say, over a month. We are 
tracking to see how many actually left, and then somehow I 
would assume at the end of this we are going to have a list of 
here are the people that had a tourist visa, they have been 
here 46 days now, and we do not know where they are. Is that 
list--and tell me how that--the hope is to be able to progress 
that?
    Ms. Dugan. We already have that list, so what happens now 
is a biographic matching of inbound and outbound and overstay 
list that gets prioritized for ICE and their compliance unit 
for response. So it is prioritized by the most critical issues, 
and those of national security interest or of a criminal 
nature. So all of that information goes through a matching 
process, and then it is provided on a priority basis, ranking 
those priorities for the ICE compliance unit to take whatever 
action is necessary.
    Senator Lankford. Give me your best----
    Ms. Dugan. So that is already being done. The other part of 
it is the biometric exit, but----
    Senator Lankford. So give me your best guess, a month, a 
year, whatever number you want to give on this, and whatever 
stat that you can recall of how many people we have, a month or 
a year, whatever it may be, that overstay that we do not 
necessarily know where they are, we know they came in, we do 
not know if they left or not, maybe they came in by a flight 
and left by a boat or they left by land, we just do not know. 
How many of those folks are out there a year?
    Ms. Dugan. I will need to take that back as a question.
    Senator Lankford. OK. That would be great. I would be glad 
to be able to have that as a follow-up.
    Our exchange of information right now with Central America, 
I know the visa waiver nations are different, obviously. El 
Salvador, Guatemala, and Honduras are not in that category of 
being visa waiver States. How is the exchange of information 
going with those countries in Central America where we have a 
lot of interplay with people, period, moving back and forth? 
What information are we getting from those countries? And is it 
sufficient?
    Mr. Koumans. Senator, I am happy to try to answer that in 
general terms, but that might--because it was not fully within 
what we were--in terms of the Visa Waiver Program. I am happy 
to take that question back. I would say that it is a particular 
area of priority for the Department of Homeland Security, 
especially after what we saw last summer.
    Senator Lankford. Sure.
    Mr. Koumans. And we do have ICE and CBP officers posted, 
many of them, not all, and that is the cooperation that we are 
always looking to strengthen. The Secretary has traveled to 
that part of the world, I believe the Vice President as 
recently as a week or two ago. So I am happy to get you more 
information on that.
    Senator Lankford. OK. Thank you. I would like just the 
exchange of information and data on individuals on that.
    Mr. Ramotowski. Senator, if I could add----
    Senator Lankford. Sure.
    Mr. Ramotowski. Our embassies in Central America all have 
antifraud units in their consular sections that are regularly 
working with the local authorities in those countries on fraud 
cases, immigration scams, and crime. So we can get you more 
details.
    Senator Lankford. That would be great. I have actually 
visited in those countries with those embassies. There are some 
very fine folks that are working there doing a good job, but 
there is obviously a lot of gaps in their information. I would 
like to know the status of where things are at this point.
    The other one is we have had an experiment of doing customs 
in other countries basically, so that customs procedure happens 
over there in that airport. They land and then just kind of 
walk their way through, because that part is taken care of on 
that. How many countries are we doing that in? Are there other 
pilots that are out there? And how is that process going?
    Ms. Dugan. Yes, Senator, the preclearance process, we have 
25 countries additional to the current 16 locations that have 
asked for a look at possibly doing it in those locations, so we 
are currently assessing the feasibility of those interested 
countries and looking to set up those operations in areas that 
would be the most strategic and would be most beneficial for 
the security of the United States as well as facilitating.
    Senator Lankford. How do you evaluate its success on that? 
Obviously, doing it another place, I assume it is a different 
cost level, different staffing level and everything. What 
metric do you have to evaluate if that is a good idea or not a 
good idea?
    Ms. Dugan. Well, it is a bilateral negotiation, so one of 
the things that we would currently be looking for is whether 
that country would be willing to provide for the cost to set up 
that operation. And the other major thing is how valuable as a 
security location, so we would be looking at what type of 
demographic the travelers are. Do we have a large number of 
watchlisted individuals who travel through those locations? And 
we would have a better chance of being able to do that full 
examination before travel to the United States. So those are 
the types of things. And then technologically speaking, whether 
they would be able to provide all of the technology that is 
required to set up a port of entry, which is essentially what 
it would be. It is our full operation, our customs, 
immigration, and agricultural operation.
    Senator Lankford. With our staff or with contractors there 
on that site?
    Ms. Dugan. No. It would be our staff. It would be CBP 
officers because they are doing the full complement of the 
inspection that would otherwise occur at a U.S. port of entry.
    Senator Lankford. OK. Mr. Chairman, thank you, and thanks 
for your indulgence on the extra minute.
    Chairman Johnson. Thank you, Senator Lankford. Good 
questions.
    I will give you all the opportunity to make a brief closing 
comment, but I do want to follow-up real quickly on passports, 
because we have talked about pre-2006, we have talked about 
electronic and higher-quality passports. Give me the state of 
play in terms of what you are really talking about, how those 
are used? How those are scanned? And quite honestly, why aren't 
they being scanned as people exit this country and being 
matched? So whoever is most qualified to just really talk about 
the state of play of passports, describe them to us, and then I 
will give you closing comments. Ms. Dugan or Mr. Koumans.
    Ms. Dugan. As far as the electronic passport, as the other 
panelists mentioned, that requirement was phased in so that it 
will be completely----
    Chairman Johnson. Describe it to me, though. Tell me what 
it does. So you have a passport. It is a physical thing.
    Ms. Dugan. Yes, Mr. Chairman, with the electronic chip in 
the passport authenticates that the holder is the presenter of 
that document with additional information in that----
    Chairman Johnson. So there is a photo on file? Again, those 
are going to be very difficult to commit fraud on, right?
    Ms. Dugan. That is correct.
    Chairman Johnson. OK. And so what is the state of play in 
terms of those countries that we have a Visa Waiver Program 
that have electronic passports? Do all 38 have them? Were they 
issued after 2006?
    Ms. Dugan. The requirement was in 2006, those that were 
already participating countries were grandfathered in, and 
typically passports will be 10-year issuance, so by 2016, 
essentially all of the countries will have the requirement for 
the electronic passport.
    Chairman Johnson. So fraudulent use of passports is going 
to be very difficult. You would have to actually hack into a 
system, unless we are not paying attention. Is that basically 
true?
    Ms. Dugan. Well, mala fide persons are always trying to 
attempt to get around whatever security requirement we put in 
place, so there is never a foolproof system. But, it is 
absolutely more secure and does combat the potential for that 
type of fraud.
    Chairman Johnson. So, again, in light of those electronic 
passports, are we scanning those as people exit, and are we 
matching at least those? Or is there no system for doing that?
    Ms. Dugan. What we do is vet the manifest. We do not have 
officers who are actually doing----
    Chairman Johnson. There is not a whole lot of technology 
required for that. You could do that at a TSA check-in point, 
could you not? With information systems now, we can match that 
very quickly, could we not?
    Ms. Dugan. One of the things is you would have to have the 
person actually demonstrating that they are departing, which is 
at the gateway, essentially.
    Chairman Johnson. Well, when you go through a security 
checkpoint, that is a pretty good indication. OK. Enough of 
that, I guess. I will follow-up with questions for the record 
to get specifics on that.
    Mr. Koumans, why don't you start with any kind of closing 
thought, briefly?
    Mr. Koumans. Thank you, Mr. Chairman. Maybe I will just 
add, if I may, on the passports. As was pointed out, there are 
countries that were grandfathered, so if you have an Italian, 
French, German, et cetera, passport that was issued say in 
2005, the latter half of 2005, it is still valid. It is a 10-
year passport. As those are being phased out, the new higher-
quality passports are being phased in, the fraud-resistant 
ones. And so that is something that is a diminishing issue as 
time passes and more and more of those are phased out. We 
welcome the advent of the higher fraud-resistant passports.
    A separate question of the reporting of the passport data 
to Interpol, then it is a question of screening against the 
Interpol records, and we would welcome more countries to screen 
against Interpol to prevent the travel of individuals using 
passports that have been previously reported lost or stolen.
    I want to thank you for the opportunity, Mr. Chairman, to 
discuss this program today. I am remembering a phrase that was 
mentioned in the first panel, which was, ``This is not your 
grandfather's VWP.'' When I first started issuing visas in 
1991, in the Netherlands, which was then a new entrant in the 
Visa Waiver Program, it was a much simpler time. There were 
simple checks, and at that point you could, in fact, as a Dutch 
citizen go to the airport, get on a plane, and the first time 
we would encounter you, the first time that DHS, that CBP would 
encounter you, Customs Service at the time, would be when you 
landed at JFK or Detroit. But now, an entirely different system 
with the multiple layers and the information sharing that 
underpins it. And so our screening is enriched by the data that 
we get from our partnerships and makes it an entirely different 
system and a much more robust one.
    Chairman Johnson. Thank you. Ms. Dugan.
    Ms. Dugan. Thank you, Mr. Chairman. We work very well with 
our foreign counterparts, and I think they are looking for 
additional ways to make their entry screening more robust. And 
we routinely work with them to do capacity building and ways 
for them to build their targeting framework and how they get to 
that place with whether they have to pass legislation in their 
country, what type of agreements they would have with the 
carriers and with other foreign counterparts. So I think that 
the willingness is there, and they are looking to us to help 
build that capacity.
    Chairman Johnson. Thank you. Mr. Ramotowski.
    Mr. Ramotowski. Thank you, Mr. Chairman. Perhaps the most 
important lesson of the 9/11 tragedy was the critical 
importance of information sharing, both within the U.S. 
Government and with our international allies. The Visa Waiver 
Program promotes information sharing. It is probably the single 
biggest contributor to international information sharing that 
exists. And it also has tremendous economic and diplomatic 
benefits as well. So I thank you very much for your support 
and, again, for holding this hearing.
    Chairman Johnson. Again, I want to thank all my colleagues 
for attending, all the witnesses for your thoughtful testimony 
and your thoughtful answers to our questions.
    This hearing record will remain open for 15 days, until 
March 27 at 5 p.m., for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  SECURING THE SOUTHWEST BORDER: PERSPECTIVES FROM BEYOND THE BELTWAY

                              ----------                              


                        TUESDAY, MARCH 17, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, McCain, Lankford, Ayotte, Ernst, 
Sasse, Carper, McCaskill, Heitkamp, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. I do know that our Ranking Member is 
going to be a little late, so he said we could start without 
him, and so we will call this hearing to order.
    Let me first start out by saying this is--well, first of 
all, let me welcome everybody here. Thank you for your 
thoughtful testimony. I have read it all. It was very well 
prepared.
    This is going to be the first in a series of hearings and, 
hopefully, public roundtables really designed to lay out the 
reality of the situation. Exactly what are we dealing with in 
terms of trying to secure this border?
    One thing that is pretty noteworthy about four of the five 
written statements, four of you made a very prominent point 
that the border is not secure, and I agree with that 
assessment. I think you also laid out in your testimony what is 
also obvious, that this is a very complex problem. There are no 
easy solutions to this whatsoever because we have a number of 
factors here. We have the nexus between the drug trafficking 
and drug cartels, and the human traffickers and the drug 
cartels, and illegal immigration, and immigration law that 
incentivizes illegal immigration.
    So, this is an incredibly complex problem, and that is what 
these hearings, these forums, or these roundtables are going to 
be designed to achieve, is lay out that reality, provide the 
kind of information policymakers need to solve any problem. 
And, of course, that is one of the problems with border 
security and immigration reform, is it is lacking the 
information.
    I have a written statement that I just want to include in 
the record,\1\ without objection, but I just want to read a 
couple little clips from this, because the problem is 
exacerbated by a lack of information.
---------------------------------------------------------------------------
    \1\ The prepared statement of Chairman Johnson appears in the 
Appendix on page 351.
---------------------------------------------------------------------------
    We do not know for sure how many people today are living in 
the shadows. And, most importantly, there is no solid way to 
track illegal flow at our borders. And, how many people here 
today entered this country lawfully but overstayed the visas? 
We really do not know.
    How many people cross the U.S.-Mexico border undetected? We 
really do not know. Out of those detected, how many were 
apprehended? We really do not know. Out of those detected and 
apprehended, how many were let go with just a Notice to Appear? 
I do not know it. We should have the information on that, but 
it has not been supplied to this Committee.
    Out of those that received a Notice to Appear, how many 
showed up for their court date? Again, we should have that 
information, but I do not have it. I do not believe this 
Committee has it. And, out of those that showed up for their 
court date, how many were actually deported?
    So, if we are going to start working toward solutions, if 
we are going to start analyzing this problem, we need a whole 
lot more information than we currently have.
    And, the fact is, we passed a lot of legislation, and I 
just want to go down a list that is also in my written 
statement, but let me just quick lay it out here.
    In 1986, we passed the Immigration Reform and Control Act 
(IRCA). At the time, the estimate was there were slightly less 
than four million immigrants that were in this country 
illegally. Of course, what happened there, that was the amnesty 
bill that was supposed to solve the illegal immigration problem 
for all time.
    In 1990, we passed the Immigration Act of 1990, increased 
the number of Border Patrol Agents by 1,000, created an H-1 
Visa for high-skilled workers. At that point in time, we had 
about 3.5 million people, supposedly, here in this country 
illegally.
    In 1996, we passed the Illegal Immigrant Reform and 
Immigration Responsibility Act (IIRAIRA). It created a pilot 
program for e-Verify and increased Border Patrol Agents by 
5,000, and it was the first time we required the creation of an 
exit-entry system. By this point in time--again, remember, we 
passed the amnesty bill in 1986. Ten years later, now we had 
six million people in this country illegally.
    In 2001, after 9/11, we passed the PATRIOT Act. It also 
required an entry-exit system that was going to be biometric 
and it tripled the number of Border Agents on the Northern 
Border. In 2001, we had estimated about 9.6 million immigrants 
in this country illegally.
    In 2002, we passed the Enhanced Border Security and Visa 
Entry Reform Act. It once again called for a biometric exit and 
entry system at all ports of entry. Now, the number of people 
in this country illegally had risen over 10 million.
    In 2004, we passed the Intelligence Reform and Terrorism 
Prevention Act. It increased Border Patrol Agents by a total of 
10,000 and it called on the Department of Homeland Security 
(DHS) to complete once again, the biometric entry and exit 
system. The entry system had been completed by 2004. We still 
do not have an exit system now. The number of people in this 
country illegally was almost 11 million.
    In 2006, we passed the Secure Fence Act, calling for the 
construction of 850 miles of fence along the Southwest Border. 
In 2006, the number of people in this country illegally was 
about 11.7 million.
    Now, one interesting thing about the Secure Fence Act is I 
have been diving into this problem. I am trying to get as much 
information as possible, and I did ask my staff, because I 
wanted to really understand this, so I asked them to print out 
the Secure Fence Act so I could really study it over the 
weekend, a piece of legislation that is pretty hard to 
comprehend, so I really wanted to spend the weekend reading 
this, what I consider was going to be a pretty complex, pretty 
thick bill. It took me a couple of minutes because it is two 
pages long.
    In 2007, after the 9/11 Commission Recommendations Act, 
once again, reiterated the need for a biometric exit system. 
Now, we had almost 12 million people in this country illegally.
    The point of that iteration, that time line, is we have 
been passing law after law after law, and at some point in time 
we have to ask the question, do these laws work? Are we solving 
the problem? And if not, why not?
    So, again, the purpose of this hearing is to lay out the 
reality, lay out the facts, understand the complexity, realize 
there is no silver bullet solution, there is no easy solution 
to this problem. And, again, that is why I want to thank the 
witnesses for some thoughtful testimony. This is the first 
step. I think, having read your testimony, you are certainly 
laying out some realities that we certainly need to consider 
here in Congress.
    And with that, I will turn it over to our Ranking Member, 
Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman.
    Welcome, one and all. It is good to see you. Thank you for 
spending this time with us today.
    Last month, our Chairman, along with Senator Sasse and I 
traveled down to South Texas to see firsthand conditions along 
our border. We met with ranchers. We met with Border Patrol 
Agents, officers in action at the port of entry (POE), we 
learned a lot, and I am pleased to say that today, some of our 
friends from the Southwest Border have joined us here in our 
Nation's capital to continue the conversation that was begun 
down there.
    I have made a number of trips over the years to both our 
Northern and our Southern Borders, from the West Coast, the 
Pacific, all the way over to the Gulf Coast, and along the 
Northern Border, as well. Thank you, Senator Heitkamp. 
[Laughter.]
    Each time, I came away impressed both by the dedication of 
our border security personnel and by the security and 
technological advances we have made. We have invested a huge 
amount of resources along our Southern Border, in particular, 
as you know, a quarter of a trillion dollars over the past 
decade. I do not believe it has been wasted. I think it shows.
    In fact, last Congress, we held a series of border security 
hearings in this Committee. We learned that overall 
apprehensions of undocumented migrants are at a 40-year low. We 
learned that crime rates in many communities near the border 
have also dropped significantly. We also had experts tell us 
that the border is more secure than it has ever been, and many 
of those I have spoken to during our trip have agreed--not all, 
but many.
    Having said that, is there more work to do? You bet, there 
is, and one of the great things about this hearing is you can 
help us better focus our attention on what is likely to work 
and enable us to continue to make progress.
    We know that while many border communities are among the 
safest towns in America, the drug cartels are a real danger and 
are growing more sophisticated and oftentimes more violent, as 
well. Ranchers, in particular, face persistent and daunting 
challenges on their own lands. We also know that our ports of 
entry need to be modernized. These border crossings have 
received far less attention and resources than the Border 
Patrol over the past decade, but they are just as important to 
our security and to our economy. And, of course, we are all 
aware that the Rio Grande Valley last summer faced an 
overwhelming surge of Central American children and families 
arriving at the border.
    While some of these migrants tried to evade our agents, it 
is my understanding that most simply turned themselves in, and 
based on what I have seen and heard, I am convinced that we 
need to take at least three basic steps.
    First, we need to continue to make investments at the 
border, but they need to be smart investments. To me, that 
primarily means innovative technologies that can serve as force 
multipliers for the unprecedented number of agents we have 
stationed along the border. In fact, when Chairman Johnson, 
Senator Sasse, and I were down on the border, we heard 
repeatedly that, and this is a quote, ``Technology is the key 
to securing the border.''
    Of course, what works in Arizona may not work in Texas, may 
not work in San Diego, or may not work along the Northern 
Border. In some areas, unmanned aerial systems (UAS) with 
advanced radar technology or fixed-wing aircraft with 
sophisticated cameras may be what is most effective. In other 
places, it can mean surveillance systems on tethered aerostats 
or mobile towers or fixed towers. In others, it could be taming 
a wild mustang that allows an agent to patrol remote or densely 
vegetated areas along the Rio Grande River and do that more 
effectively.
    We also need to enable our ports of entry to work more 
efficiently. We need to enable our ports of entry to work more 
efficiently so that we can better focus our inspections on 
potential threats rather than legitimate travelers.
    But as we make these investments to support our frontline 
agents, we must avoid the temptation here in Washington of 
being overly prescriptive. As smart as we are, we do not have 
all the answers, and a lot of the good answers, frankly, are at 
this table, and the other people we have met with on these 
repeated trips to the border.
    The second thing we need to do is to get to work on 
comprehensive immigration reform. This cannot and should not 
wait until we have achieved some elusive, perfect measure of 
border security. Congress needs to begin real debate on a 
comprehensive and thoughtful 21st Century immigration policy 
for our Nation, a policy that is fair, that will significantly 
reduce the Nation's budget deficit, that will continue to slow 
the flow of immigrants to our border with Mexico, and it will 
strengthen the economic recovery now underway.
    Last Congress, two-thirds of the Senate came together and 
overwhelmingly passed such a measure. Was it perfect? No, but 
it took significant steps to fix our badly broken immigration 
system while reducing our deficit by nearly $1 trillion over 
the next 20 years and increasing our gross domestic product 
(GDP) over that time period by 5 percent. And, by creating 
better legal channels for immigrants to come to our Nation, we 
make it easier for border security officials to focus on the 
people or things that pose a true risk to us. Letting millions 
of undocumented people already living here, many for their 
entire lives, to step out of the shadows and undergo background 
checks is also good for local law enforcement. In short, 
comprehensive immigration reform is good for security.
    Third point: We must address the root causes of the 
challenges we face along our borders with Mexico and not just 
the symptoms. I just want to take a moment, Mr. Buffett, to 
thank you and your family, your Foundation, for knowing that 
and actually doing something about it. You are a model for us.
    But, in this case, this means helping to address the 
violence and desperation that has caused so many families, 
children, and others to risk their life and limb on a 1,500-
mile journey across Mexico to come to our country. The leaders 
of Guatemala, Honduras, and El Salvador have embarked on an 
unprecedented collaboration effort called the Alliance for 
Prosperity to boost security and prosperity within their 
region. They have committed to investing their own money in the 
development of their infrastructure and workforce and to make 
difficult changes to promote transparency, security, and the 
rule of law. We should be a good neighbor and support them in 
this effort, just as we helped Colombia reverse its downward 
spiral with Plan Colombia in the 1990s. It is the right thing 
to do and the pragmatic thing to do. It is a much better 
approach than continuing to deal with the devastating and 
costly consequences of vulnerable children and others making 
the trip to our border.
    Finally, I was pleased to see the President's request of $1 
billion in next year's budget to partner with the governments 
of Central America as they seek to address security, 
governance, and economic challenges. For example, some of this 
funding would support better police training or the expansion 
of youth centers for those at risk of gang violence and 
recruitment. Some of it will be used to attract foreign 
investment or support efforts to build a stronger court system 
and electric grid.
    Changes in these nations will not happen overnight. It will 
not be easy. But, I believe we have a moral and fiscal 
obligation to help our neighbors in the Northern Triangle. 
After all and we do not say this enough, but I want to say 
this--after all, addiction in the United States to cocaine, to 
heroin, and other illegal substances directly contributes to 
their misery in those countries. But, if we work together, 
progress can be made. They can do it. We can help.
    With that, I look forward, Mr. Chairman, to hearing from 
all of the witnesses. Thank you one and all.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Cabrera. I do.
    Mr. Dannels. I do.
    Mr. Buffett. I do.
    Mr. Brand. I do.
    Ms. Weisberg-Stewart. I do.
    Chairman Johnson. Thank you.
    Our first witness is Chris Cabrera. Chris is a Border 
Patrol Agent and serves as the Vice President and spokesperson 
of the National Border Patrol Council (NBPC), Local 3307. Local 
3307 represents more than 2,000 Border Patrol Agents and 
support staff in the Rio Grande Valley in South Texas. Before 
joining the Border Patrol, Mr. Cabrera was a paratrooper with 
the United States Army. He joined the Border Patrol in 2003 and 
has spent his entire career in the Rio Grande Valley, stationed 
in McAllen, Texas.
    Mr. Cabrera.

TESTIMONY OF CHRIS CABRERA,\1\ BORDER PATROL AGENT, RIO GRANDE 
VALLEY SECTOR, U.S. CUSTOMS AND BORDER PROTECTION, ON BEHALF OF 
               THE NATIONAL BORDER PATROL COUNCIL

    Mr. Cabrera. Chairman Johnson, Ranking Member Carper, thank 
you for providing me with the opportunity to testify on behalf 
of the National Border Patrol Council and the 16,500 Border 
Patrol Agents it represents. My name is Chris Cabrera. I joined 
the Border Patrol in 2003. I served 4 years with the U.S. Army 
as a paratrooper. I have spent my entire Border Patrol career 
in the Rio Grande Valley of South Texas.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cabrera appears in the Appendix 
on page 355.
---------------------------------------------------------------------------
    Before I discuss some potential solutions that can be 
employed to increase border security, I want to address whether 
or not the border is secure. If you ask that question of the 
Department of Homeland Security or senior management at Customs 
and Border Protection (CBP), they will tell you that the border 
is secure. They may even point to statistics and metrics 
showing that the Border Patrol is 75 percent effective in 
apprehending illegal immigrants and drug smugglers.
    I want to be crystal clear. The border is not secure. That 
is not just my opinion or the position of the NBPC. Ask any 
line agent in the field and he or she will tell you that the 
best we apprehend is 30 to 40 percent of the illegal immigrants 
attempting to cross into the United States. This number is even 
lower for drug smugglers, who are much more adept at eluding 
capture.
    Now, how can this enormous gap exist between what DHS tells 
you here in Washington and what our agents know to be the truth 
in the field? Frankly, it is how you manipulate the statistics. 
Let me give you an example. A key metric in determining the 
effectiveness is what is known as ``got aways.'' If we know 
from footprints or video surveillance that 20 individuals 
crossed the border, we ultimately catch 10, obviously, we know 
that we have 10 that got away.
    Now, when I first joined the Border Patrol, if I saw 20 
sets of footprints in the sand, there was no argument. We were 
looking for 20 individuals. Today, if I see 20 more footprints 
in the sand, a supervisor must come out to my location and 
verify the number of footprints. I guess they believe that I 
have lost my ability to count after 13 years. Agents who 
repeatedly report groups of larger than 20 face retribution. 
Management will either take them out of the field and assign 
them to processing detainees at the station or assigning them 
to a fixed position in low-volume areas as a punishment. 
Needless to say, the agents have gotten the message and now 
they stay below the 20-person threshold, no matter the actual 
size of the group.
    In January 2011, Border Patrol Chief Fisher came to our 
muster at McAllen Station. To his credit, he took questions 
from the assembled agents. I expressed my concern to him what I 
perceived to be CBP being more interested in border security 
statistics than the actual border security, especially as it 
pertains to our ``got aways.'' Chief Fisher's response was, 
``If a tree falls in the woods and no one is there to hear it, 
does it make a sound?'' Now, I do not know if that tree makes a 
sound, but I do know if I see 20 footprints in the sand and I 
catch five, that I have 15 ``got aways,'' whether or not our 
official statistics reflect that.
    I raise this issue with you because before we can start to 
address our problems, we have to acknowledge the extent of 
them. In a moment, I am going to ask you to provide our agents 
with more resources. I know that times are tough right now and 
everyone is asking for more resources. I know that it is harder 
to sell for me when the head of my agency is telling you that 
we are 75 percent effective and the border is secure.
    To give you a sense of what we are dealing with, not 6 
months after Chief Fisher made that comment to me, I was 
involved in a firefight with drug cartel smugglers. We were 
attempting to intercept a drug shipment and we sustained 
automatic gunfire from the Mexican side of the Rio Grande 
River. In less than 5 minutes, over 600 rounds were fired. When 
cartel members are brazenly firing automatic weapons at Federal 
law enforcement agents, the border is not secure. This was in 
2011, and since then, things have gotten worse in the Rio 
Grande Valley Sector.
    What are some actions that this Committee can take to 
improve border security? Let me give you several of my 
suggestions.
    Increase manpower. Currently, there are 21,370 Border 
Patrol Agents in this country. We do not need to double the 
size of the Border Patrol to gain operational control. In my 
opinion, we fall approximately 5,000 agents short of where we 
should be. The NBPC would advocate that 1,500 be sent to the 
Northern Border, which is woefully understaffed, and the 
remaining 3,500 positions allocated to interior enforcement.
    Supervising staffing levels. The Border Patrol is an 
extremely top-heavy organization with far too many layers of 
management. The average police department has one supervisor 
for every 10 officers. The Border Patrol has one supervisor for 
every four agents. This Committee should mandate a 10:1 ratio 
and achieve it through attrition in the supervisory ranks. That 
could easily return another 1,500 agents to the field.
    Interior enforcement. Every night, we effectively play goal 
line defense because all of our resources and assets are 
concentrated right at the border instead of having an in-depth 
defense. You may be surprised to learn that even in a border 
State like Arizona, we have no agents in Phoenix, this despite 
the fact that Phoenix is one of the most important illegal 
immigrant and narcotic transit points in the country.
    Better training. During the Bush Administration, the Border 
Patrol's academy training was reduced from approximately 20 
weeks to as little as 54 days if you spoke the Spanish 
language. This is simply not enough time to properly train an 
agent and weed out those who are not up to the challenge. The 
Committee should require that the academy revert back to the 20 
weeks.
    Again, I would like to thank the Committee for the 
opportunity to testify, and if you have any questions, I would 
be happy to answer them to the best of my ability.
    Chairman Johnson. Thank you, Mr. Cabrera.
    Our next witness is Sheriff Mark Dannels. He is the Sheriff 
of Cochise County, Arizona. Mr. Dannels began his law 
enforcement career in 1984, after serving a successful tour in 
the United States Army. With 30 years of law enforcement 
experience, Mr. Dannels has been recognized, among other 
things, to receive the Medal of Valor, Sheriff's Medal, and the 
Deputy of the Year.
    Sheriff Dannels.

   TESTIMONY OF MARK J. DANNELS,\1\ SHERIFF, COCHISE COUNTY, 
                            ARIZONA

    Mr. Dannels. Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you and good morning, for the 
distinct privilege and honor to actually share my experience 
over three decades on the border and seeing how it has evolved.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dannels appears in the Appendix 
on page 358.
---------------------------------------------------------------------------
    My brief statement has been submitted, but I would like to 
highlight a few points.
    With 83 miles of international border within our 
jurisdiction, Cochise County plays a significant role in 
combating drug and human trafficking organizations and 
associated violent crime, which adversely affects Arizona 
residents and other areas throughout the United States. With 
6,219 square miles, Cochise County is the 38th largest land 
mass county in the United States and is home to United States 
Army base, Fort Huachuca. Violence against innocent citizens, 
public officials, law enforcement, and rival drug and human 
trafficking groups in Mexico continues to escalate. The adverse 
effects of the drug and human trafficking organizations 
operating in Cochise County not only definitely diminish the 
quality of life of county residents, but also places unbearable 
strain upon the budgets and resources of private and local 
government agencies in the county.
    In the 1990s--I would like to talk just quickly about the 
history of the border and why we are in the current situation. 
I call it the Plan of the Ps, where the Federal Government came 
out with a plan to secure the border, where they were going to 
secure the populated areas, which the targeted cities were 
Yuma, El Paso, and San Diego, and the ports of entry. The other 
half of the plan was to reroute that illegal activity, those 
disturbances, into the rural parts of the Southwest Border. I 
am now proud to say that today we are a product of the Federal 
Government's plan.
    Currently, we have 1,500 Federal agents working just in 
Cochise County for 83 miles of international border. Local 
solutions and programs are no longer a thought, but a reality 
of bringing relief to our citizens. As the Sheriff of Cochise 
County, I felt it was my elected and statutory duty, which is 
my oath of office, to support the United States Constitution 
and the Arizona Constitution to protect and secure the freedoms 
and liberties of my citizens, with or without the help of our 
Federal partners and policymakers. It is no longer a debate 
that those that live in the rural parts of the Southwest Border 
are not secure and are vulnerable for any type of transnational 
criminal activity.
    Some of the local solutions that we have put forward: A 
balanced community policing effort, both education, prevention, 
and enforcement. We spent transparent time to build that 
community trust. We have collaborated at all three levels of 
law enforcement and government within our county. Our local 
county attorney and I have a law and order partnership to put 
the consequences back into those that commit crimes against our 
citizens, to include border crimes. Interoperabilities and 
intelligence sharing at all three levels.
    A regional Border Team: To give you an example of this 
Border Team, which is supported by Border Patrol, Customs, and 
the U.S. Forest Service, the first 6 to 8 weeks, we put 30 
smugglers that we captured, put them in prison at the State 
level, where they are now being housed there for an estimated 
2-year sentence.
    A Ranch Advisory Team: Made up of our local ranchers and 
farmers and citizens that are vulnerable in these areas. A 
Ranch Patrol of two deputies that now work directly with these 
citizens. A factual situation awareness for our media, our 
elected officials, and America as a whole. And, a community 
outreach to work within our communities.
    Some recommendations--I highlighted a few of them: To 
redefine the Plan of the 1990s and buildupon their successes. 
The political will to make border security a mandated program, 
not a discretionary one. Border security first, immigration 
reform second. Maximize the allocated resources of staffing 
with the Border Patrol. Currently, in the Tucson Sector, only 
43 percent of all Border Patrol were actually on the border. 
Support and embrace first-line agents that work the border 
regions. They have a dangerous job and it is no secret their 
frustration is high. Quality of life. Citizens living on the 
border are supported by sheriffs and State Governors regarding 
an improved security and safety. Funding supplement for local 
law enforcement, prosecution, detention, and criminal justice, 
and in support of border crimes. Continue funding and support 
for the Stonegarden program, which has actually been a very 
beneficial program. And, enhanced funding for regional 
communication and interoperability with local law enforcement.
    I want to read a letter--this is from the Arizona Sheriffs 
Association--that we sent to Washington, DC. on July 28 of 
2014. I actually authored this letter. ``This letter is 
authored by the Arizona Sheriffs Association to address the 
lack of border security on the part of our Federal Government, 
thereby placing our Arizona citizens and all those that visit 
our beautiful State in harm's way by those that have chosen to 
infringe upon and violate our freedoms and liberties that are 
guaranteed under the U.S. Constitution.
    ``Arizona Sheriffs are standing united and steadfast in 
support of secure and safe borders in hopes of enhancing public 
safety for our Arizona citizens and all Americans. A secure and 
safe border is one that provides a genuine deterrent for those 
that cross into our country illegally and for illicit gain.
    ``Border security must never be a discretionary program, 
but a mandate by our Federal leaders and policymakers. The 
quality of life normally enjoyed by our citizens has been 
jeopardized by an unsecure border that enables transnational 
criminals and their accomplices to prey upon our citizens. Our 
focus is border security. It is not to be confused with 
immigration reform.''
    Today, the opportunity to address this group instills fresh 
hope that our voice does matter, and on behalf of the citizens 
of Cochise County, Arizona and beyond, we hope you will not 
forget us and will do your constitutional mandate to bring 
positive change to an overdue, vulnerable situation.
    I leave you with an open invitation to come visit us in 
Cochise County, for not a show-and-tell visit, but a real life 
visit. And, Senator Johnson, thank you for bringing your staff 
down to see firsthand what is going on on our border.
    Again, thank you very much for the opportunity to share 
this experience and I am open for any questions if you wish. 
Thank you.
    Chairman Johnson. Thank you, Sheriff Dannels.
    Our next witness is Howard Buffett. Mr. Buffett manages the 
Howard G. Buffett Foundation, a private charitable foundation. 
He is a member of the Sheriff's Assist Team in Cochise County, 
Arizona. Mr. Buffett oversees a 2,376-acre cattle ranch in 
Arizona on the U.S.-Mexico border and another farm in Arizona 
50 miles from the border. Mr. Buffett has been honored for his 
charitable work, receiving the Aztec Eagle Award from the 
President of Mexico in 2000, the highest honor bestowed on a 
foreign citizen by that government, and Mr. Buffett, we all do 
appreciate your generosity to these causes.
    Mr. Buffett.

TESTIMONY OF HOWARD G. BUFFETT,\1\ CHAIRMAN AND CHIEF EXECUTIVE 
  OFFICER, HOWARD G. BUFFETT FOUNDATION, AND ARIZONA LANDOWNER

    Mr. Buffett. Thank you very much, Chairman Johnson and 
Ranking Member Carper and the Members of the Committee. I 
appreciate having the opportunity to be here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Buffett appears in the Appendix 
on page 364.
---------------------------------------------------------------------------
    I am here as a landowner of border property, a 
philanthropist who has worked on related humanitarian issues 
over the last 20 years, and a member of law enforcement in both 
Arizona and Illinois. These experiences inform the perspective 
I share here today.
    You have already heard that the border is not secure by 
your first two witnesses and I would support that position. I 
believe we must secure our border now, regardless of efforts 
being considered on immigration reform and support to countries 
of origin. I would be happy to share my thoughts at a later 
time on those topics, given our Foundation efforts on both. 
But, I will say that I see them both as separate and distinct 
from the need to secure our border.
    Our insecure border creates a serious humanitarian crisis. 
By failing to secure our border, we have contributed to failing 
economies and unsafe environments, causing people to die 
attempting to reach our country, while putting our own citizens 
at risk. Our insecure border allows the drug cartels to operate 
at an unacceptable level, having a devastating impact on heroin 
and meth use in this country. U.S. citizens who own land in 
border States suffer economically. Those who live in 
communities along our border assume a higher risk to their 
personal safety that can be frightening and, at times, deadly, 
and all of this adds up to undermining our society.
    Border security is like most law enforcement objectives: It 
will never be 100 percent successful, but we must strive for 
zero tolerance. Today, we are far from that standard. This is 
reflected in the fact that as a landowner along the border, we 
cannot build a home on our property, we cannot let our children 
play freely, and we cannot reliably operate our businesses. 
This is not what we expect as citizens of the United States.
    I have neighbors in Arizona who have had to abandon their 
livelihoods of breeding cattle. On our property, we struggle to 
keep up repairing fences which are cut multiple times regularly 
by drug smugglers who have too heavy a load to go over or under 
these fences.
    We must also recognize that our insecure border causes 
people attempting to cross to die trying, children to be 
victimized, women to be raped, and contributes to the 
dysfunction of the neighboring economies that these people are 
fleeing. We should strive to help our neighbors improve the 
rule of law and to provide opportunities so people can stay at 
home without looking to the United States as a safe haven. And, 
our actions at home should not encourage people to travel to 
our country illegally. None of that is possible unless our 
border is secure.
    Those who decide to come to this country represent two 
different groups. Many are desperate, but decent people who are 
law-abiding individuals until they cross our border illegally. 
Others are human predators, thugs, or members of organized 
criminal groups.
    As a part-time law enforcement officer, as a property owner 
of a ranch located on our Southern Border and a farm 50 miles 
north of that border, I have experienced many encounters with 
Border Patrol Agents and illegal immigrants. When you live or 
operate close to the border, it is like living in another 
world.
    As a result of our Foundation, I have spent hundreds of 
hours with families in Central America and Mexico. I have 
interviewed people boarding the death train in Oaxaca, those 
who were seriously injured in the process, and mothers whose 
sons have died in the Arizona desert. So, I repeat, our 
insecure border creates a humanitarian crisis.
    One thing I have learned from our Foundation work in over 
80 countries is that it does little to identify a problem if 
you are not able to also propose a solution. So, I present a 
few ideas for your consideration.
    One, we need more human assets on our border, but adding 
more Border Patrol Agents is not the only answer. We have an 
opportunity to engage appropriate military assets, and I 
emphasize, without militarizing the border. The Coast Guard is 
an agency which falls under Homeland Security, and is well 
trained to deal with border enforcement. I would strongly 
consider expanding its mandate to operate on land. The National 
Guard can be used to monitor additional technology, such as 
aerostats and other surveillance systems, which will add to the 
support in the technology area.
    Two, we need a commitment from Mexico and with Mexico to 
enforce the Northern and Southern Borders. We need to put the 
manpower of both countries on both sides of our border with 
Mexico to shut down the drugs coming into our country. We 
should apply the lessons we learned from our engagement with 
Colombia to try and reduce the drug trade, improve security, 
and promote rule of law for our Southern neighbor. This 
requires a new level of trust and investment, and I would 
emphasize, it is not without risk.
    Three, we need additional immigration courts at border 
facilities for real time judicial processing until our border 
is more secure.
    Four, we must improve cooperation on the border among 
ranchers, local law enforcement, and community leaders. It is 
the responsibility of the Federal Government to set this tone 
and to foster this cooperation. Too often, the Federal 
Government acts like the Federal Government.
    I have included in my written testimony more details of my 
experiences and our Foundation investments across a broad range 
of related activities, from gang prevention in El Salvador to 
geographic information systems (GIS) for body recovery at the 
Pima County Medical Examiner's Office, from projects with the 
United Farm Workers and Costco supporting farm labor rights and 
work programs, to millions of dollars that we have invested in 
the Cochise County Sheriff's Office (CCSO) for public safety, 
and in particular to fight human trafficking and drug 
smuggling.
    I look forward to answering any questions. Thank you.
    Chairman Johnson. Thank you, Mr. Buffett.
    Our next witness is Othal Brand. Mr. Brand has lived for 
over 60 years in McAllen, Texas, and currently serves as the 
President and General Manager of Hidalgo County Water 
Improvement District Number Three, with its main facility 
located on the embankment of the Rio Grande River. For 30 
years, Mr. Brand worked for his family business with farming 
operations and property directly on the Rio Grande River.
    Mr. Brand.

  TESTIMONY OF OTHAL E. BRAND, JR.,\1\ FARMER, MCALLEN, TEXAS

    Mr. Brand. Thank you. Chairman Johnson, Ranking Member 
Carper, and Members of the Committee, I appreciate your 
invitation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brand appears in the Appendix on 
page 394.
---------------------------------------------------------------------------
    My name is Othal Brand. I have lived in the Valley, as you 
said, for 60 years. My family farmed the Valley. We were the 
largest growers of fruits and vegetables in the State of Texas 
for a quarter of a century and farmed thousands of acres owned 
and leased along the river for that time. I now served 10 years 
as the General Manager and President of our Water District, 
working every year and speaking on a weekly basis with law 
enforcement, being on the embankment, dealing with all the 
issues that you have heard of and know about today.
    I hope you read my written testimony. There is violence and 
a criminal element is real on the river. If you have listened 
the last couple days to the news, our Sheriff for Hidalgo 
County just released, or the first time I have heard it, that 
53 percent of all illegal crossers in the United States came 
through Hidalgo County, where we live--53 percent of everyone 
nationwide. I would say the focus is rather pointed.
    I want to spend most of my time with you this morning 
speaking to the possible solutions and, hopefully, if there is 
time, speak to the other.
    In dealing with where we live--that is all I am going to go 
into, try to tell you that my experience is--one is you have 
aerostats, you have drones, you have planes, you have 
helicopters, and they are great and they have been a great 
asset, but they are what we call fair weather systems. 
Aerostats can only stay up--we are called the Windy Valley. 
There is a reason for that, because we have a lot of wind. 
Aerostats can only stay up for a certain wind speed and then 
they have to come down. Drones on a cloud-covered day, are 
absolutely on the ground and have no worth to us. You have 
already started and I hope to encourage you to continue the 
added support of portable towers, which are more of a 
terrestrial structure, that are more of a 24/7 solution to--in 
addition to what you are presently doing.
    No. 2, boat ramps, or boat access. In listening to Border 
Patrol, I buy into what they say about the first line of 
defense for us is the river. We actually have a river. We are 
not like other parts of the State where it is just a dry gully, 
and that is the first line of defense. And, what we know is 
that if there are boats in the water, that is a deterrent. It 
is the most vulnerable. People who cross into our part of the 
world, that is where they are the most vulnerable. It is first, 
getting in that water and getting out. Boats are a solution to 
that. They should be the first line of defense.
    In 250 miles of our river, from Brownsville to Rio Grande 
City, we have two 24/7 ramps and neither one of them belong to 
the government. One of them is ours, which is below Anzalduas 
Dam. The other one is above. There are eight weirs in the Rio 
Grande, dams that actually segment the river into pieces. They 
need access to that river. They need infrastructure. You have 
infrastructure for the air. You have infrastructure for the 
ground in the boots. You do not have any infrastructure for the 
boats, for the marine division.
    I have suggested, if you read that the Water Districts who 
serve 90 percent of the people in the Valley are below the 
walls that were built in the Valley, but they provide the 
majority of the drinking water. They are the only other people 
on the river--other than your international bridges--they are 
the only other ones that have infrastructure all the way to the 
river.
    Border Patrol says that their issues are environmental 
studies that take 3 to 5 years and all their answers have been 
``no'' to this point. In regard to Water Districts, the 
majority of them have channels, anywhere from a quarter to a 
half-a-mile long, off the river. This is what we have done. We 
did not have to do any environmental studies. We built the ramp 
inside our property, on our channel that accessed the river, 
never touching the embankment, never touching the river.
    These are simple, quick solutions. These Water Districts 
are more than open to a possible solution for Border Patrol in 
this respect.
    These weirs, at the same time, are important because there 
has to be a certain water level for boats to work. These weirs, 
we are getting ready to spend $125,000 to $150,000 to lift the 
weir below our pump station in order to make our pump station 
more efficient and have water supplies. This is what they were 
all built for, for the Water Districts, in the first place. By 
raising these weirs a foot to even just two feet, it gives the 
Border Patrol Marine Division an opportunity to keep a water 
level that is adequate for them to operate fully from one end 
of the Valley to the other, where 53 percent of these people 
are coming across.
    Last, I would tell you that--and let me just say, these 
expenses and recommendations I am making, these are one-time 
expenses. We built our boat ramp 5 years ago. I have had no 
additional expenses in that regard. These are one-time 
expenses, not recurring or residual expenses to the Federal 
Government, and they are--it is probably the best money spent 
on that first line of defense.
    Last, I would say to you, the National Guard--the State of 
Texas, I think, proved a point to the rest of us that added 
manpower and resources does help curb and deal with the battle. 
They brought a thousand National Guards. I do not want to talk 
to you about militarizing. I do not want to talk to you about 
who should do it, the Federal, the State, what agency within 
those governments. But, I want to say to you, the concept is 
solid for the first time in my lifetime, in the recent years.
    They brought those thousand men down to the Valley. Their 
sole purpose, their singular purpose was to sit on the river 
and be the eyes for Border Patrol. They sat on the embankment 
of the river. They had no processing responsibilities, no 
administration responsibilities. They did not have to drive 
back and forth, up and down the river, like Border Patrol has 
to do because of their manpower. They sat on that river. The 
Department of Public Safety (DPS), the State Police, game 
wardens, worked with all of them during the period they have 
been down there.
    It is the concept. I do not want to get wrapped up in who 
should do that, but the concept works. It is something Border 
Patrol does, but they need more men to do it.
    The Police Chiefs of McAllen and Mission will both tell 
you--I visited with both of them this week before I came just 
to hear it again--that during this period of time, even though 
none of these people that I just talked about--DPS, game 
wardens, or National Guards--none of them were put in cities. 
They were all put on the river in rural areas. But, their 
effectiveness impacted the cities. McAllen will tell you, and 
they will give the credit to these three groups, that their 
crime dropped 9 percent. Mission will tell you, and they will 
give the credit, too, they dropped 18 percent in their crime.
    And, I am not here to argue about the effectiveness. That 
is the byproduct. If you do it outside, you do it on the river, 
which is where it should be dealt with first, that is the 
cheapest dollar you will ever spend, no doubt about it, and 
there is a byproduct. It will diminish all the other expenses 
that we all deal with north of the border.
    From a businessman's perspective, I will tell you, that is 
the cheapest dollar you will ever spend, is securing the 
border. The immigration issue, I am not here for. I am here 
because I want my home secure. I want my family, my community 
secure. I am not worried about the economy. I have lived in the 
Valley all my life. The economy will survive. It will always do 
well. It will always come back. It may have a temporary black 
eye, but its not going to curb our economy. The cartels are too 
smart for that. If you read my testimony, they are like leeches 
and ticks. They will bleed the animal, being the economy. They 
will not kill it. They will bleed it.
    So, I do not want to argue--I do not want to debate that 
they are safe. The cities are safe. In our county, we have 
1,582 square miles in our district. I have 2 minutes?
    Chairman Johnson. You are 2 minutes over.
    Mr. Brand. Oh, I am 2 minutes over. Well, you know, that 
is---- [Laughter.]
    I count backward.
    Chairman Johnson. We will get back to you on questions.
    Mr. Brand. That is all right. Thank you, sir.
    Chairman Johnson. Thank you, Mr. Brand.
    Our next witness is Monica Weisberg-Stewart. Ms. Stewart is 
Chairwoman of the Texas Border Coalition's Border Security and 
Immigration Committee, the collective voice of border mayors, 
county judges, and economic development commissions along the 
Texas-Mexico border. The Texas House of Representatives has 
recognized Ms. Weisberg-Stewart as a noteworthy business and 
civic leader in McAllen for her contributions and achievements.
    Ms. Stewart.

TESTIMONY OF MONICA WEISBERG-STEWART,\1\ CHAIRWOMAN, COMMITTEE 
   ON BORDER SECURITY AND IMMIGRATION, TEXAS BORDER COALITION

    Ms. Weisberg-Stewart. Thank you for inviting me to testify 
before you today. I am a businesswoman in McAllen, Texas. The 
family retail business founded by my family in 1958, Gilberto's 
Discount House, was located eight miles from the Rio Grande 
River and recently closed after 57 years in business. I want to 
share with you today my experiences on the border, both as a 
businesswoman and the Chairwoman of the Texas Border Coalition 
Committee on Border Security and Immigration.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Weisberg-Stewart appears in the 
Appendix on page 400.
---------------------------------------------------------------------------
    You will be hard-pressed to find anyone who cares more 
about border security than those of us who live, work, and 
raise our families on the border. Let me begin.
    We do not believe that the border can be truly secured 
without fixing our border immigration system. You will hear 
from others today about community needs, mostly as they relate 
to the areas between the ports of entry. Since 2000, Congress 
has more than tripled the budget of Border Patrol enforcement. 
That effort, combined with better interior enforcement and the 
improvement of the Mexican economy, has contributed to an 80 
percent reduction in apprehensions of undocumented border 
crossers since 2000. I have great admiration for the work of 
the men and women of the Border Patrol, or as I refer to them, 
as the men and women in green.
    It is important to note that between one-third and one-half 
of all undocumented persons today entered this country lawfully 
through the ports of entry and later overstayed their visas. We 
have to help our Customs and Border Patrol Agents, the men and 
women in blue, do a better job of preventing the entry of 
people who intend to overstay.
    It is also important to note that the transnational drug 
cartels have built a successful business model based on the 
smuggling of cocaine, heroin, and methamphetamines into the 
United States from Mexico, and the overwhelming majority of 
these smuggling activities occur through the ports. CBP 
officers performing immigration inspections are the primary 
line of defense against illegal drug flows through the ports of 
entry.
    The fact that no large-scale attack from foreign terrorists 
has occurred on United States soil since 9/11 indicates that 
the intelligence and enforcement that has gone into securing 
the homeland from terrorism has exceeded expectations. With 
that superior record, we have to continue to help Customs and 
Border Protection prevent terrorist agents from crossing over 
to United States soil.
    Proposals to fix border security on the Southwestern Border 
often come from people who do not have daily experience on the 
border, moving legitimate goods between Mexico and the United 
States, working with our manufacturers, our farmers, the 
Customs inspectors at the ports of entry, and the Border Patrol 
Agents between them.
    I suggest that Congress focus on these two priorities: 
Preventing the unlawful entry of people, especially those who 
might pose a threat to our Nation, through the ports of entry; 
and preventing the smuggling of high-value drugs that are the 
lifeblood of the transnational criminal networks through the 
ports of entry.
    Increasing effective security measures at the ports of 
entry will also benefit every State in the Union. Increased 
enforcement, more customs agents, better technology, and a 
functional infrastructure means more legitimate trade. 
According to the Wilson Center, six million U.S. jobs depend on 
legitimate trade with Mexico, one in every 24 workers, which 
amounts to half-a-trillion dollars of goods and services per 
year.
    On a typical day, CBP inspectors process one million 
travelers, handle 70,000 cargo containers, stop 425 
agricultural pests from entering the United States, quarantine 
5,000 harmful products and substances, and identify nearly 600 
people who raise national security concerns.
    Mexico's trade with the United States rose to $535 billion 
in 2014. That is a 5.5 percent increase from 2013. Not 
surprisingly, Texas' largest trading partner is Mexico, yet it 
can take 3 to 4 hours to legally cross the border from Mexico, 
and that costs the United States economy money. The result is a 
significant and chronic loss of jobs and trade on both sides of 
the border. But, long wait times at border crossings could be 
eliminated if the Federal Government would aggressively invest 
in our ports of entry with new infrastructure and technology.
    In business, we look at what will give us the biggest bang 
for the buck, and we believe the biggest return on investment 
is at the ports of entry. We understand that resources are 
limited, but those investments in both security and legitimate 
trade and travel will give us the biggest return.
    Let me give you a real world example. In 2013, Congress 
authorized a pilot program to allow local communities to help 
pay for additional overtime for Customs and Border Protection 
Officers. The city of El Paso was one of five pilot projects 
chosen for a 5-year test. With increased staffing at the ports 
for nearly a year, traffic volumes have increased nearly 20 
percent and almost one-third on vehicles. Even with increased 
volume, wait times went down.
    There are provisions in the Johnson-Cornyn-Flake bill with 
which we disagree, such as more fencing and waiving 
environmental laws. As Army trainers teach, there is nothing 
man can build that man cannot overcome. This certainly holds 
true with the border fence. People are going over it, under it, 
through it, and around it. But, there are a number of 
provisions on which we have worked with Senator Cornyn for many 
years, such as 5,000 additional CBP agents, more agricultural 
specialists at the ports, secure two-way communication devices, 
Border Area Initiative grant programs, ports of entry 
infrastructure improvement, and a cross-border trade 
enhancement provision.
    Congress has a responsibility to protect the Nation from 
unlawful entry, from transnational crime, and from threat of 
terrorism. The Texas Border Coalition suggests you can best 
fulfill your responsibility, best fill the gaps in border 
security by investing the same way that our local communities 
do, in our land ports of entry.
    Thank you.
    Chairman Johnson. Thank you, Ms. Stewart. Thank you, all 
witnesses, for your thoughtful testimony.
    Chairman McCain is here from a hearing in the Armed 
Services Committee, so I am going to yield my questioning time 
to Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you very much, Mr. Chairman, and I am 
sorry about this. We have a hearing going on on cybersecurity, 
which I know is an issue that this Committee is very involved 
in and interested in, as well.
    I would like to thank the witnesses. I would also like to 
commend to my colleagues to take a trip down to see Mr. 
Buffett's ranch and the place he has built on the border. If 
you would ever like to have a real on-the-ground view of the 
challenges that we face on our border with border security, it 
would be a visit to Mr. Buffett's ranch and facility, and he 
has done great things, including providing Cochise County 
Sheriff's Department with an up-to-date and modern 
communications system.
    Sheriff Dannels, how long have you been living and 
enforcing the law on the border?
    Mr. Dannels. Since 1984.
    Senator McCain. Since 1984, and what have you seen in the 
way of progress, or lack of progress, say, in the last 10 years 
on the border and enforcing border security?
    Mr. Dannels. Excuse me. In the last 10 years, it has pretty 
much been status quo. Over the last 20 years, when the Plan of 
the 1990s, which I spoke about prior to you coming in, there 
were some improvements made with the infrastructure due to the 
fact that we have two port of entries in our county. We went 
from a dozen agents that we all knew by first name to 1,300 
Border Patrol Agents in our county, and then 200 port of entry 
folks for the U.S. Immigration and Customs Enforcement (ICE) 
and Customs that worked there, so 1,500 Federal agents for our 
83 miles. So, 15 to 20 years ago is when we saw the big 
increase in security between our ports.
    Senator McCain. So, you have not seen a lot of progress in 
the last 10 years?
    Mr. Dannels. In the last 10 years, it has been pretty much 
the same as we saw when the first plan went into place.
    Senator McCain. Would you agree with me, contrary to what 
Ms. Weisberg-Stewart just said, that fences do matter? Fences 
that are enforced matter, such as we have seen in San Diego?
    Mr. Dannels. Yes. They are a deterrent.
    Senator McCain. As long as they are enforced. It is not 
easy to breach, by the way, Ms. Weisberg-Stewart, when people 
are there to make sure they do not breach the fence. By the 
way, the Israelis do a tremendous job at that kind of work.
    Mr. Cabrera, do you believe that fences matter?
    Mr. Cabrera. Yes, sir, I do. They act as a choke point. It 
is a good tool for us to use. Granted, people will find a way 
over it, but, like you said, if there is someone manning it, if 
there is someone available to push them one way or the other, 
we will be able to eventually stop them.
    Senator McCain. But, would you also agree, and you, 
Sheriff, that we now have technology, some of which was 
developed in Iraq, such as a vehicle and dismount exploitation 
radar (VADER), where we could achieve 90 percent effective 
control and 100 percent situational awareness. It is a matter 
of assets, strategy, and funding.
    Mr. Cabrera. I do agree. As long as we have the boots on 
the ground to help enforce that, it would work.
    Senator McCain. Sheriff.
    Mr. Dannels. I would agree, too, Senator, and the other 
thing I would add to that is the Federal Government has been 
successful with their Plan of the 1990s for the populated and 
port areas of the Southwest Border. I would take those 
successes, along with the technology and the fencing, the 
infrastructure, the good people from Border Patrol, if you 
combine all that to take care of the rural parts of the 
Southwest Border, it would be very beneficial.
    Senator McCain. So, with all the other aspects that you 
were talking about, economies and opportunities in these 
countries and all those things, is vital long-term in the 
equation. In the short-term, visiting your facility, it is 
still pretty easy to get across our border, would you agree?
    Mr. Buffett. Yes, sir. I would say that Agent Cabrera, when 
he talks about a choke point on the fence, is exactly the way 
to describe it, because you are pushing people in different 
directions. And, we have had people use chop saws that cut the 
fence. We have many people breach the fence. But, the truth is, 
it does slow them down. The key point is that you have to have 
people there to apprehend them.
    We have a neighbor, John Ladd, who has counted 47 trucks 
that have breached through their fence through chop saws. One 
of them was apprehended because it broke down. Those vehicles 
could be stopped and apprehended if there were enough people 
there, because the fence does slow them down and it does make 
them more vulnerable as they try to cross. But, without the 
proper personnel, it is difficult to enforce it.
    Senator McCain. Agent Cabrera, today, Congressman Salmon 
and I introduced legislation concerning our national monuments. 
There is enormous difficulty on some Federal land, such as our 
national monuments, to get equipment and people in and out of 
those areas. Would you agree that that is a significant 
challenge? Therefore, it becomes a funnel for drugs and people?
    Mr. Cabrera. Yes, sir, exactly correct. We have a lot of 
problems accessing certain lands down there where we are at. 
Obviously, the smugglers do not play by the same rules. They 
are going to go, regardless if you tell them they can come in 
or out of this area, they are going where they want to go and 
we have to go around certain areas and it puts us behind the 
eight ball.
    Senator McCain. And they know that.
    Mr. Cabrera. And they know that. They know exactly what we 
can and cannot do, where we can and cannot go, and they exploit 
it. They are very sophisticated in how they work.
    Senator McCain. Is it not possible, Sheriff Dannels, now 
from Mr. Buffett's facility where you can see the individuals 
that cross the border that are guiding the drug traffickers and 
human traffickers as they come across the border, and then once 
they get across, there are still members of the drug cartels up 
on the mountains directing them forward to move their drugs and 
people? Is that not the situation as it exists today on our 
border?
    Mr. Dannels. Yes, it is, Senator.
    Senator McCain. And, it seems to me that Mr. Brand's 
complaint, then, is legitimized by this situation, because 
people who live in cities and other parts of the country are 
not subjected to their lands being violated, in one case, as 
you know, a tragic case of a rancher being shot and killed.
    So, in summary, I am asking you, this is a problem that can 
be solved with assets, with a strategy, with people, with 
fences and technology, and those who say, well, we just cannot 
do it, obviously, are incorrect, because every nation has the 
obligation to have a secure border.
    I guess I would begin with you, Howard, and I would be glad 
to ask all the witnesses for their comment on that.
    Mr. Buffett. Well, I would say it absolutely can be done, 
but all of the things that you mentioned need to be deployed 
and they need to be deployed in the proper amounts and limits, 
but if they are deployed with the correct strategy, I think it 
is like any law enforcement objective. It can be achieved if 
you can put the right pieces together and the right parts into 
motion.
    Senator McCain. That is not the case today.
    Mr. Buffett. No, sir. It is not the case today.
    Chairman Johnson. Does anyone else want to comment?
    Senator McCain. Sheriff.
    Mr. Dannels. I would say one thing, and I do agree with 
you, Senator McCain, when it comes to it can be done, but we 
have to have the political will to do that, and understand that 
border security is a mandate and not discretionary by some. The 
redefinition of the Plan of the 1990s, which I spoke about 
earlier in my testimony, I think is very important to look at, 
and also to maximize already the current allocated resources to 
Border Patrol and see what we actually need to put on the 
border, and look at that rural aspect of it. I think we can get 
a lot of progress.
    Senator McCain. Mr. Chairman, I want to thank you for your 
courtesy. I thank you very much.
    Chairman Johnson. Thank you.
    I am going to go vote, but I am going to turn it over to 
Senator Carper for his questions, and we will keep the hearing 
moving.
    Senator Carper [presiding.] Again, thank you so much for 
joining us today. Some of you served in the military prior to 
your service today, and as a guy who spent about 23 years 
active and reserve in the Navy as a Naval Flight Officer (NFO), 
down on the border about a month ago when a Navy P-3 airplane, 
my old P-3 airplane, with the Department of Homeland Security 
looking for bad guys, finding a few, too. But, thank you for 
that service.
    Monica, do people call you Ms. Weisberg-Stewart?
    Ms. Weisberg-Stewart. Yes.
    Senator Carper. Ms. Weisberg-Stewart, what you had to say 
here today actually reminded me a good deal of what I have 
heard in the trips I have been to the borders, and particularly 
in Arizona and in Texas, and that is while we need to certainly 
not forget the work that is being done between the ports of 
entry, the land ports of entry, we also need to invest in the 
ports of entry themselves. A lot of drugs are coming through, 
and a lot of folks that are undocumented illegal trying to come 
into the country, they come through the ports of entry. So, we 
sometimes forget that, but I do not think we should.
    One of the things that is helpful in a hearing of this 
nature is to see where you agree, and as it turns out, there is 
a fair amount of consensus. I do not know if you have noticed 
that. One of the things I hear from just about every witness is 
we could use a few more bodies down on the border. We have 
added a whole lot. We could use a few more.
    We could certainly make them more effective. And, Othal, it 
is nice to see you again. Thank you very much for your 
insights. I think you made some compelling points about not 
just putting more drones in the air or tethered dirigibles in 
the air. I am all for doing that if we can do it effectively. 
But, there are some other ways that we can provide technology 
and force multipliers that maybe we have not thought too much 
about, and I really appreciate what you had to say to us.
    We had an Inspector General (IG) report from the Department 
of Homeland Security recently that said we are not getting our 
money's worth out of the drones and that the Department of 
Homeland Security has to make sure that we are doing that. We 
are going to spend all that money, we are going to add more 
drones, we have to make sure we are getting our money's worth, 
realizing they do not work every day, in every kind of weather 
condition.
    A couple people said we need to add either force 
multipliers or more bodies on the border to patrol, protect, 
and then may later on do immigration reform. I think we can do 
both at the same time, and the immigration reform bill that 
Senator McCain co-authored actually does both at the same time. 
It adds people on the border, provides for more technology. It 
also tries to make sure that for folks in Mexico or Central 
America who want to come up here and work for a while and go 
home, a guest worker approach, that maybe that is not such a 
bad idea. So, I think we need to do a little bit of all of 
that.
    I am going to ask Mr. Buffett, I mentioned earlier how 
grateful I am to you and your family, your Foundation, for 
going after the root cause of a lot of the illegal immigration 
coming up from the Northern Triangle, Honduras, Guatemala, and 
El Salvador. I saw some numbers recently that indicated about 
roughly 220,000 people came into this country illegally from 
Mexico--maybe they were apprehended coming in illegally from 
Mexico last year, 220,000, and that is less than the combined 
numbers coming in detained illegally from Honduras, Guatemala, 
and El Salvador.
    My dad always said to my sister and me, ``Just use some 
common sense,'' and I think if we use some common sense, it 
would seem to me to say that if, somehow, we could convince 
some of those hundreds of thousands of people trying to get 
into our country illegally from Honduras, Guatemala, and El 
Salvador, maybe it would make the job easier for our men and 
women that are patrolling the border and make them more 
effective. So, I think you all have outlined, whether you knew 
it or not, a pretty good strategy for our country.
    Mr. Buffett, you spent a fair amount of time really trying 
to, in the spirit of the Good Samaritan, ``who is my 
neighbor,'' the kind of investment you all have made in 
Honduras, Guatemala, and El Salvador is really commendable. As 
it turns out, over 20 years ago, you recall, a bunch of gunmen 
rounded all the Supreme Court justices of Colombia, put them in 
a room, and shot and killed 11 of them. There was a time that 
the drug cartels down there were running havoc, and leftist 
guerrillas, as well.
    And, we got involved in something called Plan Colombia. 
And, it was not just the United States coming in and doing all 
kinds of stuff for Colombia. They had to do a lot, and I like 
to use the Home Depot ad line: You can do it, we can help. And, 
they did it and we helped, and so did Mexico and so did 
nonprofits and maybe you and your Foundation, I do not know.
    But, talk to us a little bit, if you will, Mr. Buffett, 
about the kind of things that we can be doing, including with 
the nonprofit community, that--you probably know the three 
presidents of Honduras, Guatemala, and El Salvador have come 
together in an Alliance for Prosperity, kind of like Plan 
Colombia, and we have a role in it and so do they. Would you 
just give us some thoughts about this, please.
    Mr. Buffett. Yes. I would separate Mexico a little bit from 
Central America, only because it is our direct neighbor, and so 
I think I absolutely believe that we can take those lessons 
learned in Plan Colombia and work closer with Mexico. But, 
right now, there are parts of Mexico that the government does 
not even control. They need a lot of support and a lot of help, 
and it would have to be a very extensive program, and I think 
we would have to build trust before we could really invest in 
that, but we could do that. I think it is important to do that. 
We are losing that battle, and we lose that battle on the 
streets of Decatur, Illinois, or Omaha, Nebraska, or Tucson, 
Arizona, wherever you are. We are losing that battle with our 
own citizens in terms of the drug cartel and their success.
    I think when you look at particularly El Salvador, 
Guatemala, Honduras, not so much Nicaragua, other than when we 
work in a direct conflict area, like in Congo, they are 
probably the most dangerous countries we travel to. If you stop 
and think about that, they are not very far away. We have a 
border that certainly from time to time they breach. And, if 
you think about what that means to our country in the long run, 
if we do not make the investments and build the relationships 
and the trust and the support to help those countries get their 
economies under control to provide opportunities at home, we 
will continue to be this safe haven. We will continue to be the 
place where everybody wants to come.
    We are the richest country. My dad always told me, when you 
buy a house, do not buy the most expensive house on the block. 
And, we are the most expensive house on the block, so to speak. 
We are the place where you want to come. When I am anywhere in 
the world, no one comes up to me and says, ``Could you help me 
get to China? '' ``Can you help me get to any other country?'' 
They come up and say, ``How can I get to your country? How can 
I get to America?'' There is a reason for that.
    So, if we do not address those root causes, we will 
continue to have these issues that we face today.
    Senator Carper. Great. Thanks so much. And, later today, I 
think we have the foreign ministers from three of those 
countries maybe coming up to meet with us today and folks on 
this Committee, including Senator Ayotte.
    Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Oh, thank you so much, Senator Carper.
    I wanted to just note--I was going to ask some questions, 
and Senator Heitkamp is going to vote and is coming back and 
very much wants the opportunity to ask questions, too----
    Senator Carper. As far as I am concerned, you can ask as 
many questions as you want. I do not know about her----
    Senator Ayotte. Well, I told her I would preserve her 
place.
    Senator Carper. No, I am kidding. [Laughter.]
    She is good, too.
    Senator Ayotte. That is great. Thank you.
    Senator Carper. Thank you. Thanks for looking out for her.
    Senator Ayotte. Thank you all for being here, and I wanted 
to follow-up on--I serve on the Armed Services Committee, as 
well, and have heard from General Kelly, who is the Commander 
of U.S. Southern Command, and he has been very clear with us 
about the efficiency of these networks that really are the 
transnational criminal organizations, in terms of what they can 
smuggle up from Central America, and he has been fairly direct 
with us that he believes that they could smuggle almost 
anything, including if they wanted to smuggle weapons of mass 
destruction, other things that terrorists would use.
    And, I wanted to get your thoughts on the terrorism angle, 
because he has been fairly direct about it in terms of a worry 
that these networks are so efficient that we have the drugs, we 
have other things, which I want to follow-up and ask more about 
that, but just this idea of terrorism and do you share his 
concerns about this.
    Mr. Dannels. Senator, if I could answer that one, I one 
hundred percent agree with what the General was saying. We just 
discovered 2 weeks ago a tunnel in our county. This was a 
tunnel about 2 years old, that I hate to use the word, but it 
is a VIP tunnel, which means human smuggling is not coming 
through that tunnel. You are looking at a large amount of 
drugs, money, and what you are alluding to is those terrorists 
or those people who pay the price to come in our country and 
harm our citizens. I am very concerned about that. If you can 
bring drugs or product through, you can bring terrorists 
through. So, it is of great concern and as a gateway, I call 
it, a premier--we are 24 premier counties on the border--we are 
a gateway to this country's problem that is going to happen.
    Senator Ayotte. Or, potentially, ingredients for mass 
destruction----
    Mr. Dannels. You bet.
    Senator Ayotte [continuing]. Or something like that.
    Mr. Dannels. I agree.
    Senator Ayotte. And, as we look at what we are doing with 
all of this, and I know that you have already made the point 
that this has to be mandatory, I think it is also important to 
put it in that context, that it is not just this threat of--it 
is not just the issue of people trying to come over here to 
work. This really can be a huge security vulnerability for the 
Nation for a larger attack. You would agree with me on that.
    Mr. Dannels. I would agree. And, one of the main reasons I 
wanted to be here today was to address the unsecure border, 
which I have already spoken in my brief statement on, but also 
the fact that the importance of local government working in 
collaboration, all three levels, local, State, and Federal. If 
we are going to combat this problem, it is not just the Federal 
Government's problem. It is all our problems. But, when you 
look at the supplements and the funding to support the local 
efforts, it is very small. So, we need to include all local 
government if we are going to really resolve this problem.
    Senator Ayotte. And, it is local government and then it is 
people like the--General Kelly has told us in the Armed 
Services Committee what more resources he needs for 
interdiction, too, as well, so, thinking about, really, a 
strategy that we can all be working together, because this is 
you are on the ground locally. There are ways that we can 
better resource and make sure that we are focusing on the 
responsibilities that our military have in these areas, as 
well, along with State Government, you know, ICE, all of us 
together.
    Mr. Dannels. Right.
    Senator Ayotte. And, one issue that my State is seeing that 
I know was touched on earlier, but it is really a huge public 
health issue, and not only a criminal issue, but this heroin. 
New Hampshire has had a 60 percent increase in heroin drug 
deaths. It is devastating. And, one of the problems is that the 
prices of heroin have really dropped, and so you have people in 
some instances who are addicted to prescription drugs who are 
transitioning over to heroin. It is just so easy to get and so 
cheap. This is another issue I have talked to General Kelly 
about, as well.
    All of you, I would love to hear, certainly, Sheriff and 
your impression of how do we increase our interdiction of 
heroin, in particular, so not only we can stop its flow, but, 
frankly, I want to drive up the price of this stuff so that we 
can help, along with all the other efforts we need to do 
prevention, treatment, and all the things our police are doing 
at every level, and also our treatment providers, all of us, 
public health officials. So, what are your thoughts on that? I 
would turn it over to all of you or whoever wants to jump in 
first.
    Ms. Weisberg-Stewart. You are talking about a $40 billion 
illegal drug traffick that is not being detected, and much of 
that is coming straight through the ports of entry. I think you 
would find it interesting to know that your State alone exports 
$400 million worth of goods to Mexico and ranks second as your 
export partner, and it equates to 28,531 jobs rely on your 
trade with Mexico.
    If these drug traffickers sold a legal product, they would 
be considered a Fortune 500 company in the United States. They 
are very well manned. They are very well funded and very well 
equipped. But, the men and women in blue are not funded to 
compete or win this war against exactly what you are talking 
about, Senator.
    That is why we believe that when you are looking at 
homeland security, you need to equate the whole big picture 
into that equation, especially when we are talking about the 
cartel and the drugs coming straight through the ports of 
entry.
    Senator Ayotte. What other thoughts do we have on heroin? 
Or, obviously, you can say it about any drug, but right now, we 
have a huge heroin crisis.
    Mr. Buffett. Well, I think that you have brought up 
something that few people probably understand. I patrol on the 
streets of Decatur, Illinois, and sometimes in Arizona. When 
you start arresting 65-year-old grandmothers for heroin use, 
you have to ask yourself, what is going on, and what is going 
on is prescription drugs have gotten more difficult or more 
expensive and heroin has gotten cheap.
    If you look at the statistics, and I am sure that Agent 
Cabrera could confirm--Texas may be different than Arizona, but 
in the Tucson Sector in Arizona, heroin crossing that border is 
up in triple digits. Meth is up in triple digits. The cartel, 
as was stated, is a very clever business and we should never 
underestimate what they are able to achieve. So, they will 
adjust what they bring into this country based on what they can 
sell and what the pricing is.
    And, so, I think one of the things that we have to realize 
is the significant impact that they are having on this country 
and our citizens it is a very complex issue and there is no 
simple answer to it, and there is no single answer, by any 
means. But, I think, understanding the impact and the 
significant impact and the population that it is beginning to 
impact even further is something we have to deal with, and if 
we do not, we are going to find ourselves with a really serious 
issue, or more serious than what we have today.
    Mr. Dannels. One thing I would like to add on that, 
Senator, is the need for interoperability and collaborated 
efforts from the local all the way to the Federal, like we have 
been talking.
    Senator Ayotte. Right.
    Mr. Dannels. And, I will give you an example of that, a 
true life experience that happened down in our area, where we 
had intelligence and information coming across our port of 
entry. We went down there, and this gentleman, I believe he was 
around the 70-year-old age, where he was coming across the port 
of entry every morning about 7 o'clock in the morning and he 
was carrying seven pounds of meth, seven pounds of heroin, and 
seven pounds of coke. And, we went back and did the history 
check through the port of entry for, like, 60 days straight, 
every day, same time, he came through there. This was a 70-
year-old man that was bringing this in there.
    So, we cannot forget the fact that there is a greed game 
going on here, too, for money, so----
    Senator Ayotte. Yes.
    Chairman Johnson [presiding]. Thank you, Senator Ayotte.
    Senator Ayotte. Thank you all. I appreciate it. And, if you 
have additional views to offer, I certainly would appreciate 
that. And I, unfortunately, have to go run to get a vote in, so 
I do not want to cut you off, but I want to make sure that I 
understand everyone's perspective----
    Mr. Cabrera. Well, let me just add real quick, Senator, 
recently at the Brian Terry Memorial Station near Naco, a 
tunnel was discovered. The tunnel was a pretty high speed used 
tunnel, and our intel knew for some time that a tunnel was 
being used and that we should patrol that area more 
aggressively. However, we were unallowed to patrol that area 
due to Border Patrol management would not let us patrol that 
area and work in that area. Once the tunnel was finally 
discovered and put out of commission, it had been used for some 
time. And, if we cannot capitalize on what we know because we 
have certain boundaries that we can work in, they do not want 
us working the interior patrols, then we are always going to be 
hindered by this.
    Senator Ayotte. Well, yes, that is absurd. We all have to 
work together on this, so thank you for pointing that out.
    Chairman Johnson. Thank you, Senator Ayotte.
    I guess I will start my questioning, seeing as I am the 
last man standing here.
    Agent Cabrera, you mentioned that, certainly from your 
perspective and that of your fellow Border Patrol agents, that, 
at best, we are apprehending 30 to 40 percent versus management 
is saying about 75 percent. How certain are you of that? I 
mean, is this based on any figures you are keeping on a daily 
basis, or where do you come up with 30 to 40 percent?
    Mr. Cabrera. Well, Senator, out there in our areas of 
operation, we leave large swaths of land uncovered, maybe 20, 
30 miles at times. I remember one time in the not-too-distant 
past where we actually, at a 53-mile station, we had one person 
assigned for that day. We count signs. We check the trails. 
Some of these trails are two or three feet wide with not a 
speck of vegetation on them, but we are not allowed to patrol 
out in that area. They constantly change--they make the zones 
larger so it is harder for us to call in these ``got aways'' 
and they just do not want to hear it.
    I have been told by our chief of our sector that we are 
going to bleed heavily on our flanks at all of our stations. 
The Western flank usually gets neglected because we do not have 
enough manpower to get out there. Our agents will count the 
foot signs. They will call it in, and at the end of the day, 
the numbers get manipulated so that it does not show up 
correctly.
    Chairman Johnson. And, again, the drug traffickers, the 
human traffickers, I mean, because I was right there on the 
border with folks like you, and they have the cell phones right 
there. I mean, you are standing right next to their spotters 
and they are telling you exactly where the patrol agents are, 
correct?
    Mr. Cabrera. That is correct. As much as we watch them, 
they watch us. However, they have an unlimited budget. They can 
see things better than we can. They have resources that watch 
our stations, that watch our helicopters, right across from the 
airport, and there is nothing we can do about it.
    Chairman Johnson. Sheriff Dannels, is that pretty much your 
estimate, too, somewhere between 30 to 40 percent apprehension 
of those we detect?
    Mr. Dannels. I would agree with the agent on that. And, one 
thing I have learned over my three decades is the statistical 
data that comes from Border Patrol switches every 6 months, and 
so I do not use a lot on statistics as I use the quality of 
life by the people that live on the border and what they can 
tell you when the border is secure or when it is getting safer, 
just based on the traffic coming through their private lands 
and the damage they see and the fear they live by. So, I would 
agree with the agent.
    Chairman Johnson. Of the other three witnesses, does 
anybody want to dispute that 30 to 40 percent, or does anybody 
want to say that it is 75 percent or higher?
    Mr. Buffett. Well, I can tell you that we have regular 
traffic across our border. Mr. Brand may be able to brag that 
he has the most people crossing, but I will tell you, in our 
sector, we have probably the most drugs. It is not a 
competition.
    Chairman Johnson. Yes. Those are some real great topics. 
[Laughter.]
    Mr. Buffett. But, I think the truth is, across our ranch, 
we have multiple breaches daily, and a large majority of those 
individuals are not caught. They are not apprehended. I can 
tell you that one time I asked the Sheriff. I said, can we go 
sit down on the border all night long with your scope truck and 
see what we see? In 6 hours, we saw one Border Patrol Agent, 
and we probably were covering close to, 15 to 17 miles of the 
border.
    If I were a Border Agent, from my law enforcement 
experience, if I was on that border, because we have driven 
that border at one and two a.m., if I saw six people breach 
that fence and it is pitch darkness, do you think as an 
individual, with the rules that they have to operate under, 
that I am going to proceed and follow those individuals and try 
to apprehend them? I am not going to do that. It is not safe 
for the agents to do that.
    I can only speak to our ranch, but if I had to estimate, 
and I could not prove this, but I would estimate that 50 
percent of the people coming across that ranch, at least, are 
not apprehended.
    Chairman Johnson. OK. Does anybody else want to dispute the 
30 to 40 percent?
    OK. Mr. Buffett was talking about you basically have two 
types of individuals crossing the border, those that are really 
coming here seeking opportunity, and it is a rational economic 
choice when the wage disparity is somewhere three to four times 
higher here than it is in Mexico and Central America, and then 
you have the criminals. Is there any information, any estimates 
in terms of what percent are coming here for work versus how 
many, in terms of illegal crossings, are really the drug 
cartels and the drug mules and people coming across that are 
criminals? I will throw that one to you, Agent Cabrera.
    Mr. Cabrera. Well, Senator, I do not know if there is any 
specific number that is coming through that we know the actual 
percentage. What I do know is my family has lived down there 
for some time. My great-grandmother and my grandmother grew up 
right alongside the river. And, what my grandmother would tell 
me was when she was young, people would come up and they would 
give them food and they would feed them, give them some water, 
let them sit in the shade for a little bit, and then they would 
send them on their way.
    Now, the same people that live down there on that border, 
they say it is a different type of people that are coming. It 
is a different generation that is coming through. Now when they 
see people walking up the gravel road, they go inside. They 
shutter the windows and they lock the doors and they just do 
not want any part of it, not because of some sense of country 
or whatever the case may be. It is a sense of personal safety--
--
    Chairman Johnson. Out of fear.
    Mr. Cabrera [continuing]. And security, yes, and the 
clothes are stolen from them. They still use clotheslines down 
there. Clothes are taken from the line and they are, just, 
``You know what, let it go. I do not want to be any part of 
it.'' So, I think that is a good telltale sign.
    Chairman Johnson. Sheriff Dannels, do you have some sort of 
sense in terms of what that percentage is?
    Mr. Dannels. I do not know what the percentage is, but I 
want to comment, if I can follow-up what the agent is saying, 
in regards to safety. Scott Arenas is one of the ranchers that 
lives in our county that your staff met with and spent some 
time with when they came down. He would have loved the 
opportunity to come here. I met with him Saturday before I flew 
out on Sunday.
    Chairman Johnson. He will probably get an opportunity.
    Mr. Dannels. Yes. I hope so. And, it is a fact that he had 
a scout sitting right on his property that he eyeballed on 
Saturday, because they have been pushing drugs pretty hard 
through his property. How can I say this? This is amazing. It 
is a fact that these ranchers and farmers and these citizens 
that live in the vulnerable areas are afraid to leave their 
homes for the fact that they would be broken into. Scott 
Arenas, for example--I will speak on his behalf--he has been 
broken into four or five times, one time holding the door 
closed while they are trying to break in.
    The other part is that they are afraid to go on their 
ranchlands without being armed because of the fear of what 
happened to our rancher who was shot and killed, Rob Krentz. It 
is just a horrible way to live when we live in the United 
States.
    But, when I get the phone call at two in the morning, 
``Sheriff, they just broke into my house again.'' ``Sheriff, 
they just took my jewelry and my guns.'' I mean, this is just 
horrible stuff, but it is real to us down there and that is why 
your visits are so important to us.
    Chairman Johnson. Mr. Brand, because I believe it was in 
your testimony, you talked about you have been on the border 
for 60 years and you have seen a dramatic change in just the 
conditions on the border, if you can just speak to that before 
I turn it over to Senator Heitkamp.
    Mr. Brand. Senator, I put it in my testimony, growing up in 
the Valley, we spent a great deal of time on the river. You go 
down, you ski, you swim, you picnic, and you camp out. People 
had cabins. People had portable trailers down there that they 
kept. It was a very relaxed atmosphere.
    If you go down to the river right now, you will see us all 
gone. It is all gone. No one does any of that anymore. No one. 
And there is a reason. It is not the immigrants. It is the 
cartel. And all of the farms that we had and that we leased the 
owners actually lived on the land. To this day, now, I can go 
back and show you every one of those, and they are all gone, 
the colonials, the churches and general stores that we had on 
our farms, they have all been torn down and moved. All the 
landowners that we worked with have all moved off their 
property because it is no longer safe.
    Chairman Johnson. OK. Thank you. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and I want to 
assure everyone here that we are voting and that is why people 
are running in and out, that your testimony today is absolutely 
critical as we move forward with, I hope, a mutual goal, which 
is to stop unauthorized individuals from entering our country. 
I do not know how I can say it any more clearly, that that is 
the job of a government, to secure their border.
    I have been on the border at least four or five times. 
Once, I went to El Paso. That was before I was a United States 
Senator, and I was encouraged to cross without an ID. I said, 
no way am I not taking my driver's license. I do not think I 
exactly look like a Mexican national, so I was just waved in 
without even checking credentials when I crossed back.
    I was able to go to the border with Cindy McCain, back to 
El Paso, saw the changes that they had made. It was a 
completely different border crossing from the border crossing 
that I was at 4 years before that.
    I had a chance to basically see the border crossing in 
McAllen, see the challenges that the personnel had there with 
children, unaccompanied minors basically coming to the border 
and surrendering. I think the good people of McAllen, not just 
the Federal officials, stepped up and provided services, and 
McAllen is to be commended for how they responded to that 
crisis.
    Then I had a wonderful opportunity at the request of Mr. 
Buffett to come out to the Arizona border in Cochise County and 
was hosted by the Sheriff and by Mr. Buffett.
    I would encourage everyone on this Committee who thinks 
they know about border issues to actually go to the border and 
actually visit with people who are on the front line, whether 
they are law enforcement officials, whether business people, 
whether they are ranchers, who Mr. Buffett speaks for today. It 
is an atmosphere of fear. It is an atmosphere of intimidation. 
It is an atmosphere where my land used to be worth this and it 
is not worth this anymore. We have to prove negligence on the 
part of Border Patrol or Border Protection before we are 
compensated for the damage done to our land. That is another 
issue we have not even touched on.
    But, what frustrates me with hearings like this is you all 
come with good ideas, you all come aware of the situation, and 
you get a lot of politics, I think, back. So, how about we just 
start talking about solutions. How about we just step up and 
say, let us get it done. Let us figure out how we are going to 
actually listen to the sheriffs on the border. Let us talk 
about how we are going to listen to the landowners on the 
border, how we are going to listen to businessmen on the 
border, and listen to the people who are on the border who are 
responsible for protection.
    And, so, I think that there have been a number of really 
great ideas today that have been advanced, particularly in your 
testimony, Mr. Buffett. I think we need to have a broader 
discussion about what those things do.
    But, getting to the view from a mile high, Sheriff, I think 
you said it best when you said, we are operating on a plan of 
border security that was written in the 1990s to basically 
prioritize the points of entry, prioritize the large population 
areas, and as a result, this balloon has pushed particularly 
the criminal element to the rural communities where those 
individuals are most vulnerable, and I speak as somebody who 
was involved in rural law enforcement for a lot of years.
    So, my question to you, Sheriff, is how do we 
institutionalize a consultation or a communication with border 
sheriffs, with border chiefs of police, in order to make sure 
that those voices are heard at the Federal level?
    Mr. Dannels. We already have an association, Senator. It is 
the Southwest Border Coalition, made up of sheriffs, the 24 
counties on the border from Texas to California. We 
collaborate. We work together. We have a strong association. 
And, I would say, 99 percent, we are in agreement on what needs 
to be done. All the way up to the National Sheriff Association, 
where there is a comprehensive plan on border security, along 
with Arizona and Western Sheriff Association.
    One of the suggestions I have, along with my fellow 
sheriffs, is that we respectively work with our State 
Governors, who automatically work with you all when it comes to 
keeping all the stakeholders involved. I think it is so 
important.
    The other aspect of it is the local collaboration. In our 
county, we work very closely with Border Patrol, the State 
agencies, the chiefs, myself. We meet every 3 months. We talk 
about the hot topics, what is going on. And, we bring solutions 
to the table on how we can do the job better, our 
interoperability, our intelligence sharing, our ability to work 
face to face. But, once it seems to get out beyond the walls of 
Cochise County, beyond the walls of the State of Arizona, it 
becomes very fuzzy and blurry and very complex. And, I 
understand the complexity of this issue. Do not get me wrong.
    Your sheriffs are a direct voice of trust in their 
respective counties, so I think it is important that we 
continue that voice with the sheriffs and not ignore us.
    The other aspect, I have to say--I would be remiss if I did 
not say it--is the funding absence for local government. Again, 
like I was talking with our Border Team, that is a mission-
driven team under the Sheriff's mission supported by Border 
Patrol, Customs, and U.S. Forest, again, 6 to 8 weeks, we took 
30 smugglers down. Three, I believe, were teenagers. And, the 
Federal Government has a technicality where they do not 
challenge or do not put away teenagers for smuggling. They go 
back across the line. We actually prosecute them. We ran them 
as adults, put them in our detention, and then up to the 
prison. So, like I said, all 30 went to the State prison. We 
have no issue with that.
    When it comes to our State criminal alien----
    Senator Heitkamp. But, you are incurring the costs.
    Mr. Dannels. We are incurring all these costs, and I will 
give you an example. Under the State Criminal Alien 
Apprehension Program (SCAAP), which has been redefined to, I 
think, very challenging, so in the last 2 years, we have had 
three-quarters of a million dollars in expenses to house 
illegals at the county jail. In return, the Federal Government 
has given me about $45,000. So, I am getting pennies on the 
dollar to house illegal criminals in our jail.
    Senator Heitkamp. I think the point that I want to make is 
that as we are talking about resource reallocation, or plus-up, 
we need to involve the sheriffs----
    Mr. Dannels. Yes.
    Senator Heitkamp [continuing]. And we need to involve the 
programs that provide for collaboration with local law 
enforcement. And, I think that could not be more critical.
    Mr. Buffett, obviously, I spent some time with ranchers and 
with various people on the border, and you have, I think, very 
astute observations about how we can do better, and I want to 
applaud you for the work that you are doing all up and down the 
border in terms of providing hope for some of those ranchers 
who have not felt very hopeful in the past.
    But, I want to turn to some of the issues that Ranking 
Member Carper was talking about. You have been all over in some 
of the most war-torn, desperate places in the world, 
particularly in Africa and Central America. How would you 
evaluate today the security of Central America compared to 
other places you have been?
    Mr. Buffett. Well, we spend a lot of time in the Democratic 
Republic of Congo, and other than when I am in an active 
conflict area, I would say that Honduras, Guatemala, and El 
Salvador probably outrank most countries in Africa in terms 
of--it is a different kind of threat. I will say it is a very 
different kind of threat.
    But, it is dangerous going to those countries, and for the 
people who live in those countries and I do not think there is 
hardly anybody in this room, if they were going to speak 
frankly, who would not say that if they were living in those 
circumstances where kids are inducted at early ages into gangs, 
parents lose control of their families, they cannot make a 
living that is adequate, they cannot feed their kids, I do not 
think there is anybody in this room, if they were really going 
to be honest about it, who would not say, I would try to go 
North, as well.
    So, I think my point in my testimony is that as long as we 
do not have a border that is secure, as long as the people 
think that they can cross that border, as long as they believe 
that they can get into our country, we are contributing to that 
humanitarian crisis by not controlling that border. And, I do 
not think it is always phrased that way, but I think it is 
important to phrase it that way, because in the end, we are all 
human beings, whether we are Senators, sheriffs, ranchers, or 
whoever we are. We are all human beings and we have to care 
about how our actions impact other people.
    And, so, it is true. The majority of the responsibility 
clearly falls on those governments. There is no question about 
that. But, if we use that as an excuse to ignore the problem or 
not help solve that problem, then in the end, we are going to 
continue to suffer in this country. There is no question about 
that.
    Senator Heitkamp. Would you agree that the United States--
oh, sorry.
    Chairman Johnson. Senator Heitkamp, I am happy to do a 
second round, but I have some questions, as well, and I am not 
sure what the timing of the hearing is going to be, but I 
appreciate your involvement.
    And, I will also say the reason, obviously, we have the 
people on the ground is to lay out that information, to involve 
them.
    And, the other part of this process--again, how to solve a 
problem is you have to properly define it, you have to 
understand the depth of it, you have to acknowledge reality, 
you have to admit you have that problem. The reason I want to 
set up a process of not only multiple hearings but also 
multiple roundtables, a little more informal setting where we 
can really drill down and get the information, get the facts, 
describe the realities so we can actually start designing real 
solutions.
    But, I also have a number of questions I want to continue 
on. Again, not acknowledging the reality, if we have the 
higher-ups here in Washington saying we are 75 percent secure 
but we are only 30, I mean, we are deluding ourselves. I just 
want to ask about the possibility of achieving 90 percent 
apprehension rates. Is that possible? And, I will start with 
you, Agent Cabrera.
    Mr. Cabrera. Well, sir, I do not know if that is possible. 
I would like to think it is. Until we start getting more 
proactive about what is going on down there, being proactive 
and going after what needs to be done as opposed to reacting to 
what is already being done, we are always going to be caught 
off guard.
    Chairman Johnson. Again, we are a long ways from that 90 
percent.
    Mr. Cabrera. We are a long ways from that 90 percent. I do 
not know.
    Chairman Johnson. Sheriff Dannels, can you kind of address 
that. I mean, do you think 90 percent is achievable? And, 
again, we have had a number of people now talk about we need 
more agents. We need more bodies just on the border. Where we 
had National Guard positioned in Texas, that worked. How many 
more people do we need that are actually boots on the ground 
that are at the border?
    Mr. Dannels. Well, to begin with, Senator, I think, first 
of all, you need to look at your allocated resources and see if 
they are being maximized on the border to get a true number of 
what you actually need on the border, and then reset the plan 
of primary deterrence at the border and not away from the 
border, and then secondary intervention from there.
    The other thing I think is so important, I do believe we 
can get up to that 90 percent plus. It is going to take some 
time. It is going to take some political will to do that. And 
not political posturing, but political will. Where the border 
is--and I appreciate your stance and our conversation we have 
had in the past to understand this. It is a very comprehensive 
problem. But, it is a mandated problem, to protect our freedoms 
and liberties. And, if we do not secure our borders, we will 
never get there. Or, at least, if we do not try, we will never 
get there.
    One thing that my citizens, and I have hit on this, is they 
have become very numb to the fact that nothing is going to 
change, and that is frustrating for me, directly linked to my 
citizens in Cochise County, and it makes no sense to me, 
either, because the Plan of the 1990s is still in effect. Not 
many people talk about, how do we redefine this plan? I think 
we need to look at that.
    Chairman Johnson. I have seen the VADER system and the 
unmanned aircraft. I have seen the aerostats. I have seen the 
fixed towers. I have definitely seen that we have probably 
improved our ability to detect. I am not sure that I have seen 
the technology that Senator McCain was talking about that has 
been developed in Afghanistan and Iraq. Is any of that 
positioned anywhere on the border right now, or is that just 
what has been used in the military?
    Mr. Cabrera. As far as the radar systems that they have out 
there in Israel, we do not have any of those down there. What 
we have are some blimps and that is pretty much it. We hear 
there are drones. We have never seen them, so----
    Chairman Johnson. OK. But, again, we can detect, and we can 
improve our detection. We can apprehend. We can improve our 
apprehension. But, then, if all we do is process and basically 
give somebody a Notice to Appear, and then give them a bus 
ticket or a plane ticket and disperse them throughout America 
and have them really join those people living in the shadows, 
we have not really solved much of the problem.
    Mr. Brand, you are shaking your head. Is that your 
understanding of what we are doing?
    Mr. Brand. Senator, one other thing that I have 
participated in and been a part of for the last 9 years is the 
Department of Health and Human Services (HHS) Office of Refugee 
Resettlement (OOR) program, with these 16-year-old boys, and 
what we do with them and how we process them, and we spend more 
money on these kids as they come across than we spend on our 
own people.
    Chairman Johnson. I will be back.
    Mr. Brand. Then I will stop.
    Senator Carper [presiding]. Senator Ernst. Senator Johnson 
is running to vote. I have to run and speak at a Finance 
Committee hearing. You are the new Chair. I will be back.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst [presiding]. Fantastic. Thank you so much, 
Ranking Member.
    Senator Carper. Get some good stuff done. [Laughter.]
    Senator Ernst. Thank you. So nice to have you here. I 
appreciate your testimony. A lot of hearings going on this 
morning.
    I would like to start by--and I hope nobody has covered 
this yet, but those of you that have the information available, 
what is the working relationship with various agencies as it 
pertains to the Mexican government and the drug cartels? What 
are we doing in that relationship, or how can we affect that? 
Is their border security effective against bringing in weapons, 
drugs, anything from the drug cartels that exist in Mexico and 
Central America? What is our relationship like?
    Mr. Cabrera. Well, Senator, I can tell you firsthand, as 
far as dealing with the Mexican authorities, they are no help 
at all. We have actually been there where we have called them 
to interdict some people that had run some drugs to our side. 
They took them back to the Mexican side. We called the Mexican 
authorities to come and check these people out. They actually 
opened the gate for those people to leave and then locked up 
behind them.
    We had another one where we were in a stand-off with guns 
drawn from our position on a boat in the river to a position at 
a Mexican park, and the police came up, drove around the 
vehicles, stopped and talked to somebody, shook hands, and 
drove away.
    They tell us to call the Mexican authorities, they will fix 
it, they will get it done. We rarely see them. Every now and 
then, we will get some assistance from the military, and that 
is just basically because the military does not have any more 
friends in Mexico, so we are their only friends left. But, for 
the most part, the cooperation across the border is just not 
there from our standpoint on the river.
    Senator Ernst. That is extremely disheartening to hear 
that. I think we do need to do more, but we do need greater 
assistance coming from those authorities, as well. Any other 
thoughts?
    Mr. Dannels. Senator, if I could add to that----
    Senator Ernst. Yes, Sheriff.
    Mr. Dannels. Relationships are built on trust, and right 
now, that does not exist on the border communities. And, to 
give you an example, in fact, there is a cartel hit on me right 
now. If I stepped into Mexico, I would be in serious trouble. I 
would be on CNN or FOX or a major network for what they would 
do to me.
    The point is, we do not go into Mexico. We have very 
limited dialogue with them. It is all based on lack of trust 
and based on the cultures on these border communities. I agree 
again with what the agent is saying, it is very challenged and 
very strained.
    Mr. Buffett. I might add, from a little different 
perspective, two quick examples. We have met with our Mexican 
counterpart ranchers on the other side of the border and they 
are quite descriptive about the experiences they have and the 
fact that they get zero support in terms of any agencies on 
that side of the border, and they have to live with the drug 
cartel.
    We are actually in an area in Arizona, it is not very flat. 
We are at 4,200 feet and we have hills that are 4,600, 4,700 
feet. There is one across in Mexico. They have built a little 
shed on top of the hill. I cannot walk on our ranch without 
knowing that I am being watched across the border. And, believe 
me, those spotters have excellent technology, as well.
    But, what the ranchers told us is that they have no option 
but to basically be compliant, because if they are not 
compliant, they are told that we know where your kids go to 
school, we know where your wife shops, and so if they are not 
compliant, they are under constant threat. But, the point being 
that they will tell you themselves that there is absolutely 
zero support from law enforcement agencies on their side of the 
border to support their position.
    The second thing I would tell you is a few years ago, 
probably about 5 or 6 years ago when there were an estimated 
5,000 people crossing at the Nogales area, I went downstate in 
Altar, Mexico. I would not do it today because I probably would 
not come back. But, I followed the buses up to the border, and 
on the way to the border twice, the Federales stopped the buses 
and they would check your citizenship. And, if you were other 
than Mexican (OTM), they would kick you off and they would take 
you down to their facility--now, it is in Chiapas. If you were 
a Mexican, they would allow you to proceed to the border.
    So, all it does is emphasize the fact that Mexico is not 
only not supporting border security, but, in a sense, they are 
condoning it. That is from the other side of the border. So, 
absolutely, you see it on both sides of the border. There is 
minimal interest or support from the Mexican government, from 
my personal experience, to do anything about those coming 
across the border.
    Senator Ernst. Again, very disheartening.
    I know Senator Ayotte had brought up General Kelly's 
testimony, the testimony that he gave coming from SOUTHCOM the 
other day, and I do believe that we have to crack down on these 
drug cartels and the trafficking that occurs across the border. 
I think we need to do that. But, I do believe that we need a 
physical barrier, and I think I have heard maybe pieces of 
that.
    But, until we have that, and I know in your experience, Mr. 
Buffett, Mr. Brand, living in that area, having these issues, 
until we actually secure the border--I know that you have dealt 
with this for years, and what costs have you seen associated 
with this? Is there anything that you have done on your own 
property to make sure that you are protected, your livelihoods 
are protected?
    Mr. Brand. When I first became manager of the district, I 
went down, and the first morning I was there, between 7:30 and 
8, we would have vans zoom through our part of the property, 
the 45 acres the Water District owns on the embankment of the 
river, and I asked, so that is the cartel? That is either drug 
or people. Well, call the Border Patrol. No, we are not calling 
the Border Patrol. Well, why not? Because they know we work 
here. They know we are here, and if we call, they know we are 
the ones that did it because we are the only ones that saw 
them. That was going on at 7:30, 8 in the morning, and 3:30, 4 
in the afternoon. I finally figured out that was the shift 
change for Border Patrol.
    And, so, I will tell you, for me, that is not how we are 
going to work and live in our community, and so we began 
trying--and this has been 10 years. First, I thought street 
lights would work, but that only helped them see better at 
night when they came across.
    Then we had what we called splashdowns, which Border 
Patrols are familiar with. When the drug cartel was 
intercepted, they would turn around and drive their cars back 
through our property as fast as they could off the embankment 
and splash down in the water, get out, pull the drugs out, and 
take them back, and they would have men on the other side ready 
to meet them to come out and pull the drugs out before the car 
sank. The Border Patrol, the last time they came to our 
district, they pulled out five cars, one of them still with the 
drugs in it.
    So, we put up Jersey barriers, which, if you are familiar 
with them----
    Senator Ernst. Yes, very familiar.
    Mr. Brand. So, we put those up and it stopped.
    And, so, the next step was we still had traffic. When you 
all announced a cutback several years ago, we had the most 
traffic we have ever had. It was said in our local paper, that 
the government is considering cutting back the hours, the 
manpower, and the gasoline for Border Patrol, the very next day 
and for several weeks following, we started having dozens and 
dozens and dozens of people come through our property.
    I have three generations of people that have worked for the 
Water District over a 65-year span, and none of them have ever 
seen this before. And, so, I went to the board and the board 
said, well, you put up a fence. You look at getting a fence. 
You get more lights. You get looking for security officers.
    Well, I went to Border Patrol to give them a heads up, 
because if there are going to be any guns on the river, they 
like to know it. And they said, well, give us an opportunity to 
help you with that.
    So, they came down and they put up their portable towers, 
which you have seen, as well, manned towers with day and night 
infrared thermal imaging cameras on top of those. When they did 
that, the traffic stopped. That was the first time it just 
stopped. And we went back to them and asked them, have you ever 
put these towers on the embankment of the river? In this 
particular sector, they had not, because they did not have 
enough of them, nor had they had the opportunity. And they did 
and it worked. So, now they man that thing. That has been there 
ever since then, which has been years now. It stays there now.
    We went and put a boat ramp in, just finished a water 
trough this week for the horse patrol. Our Water District in 
the last 10 years has probably invested over $300,000----
    Senator Ernst. Wow.
    Mr. Brand [continuing]. In our facility in order to assist, 
knowing that there are things they cannot do that we can that 
assists them and vice-versa. And, this is what we believe is--
again, we put up towers. We put up cameras, gave them access to 
those cameras. These are the things we have had to do.
    All of those things put together has made us--as far as I 
am concerned, we are probably in the safest area right now, 
anywhere you can be on the U.S. border.
    Senator Ernst. So, it is safer, but it was up to you to 
initiate----
    Mr. Brand. Well, it was up to the partnership----
    Senator Ernst [continuing]. Jersey barriers, OK.
    Mr. Brand. It was a partnership.
    Senator Ernst. Right.
    Mr. Brand. They made suggestions, and they said, could you 
put up more floodlights? We did it. They just put a 125-foot 
tower, camera tower, portable one several months ago. Again, it 
has stopped the traffic. Of course, we also have a wall through 
the middle of our 45 acres, and a gate.
    And, so, I will tell you that the gate does work. It has a 
place. There is not one single for Texas, which has half of the 
total Mexican border, there is not a single solution that works 
on the whole border. All of these things that we have talked 
about today all have to be incorporated, but you have to take 
the lay of the land to determine what the correct approach is. 
And, around these cities, they have been right. It has funneled 
people out of the cities and into the open. Thank you.
    Senator Ernst. And, Mr. Buffett, what type of safeguards 
have you seen or utilized?
    Mr. Buffett. Well, I remember when we bought this ranch, 
somebody came to me and he said, ``Let me give you a little 
advice. Actually, let me give you a warning. If you see 
gentlemen crossing''--I do not know why he called them 
gentlemen, but--``if you see gentlemen crossing your ranch and 
they are wearing burlap bags on their legs, absolutely do not 
confront them and walk away.'' That is a typical way, the 
Sheriff will tell you, to cover their tracks, and Agent Cabrera 
would tell you, to cover your tracks. These men are armed and 
they are dangerous because they will protect what they are 
bringing across the border. So, we are in a constant 
environment of concern.
    I will tell you that--because we are doing some things 
differently on the border--I think it will be interesting to 
see how they turn out. We have a situation where the Border 
Patrol--the Federal Government--has taken quite a bit of land 
in a certain respect in terms of roads and hills by eminent 
domain on our ranch. We have been able to have good, 
cooperative discussions with them, but there are things that 
could have been handled differently, for sure, as a property 
owner.
    One of the things we are doing if I were going to spend my 
time on anything, I would spend it on this. We had ranchers 
come to us. The Sheriff came to us. Senator Heitkamp helped us 
with this, with a meeting with Secretary Vilsack, and we are 
now implementing a program, which we started last year, where 
we are going to try to clear a mile deep for about 38 miles of 
the border of all the invasive species of creosote and other 
invasive species. This will change the face of how the border 
looks for these ranchers.
    For one thing, they are concerned about their safety, which 
is, of course, one issue. The other is that they want to 
reclaim their lands. So, this is a water and grassland 
conservation project and it is also a border security project 
in one. We have great support from U.S. Forestry, from the 
National Resources Conservation Service (NRCS), and the Border 
Patrol has been supportive in certain cases, and not in all 
cases.
    But, I think, at the end of the day, it is something new. 
It is different. It has not been tried to this extent, at least 
not in Arizona, and we will see what the results are. The funny 
thing is, the Border Patrol says we will catch more people. The 
ranchers say less people will cross. So, we do not know who is 
right. But, it is a pretty innovative program. It is costly. We 
have 100 percent buy-in from the ranchers. We have good support 
from some Federal agencies, but not all the leadership. But, we 
do have great support, also, from the local people.
    Senator Ernst. But, it is a great starting place, so that 
is encouraging to hear.
    And, Sheriff, just one final question before I turn it back 
over to the Chair. What are you preparing for as far as the 
summer influx this year? What types of measures, security 
measures, are you putting into place, ideas, concerns?
    Mr. Dannels. One thing we have done is realize that our 
local solutions are mandates, living where we live. So, we are 
going to keep and sustain what we are already doing. We have a 
Ranch Advisory Team which is made up of ranchers, farmers, and 
citizens that advises on a daily basis if there is a critical 
event going on in our county or the smuggling is picking up. It 
is great intel-driven information. We also have a Ranch Patrol 
where our two deputies go out there. That is a direct voice for 
our ranching and farming folks.
    And then we have a Border Team, and that Border Team gets 
strengthened every day. We just added two more outside agencies 
into that, where they go out and they work intel based on the 
Ranch Advisory Team and the Ranch Patrol, and they work in 
collaboration with Border Patrol, Customs, and they have been 
very beneficial in bringing trust back to the ranchers that 
there can be a difference on their lands, that they have seen 
little results and frustration. And, it is also bringing trust 
back with Border Patrol, because there are ranchers in our 
county that have trespassed Border Patrol from being on their 
property based on lack of trust, and that is so sad.
    So, we have taken a multi-badge one mission approach in our 
county, and the interoperability, the intel sharing, the 
ability to communicate is so important, not just talking face 
to face. What I am talking about is the IT infrastructure, 
which we have built that system up, which we are bringing all 
that into one all throughout the county. So, we have a lot of 
neat programs that we are doing and we will continue to sustain 
that, but it comes back to a budget issue, also, and we get 
very little support. Stonegarden is about the only program that 
is beneficial that really seems to work well for us in Cochise 
County, which still has some challenges, do not get me wrong, 
but overall, that is a good program. But, besides that, we get 
very little.
    Senator Ernst. Very good. Thank you so much for your 
testimony today. Thank you, Mr. Chair.
    Chairman Johnson [presiding]. Thank you, Senator Ernst.
    I will give all the witnesses a chance to kind of sum up, 
or if you have a brief comment at the very end here, but I have 
a couple other questions I want to continue to go through.
    I was surprised by Ms. Weisberg-Stewart's contention--and 
it may be true, I just do not know. I just want to ask Agent 
Cabrera and Sheriff Dannels, I mean, is it true that most drugs 
are actually being funneled through the ports of entry as 
opposed to illegally smuggling between those ports? Agent 
Cabrera.
    Mr. Cabrera. Senator, I do not believe so. I know there is 
quite a bit that goes through the port of entry, but we do have 
quite a bit, I think. They just, over the past weekend, just in 
our area, that small area along the border, over $5 million 
worth of marijuana was caught just within 2 days. That is only 
what we catch. Granted, marijuana is a little easier to catch 
than some of these other high-value drugs. Obviously, they are 
going to put a little more into making sure they are secured.
    But, I do believe there is a lot coming through the port of 
entry, but there is also more than a ton of it coming through 
the river itself, or in Arizona's case, the desert.
    Chairman Johnson. Sheriff Dannels, do you believe what Ms. 
Weisberg-Stewart said is an accurate assessment?
    Mr. Dannels. I would say the port of entry has its attempts 
to come through, and get through, if you want to call it such. 
But, I truly believe that the go-arounds, the open seams on our 
border, Southwest border, are more common.
    The second part about that is the tunnel that was 
discovered several weeks ago, that was approximately a 2-year-
old tunnel. By the way, that was discovered by a traffic stop--
intel-based, but by a traffic stop. In that vehicle was almost 
4,900 pounds of marijuana. They would back it up, load it where 
the shaft for the tunnel was concealed, load up the vehicles. 
So, if you think about that, in 2 years, how many drugs went 
through that is amazing, which, by the way, it was, like, a 
quarter of a mile from the port of entry.
    Chairman Johnson. Ms. Weisberg-Stewart, obviously, I need 
to give you a chance to respond--where did you get that 
information from and how can we verify that?
    Ms. Weisberg-Stewart. Well, actually, sir, if you would 
look at statistical information that has actually come from the 
Department of Homeland Security, I think you would be amazed 
what you find. But, I think it is important for you to also 
look at the big picture of facilitating legitimate trade and 
travel and what those affect. We have heard a lot of between 
the ports of entry, but not at the ports of entry.
    Our ports right now are suffering tremendously. Your State 
alone exports a total of $2.8 billion. Mexico is your second 
export partner, and 117,665 jobs rely on your trade with 
Mexico, and if you looked at the ports of entry, you would 
actually see the security and you would actually see that, 
right now, we constantly put the cart before the horse on 
dealing with actual security needs. So, we believe that these 
goods are coming through because we have not accurately as a 
government facilitated the trade and travel and given them the 
funds necessary in order to curtail the amount of drugs that 
are coming through.
    Chairman Johnson. Being an exporter myself in my former 
life, I am all for free and fair trade and functioning ports of 
entry, but the question was really about drug smuggling.
    Ms. Weisberg-Stewart. Mm-hmm.
    Chairman Johnson. When I was on the border with the people 
who spent a day with me--and I appreciate that, Sergeant 
Cabrera, on a Sunday and your day off--one of the revelations, 
or certainly one piece of information I got was that I have 
always felt law enforcement, prosecutors, district attorneys, 
they are always fighting over jurisdiction so they are the ones 
who get to prosecute and send somebody up.
    That was not the case on the border. What I heard is that--
and I just want to get the reaction if this is basically true--
but, I heard we are not even prosecuting, for example, 
marijuana smugglers unless they have at least 500 pounds of 
marijuana. We just do not bother to prosecute. And, the 
jurisdictional battle is, ``I do not want to touch that 
prosecution. You take care of it.'' Was that an accurate 
assessment of the people I was driving around the border with 
that day? Sheriff Dannels, we will start with you.
    Mr. Dannels. Senator, you are exactly correct. Teenagers 
are an example. I think we have four or five in our jail right 
now that are remanded juveniles, have been arrested, picked up. 
We actually remand them as adults and put them in our center to 
prosecute them. The Federal Government will not prosecute 
them----
    Chairman Johnson. Again, so the drug traffickers use 
teenagers because----
    Mr. Dannels. They will not prosecute. And, I was talking to 
the Sheriff in Yuma, Sheriff Wilmot, last night. There is an 
issue right now where those illegals that have child 
pornography, they will not prosecute. And, we just started 
talking about that last night. So, again, these burdens are on 
our local county attorneys, and that is why I have such a great 
partnership with ours when it comes to doing that and making 
sure that we can prosecute these folks. They are bad in the 
communities.
    I do not know if you realize, the five busiest Federal 
courts in this country are in the Southwest, and that might be 
a clue of our border issues, again.
    Chairman Johnson. Agent Cabrera, did you want to comment on 
that, or--I see you kind of writing things down there.
    Mr. Cabrera. Well, Senator, like we talked about before, a 
lot of times, like Sheriff Dannels said, we do not mess with 
the juveniles. For some odd reason, we will not prosecute them. 
If it is weekends, a lot of times, they will pass on some of 
these smuggling cases because it is a 4-day weekend----
    Chairman Johnson. So, do we just set them free, then, just 
release them?
    Mr. Cabrera. A lot of times, we do. We will do an 
administrative smuggling case. We may seize the vehicle. They 
will come pick it up on Monday and start from scratch.
    With some of our agents that get assaulted, if it does not 
meet the threshold, if he does not have enough blood or 
bruising, they do not prosecute. One thing I have always 
admired about the State of Texas is if you so much as bump into 
a police officer, you are going to do some jail time--unless 
that police officer happens to be a Border Patrol Agent. 
Unfortunately, with the Border Patrol Agents, they just do not 
put too much in the way of deterring people from assaulting our 
agents.
    Now, on the national level, throughout the Border Patrol, 
we have more than one assault per day on our Border Patrol 
Agents. Unfortunately, there are probably even more that go 
unreported because these agents know that nobody is going to 
prosecute for them.
    Chairman Johnson. Talk to me about the drug cartels' 
control over the Mexican side of the border. I certainly 
witnessed all kinds of things just in my day there and saw a 
bunch of photographs that really showed the impunity with which 
the drug traffickers really are controlling that border. Can 
you speak to that a little bit?
    Mr. Cabrera. The interesting part about that is if some of 
these people that were coming, they could have taken the 
bridge. They could have come across through the port of entry, 
asked for amnesty or--what is the word I am looking for--
credible fear and it would have been granted and they would 
have broken no laws. But, the smugglers control who crosses 
where. If a group of immigrants are walking toward the bridge, 
the cartels will come up and say, look, you are not crossing 
that bridge. You are going to go through this river. No, well, 
I would rather cross through the bridge. Well, you do not have 
a choice. You are going to cross through here at this point, at 
this time, when we tell you, and on top of that, you are going 
to pay us.
    And, they send them across when they want to send them 
across, where they want to send them across, because they know 
it is going to tie up our resources, and in doing so, then they 
can do the end-around and run some either high-level, high-
interest illegal aliens or some drugs around the back side when 
all of our agents are tied up with a group of, say, 80, 90, or 
100 people, trying to get them sorted out.
    Chairman Johnson. Is it also true that they use rafts to 
paddle the drugs over, but those rafts are tethered to a truck 
so if they do meet some resistance, they just pull them right 
back over and--again, they can do it with impunity because they 
control the Mexican side of the border. They do not have to 
worry about being picked up by any Mexican officials, correct?
    Mr. Cabrera. Exactly. The Mexican officials are already 
paid off on that side. They can operate as long as they have 
the money, they control that river.
    At first, they were oaring those things across, back and 
forth, and it got to the point where our Boat Patrol Unit were 
confiscating their rafts and intercepting their loads. It got 
to the point where they would tie a rope to the end of the raft 
with a john boat, and if they saw the boat coming, the guy on 
that truck would take off and that raft would just skip about 
that water and get about 30, 40 feet into Mexico before it 
stopped.
    Chairman Johnson. So, again, they have total control over 
the Mexican side of the border. They can just sit there and 
watch. They can have people on our side of the border with 
their cell phones making sure that we all know where the Border 
Patrol Agents are. And, when the time is right, they can just 
head on over and go, oops, it did not work so good, they just 
pull them right back on the other side, and, again, they are 
not being caught. They are not being apprehended on the Mexican 
side. They can just bide their time, and that is why it is so 
incredibly difficult for us to fully detect and fully apprehend 
unless we have a whole lot more people on the border.
    Mr. Cabrera. Exactly. And, if you go down that river at 
night with infrared, you will see, literally, every quarter 
mile, you will see somebody in the trees along the Mexican 
side, and they watch. They count how many people are in the 
boat, if they are going upriver, downriver, and it is like 
checkpoints on the Mexican side. They know that, OK, the boat 
has passed Point A, so by the time we run this load back and 
forth, the boat cannot possibly make it at its top speed. They 
have it all figured out.
    And, there are consequences for these guys losing loads. 
When they come across with their drugs, if they lose it, 
sometimes you will see them wash up onshore a couple days 
later. They are real strict in how they do their business on 
their side.
    So, they are running the show, at least on the Mexican 
side, and to an extent on our side.
    Chairman Johnson. There is a really high incentive to 
succeed in getting the drugs across successfully in the United 
States.
    Mr. Cabrera. Yes. Unfortunately, there is a very high 
incentive. They rule out of fear.
    Chairman Johnson. Senator Carper, I was about ready to go 
down the table there and give them an opportunity to offer some 
last comments. Do you have some questions before I do so?
    Senator Carper. Where did you learn to do that?
    Chairman Johnson. From the former Chairman of this 
Committee.
    Senator Carper. Oh, I remember him.
    Chairman Johnson. Just a great guy.
    Senator Carper. Senator Lieberman. [Laughter.]
    Collins, one of those.
    Before we do that, and I am glad that the Chairman does 
that. For me, it is the most helpful part of any hearing we 
have had, especially on issues where there is not unanimity of 
opinion, is that on a diverse panel, like, where is the 
consensus, because we are all about building consensus here. At 
least, we should be. That should be part of our job.
    Let me just come back to you, if I can, Ms. Weisberg-
Stewart. Talk to us about force multipliers. Let us talk about 
force multipliers at the ports of entry, and just give us some 
examples of some that you think make sense.
    I had my cell phone, and I remember being at one of the 
border crossings a couple years ago and the woman who was 
there, the lady in blue, was bringing people through. She held 
up her, I think she called it an Enforcement Link Mobile 
Operations (ELMO) device, it may not have been an ELMO, but, 
she said, ``This device allows me to know not only what the 
next truck is and what is in it, but who the driver is and the 
record of coming across the border. And, in fact,'' she said, 
``we can line up several trucks behind it. I have that 
information on my handheld.''
    That is just one of a number of examples. Give us some 
other examples of force multipliers that enable us to do a 
better job and maybe not add a huge number of people at the 
border crossings.
    Ms. Weisberg-Stewart. Yes. I am glad you started off with 
discussing some of the technology needs. Some of our ports of 
entry are so antiquated that the electric grids do not even 
allow some of the security functions to take place. So, for 
example, the bandwidth, which is what you are referring to, and 
allows that timing information to go through the ports of entry 
cannot even be used at some of our antiquated facilities 
because they are not able to get that timely information in 
that quick basis.
    Some of our information that is coming across, which is a 
reporting system which actually says--let me use the name of 
Jose Garcia--is coming across our ports of entry and there is a 
Texas hit on one Jose Garcia, you are going to see every Joe, 
Jose, or anybody by that name being pulled over because the 
system today does not go through and adequately provide that 
specific Jose Garcia is the one that actually has the issue. 
So, right there, you are adding more times on because the 
technology today is not allowing some of those things to take 
place.
    When you are talking facilitating trade right through those 
ports in an expedient fashion, one issue is personnel. One is 
the actual gate which those individuals or Customs and Border 
Protection are in. We have some of those where we have had 
officers electrocuted because the facilities are in such bad 
array that water has actually come and rained through that 
system and fried some of the computer systems.
    So, when we are talking about the big infrastructure 
problems, we have issues at Port of Hidalgo, for example, where 
the command center is facing the wrong direction. It is facing 
toward the opposite side of the bridge. We built some brand new 
ports of entry that do not even have enough lanes in them to 
deal with the actual amount of traffic that is coming across 
those ports of entry.
    And, when we talk about drugs, there are some statements, 
and we have a white paper that we will be more than happy to 
share with you all that quotes from the Department of Justice 
and the Department of Homeland Security about the amount of 
drugs and arms coming across.
    We also have, when we are talking about actually checking, 
we know that arms and cash that are arming these cartel members 
are coming straight through our ports of entry. We know this, 
and there have been many reports from both governments, the 
Mexican government and the U.S. Government. But, at this point, 
our infrastructure currently today cannot hold a Southbound 
check except for looking for arms and cash because the 
realities are our infrastructure cannot hold it and cannot 
maintain it.
    Now, there is other technology that is out there that----
    Senator Carper. I am going to ask you to wrap it up, 
because I want to let the others have a chance----
    Ms. Weisberg-Stewart. Sure.
    Senator Carper [continuing]. To talk about force 
multipliers. Just finish your sentence.
    Ms. Weisberg-Stewart. At the end of the day, our country 
depends on the facilitation of trade and travel, and legitimate 
trade and travel comes across our ports of entry. There are a 
lot of programs and out-of-the-box thinking that we can do. 
But, just doing things the way we did it in the past is 
oftentimes the sign of insanity, because what we are doing 
right now is not truly fixing all our issues.
    Senator Carper. Thank you. That was a long sentence, but a 
good one.
    Ms. Weisberg-Stewart. Sorry.
    Senator Carper. That is OK. [Laughter.]
    Othal Brand, I was just glad you came today so I could say 
your name a few times. [Laughter.]
    I think you once told me where that name came from. That is 
a great name.
    You gave us, in fact, I think, several really good pieces 
of information for us. I thought I knew a little bit about the 
challenges ahead of us in securing the border. You all have 
given me some really good new information, and especially you 
with respect to better access to the water and the technology, 
the kind of investments we can make. Do you want to give us one 
more force multiplier? If you do not have any other ones, that 
is fine.
    Mr. Brand. No. I ran over two-and-a-half minutes, so I do 
not think that I should---- [Laughter.]
    Chairman Johnson. What I will say, too, in this process, 
consider this your closing statements. [Laughter.]
    Senator Carper. Go ahead, and then I am going to ask Mr. 
Buffett, and if we have time----
    Mr. Brand. I will just tell you this. I do not like living 
in fear and I do not like living in an area that I do not feel 
safe, especially when you are talking about your home. I do not 
like it, and----
    Senator Carper. I do not blame you. But, again, I want you 
to stick on force multipliers. That is really what I am looking 
for.
    Mr. Brand. Well, I cannot help you on force multipliers.
    Senator Carper. OK, fine. Mr. Buffett.
    Mr. Buffett. Well, I think this falls under that category. 
I know that the Sheriff will know what I am speaking about. The 
Border Patrol will accept no private money and no private 
support. That limits some of their ability to increase force 
multipliers. So, we are trying to go around that, to be honest 
with you, work through the Sheriff's Department, and make them 
the CCSO assets and have the Border Patrol work with us. But, I 
think the Border Patrol could work more effectively and open up 
the opportunity to work with private resources. I think you 
could increase some of those force multipliers.
    Senator Carper. And, for Mr. Dannels and Mr. Cabrera, I was 
going to ask you about who do you think is the best right-
handed batting first baseman in the major leagues, Mr. Cabrera. 
Do you have any ideas?
    Mr. Cabrera. Can you repeat that?
    Senator Carper. Miguel Cabrera, your cousin. [Laughter.]
    All right. We will come back to you for the next one.
    We know there are problems with drones. We have an IG 
report that says, as promising as the technology is, it is not 
being realized, and we are drilling down on that to see how it 
can be better. We know that tethered dirigibles have a fair 
amount of--are being used in some places very effectively. I do 
not know if you use stationary observation towers or even 
mobile observation towers in your county, in your State. Do 
you, and if so, would you comment on their effectiveness? We 
have heard very positive things about them in other parts of 
the border. Go ahead. Mr. Cabrera.
    Mr. Cabrera. Yes, we do have stationary observation 
towers--well, more like the blimps, the little systems we have 
out there. They do work very well. They have a good range. 
However, they are at the mercy of the wind.
    Senator Carper. No. We are talking about the stationary 
towers, as opposed--not the blimps. We saw some tethered 
dirigibles, I think about a thousand feet they go up, I guess, 
or 10,000 feet. But, the stationary towers. And then we have 
some that, they are not stationary. You can actually move them 
along the border there. They are mobile. That is what I am 
asking about.
    Mr. Cabrera. There are some stations in our sector that 
have some. In the area of McAllen, where we are the busiest, 
McAllen and Rio Grande City, we do not have any----
    Senator Carper. I understand that. But, I think you 
probably have, given your experience and all, you have probably 
heard from your colleagues on other parts of the border and 
some of the folks you represent. What do you hear about 
stationary observation towers?
    Mr. Cabrera. I think they work well. The only issue I would 
have with them is the fact that they are stationary. They would 
not be able to--unless we can saturate the area and have 
interlocking fields of view, then we would be at the mercy of 
the distance of that device.
    Now, if we had something that was more mobile, which we are 
starting to get into little by little, if we have these things 
that we can move around and be flexible and address the threats 
where they come through, I think that would be more effective, 
because we can adjust as opposed to just being static in one 
position.
    Senator Carper. Go ahead.
    Mr. Buffett. Senator, they are in the process of 
constructing two of those towers on our property----
    Senator Carper. Are they?
    Mr. Buffett [continuing]. So they have an overlapping 
footprint. What is missing on those towers is they do not have 
the funding to put the radar, and if you understand how the 
systems work, it is one thing to have personnel constantly 
looking through cameras, but the radar is what makes those 
cameras about 100 times more effective, and that is what is 
lacking.
    Senator Carper. That is a great point. We have been sending 
out drones for a couple years without the VADER systems and 
without sophisticated observation systems. So, those are just 
examples of some of the investments, smart investments, that we 
can make, and if we do that, we are going to make the people 
you represent, Chris, a whole lot more effective, and, Sheriff, 
your folks, too.
    This has been a great hearing and we are very grateful to 
all of your presence and your input. Thank you so much.
    Chairman Johnson. Thank you, Senator Carper.
    I was hoping to combine it, but it really did not do 
justice to it, so we will start with Ms. Weisberg-Stewart, just 
a closing comment. Try and keep it brief.
    Ms. Weisberg-Stewart. Sure. When we look at border 
security, to many people, it might mean many different things. 
To those of us who live on the border, you have heard from us. 
The Arizona border is quite different than the Texas border, 
but as Senator Carper has mentioned, there is a lot of 
commonality.
    One thing is to definitely address between the ports of 
entry and find solutions in that area and at our ports of 
entry, and if we are able to accomplish those two areas, then 
we have actually done something to secure our country. Thank 
you.
    Chairman Johnson. Thank you. Mr. Brand.
    Mr. Brand. Mr. Chairman, I would say to you all, like I 
said earlier, it is a chess game right now. Because we do not 
have all the resources and the manpower, the cartel wins it 
because they constantly move. And, every time--and they do 
have, even at our pump station, they have a guy sitting on a 
tree in the wind with a cell phone constantly. And, they have 
that lined all up, as Officer Cabrera talked about, whereas 
where Border Patrol is in the Valley, they move. They have to 
move, because they do not have the technology to man. So, they 
put it where the need is, and if it has been solved in one 
place and there is no movement, they will pick it up and move 
it somewhere else because they have to. And, until the day 
comes where you can have it, solve it all the way, it is going 
to continue to be a game.
    In the Valley, what we know in my lifetime is that we know 
there are two reasons we are safe from cartel element that we 
talk about today, which is obviously prevalent in our area. As 
long as we do not interrupt them, get in their way, and as long 
as we do not mess with their business, we are fine. But, if we 
do either one of those two things on our side, they will do to 
us anything and everything they do to the people on the other 
side right now, and we know that. People who live in the Valley 
know that, and the rural areas along the rivers. We know that.
    Chairman Johnson. And that is a stark reality. Thank you. 
Mr. Buffett.
    Mr. Buffett. I want to take my last minute to try to get to 
a point that I think you were trying to make, Mr. Chairman, 
which is on drug interdiction. When you are at a port facility, 
you have the opportunity to stop and examine any vehicle and 
person coming through that port. When you get outside of that 
port, you have two things happening. First, you have to find 
them, spot them, and then you have to respond to that, and you 
have to have the resources to respond to that, two very 
different sets of circumstances.
    And, if you understand drug interdiction from a law 
enforcement perspective, what it comes down to is repetition, 
it comes down to personal contact, and it comes down to 
numbers. To give you an example of that, if you took the 
Sheriff's office and you wanted to compare it to the port 
versus outside of the port, if he runs a canine team through 
the FedEx and the UPS facility every day, he is going to find 
drugs with that dog. If that dog never shows up, he is not 
going to find them. And, it is the same thing. You put officers 
on the Interstate and you implement drug interdiction, and it 
is repetition and personal contact.
    You have that automatically at the ports. You do not have 
it outside the ports. So, I would contend that there is a large 
amount of drugs moving outside those ports.
    And, thank you for letting me be here.
    Chairman Johnson. That would have been my assumption. Not 
that I am going to do it, but I would not go through the ports. 
I would go to where I thought I might not get caught. Sheriff 
Dannels.
    Mr. Dannels. Senator Johnson, let me be the first to say 
thank you very much for having us. To hear our local voice here 
is so important to my citizens and all the folks that live on 
our Southwest Border.
    The Plan of the 1990s has caused us great damage over the 
last 20 years. There are two No. 1 stats we just came out with 
that I am not proud to report on, but it is true. No. 1 is out 
of all the counties, over 3,100, I believe it is, counties in 
this country, we had the largest decrease in the country, for 
decrease in population. People are leaving our county because 
of the way it is. They do not want to live in fear, like you 
were talking about.
    No. 2 is, we just came out last week, is per capita, we are 
the No. 1 fraud county in the country, and that is your ID 
thefts, your embezzlements, your frauds. I truly believe a lot 
of that has contributed to our border.
    The one most critical thing I worry about every day as a 
sheriff is another loss of life. Whether that be a citizen, an 
officer, a deputy, an agent, it is a great concern to me 
because of our border being insecure. So, every day that goes 
by that we keep talking is another day that just draws more and 
more pressure in our county.
    Those that choose to live on our border should deserve the 
same freedoms and liberties of those that live here in D.C., 
Iowa, and beyond. I grew up in Illinois and lived in Illinois 
until I was 18 years old, then going down there for the last 
32, 33 years. What a difference of life, and it should not be 
any different under the same Constitution.
    Thank you again.
    Chairman Johnson. Thank you, Sheriff. Agent Cabrera.
    Mr. Cabrera. Senator Johnson, I would like to close with 
securing the border, it is essential. It is not just essential 
for our border communities, our areas in the Southern part of 
Texas, but for the entire Nation. We are committed to keeping 
illicit drugs, terrorists, people entering illegally out of the 
country because it is going to make our community safer. It is 
going to keep drugs out of our streets, off our streets, out of 
our communities, and off our schoolyards.
    The more we make it appealing for people to come into this 
country the wrong way, the more people are going to make that 
journey and more people ultimately will not survive the trip, 
and that is just a terrible thing, especially when you are 
dealing with children.
    Chairman Johnson. Well, thank you, Agent.
    Obviously, this is just the first hearing of, multiple 
hearings, multiple roundtables. We will continue to involve the 
people on the ground, because from my manufacturing background, 
I have solved a lot of problems, and I understand there is a 
process, and the first step is admitting you have one. 
Unfortunately, as a Nation, I do not think we have really come 
to grips with the full reality, the full complexity of this. 
There is too much demagoguery in this, too much simplicity, I 
think, directed to this problem.
    So, this is complex. We are going to build a record, and we 
are going to involve the people that really do understand what 
that reality is and we are going to face those realities. As 
harsh as they are, as unpleasant as they are to face, I refuse 
to write or mark-up and be involved in a border security in 
name only bill. And, this is going to involve not only what we 
need to do in terms of infrastructure and personnel, but we 
have also got to look at the incentives that our immigration 
system creates for that type of illegal immigration, and we 
have to look at drugs.
    Certainly, the trip down to McAllen, Texas, I mean, if 
anything--if you need that point reinforced, how much of this 
is being driven by the drug traffickers, and let us face it, I 
think the numbers I have, we spend about $25 billion per year 
fighting the war on drugs. It is sad to say, we are not winning 
that war. So, we have to get serious about this.
    But, again, I just want to thank all of you for the time 
you have taken. You have traveled here. You have spent a lot of 
time, very thoughtful testimony, very thoughtful answers to our 
questions. So, again, I really appreciate it, and to the extent 
you want to stay involved, we are going to want you involved, 
as well as other folks in your position.
    This hearing record will remain open for 15 days, until 
April 1 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:22 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    SECURING THE BORDER: ASSESSING THE IMPACT OF TRANSNATIONAL CRIME

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ernst, Carper, Tester, 
Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing is called to 
order. I want to welcome all the witnesses and thank you for 
your thoughtful testimony. I see a lot of work went into it, 
and I certainly appreciate reading all the information that was 
contained therein.
    This is our second hearing having to do with the security 
of the United States' borders. As we found out in our last 
hearing, it was pretty prominent in testimony that the border 
is not secure. I would agree with that assessment. I think we 
also are coming to realize how incredibly complex this problem 
is.
    I come from a manufacturing background, and I have solved a 
lot of problems, and there is actually a process you go through 
to solve a problem. It starts with really understanding, 
ascertaining, admitting to the reality. A lot of times reality 
is not particularly fun to acknowledge or have to face, but if 
you are going to solve a problem, you have to understand the 
reality of the situation, and you have to accept it.
    The next step in the problem-solving process is to 
establish achievable goals. Set yourself up for success, not 
failure. Once you do those two important first steps, then you 
can start crafting strategies.
    I think in the past we have bypassed those first two steps, 
and as a result, I read--and I want to read it again this list 
of bills that we passed in Congress to try and address this 
problem, and it started out in 1986 with the Immigration Reform 
and Control Act. Back then, we recognized we had a problem, and 
the unauthorized population in America was about 3.9 million. 
We progressed to the 1990 Immigration Act; about 3.5 million 
people here illegally. In 1996 we passed the Illegal Immigrant 
Reform and Immigration Responsibility Act. By that point in 
time, there were 6.3 million people in the country illegally.
    In 2001, as part of the PATRIOT Act, we passed a law to 
require an entry-exit system. By that time, there were 9.6 
million people in the country illegally.
    In 2002, we passed the Enhanced Border Security and Visa 
Entry Reform Act, and now we are up to about 10.3 million 
people in the country illegally.
    In 2004, the Intelligence Reform and Terrorism Prevention 
Act was passed, about 10.9 million people in the country 
illegally.
    In 2006, the Secure Fence Act, 11.7 million.
    I just want to stop there for 2 seconds. As I have thrown 
myself into this problem, really trying to recognize the 
reality, I asked my staff members to print me out the Secure 
Fence Act because I wanted to study that piece of legislation. 
You do not read a bill. You have to study it. And so I wanted 
to spend a weekend really going over the Secure Fence Act so I 
could really understand the complexity of it and figure out 
what we can do to do a better job of that.
    Well, I did not need the weekend. I only needed 5 minutes, 
because the Secure Fence was two pages long. That obviously did 
not work.
    And then in 2007, we had the 9/11 Commission's 
Recommendations Act, and, again, our illegal population then 
stood at about 12 million.
    I just point out the fact that we have passed bill after 
bill after bill, and we have not solved the problem. The 
definition of insanity is repeating the same thing over and 
over again expecting different results.
    So I want to address this problem the right way, 
recognizing reality, that this hearing is really about trying 
to lay out the reality, and a very important component, maybe 
the most important component of this problem, transnational 
criminal organizations, drug trafficking, human trafficking. 
Terrible problems.
    I do have a written statement that I will ask to be 
included in the record, without objection.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Chairman Johnson appears in the 
Appendix on page 465.
---------------------------------------------------------------------------
    I just want to quote from a report on Operation Strong 
Safety. This was a report given to the 84th Texas Legislature 
and the Office of Governor on January 28, 2015, that summarizes 
the problem.
    First of all, in this report it says, ``There is ample and 
compelling evidence that the Texas-Mexican border is not 
secure.'' And then they go on: ``The ascension of the Mexican 
cartels as the State's and Nation's most significant organized 
crime threat and Mexico's most significant domestic security 
threat is directly attributable to a porous U.S.-Mexican border 
and an unending demand in the United States for illegal drugs, 
forced labor, and commercial sex.''
    I think that kind of encapsulates, based on the testimony I 
was reading, what we are going to be talking about today. And, 
again, it is about laying out the reality of the problem, which 
is going to be the first step in solving it.
    So, with that, I will turn it over to our very capable 
Ranking Member for some opening comments.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Thanks for bringing 
us together today, and our heartfelt thanks to all of you. It 
is especially good to see you again, General McCaffrey.
    I just want to comment briefly on what the Chairman has 
said. One of the things I learned a long time ago was if you 
want to solve problems, you do not just address the symptoms of 
the problems; you address the root causes of the problems. And 
among the root causes of these problems are our addictions in 
this country to methamphetamines, heroin, cocaine, and the 
like. And among the root causes of this problem, because of our 
addiction, it creates a culture of violence, and not just in 
Mexico but in the Central American nations, that we contribute 
directly to. And if you and I were raising our kids down in 
those countries--and I have been there to three nations in the 
Iron Triangle--I would want to get out of there, too, and I 
would want to get my kids out of there, too. And if we want to 
be successful, those are the kinds of root problems we have to 
address.
    Today I just want to say that we had a hearing a week ago, 
and we are having a series of hearings this week. Last week, we 
heard from folks who live and work along the southwest border 
about some of the border security challenges that impact their 
communities. And today we will continue that conversation and 
dig even deeper into the transnational crime that occurs along 
our borders and throughout our country.
    Over the course of the last several years, I have made a 
number of trips to both our Southern and Northern borders. Most 
recently, I had the pleasure of joining our Chairman and 
Senator Sasse on a trip to the Rio Grande Valley in South 
Texas. During these trips, we saw firsthand the dedication and 
expertise of the men and women who put their lives on the line 
each day to keep our borders secure.
    And because of the efforts of these brave men and women, 
along with the quarter of a trillion dollars that American 
taxpayers have spent on border security over the last 10 years, 
we have made some progress, I think real progress, in securing 
our borders. Is it perfect? No. Are there people who still get 
through, bad guys, contraband? Of course. Can we do better? 
Yes.
    But I especially appreciated, General McCaffrey, you 
pointing out in your testimony that, ``by many measures, the 
U.S.-Mexico border is more secure that it has ever been.'' And 
I agree with that. And to say that, you do not just stop where 
we are. It is not a time to pat ourselves on the back.
    But since 2003, for example, we have more than doubled the 
size of the Border Patrol. We have constructed more than 600 
miles of new fencing and deployed sophisticated cameras, 
sensors, and radar across much of our border with Mexico. Today 
we are operating drones and aerostats high in the sky, as well 
as fixed and mobile observation towers, providing situational 
awareness for our agents on the ground.
    Yet while many border communities are among the safest 
towns in America, we know that there is still much work to be 
done. And we know that transnational criminal organizations are 
indeed a real danger. Transnational crime, however, is not just 
a border issue. It is much broader than that. It is a national 
security issue, and it is an issue that touches all of our 
communities.
    For example, transnational crime can touch our friends and 
families in the form of drug addiction. It can victimize 
thousands who are brought into this country for sex trafficking 
or for slave labor. It can hurt our businesses and bring crime 
and violence to our neighborhoods. And it has the potential to 
bring national security threats to our borders, such as persons 
with possible terrorist ties.
    Today's transnational criminal organizations are agile and 
they are global in reach, and they will do just about anything, 
and will stop at almost nothing, to carry out their illicit and 
very lucrative operations. So how do we disrupt and dismantle 
these criminal organizations?
    I believe we must continue to support the men and women 
combating these criminal networks along our borders and 
throughout our communities. As my colleagues have heard me say 
before, I am a strong believer in providing our border 
personnel with ``force multiplier'' technology that will help 
them do their jobs more 
effectively. We also need to share information better, more 
effectively--particularly intelligence--more efficiently so 
that we can act quickly and leverage resources across the 
Federal, State, and local level.
    I look forward to hearing from our witnesses today about 
what tools and resources are needed to better secure both our 
Southern and our Northern borders.
    That said, I believe our homeland defenses should not begin 
on the ``1-yard line'' of our borders, as General John Kelly, 
Commander of U.S. Southern Command and Department of Homeland 
Security (DHS) Secretary Jeh Johnson have stated before. In 
many cases, it should begin much farther away.
    Many of the criminal organizations that operate along our 
southwest border have roots deep inside Mexico and throughout 
Latin America. In parts of Central America, we know that gangs 
and other criminal organizations continue to threaten 
prosperity. Some might even say they threaten democracy itself 
in the places where they operate.
    That is why it is so important that we seize this window of 
opportunity to help our neighbors in Central America grapple 
with a variety of security, governance and economic challenges. 
And by doing so, we will address one of the root causes of 
transnational crime and enhance the security of our Nation. In 
closing, let me just say we will be focusing on this issue at 
tomorrow's hearing, so I will expand upon this topic much more 
at that time.
    Finally, I believe we can address transnational crime in 
one other very important way, and that is by confronting 
America's insatiable appetite for illegal drugs. Our demand for 
illegal drugs fuels the power, the impunity, and the violence 
of criminal organizations around the globe. We must continue to 
focus on our Nation's addiction to drugs and continue to 
identify effective programs to reduce this crippling threat to 
our Nation's future.
    And, with that, I again want to thank our witnesses. Thank 
you, Mr. Chairman, for bringing this together, and let us bring 
it on. Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    A closing comment here. I would draw people's attention to 
the photo that I actually got the day after our border trip. I 
stayed around and was given a tour of the border with a number 
of off-duty officers, and this one was given to us by a 
Mission, Texas, police officer. It really does show the 
impunity--and I have copies in front of everybody's station 
here. We are a family friendly Committee here, so we have 
blurred out the specific hand gesture, but this is a basic 
turnback. This is the middle of the day. Drug traffickers load 
up a raft with--you can see these 100-pound bales of marijuana, 
and the raft is tied onto a truck, and so if they meet 
resistance on the other side, they just quickly pull them back 
over the border.
    Now, apparently we frustrated these individuals here, but 
it just shows the impunity with which the drug cartels operate 
on the Mexican side of the border. They are not afraid of 
getting caught, and they are a little upset that Border Patrol 
agents foiled their drug trafficking, at least for that day.
    But, anyway, it is the tradition of this Committee to swear 
in witnesses, so if everybody will stand and raise your right 
hand. Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    General McCaffrey. I do.
    Mr. Torres. I do.
    Ms. Kempshall. I do.
    Mr. Martinez. I do.
    Mr. Costigan. I do.
    Chairman Johnson. Thank you.
    Our first witness will be General Barry R. McCaffrey. 
General McCaffrey served in the U.S. Army for 32 years and 
retired as a four-star general. At retirement, he was the most 
highly decorated serving general, having been awarded three 
Purple Heart medals, two Distinguished Service Crosses, and two 
Silver Stars for Valor.
    After leaving the military, General McCaffrey served as the 
Director of the White House Office of National Drug Control 
Policy from 1996 to 2001.
    General McCaffrey, thank you sincerely for your service, 
and we look forward to your testimony.

TESTIMONY OF GENERAL BARRY R. McCAFFREY,\1\ USA (RET.); FORMER 
  DIRECTOR (1996-2001) AT THE OFFICE OF NATIONAL DRUG CONTROL 
                             POLICY

    General McCaffrey. Well, thank you, Mr. Chairman, and also 
Senator Carper and the other Members of the Committee. I really 
mean it that I think your leadership is going to pay off on 
this issue. There is inadequate attention being paid to what is 
in essence a huge and complex and worsening problem, and that 
is on our Southern and Northern borders. And I think your 
opening statements really brought to life much of what I 
personally have learned about the issue over the years.
---------------------------------------------------------------------------
    \1\ The prepared statement of General McCaffrey appears in the 
Appendix on page 469.
---------------------------------------------------------------------------
    Let me just, if I may, publicly remind myself and the 
Committee, I spent 20 years looking at this issue. In 1994, 
Secretary Bill Perry and I were the first two Secretary of 
Defense (SECDEF) and U.S. Southern Command (SOUTHCOM) commander 
to ever set foot in Mexico, which is quite a comment. We had 
been to places like North Korea and Russia, but never had a 
Secretary of Defense set foot in Mexico City. And I have been 
watching that issue quite closely since, and for the 5 years I 
was Drug Policy Director, I had an annual trek from sea to 
shining sea, where the Mexicans and the U.S. authorities would 
meet across the country and try and hone in on some of these 
challenges we were facing.
    I was on President Calderon's International Advisory 
Committee, and I might add I have invested a considerable 
amount of effort in the last several weeks getting ready for 
this hearing, to include hours on the telephone interviewing 
trusted contacts along that border--sheriffs, ranchers, Border 
Patrol, engaged citizens, reporters, et cetera.
    I might also add I am not affiliated with either political 
party and have loyally served administrations--Bush 41, one of 
my heroes, President Bush.
    Some quick observations, if I may.
    No. 1, clearly we have to acknowledge conditions have 
improved immeasurably since I started looking at this in 1994. 
We had 4,000 Border Patrol. The border was essentially wide 
open. You could drive across it in an 18-wheeler truck, and 
people literally did just that.
    It also was not all that much a problem 25 years ago that 
there was insecurity. These were illegal migrants, but they 
were people looking for work. Ranchers' wives gave them 
sandwiches on their way north. So the environment on the border 
that created the conditions of insecurity had been 
longstanding.
    Yesterday I went and got an update from Customs and Border 
Protection (CBP) and taped my personal thanks to the 60,000 men 
and women of Customs and Border Protection that you have 
resourced. Though times have changed, their integrity, courage, 
technology, manpower, the level of cooperation--we are going to 
hear more from Elizabeth Kempshall about the High Intensity 
Drug Trafficking Area's (HIDTA). The cooperation between local, 
State, and Federal law enforcement today compared to 20 years 
ago is simply unbelievable.
    And I might also add I think Secretary Johnson, and, in 
particular, Commissioner Kerlikowske, we now have a 
professional cop running CBP, and I think you are going to see 
a dramatic, continuing change in the law enforcement culture.
    Second observation: Border security is not a United States 
problem. It is an international problem. You cannot do it 
without international partners. With Canada, it is pretty easy: 
5,000 miles, the Canadians have world-class law enforcement, 
total cooperation. With Mexico, it is more of a challenge. And 
I would flag for your consideration my strong concern that we 
apparently have taken off the table discussions of drugs, 
crime, and insecurity with the Mexican Government and public, 
and I do not think we are going to move forward until we have 
greater resource support from Mexico, particularly their army 
and marine corps, but also Pena Nieto's attempt to build a new 
gendarmerie and Federal police. But I do think that the 
insecurity in Mexico is simply beyond belief, not just in the 
border communities but Monterrey all the way to the Southern 
border.
    Third observation: There are two issues here that are the 
same sides to the same coin--or two sides of the same coin: 
Border Patrol, which we are going to talk about, and also 
sensible immigration policy. And, to be blunt, if you have 11.2 
million unauthorized migrants, if your max deportation was 
439,000 in a given year, if you get a half million every year 
still coming in, if half the illegals arrive by air and stay, 
then you cannot solve the problem by deportation. And, by the 
way, who would want to do that. These people run our 
agricultural system, our meat packing plants, daycare centers. 
They are a valued part of the workforce. So we have to, it 
seems to me, proceed at the same time with both solutions.
    And, by the way, those 11.2 million illegal migrants in 
this country, bunches of them, are not Mexican or Central 
American. They are Indian high-tech people. And they are also 
the parents of 5.5 million U.S. citizen children. So there is 
no way out. We have to do both things at the same time.
    Fourth observation: The U.S. major cities on the border--
and eight of them I normally keep track of--are incredibly safe 
thanks to Customs and Border Protection, the Federal Bureau of 
Investigations (FBI), the U.S. Marshals Service, and State and 
local authorities. Just astonishing. El Paso is always the 
example. We serve up El Paso and Honolulu as being some of the 
safest cities in the Nation. We ought to be grateful for this. 
It did not come easy. And that was not the case years ago.
    Fifth observation: The rural border areas are absolutely 
not secure. They are controlled by foreign criminal 
international cartels at times and places of their choosing. 
They are a humanitarian disaster. Hundreds die each year on 
that frontier.
    And, by the way, I have seen attacks on people making that 
claim as if it was false data. It is literally hundreds of 
people die per year. I am not sure we even know. It is a drug 
crime disaster. Maybe we get 5 percent of the drugs. When you 
stop them at ports of entry (POE), they go to sea delivery, 
they go to air delivery, tunnels, backpacking, et cetera.
    They are an environmental disaster. The Border Patrol 
cannot get permission from other Federal agencies to build 
helicopter pads, access roads, fixed tower platforms, et 
cetera, and yet drug cartels move across the frontier and dump 
hundreds of metric tons a year of trash. They cut fences. They 
are a disaster.
    There are places on the Arizona border, I just talked to a 
major rancher, a fifth-generation rancher, where, as he looks 
at his 5 miles of U.S. frontier, there are dozens of cartel 
scouts wearing camouflage uniforms with padded boots for non-
tracker, with $2,500 solar-powered, encrypted satellite phones, 
with AK-47s. That is who is in control of the border when they 
choose to do so. And the Border Patrol really has limited 
access to even get down there.
    And I would just tell you, from talking to many of these 
citizens--I know you have had field hearings--they have come to 
hate their government for not protecting them on the frontier. 
It is just simply astonishing, the insecurity. And a lot of 
them, of course, are selling and getting out of there. And, in 
general, we have to watch. They are selling to Mexican cartels 
in some cases to control both sides of the border.
    Another anecdote. A Border Patrol agent I talked to last 
week says, ``Look, when I joined the force a few years back, my 
aunt and uncle, Mexican Americans, told me, `Come live with us 
until you find a place to live. But call us when you come home 
at night so we can get the garage door up and close it behind 
you because we do not want our neighbors seeing your uniform. 
You are going to leave, and we have to stay here.' '' So 
insecurity we should not tolerate for American citizens on the 
border.
    Seventh observation: The Border Patrol is not adequately 
resourced. I understand we have 60,000 people now in CBP and a 
tremendously enhanced presence. But I tell you, it is also a 
national security threat. There are 2.3 million men and women 
in the Department of Defense (DOD), 4.7 percent of GNP, the 
lowest percentage of any so-called war in our country's 
history. But when it comes to the border, we simply cannot 
control this frontier as a civilized nation should do unless 
the agents have IR night vision devices, M4 carbines. There is 
not an M4 carbine for every agent, so they have to sign one 
out, and it will not be zeroed when you sign out a weapon out 
of a stack. We do not have enough fixed-tour surveillance 
sites. We do not have border fences everywhere we need them. 
There is a four-strand barbed wire fence along one of the most 
sensitive access routes into Arizona.
    And then, finally, I do think we ought to recognize that 
the border is a national security threat. It is not one we 
ought to ask DOD to fix. I personally do not like to see the 
National Guard committed to that mission. They are supposed to 
be preparing to fight the country's wars. Where we see an 
infrastructure lacking, a capacity lacking, we need to build 
Federal agencies commensurate with the responsibility we are 
giving them. And part of that is also Federal financing for 
State and local law enforcement.
    I talk to sheriffs up and down that line that say, ``Look, 
I detain people, I turn in a bill for $800,000 bucks. A year 
later, with no explanation, I get back a check for $40,000.''
    Autopsy money. Bodies are not being autopsied simply 
because of the lack of funding out there on the frontier. So we 
have to support State and local law enforcement with the tasks 
they are facing.
    As a general rule, clearly we ought to be proud of what we 
are seeing on the frontier, but there is a lot of work to be 
done, and I applaud the members of this Committee for bringing 
your attention and leadership to bear on the problem.
    Thank you.
    Chairman Johnson. Thank you, General.
    Our next witness is John Torres. He is the President of 
Guidepost Solutions, LLC. Prior to joining Guidepost Solutions, 
Mr. Torres served as the Special Agent in Charge for Homeland 
Security Investigations (HSI) in D.C. and Virginia. He also has 
served as Acting Director of U.S. Immigration and Customs 
Enforcement (ICE); a Deputy Director of ICE; and the Deputy 
Assistant Director for Smuggling and Public Safety.
    Mr. Torres.

  TESTIMONY OF JOHN P. TORRES,\1\ FORMER ACTING DIRECTOR AND 
   FORMER DEPUTY ASSISTANT DIRECTOR FOR SMUGGLING AND PUBLIC 
   SAFETY AT U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Torres. Thank you, Mr. Chairman, Ranking Member Carper, 
and distinguished Members of this Committee. First of all, I 
want to thank you for this opportunity to discuss transnational 
crime and the impact that it has to our country as well as the 
threats to our border. As you mentioned, I served at the 
Department of Homeland Security and its predecessor agencies 
for 27 years, most recently here in our Nation's capital, where 
I was in charge of Homeland Security Investigations for about 
3\1/2\ years.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Torres appears in the Appendix on 
page 477.
---------------------------------------------------------------------------
    Of those 27 years, 25 of those were as a Special Agent, and 
going back to the mid-1980s, where I was a Special Agent for 
the Immigration and Naturalization Service (INS) starting out 
in Los Angeles, where I was hired as a result of the 
Immigration Reform and Control Act from 1986 that increased the 
number of enforcement agents for the INS back at that time.
    During my career, we have been focused on transnational 
criminal organizations at pretty much every critical phase of 
the cycle, including internationally, in cooperation with our 
foreign counterparts where transnational crime and terrorist 
organizations operate, at our Nation's physical borders and 
ports of entry, in coordination with U.S. Customs and Border 
Protection, where the transportation cells attempt to exploit 
America's legitimate trade, travel, and transportation systems; 
and throughout the cities in the United States; and then also 
at the various cities where criminal organizations earn 
substantial profits from smuggling and the transportation of 
illicit goods.
    What I want to start off talking about is the impact that I 
saw over the course of my career with regard to national 
security. Back in 1997 through 2000, I was an INS agent 
assigned full-time to FBI headquarters in the bin Laden Unit. 
And this was before September 11, 2001. We focused on all 
threats related to al-Qaeda.
    Back in December 1999, we were working around the clock in 
response to a very credible threat that there was a terrorist 
plot to bomb U.S. landmarks during millennium celebrations. It 
was during this time that Ahmed Ressam was arrested, traveling 
under the alias of Benni Noris, while trying to enter the 
United States from the Canadian border in a rental car. In the 
trunk of that car were enough materials to make four medium-
sized anti-personnel and car bombs.
    During that time, Ressam was not cooperating with us, which 
really forced us to race against the clock at that time to 
potentially prevent a New Year's Eve attack at an unknown 
location. Later we found out that his intention was to bomb Los 
Angeles airport.
    In his possession at the time, basically the pocket litter, 
were phone numbers back to New York City to an associate there 
that we traced to what turned out to be human smugglers that 
were operating from Montreal through Boston and New York City 
and crossing the Vermont border.
    Back then, Ressam and his al-Qaeda-linked cell, based in 
Montreal, were using this human-smuggling ring to their 
advantage to gain entry into the United States for some of its 
operatives. So as early as 1999, al-Qaeda-linked terrorists 
were willing to use transnational criminal organizations to 
further their operations here in the United States.
    One of the things that we did when I was at ICE to improve 
security at the borders, both the Southern border and the 
Northern border, as well as at ports of entry, was to establish 
the Border Enforcement Security Task Forces (BESTs). They 
currently operate in 35 locations throughout the United States, 
including Puerto Rico and Mexico. And they leverage over 1,000 
Federal, State, and local law enforcement agents and officers 
representing over 100 law enforcement agencies. They basically 
provide a collocated platform where they can investigate 
intelligence-driven operations, and then they disrupt and 
dismantle those transnational criminal organizations operating 
at the border.
    With regard to human trafficking and human smuggling, I 
have seen that for many years going back to my INS days in the 
1980s. I have seen it with human traffickers, bringing people 
in from Asia. I have seen it take place on the Southern border. 
I have seen it come over from Eastern Europe. And what we see 
here is over the years these organizations have been 
responsible for tens of thousands of men, women, and children 
entering the country illegally each year. And this is really an 
international market that remains extraordinarily lucrative 
today.
    Sadly, a significant number of those children are brought 
to the United States in the hands of ruthless smugglers placing 
them at risk. And, quite frankly, we saw this happen back in 
2003 in Victoria, Texas, where dozens of smuggled immigrants--
men, women, and children--were locked in a hot, airless 
tractor-trailer outside Victoria, Texas. Ultimately, 19 people 
died in that trailer because they were locked in it, including 
a 7-year-old boy. It was the deadliest case of human smuggling 
in the United States in 15 years at that time.
    And then last year, we saw children that were entering the 
United States at increasingly alarming rates, unaccompanied 
children. Some of those children were placed in the hands of 
those same smuggling organizations by adults and even some of 
their family members to seek a better life here in the United 
States. But, frankly, it is not humanitarian to induce children 
to put themselves in the hands of smugglers.
    I am happy that you are working with the Federal agencies 
here to focus on those types of crimes, especially with 
transnational crime.
    Some of these cases I have highlighted today are indicative 
of the impact that transnational crime can have in our local 
communities. I want to thank all the Members of this Committee 
for your work with our Federal law enforcement leaders to 
remain focused on combating transnational crime. And thank you 
again for the opportunity to appear before you today. I am 
pleased to answer any questions you may have.
    Chairman Johnson. Thank you, Mr. Torres.
    Our next witness is Elizabeth Kempshall. Ms. Kempshall has 
served as the Executive Director of the Arizona High Intensity 
Drug Trafficking Area since January 2011. From May 2007 until 
December 2010, Ms. Kempshall was a Special Agent in Charge of 
the Phoenix Field Division for the Drug Enforcement 
Administration (DEA), which encompasses the entire State of 
Arizona. Ms. Kempshall began her career with the DEA in 1984. 
Ms. Kempshall.

   TESTIMONY OF ELIZABETH KEMPSHALL,\1\ EXECUTIVE DIRECTOR, 
    ARIZONA HIGH INTENSITY DRUG TRAFFICKING AREA, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    Ms. Kempshall. Chairman Johnson, Ranking Member Carper, and 
distinguished Members of the Committee, it is my privilege to 
address you today on behalf of the Arizona High Intensity Drug 
Trafficking Area's Executive Board concerning the current drug 
threats in Arizona and how these threats affect the rest of the 
country.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kempshall appears in the Appendix 
on page 487.
---------------------------------------------------------------------------
    The Arizona HIDTA region is approximately 64,000 square 
miles and includes 372 miles of contiguous international border 
with Sonora, Mexico. The international border area consists of 
inhospitable desert valleys and rugged mountainous terrain, 
which are ideal for drug smuggling. The Arizona-Sonora corridor 
contains six international land ports of entry situated in 
Nogales, Naco, Douglas, Sasabe, Lukeville, and San Luis.
    Six main interstate highways run through Arizona. Due to 
Arizona's geographical location and shared border with Mexico, 
all highways and roadways are exploited by Mexican drug-
trafficking organizations to transport large quantities of 
illicit drugs.
    Each year, the Arizona HIDTA Investigative Support Center 
conducts a comprehensive intelligence study to identify the new 
and continuing trends in the Arizona region. The Threat 
Assessment provides strategic intelligence to the Arizona HIDTA 
and its partners to assist in the development of drug 
enforcement strategies.
    The Threat Assessment found that the Sinaloa Cartel 
presents the primary operational threat to Arizona, possessing 
vast resources to source, distribute, transport, and smuggle 
large amounts of cocaine, marijuana, heroin, and 
methamphetamine in and through Arizona. The Sinaloa Cartel and 
affiliated Mexican drug-trafficking organizations exploit well-
established routes and perfected smuggling methods to supply 
drug distribution networks based in Arizona cities, which in 
turn supply drug networks throughout the United States. The 
assessment also found that from fiscal year (FY) 2012 through 
2014, 451 drug seizures occurred outside of Arizona but had a 
documented Arizona nexus. The sheer volume of illicit drug 
seizures with an Arizona nexus further confirms how vital 
Arizona is to Mexican drug-trafficking organizations.
    The smuggling organizations that operate along the Arizona-
Mexico border deploy a variety of transportation methods, such 
as tractor-trailer trucks and vehicles outfitted with deep 
hidden compartments; stolen vehicles; ATVs; underground 
tunnels; ultralight aircraft; and backpackers to defeat law 
enforcement border defenses.
    Just recently, nearly 13,000 pounds of marijuana were 
seized from a Mexican national driving a tractor-trailer 
through the Nogales port of entry. The marijuana was concealed 
inside boxes commingled with mechanical components. Another 
long-term investigation in Arizona resulted in a record seizure 
of 137 pounds of methamphetamine, 107 pounds of heroin, and 
$50,000 in cash destined for Atlanta, Georgia.
    Transportation and smuggling activities between the points 
of entry in inhospitable desert valleys separated by rugged 
mountainous terrain are equally important and ideal for drug 
smuggling. An extensive system of scouts armed with radios, 
solar-powered repeaters, cellular telephones, and weapons 
situated on high points along drug-trafficking routes are vital 
to the smuggling groups. Located in strategic positions in 
Mexico and as far as 75 miles into Arizona, scouts protect drug 
loads from law enforcement and rip-crews and redirect 
backpackers and vehicles to avoid law enforcement operations. 
The scouting networks provide a continuous view of law 
enforcement presence on both sides of the border, making easier 
to direct loads around law enforcement presence. The scout's 
role is fundamental to the drug organization's success in 
supplying drugs to U.S. cities.
    Law enforcement operations that successfully disrupt and/or 
dismantle Arizona-based drug organizations directly impact the 
U.S. drug markets. The Arizona HIDTA is uniquely qualified to 
combat the immense drug-trafficking threat facing Arizona, for 
this threat is far too big for a single agency.
    The Arizona HIDTA philosophy of cooperation and 
coordination is based upon enhanced information and resource 
sharing through collocated, collaborative Task Force 
Initiatives strategically stationed throughout the region. 
Under the coordination umbrella of the Arizona HIDTA, the 
participating law enforcement agencies eliminate duplicative 
operational and investigative programs and facilitate tactical, 
operational, and strategic intelligence sharing.
    The Arizona HIDTA approach demonstrates that when 
traditional organizational barriers are overcome, Federal, 
State, local, and tribal law enforcement entities can better 
focus investigative and intelligence resources in dismantling 
and disrupting the most dangerous and prolific drug-trafficking 
organizations.
    Thank you for the opportunity to appear before you today 
and for the Committee's support for the HIDTA program. The 
Arizona HIDTA remains committed to facilitating cooperation 
among Federal, State, local, and tribal law enforcement through 
sharing intelligence and to supporting coordinated law 
enforcement efforts.
    I will be glad to address any questions you may have at 
this time.
    Chairman Johnson. Thank you, Ms. Kempshall.
    Our next witness is Benny Martinez. He is the Chief Deputy 
Sheriff for Brooks County, Texas. Prior to this position, he 
served as a Texas State trooper. In 1990, Chief Deputy Martinez 
joined the narcotics service of the Department of Public Safety 
(DPS), which charged him with the overall direction of the 
State's enforcement efforts against illegal drug trafficking in 
Texas. Chief Deputy Martinez.

 TESTIMONY OF BENNY MARTINEZ,\1\ CHIEF DEPUTY SHERIFF, BROOKS 
                         COUNTY, TEXAS

    Mr. Martinez. Good morning, Chairman Johnson, Ranking 
Member Carper, Members of the Committee. Thank you for the 
invitation for me to speak to you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Martinez appears in the Appendix 
on page 494.
---------------------------------------------------------------------------
    My name is Benny Martinez. I am the Chief Deputy in Brooks 
County. The county consists of five deputies and sheriff that 
is responsible for maintaining law and order within a rural 
region of 943 square miles that encompasses the county seat of 
Falfurrias. Outside of the city, the county consists primarily 
of privately owned ranchland. The sandy terrain is mostly 
vegetated with mesquite trees, scrub oaks, and prickly pear 
cactus. The total population for the county is roughly 8,500.
    Brooks County has a checkpoint, which is one of the busiest 
checkpoints on U.S. 281, probably the busiest in the southwest 
corridor. It feeds on to cities as Houston, San Antonio, 
Austin, and Dallas, and other destinations throughout the 
interior of the United States.
    Highway 281 is part of the gulf coast corridor, which is 
one of the most active drug-and human-smuggling corridors in 
the United States. The Falfurrias checkpoint was the busiest 
checkpoint in the country in regards to undocumented crosser 
apprehensions (until the surge of the undocumented minors last 
summer) and narcotic seizures. The current checkpoint facility 
will soon be replaced by a new one that will increase the 
number of primary lanes from three to eight.
    Because of Brooks County's geographical location and the 
checkpoint, it faces unique challenges, and most of them is the 
fact that majority of the people are dropped off south of the 
checkpoint, and then they are walked across either east or west 
of the checkpoint. In other cases, local gang members or others 
seeking monetary gain who live in the county drive their human 
and drug loads through private ranches by having access to keys 
to locked property gates.
    The sad reality is that many of those who are being led 
through the brush by the smugglers do not survive their 
demanding journey. In the past 6\1/2\ years the county has 
recovered 443 bodies of undocumented crossers. We estimate that 
we recover less than half of all those who perish. From 2008 to 
2014, Brooks County has spent almost $700,000 for body 
recoveries. That is half of our budget.
    The Mexican cartels and the transnational and statewide 
gangs continue to increase the level of organized criminal 
activity in the Rio Grande Valley. They are very active into 
home invasions, felony invasions, extortion, kidnappings, 
sexual assaults of undocumented crossers, and the recruitment 
of Texas children to transport drugs, people, and stolen 
vehicles across the border.
    Violent transnational gangs such as MS-13 gang members are 
in Texas and elsewhere. Since 2011, the number of MS-13 members 
encountered by U.S. Border Patrol (USBP) in the Rio Grande 
Valley sector has increased each year accelerating in 2014. 
This coincides with the illegal migration from Central America 
during the same period. In the fiscal year of 2014, MS-13 
represented 43 percent of all gang encounters within the Rio 
Grande Valley sector approximately 11 percent of those were 
juveniles. In addition, there are at least three major Mexican-
American gangs that are known to be active in our communities 
and throughout Texas if not the country.
    There was one particular case that affected myself and one 
of the deputies. You will note the unsealed indictment that is 
included in the written testimony.
    I would like to emphasize that Brooks County law 
enforcement has a very close working relationship with State 
and Federal law enforcement partners. I have worked alongside 
the ICE office, back then the Customs office, and started 
working with them in 1992. I also have a close working 
relationship with local U.S. Border Patrol under the direction 
of Kevin Oaks and Deputy Director Raul Ortiz and Agent in 
Charge in Brooks County Amidon Doyle. Without their support I 
cannot imagine how we would have fared. This past Friday we had 
a homicide in the city of Falfurrias, gang-related. Border 
Patrol provided assistance, and secured the perimeter to where 
we did not have any interference to secure the crime scene. 
They allowed the Texas Rangers and the local police department 
to handle the case.
    I would also like to recognize those who have come to 
Brooks County's aid and to the aid of the family members of the 
443 deceased victims found in the county. This assistance is 
provided without any type of cost to Brooks County. Dr. Kate 
Bradley, from Texas State University in San Marcos; Dr. Lori 
Baker, from Baylor University in Waco, Texas; Dr. Krista 
Latham, from Indianapolis University; and Dr. Harrell Gill-
King, from the University of North Texas--all have gotten 
together and helped in identifying the victims so their 
families could be notified and have closure.
    I would also like to recognize the Texas Lieutenant 
Governor's office that stepped up the last 2 years when no one 
else would and directed $150,000 to the county to help our 
depleted budget.
    In closing, while we are faced with many difficult security 
challenges, we also have to remind ourselves that South Texas 
is the epicenter of legitimate trade and travel for the 
country. Therefore, it is incumbent upon local, State, and 
Federal law enforcement agencies to ensure our communities 
remain safe, and with the help of this Committee, I am 
confident the safety, economic vitality, and prosperity of our 
region will continue to prevail.
    Again, Mr. Chairman, Ranking Member, and Committee Members, 
thank you for the opportunity to share Brooks County's 
challenges and those of the Nation's concerning the dangerous 
affliction of transnational crime. I would be pleased to answer 
any questions that you may have.
    Chairman Johnson. Well, thank you, Chief Deputy Martinez.
    Our next witness is Bryan Costigan. He is currently 
assigned as the Supervisory Agent in Charge of the Montana All-
Threat Intelligence Center (MATIC) of the Department of Justice 
(DOJ), Division of Criminal Investigation. Prior to this 
position, Agent Costigan worked as an investigator in the 
General Investigation Bureau, specializing in financial crimes 
and criminal extremist groups. Agent Costigan has additional 
law enforcement experience with the Helena Police Department 
and the Lewis and Clark Sheriff's office. Mr. Costigan.

 TESTIMONY OF BRYAN COSTIGAN,\1\ DIRECTOR, MONTANA ALL-THREAT 
   INTELLIGENCE CENTER, DIVISION ON CRIMINAL INVESTIGATION, 
                 MONTANA DEPARTMENT OF JUSTICE

    Mr. Costigan. Chairman Johnson, Ranking Member Carper, 
thank you for inviting me to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Costigan appears in the Appendix 
on page 539.
---------------------------------------------------------------------------
    When most Americans think about border security, they think 
about the Southern border, and there is a lot of activity going 
on down there. For example, the Texas State Fusion Center 
fielded more than 53,000 requests for information in 2013 from 
law enforcement agencies, including 8,500 requests from Federal 
agencies alone.
    At the same time, there are a lot of us who have our eyes 
focused on the Northern border. As Director of the Montana All-
Threat Intelligence Center, one of the 78 fusion centers in the 
National Network of Fusion Centers, I can tell you that there 
has been a steady improvement in collaboration and information 
sharing across Federal, State, local, and tribal partners along 
the Northern border.
    We all recognize that we cannot secure the border with 
people or physical infrastructure alone. We need a risk-based 
approach to understand threats, understand the actors and their 
methods of operating. We need to exchange that information 
quickly with our relevant partners. A combination of 
technology, relationships, and policies make that happen, and 
that is where fusion centers come into play.
    I would like to give you examples of coordination that is 
occurring through fusion centers along the Northern border.
    In Montana, DHS recently shared information with my fusion 
center regarding an organization smuggling narcotics from 
Mexico up along the Rocky Mountains and into Canada through 
Montana border crossings. Working with the Rocky Mountain HIDTA 
and the Risk Program, we performed an analysis to understand 
patterns and worked with our State and local partners to 
enhance their ability to identify behaviors and share that 
information.
    Our fusion center is a focal point for information sharing 
among the many agencies that operate in Montana. The Department 
of Homeland Security Immigration and Nationality Act (INA) is 
represented in our center, along with State and local agencies. 
We share information with the Border Patrol and CBP, with 
Canadian agencies through our Federal partners. Our fusion 
center has completed joint products with DHS INA and FBI 
regarding homeland security threats, and we recently 
participated in a multiple-State analytical effort regarding 
fraudulent driver's licenses, which have obvious implications 
for border security.
    Elsewhere along the Northern border, the Ohio State Fusion 
Center is the hub for information and intelligence coordination 
in the Ohio Northern Border Initiative Task Force. The task 
force operates in partnership with the U.S. Border Patrol as 
part of Operation Stonegarden. Its mission is to provide law 
enforcement support through collaborative border security 
efforts in Northern Ohio. The task force works regularly with 
the Northeastern Ohio Regional Fusion Center in Cleveland and 
with the New York State Fusion Center regarding foreign-flagged 
vessels that have traveled through New York en route to Ohio 
waters. Task force leaders attend monthly regular briefings in 
Columbus at the Ohio State fusion center. The Maine fusion 
center has a CBP officer assigned full-time in its space and is 
engaged with Federal partners on both land and maritime border 
issues.
    In South Dakota, a law enforcement officer encountered two 
foreign nationals at a traffic stop who were in possession of a 
credit card reader and over 100 stored-value cards. Criminal 
organizations are known to steal credit card numbers and then 
transfer funds to stored-value cards. The officer reported the 
encounter to the South Dakota fusion center. State and Federal 
records checks in coordination with the North Dakota fusion 
center and ICE investigators showed that the individual had 
ties to an active ICE money-laundering investigation. The 
fusion center also discovered that the subject had ties to 
associates in three other States. Through this collaboration, 
South Dakota and North Dakota fusion centers were able to 
provide new information to ICE to further their investigation.
    Recently, police in Windsor, Canada, notified the Detroit 
Police Department that the Detroit-Windsor tunnel would be shut 
down due to an explosive device found in a vehicle. Analysts at 
the Detroit Urban Area Fusion Center conducted analysis 
regarding the vehicle and the suspects and provided information 
to the Border Patrol, DHS, Detroit police, and then the 
suspects were arrested.
    Earlier this year, CBP received information regarding a 
port runner into Canada. Information was provided to the 
Detroit fusion center whose analysts reported key information 
back to the Federal partners to assist it in locating the 
suspect, who was later apprehended in Windsor.
    In New York, the State Police and the U.S. Border Patrol 
developed information on individuals who were smuggling illegal 
aliens across the border in the northwestern part of the State. 
The New York State fusion center rapidly provided analysis and 
technical capabilities to help locate the individuals, 
including the use of automated license plate recognition (LPR), 
services. Further investigation by Federal partners and the 
Canadian authorities determined that the individuals were part 
of a larger human-smuggling network.
    These are just a few of the examples of how fusion centers 
are providing local and regional context to homeland security 
threats, providing intelligence to support the Federal partners 
along the Northern border. Just as DHS components address many 
of the distinct security missions, fusion centers do the same 
by coordinating State and local resources across a spectrum of 
threats. So whether we are providing analytical support to 
Secret Service or HSI to further fraudulent resident alien card 
investigations or identifying domestic associates of 
transnational criminal actors, fusion centers today are 
supporting a wide range of homeland security missions.
    Border security is one of those Federal missions where 
fusion centers are being used to coordinate State and local 
resources and analysis to enhance what is inherently a Federal 
responsibility.
    Mr. Chairman and Senator Carper, thank you for inviting me 
today. My colleagues across the National Network of Fusion 
Centers are happy to provide more information as you consider 
how to strengthen the security of our borders. I look forward 
to your questions.
    Chairman Johnson. Thank you, Mr. Costigan.
    I will start my questioning with General McCaffrey. I just 
want to understand a little bit more, can you clarify your 
opening comment where you said conditions have improved. Now, I 
am assuming you are talking about the fact that we have 
certainly closed down some of these corridors and we have built 
fences, and certainly places in California and some of these 
areas are certainly far more secure. But it is kind of like 
damming up a flood; water just kind of flows around.
    General McCaffrey. Exactly. Yes, at the end of the day, if 
you do not have a comprehensive defense--that acts in 
cooperation with foreign countries, I might add--it is hard to 
imagine how you ever get there. But it is still a great 
contribution. I mean, San Diego makes a perfect example. San 
Diego-Tijuana, before the barrier fencing went up, was a 
nightmare. The year before that fence went up--and these 
numbers are approximately right--there were 70-some-odd 
murders, many of them in broad daylight. I asserted at the time 
100 percent of the women trying to cross that frontier were 
sexually assaulted. You could not use the beaches on either 
side of the frontier. Thousands of people would run down the 
interstate in broad daylight getting hit by cars. That sort of 
chaos has ended, and a lot of it is because of resources, 
technology, competence, and strategy of CBP.
    Having said that, it seems shameful to me that I would be 
able to tell you that there are places in Arizona and Texas, as 
well as New Mexico, for that matter, where our border is not 
under our control, where there is a four-strand barbed wire 
fence, where there is no law enforcement presence on the 
frontier.
    We have to get a coherent, long-term approach to border 
frontier. And, by the way, it is not impossible to do this. I 
frequently run into the response that says, ``No, come on. It 
is an illusion that you could actually stop traffic across a 
2,000-mile border.'' You cannot stop it, but you can create 
conditions of law and order throughout the frontier region if 
we give people the tools and the right supervision.
    Chairman Johnson. Again, so we have improved conditions in 
some areas, some sectors, some cities, but we certainly have 
not solved the problem.
    You obviously were in charge of our drug problem here. In 
your testimony, you state that somewhere between 5 and 10 
percent is the level of drug interdiction, which means 90 to 95 
percent of illegal drug trafficking is succeeding; it is 
getting through.
    We spend, I have seen in some briefings, about $25 billion 
per year on our war on drugs. Can you just speak to the extent 
of that problem and where we are on that? It seems like we are 
a long way from solving that, from actually winning the war on 
drugs.
    General McCaffrey. Well, Senator, I have always been a 
little bit reluctant to use the term ``war on drugs.'' I tell 
people, ``You want a war on drugs? Sit down at your own kitchen 
table and talk to your own children.'' That is really where it 
starts.
    But to put it in context, when you look at America, 315 
million of us, overwhelmingly we do not use illegal drugs, and 
the rate dropped dramatically from 1979, the peak rate of 
around 13 percent, past month's drug use, and got down to 6 or 
7 percent. We were doing pretty darn good. Adolescent drug use 
rates dropped dramatically year after year; 13 years in a row 
they came down. Five years in a row, they have gone up. And the 
problem is not Mexican cartels driving it up. It is medical 
marijuana. It is a conversation that is lacking in the United 
States about the absolute disaster of chronic addiction. I 
spend a lot of my time working in that field still.
    So I would argue that we--in accordance with international 
law and with our neighbors--we need to cooperate in drug 
interdiction. And, by the way, without it, it would be a damn 
disaster. If we were not in Colombia--we were in Peru and 
Ecuador, less so, almost non-existent now. You have to go out 
there and help people on the ground with their condition. 
Senator Carper talked about El Salvador, Honduras, and 
Guatemala. Just complete nightmares now of law enforcement.
    It is not just drugs, by the way. The Canadians have drugs 
up north, but they are not slaughtering each other with AK-47s. 
These are institutional, lacking capacity in Central America, 
and broken cultures.
    Chairman Johnson. Let me understand. So you are saying that 
we were making progress in terms of reducing the demand in 
America for drugs. Do you believe the number of drugs coming 
into this country has been reduced over the last 20 years? What 
would be the total stats on that? Is it going down?
    General McCaffrey. Well, when we do well at reducing 
transit of heroin across the frontier, drug use turned to 
synthetic opioids. So for several years in a row, oxycontin, 
Percocet, and diverted legal narcotics were the problem. 
Fortunately, Congress, the State of Florida, and other places, 
cracked down on that. So I tell people it is not the kind of 
drug we are seeing. It is drugged behavior, which brings 
criminality, ill health, destruction of families. Part of it 
ought to be stopping the flow of drugs across the frontier, 
going to source production of drugs, and support those 
governments to deal with it.
    But that is not the way to defeat the problem of drug 
addiction, I would not think.
    Chairman Johnson. My time is running short. I will get to 
the other witnesses in my second round of questioning. But 
while I have General McCaffrey, I am highly concerned about the 
nexus between drug cartels and international terrorism and a 
growing connection with money laundering. I have been briefed 
on a number of things just in terms of the sale of used cars 
and the use of that in terms of money laundering.
    Can you just speak to what you have seen in terms of the 
progression of that nexus between potential Islamic terror, 
international terrorists, and the drug cartels?
    General McCaffrey. Well, thank God for the NSA, the CIA, 
and U.S. Special Operations Command, without which we would 
have--a disaster would have occurred over the last 10, 12 years 
in this country. They are doing an incredible job in the 
international community.
    The back-up in the United States is increasingly 
sophisticated. The FBI and other Federal law enforcement, CBP 
in particular, are extremely good and have--the deterrence 
factor of Federal law enforcement is enormous. People say, the 
terrorists say, if we are going to attack someplace, let us go 
to Paris, Madrid, Indonesia, as opposed to trying to get to New 
York City. So we have done tremendous work in that area also.
    Having said that, if we have half a million people that 
walk across the frontier from Mexico every year, which is the 
case--a quarter of them actually come out of Central America. 
We are picking up Pakistani nationals, Iraqis, jihadists out of 
Crimea. All sorts of goofy people are showing up on that 
frontier. So far not an organized terrorist operation. It will 
happen. We have several thousands foreign fighters with ISIS 
right now, primarily Europeans, a handful from America. We are 
going to see them come home, and the obvious way to get into 
the country is across the frontier, not through trying to talk 
down a CBP officer at Dulles airport.
    Chairman Johnson. Thank you, General. Senator Carper.
    Senator Carper. Thanks very much, Mr. Chairman. Again, 
thank you all for just timely testimony.
    We have all heard and probably all used the phrase ``like 
finding a needle in a haystack.'' Not an easy thing to do. But 
if we are looking for a needle in a haystack, sometimes it is 
helpful if we actually reduce the size of the haystack. And the 
other thing that might be helpful is to find technology or 
tools that enable us to find needles, small ones.
    One of the things that we have focused on a fair amount in 
this Committee the last couple years and this year as well--is 
figuring out how do we reduce the size of the haystack. And one 
of the ways that we are trying to do that is to reduce the flow 
of illegal immigrants from countries like Honduras, Guatemala, 
and El Salvador. They comprise today actually more people 
coming in from those countries than from Mexico. And the reason 
why they come from those countries is they live lives of 
misery, which we actually impart to them by virtue of our 
addiction to the substances we have talked about here today.
    There are some things that we observed when Senator Johnson 
and Senator Sasse and I were down on the border of Mexico a 
month or so ago. We talked a lot with folks there about force 
multipliers, and that is, how do we do a better job of finding 
those needles, figuratively speaking. Well, we use drones. And 
the IG from the Department of Homeland Security would suggest 
we do not use them very effectively, and we are drilling down 
on that to try to make sure we do a much better job and get our 
money's worth.
    We saw and heard about tethered aerostats, dirigibles that 
go up to 1,000, 5,000, even 10,000 feet. They cannot always 
operate the drones when the weather is not good, when the winds 
are up. Same thing with tethered aerostats.
    We heard some good things about stationary towers. 
Actually, we heard some good things about mobile towers. It is 
not always easy to get somebody to let them be sited on their 
property, but actually we heard some encouraging reports there.
    We saw a little bit about helicopters that we are using, 
some discussion about fixed-wing aircraft. We actually flew 
around in a 
B-3 aircraft, which is what I flew around in when I was in the 
Navy for a number of years. And we are using them, 
reconfiguring them with different surveillance equipment to be 
able to pick up drug runners coming in from across the waters.
    We have an aircraft down there that is called the Cessna 
206, which I think in the past we have used, we send people out 
with binoculars to look for folks trying to get into the 
country--not a smart thing to do. We put our drones without 
using evader systems that are highly effective in picking up 
incoming.
    We found out that in about 150, 200 miles of waterway from 
the Gulf of Mexico inland on the Rio Grande River, we have just 
a couple of places where you could actually put boats in, and 
in a lot of places we could use lighter boats, boats that do 
not go very far down into the water and could go a lot faster.
    We heard about night vision goggles. We actually heard 
about horses, had a chance to see how they are starting to use 
horses down there, and in the high brush they are actually 
pretty effective, getting the riders up above the brush. In 
fact, the horses are actually effective in sensing people 
coming through.
    And we heard a fair amount about just access to public 
lands, trying to make sure we are doing a better job and not 
just providing those like a free rein for the bad guys to get 
through.
    Those are just some of the force multipliers that we talked 
about and heard about.
    Let me just ask anybody on the Committee, have you all 
thought about this? What are some of the most effective force 
multipliers, realizing there is not one silver bullet for any 
particular point of our border, but through a lot of different 
combinations that we can--in some places fences work, in some 
places they do not. Sometimes dirigibles work or drones work, 
or sometimes they do not.
    Mr. Costigan, do you want to give us some thoughts from the 
north, up north, what can we learn from you guys, particularly 
working with the Canadian Government in terms of force 
multipliers? Maybe the other best force multiplier is 
intelligence--information sharing, intelligence sharing. We 
have a lot of cooperation with Colombia maybe not so much with 
Mexico and some of these other countries. Go ahead, just very 
briefly.
    Mr. Costigan. Mr. Chairman, Senator Carper, information 
sharing is very important. We work closely with our Northern 
border partners all the way across the way to figure out the 
threats that are going on and work joint investigations with 
them. It always helps. I know Border Patrol has embraced 
technology along the Northern border to include drones and all 
sorts of other tools that I have heard about from them 
directly.
    Senator Carper. All right. Thank you.
    Mr. Martinez, please, force multipliers.
    Mr. Martinez. Yes, sir. Brooks County has two aerostats, 
and those are excellent if the weather is permissible. But we--
--
    Senator Carper. How high do you go up?
    Mr. Martinez. I believe they go up to between 5,000 and 
10,000.
    Senator Carper. OK.
    Mr. Martinez. It depends on the weather. Right now our 
weather, the wind has not picked up yet, so they are good. But 
we have had bad weather. But when they are up, they are very 
productive, and we are able to get the trend. There is always a 
trend movement within the brush. We are able to locate the 
trend and send the interceptors to intercept the group. So that 
is always good.
    And there is always backpacking. You always find your 
backpackers, those that carry their 50-pound backpack with 
narcotics.
    We also need something besides the aerostat because once 
the aerostat is down there is no visual. Our brush is thick and 
it makes good cover. Vegetation is solid for the smuggler.
    Senator Carper. OK. Thanks so much. Ms. Kempshall.
    Ms. Kempshall. Thank you, Senator. I have been involved in 
drug law enforcement for 31 years now, and I have seen all 
different phases of it, where it was stovepiped and law 
enforcement was not cooperating with one another to the point 
where they are now, and we are really cooperating like never 
before, because if we do not, we understand the consequences.
    And I think using intelligence to drive multiagency task 
forces is the best force multiplier we can have.
    Senator Carper. OK. Good. Thanks so much. Mr. Torres.
    Mr. Torres. Several areas for really making a difference 
here. Technology made a significant difference over the course 
of my career, as well as international cooperation, being able 
to push the borders out and use vetted units in host countries. 
Community cooperation with the various groups that are out 
there, and then really building efficiencies into the processes 
we had at the Federal Government so we could do more with less.
    Senator Carper. Good. Thanks.
    My time is about to expire. General McCaffrey, just take a 
minute. You have had a fair amount of preparation, talked to a 
bunch of folks before you gave your testimony. What advice 
would you have for us on force----
    General McCaffrey. One of my favorite stories, Senator 
Carper, is just before I left the drug czar's position, I had a 
big conference in El Paso, and I was very proud of myself 
because we deployed a lot of technology to the frontier during 
those 5\1/2\ years. We made two giant busts. For 3 days we were 
having a conference right at the El Paso port of entry, and I 
got out there and told the press it was a payoff obviously of 
my investment in technology, et cetera, et cetera.
    The truth of the matter is one of the biggest busts, 10, 12 
metric tons of pot built into an industrial strength 
compartment on a truck. The truck pulls up to this tired old 
customs officer who has been breathing fumes for the last 15 
years. He hands over his papers--by the way, the consequence of 
losing drugs, you get murdered. He hands over his papers to the 
customs guy, and his hand is shaking. And the customs officer 
goes, ``You carrying drugs today?'' And he says, ``Not much.'' 
And that was the secret to the bust.
    So I never wanted to lose sight that in law enforcement, 
less so in Marine and U.S. Attorney Ranger operations, an 
experienced old-hand law enforcement professional is key. So 
building that Customs and Border Protection and getting them 
out there where they have NCO quality leadership is going to be 
essential to us. But the technologies are crucial?
    The aerostats are magic if they are up. And these cartels, 
they are an intelligent enemy, so they are watching--
sequestration came into effect, and they piled across that 
border like you could not believe. They knew the aircraft were 
down. They called audibles and moved across the frontier. So 
technology is good, but we need experienced professional law 
enforcement.
    Senator Carper. Good. Thank you all. Thank you.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Yes, thank you, Mr. Chairman, and I want to 
thank the Ranking Member also for your opening statements and 
for holding this hearing. And I want to thank you all for being 
here and for the job you do. It is not easy. We talk about 
having technology on our side. We need to also remember, as you 
just said, they have technology on their side, too.
    I had an incredible opportunity last Saturday to get a 
briefing by the Border Patrol on what is going on on the 
Northern border. It was a marvelous briefing, but it was also 
very stunning to see what is going on up there, and I think we 
talked about one of the things you just talked about as far as 
smuggling things across the border, Elizabeth.
    If it was all like this, oh, my God, how easy it would be. 
When I look at a picture like this, I wonder what is going on 
down the road 5 miles up the border. I mean, the truth is that 
I am just a dirt farmer from north-central Montana, but if 
there is pot in those bags, I would be surprised, quite 
frankly. It is amazing to me that we do the job we can do on 
the border.
    And I just want to ask a question, because I think the 
Northern and the Southern border are absolutely connected. I 
think you guys talked about it a little bit, about some of the 
stuff that is going on on the Southern border has a direct 
nexus with what is going on on the Northern border and vice 
versa.
    So the question I have--and you are right, Canada is a good 
friend. But without the help of our allies, of the Mexican 
Government in particular, and other governments around the 
country, is it possible to secure our border? That is for you, 
General McCaffrey.
    General McCaffrey. Well, I think as a general statement, we 
are inadequately focused on the north-south axis. At the height 
of the--and these are not arguments against the war on terror--
but at the height of the Iraq campaign, we were spending $12 
billion a month. At the height of the Afghanistan campaign, it 
was $10 billion a month, 60,000 killed and wounded. We went all 
out and should have done so.
    Now, you turn around and look at the resources. Here, after 
years and years of supporting it, I think the number now is 
something on the order of six Black Hawk helicopters have gone 
south.
    It is shameful, the inadequate resources we have in some 
ways provided these countries. And our agents in many cases, we 
have tied their hands. If you want to deal with the government 
of Honduras, Guatemala, and El Salvador, you are dealing with 
imperiled regimes. So it is not appropriate to tie their hands 
and say you cannot talk to certain kinds of units because they 
had human rights violations in the past. You have to get inside 
them and try and change them.
    I do not think we have done enough on the north-south axis 
at all. General Kelly you mentioned, probably the finest four-
star we have on active duty today. This guy is really first-
rate. He has been trying to call attention to that north-south 
axis and the impact of international crime, driven in many 
cases by drugs.
    Senator Tester. And the point is that without their help, 
without making those relationships, it is going to be very 
difficult to stop it.
    General McCaffrey. Sure.
    Senator Tester. The other point that you brought up, 
General McCaffrey--and I very much appreciate it--is that you 
said without sensible immigration policy it is going to be an 
uphill battle. I paraphrased what you said. Can you talk about 
that just for a second? You touched on it. You touched on the 
fact that it is not all Hispanics, that the fact is there are 
some folks that are here--and quite a number of them, quite 
frankly, that are here because we want them here, whether they 
are running our dairies or running our motels or are engineers 
in our businesses. Can you talk about the importance for 
sensible immigration to allow you guys, you five and the folks 
you represent, to be able to do your job?
    General McCaffrey. Well, it has become such a partisan----
    Senator Tester. That is correct.
    General McCaffrey [continuing]. Source of fury, it is just 
astonishing to me. And, again, that is why I try and say it is 
two sides of the same coin. As the Chairman has pointed out, 
you can pass bill after bill, but if your illegal immigration 
goes from 2 million to 11 million, apparently you are not doing 
the right thing.
    Senator Tester. That is right.
    General McCaffrey. And, I look at the Yakima River Valley, 
the fruit basket of America, which is almost across the board 
illegal migrant labor, without OSHA safety standards, minimum 
wage, they cannot wire money home to their mother. When they 
cross the frontier going home at Christmas, they get shaken 
down by the Mexican border police.
    Senator Tester. Right.
    General McCaffrey. It is just an unconscionable situation.
    And, by the way, that is only half the problem. Half these 
people that are here illegally, the Indian high-tech people got 
off a plane and stayed. But the notion that we could deport or 
in some ways penalize the existing population of the country 
when we need their labor, among other things, does not make any 
sense. Nobody really believes we can do that.
    Senator Tester. OK. John Torres, a question for you. About 
a year ago, maybe it was 9 months ago, we were talking about 
60,000 people at the border that were under the age of 18. I 
assume that is not occurring, at least to that level, at this 
point in time. What transpired to have that stop?
    Mr. Torres. Well, to Secretary Johnson's credit, he reached 
out to a number of different people to get a lot of different 
opinions as to what steps could be taken, and included in some 
of those steps that they have done is they have focused a 
little bit more precision-wise with enforcement, to target the 
human-smuggling networks that were breaking people up.
    Senator Tester. That was happening in countries like 
Guatemala and El Salvador and places like that?
    Mr. Torres. Yes, right. And enhance the international 
cooperation with our foreign law enforcement counterparts so 
that they could work together. And then he reached out to the 
local communities to work with NGO's, to work with faith-based 
organizations, and to work with the medical community, to drive 
resources down there so that they could really address the 
hypersensitivity of that market there.
    Senator Tester. Right. Well, like I said, I very much 
appreciate the work you guys are doing to find solutions to 
problems, and sometimes we tie your hands here in Congress. And 
I think that is very unfortunate moving forward.
    The last question is for you, Bryan. The Bakken has 
incredible growth and a lot of money, and we are seeing what I 
think are drug cartels moving into that area and have been for 
some time now. Could you talk about that and talk about the 
threat and, since it is right on Montana-North Dakota's border, 
what you are trying to do to bring everybody together to solve 
the problem?
    Mr. Costigan. Sure. Senator, what we are seeing is--the 
Bakken, obviously, huge energy growth between Saskatchewan, 
North Dakota, and eastern Montana. And what we are having 
happen there is traditionally in Montana our folks that ran our 
drug trade in Montana used to trip to go out to get their drug 
supplies from other States, go to Arizona, go to Denver, or 
wherever, and pick up their stuff.
    We have seen a change now where we are starting to see 
cartel activity move up into the Bakken, and it is obvious the 
corporate mentality and culture is coming in because there is 
money there, huge disposable incomes that are there, and these 
folks are starting to move in. So we are seeing big changes 
there.
    Some of the issues that we are having with that and we are 
trying to address is obviously it is multiple States. We have 
North Dakota and Montana there, and we are working together 
back and forth. The FBI has moved a new field office in there. 
We have seen some interesting things go on, task forces come 
about, and working forward. The North Dakota fusion center and 
we cooperate on a daily basis back and forth, sharing 
information regarding those threats.
    Senator Tester. Thank you very much. Thank you all for what 
you do.
    Chairman Johnson. Thank you, Senator Tester. I will point 
out, on Thursday, we are going to have a hearing that is going 
to really lay out the population of people in this country 
illegally, and what they are doing. I agree, if we had a 
functioning guest worker program, you would certainly minimize 
the people coming here illegally, make that a legal process. We 
had that in the 1960s with the bracero program but with all its 
problems that got canceled. But we did not have the significant 
illegal immigration problem when we have today. People could 
come and go. We need to understand what works and what has not 
worked. But I hope you can attend Thursday's hearing. Hopefully 
that will be enlightening in terms of that reality as well.
    Senator Tester. Yes, Mr. Chairman, if I might, I think you 
are exactly correct, but I do not think we can expect these 
folks to do their job if we do not do ours.
    Chairman Johnson. I understand.
    Senator Tester. And part of it is getting a sensible 
immigration policy passed around here and taking the politics 
out of it, as General McCaffrey said, because it is too 
important. It is not going to go away unless we deal with it.
    Chairman Johnson. And the way I am trying to take the 
politics out is we share these same goals and lay out the 
reality. That is the start, the first step. Thank you. Senator 
Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you for 
putting together this hearing, and Ranking Member Carper as 
well. And to our panelists, it has been a very interesting 
discussion, and I appreciate the work that you do each and 
every day to secure our border. From listening to Senator 
Tester, we know it is a very complex issue as well. It requires 
more than just securing the border. It means also reaching out 
to other countries as well and looking at in a comprehensive 
way. And I know all of you are thinking about that on a regular 
basis, and I appreciate that and hope you continue to bring 
your ideas to us here in Congress.
    Also, Mr. Chairman, I appreciate the perspective from the 
Northern border, and I hope that as we continue to have 
hearings, given that I represent Michigan, we discuss some of 
the unique challenges in States not only like Michigan but 
North Dakota and New Hampshire and Montana and other Northern 
border States that should be part of any discussion when we 
talk about securing our country.
    As Mr. Costigan pointed out in his testimony, often the 
Northern border receives less attention and resources than the 
Southern border. And in order to deal with the vast expanse of 
land that you have in Montana, which spans over 500 miles and 
two Border Patrol sectors as well as the network of Northern 
border States including Michigan, the fusion centers were 
created to share intelligence among law enforcement agencies. 
And, Mr. Costigan, I appreciate your discussion of those fusion 
centers and how they work and how they have been effective in 
dealing with the complexity of a very wide open border.
    But as all of you know, transnational criminal 
organizations will always try to seek the path of least 
resistance, and in Michigan, unique geography presents a 
challenge to border security and law enforcement. The Detroit 
River serves as an international boundary between the United 
States and Canada, but at points it is only a mile wide.
    During Prohibition, rum runners regularly used the narrow 
river to smuggle alcohol. Just recently, we had a Canadian man 
who was arrested while swimming across the river and back to 
fulfill a bet after a night of drinking. Last fall, we had two 
Americans that were arrested, and their boat was seized when 
they were caught smuggling tobacco into the United States as 
well. And there are many other instances just like this.
    But the United States certainly has worked with our 
Canadian partners through the Beyond the Border Action Plan to 
address threats early with the goal of preventing dangerous 
people or materials from reaching either country and 
facilitating cross-border enforcement.
    In Michigan, on the Detroit River, criminals have been 
using the border against law enforcement by retreating to the 
opposite side of the border when they are pursued exclusively 
by either the United States or Canadian law enforcement. 
However, a collaboration between the United States Coast Guard 
and Royal Canadian Mounted Police known as ``Shiprider'' has 
served as a very innovative way to make our border more secure. 
The program allows for cross-designation of specially trained 
officers who are allowed to conduct law enforcement on either 
side of the border while patrolling shared waterways. Shiprider 
is a success story for cross-border law enforcement cooperation 
by preventing these criminals from simply crossing into 
Canadian waters in order to avoid a U.S. Coast Guard vessel 
that is pursuing them.
    So given that kind of cooperation with the Canadians--Mr. 
Costigan, you mentioned in your testimony as well, and you have 
been at this a number of years--what have you seen in terms of 
cooperation between the United States and Canada? It sounds as 
if it is getting stronger? Are there areas where you think we 
need to improve that? If you could give us kind of an 
assessment of where that international cooperation is currently 
on the Northern border.
    Mr. Costigan. Mr. Chairman, Senator, I believe that it is 
improving, and through the Border Enforcement Teams or the old 
IBETs, as they used to call them in some of the border areas, 
that works great for sharing information. But I think at times 
we need to figure out a better way to share information with 
our Canadian partners in a more timely manner.
    Obviously, as an ally of ours, we want to share as much as 
possible, but sometimes information restrictions that are 
placed upon State and locals in sharing information with the 
Canadians, since they are another country, proves difficult at 
times. We get the information to them if they absolutely need 
it immediately, but sometimes there are these impediments in 
the road.
    Senator Peters. So that is a function of communications, 
just the barriers in communications? Would you elaborate on 
that, please?
    Mr. Costigan. Senator, I think part of it has to do with 
when we can release information and what we cannot. If I have a 
product that is produced by the FBI or DHS or something along 
that line, I cannot release that without the agency's 
permission. Sometimes that permission takes a long time to get 
back down to us to release that to our partners.
    Senator Peters. OK. Good.
    To the other panelists, let me just go down the panel, in 
your assessment--we have talked about the linkage between the 
Southern border and Northern border. Perhaps just briefly, if 
you could mention, do you believe that Federal resources and 
initiatives are sufficient for work on the Northern border? And 
if not, is there one area in particular in relation to the 
Northern border that may be different than the Southern border 
that we need to consider? We will start down there with Mr. 
Martinez, and we will work our way down to General McCaffrey.
    Mr. Martinez. Yes, Senator, I believe that the 
communications, of course, is always vital, but it all depends 
on what restricts that particular information to be filtered 
out. In our case, not having any direct contact in Mexico as to 
who to contact in that particular country, I would not filter 
anything out to them. Those are just my thoughts.
    Senator Peters. OK.
    Ms. Kempshall. Senator, I do believe that communication 
with our partner countries is critically important. I have seen 
times during my time as a special agent with the Drug 
Enforcement Administration that we could not share information 
freely with Mexico. And I saw how that hindered our 
investigations. You knew if you had a connection in Mexico at 
that time it just stopped, and the investigation could go no 
further. And I saw under President Calderon's administration we 
enhanced that communication, and we made real strides, and we 
made impact on a number of the cartels.
    We know that the Mexican drug-trafficking organizations are 
supplying Canada with drugs, because they can get more money 
for their kilos of cocaine in Canada right now than they can in 
the United States. So I think it is imperative that we have 
that communication capability from Mexico to the United States 
and to Canada, because if we are not able to communicate, then 
these drug organizations succeed because we are not able to 
break their infrastructure.
    So I think it is critically important, but sharing 
intelligence in Mexico has its unique challenges because you 
have to know who to share it with, as Mr. Martinez said, and 
how to share it, because if you have someone that you can 
cooperate with, you do not want to put them in harm's way in 
Mexico because you are cooperating with them because of the 
corruption and the challenges that we have. So communication is 
important, and we have to develop those lines of communication 
to effectively address the challenges that we have.
    Mr. Torres. Senator, I believe you said it best when you 
said that these organizations take the path of least 
resistance. As we put more pressure in other areas with various 
different programs with regards to national security, drugs, 
gangs, money laundering, some of these organizations will take 
a look at Canada and see that it is easier to get to Canada, 
and from there they can make their way to the United States.
    One of the issues we dealt with quite frequently over the 
years was asylum issues. Many people from other countries 
thought it may be easier to get asylum in Canada and then take 
advantage of the border, the Northern border, to come down to 
the United States as opposed to just trying to come to the 
United States to get asylum. And so as we strengthen our 
programs, if they are not commensurate across the board or with 
our neighboring countries, they will take advantage of that.
    Senator Peters. Thank you.
    And, General, thank you.
    General McCaffrey. Senator, a couple of thoughts. One is, 
if you are a Canadian RMP official and you look at the drug 
threat to Canada, it is us. It is Interstate 5. We are the 
transit country for 99 percent of the cocaine coming out of the 
production areas going into that country. So it is an odd 
thing. I used to think of that every year, and we had to 
validate who was cooperating with us in foreign governments and 
thinking the Canadians ought to disenfranchise us, not the 
other way around.
    I think the second thing that is unusual dealing with 
Canada is the economic importance of cross-border trade is so 
gigantic that we should never lose sight of that. The 
investment in infrastructure on the Northern border has been 
inadequate to make sure we could facilitate that cross-border 
trade. That river, that bridge situation in Detroit is just 
crazy that we have not solved that already.
    So, the biggest foreign trading partner of the United 
States is Canada. Normally No. 2 or No. 3 is Mexico. We are all 
wrapped in a NAFTA basket. But the economic implications of the 
Northern border are vital.
    Canadian immigration policy has always been a sensitive 
issue. Who they let into their country means they automatically 
let them into our country, because essentially we still do not 
have the border even remotely under control for individuals. So 
we have to have better discussions with them along that line.
    Then a final note: When it comes to law enforcement sharing 
information, it is a very unusual situation. The Canadians have 
100 percent integration with the U.S. Department of Defense. 
They actually are in command of U.S. and Canadian forces in 
NORAD, as you know. They are routinely--New Zealand, Australia, 
Canada, and Great Britain--get all of our sensitive intel. So 
why we have problems sharing information is a structural 
failing on our part because it does not exist in the Department 
of Defense.
    Chairman Johnson. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you. My family are not immigrants to 
the United States in any recent generations, but I was raised 
to be very sensitive of our American values, which are you are 
a citizen of the United States, whether you are a first-
generation immigrant from Mexico or Canada, you enjoy certain 
rights and privileges to be an American citizen. And some of 
our most vaunted values are values of inclusion and tolerance. 
And I live in this country that I love and adore, but the 
racial realities are evident. If you are an African American, 
you are multiple times more likely to be stopped for suspicion 
of using drugs than if you are not an African American. If you 
are a Latino American, you are multiple times more likely to be 
stopped for suspicion of possession of drugs than if you are 
not a Latino American. And this has resulted in wild biases 
within our criminal justice system where there is no difference 
between blacks and whites for using drugs, but astonishingly, 
blacks will be arrested about 3.7 times more likely.
    And so when I see this bias, it actually to me stretches to 
a lot of our focus or concern, and I am curious from some of 
the panelists that every time I hear ``secure the border,'' 
people seem to be talking about our Southern border. I come in 
and I see a picture of Latinos crossing the river, and I 
wonder: Where is the picture of the Canadian border and the 
thousands and thousands of illegal crossing we have there?
    Why does it seem that we have a Nation so much more 
concerned about the serious problem that does indeed exist on 
our Southern border but very scant, little conversation about 
our Northern border? And I am wondering if that stems from some 
of the fears that we have that drive us as a Nation to so 
disproportionately impact blacks and Latinos in the criminal 
justice system for legal citizens. I am wondering that we 
celebrate in a perverse way our Southern border crossings and 
all those problems when the data shows that we have a serious 
problem in the north as well.
    We have right now in reality unique security challenges and 
significant threats along the longest border in the entire 
globe, over 5,000 miles, in the north, and this is diverse 
terrains and climates. Roughly 300,000 people a day, $1.5 
billion in trade, are crossing our Northern border every day. 
We have a problem. A June 2012 report from the Department of 
Homeland Security entitled ``Northern Border Strategy'' 
highlighted the fact that illicit drugs are the predominant 
form of contraband smuggled across our Northern border, but no 
pictures. Not talked about in the press. Somehow that is scary 
to us, but our national imagination does not seem to be focused 
on a problem that is on our north as well.
    The Northern border is also an avenue for unintended 
hazards that do affect our country, including infectious and 
communicable diseases, and the potential for terrorism and 
violent extremism that can attempt to gain entry and access 
across that porous border in our north. And so I wonder: Where 
is the enthusiasm, the seeming alacrity that I find about our 
Southern border to secure our north?
    And so, Mr. Costigan, I am so happy you are here. As 
Director of Montana's All-Threat Intelligence Center, you are a 
leader in protecting the security of our Northern border 
communities. I am grateful. I wish you brought a photo, too, 
because we have a real problem. It may not be scary brown 
people, but we have a problem. Is that correct, sir? Yes or no.
    Mr. Costigan. I would agree.
    Senator Booker. Serious problem.
    Mr. Costigan. I do not know if I would term it as 
``serious,'' but there is a problem.
    Senator Booker. And so what problems and what priorities 
should we be giving the security of our Northern border?
    Mr. Costigan. Senator, from my perspective, obviously I am 
a Northern border person, and I agree that we have a problem on 
the Northern border and that we have to dedicate resources to 
it.
    Senator Booker. And just last week, a Border Patrol 
official fatally shot a man named Jamison E. Childress, if I am 
pronouncing that right, who was apparently in the country 
illegally on the U.S.-Canadian border about 100 miles north of 
Seattle, according to the New York Times. The man was wanted 
for murder outside Whatcom County--again, I hope I am 
pronouncing that right--Washington. The man was approached by 
two Border Patrol agents after setting off ground sensors along 
the border into the United States near the town of Sumas, 
Washington, after displaying erratic and threatening behavior 
toward the agents and refusing to follow their orders. The man 
sprayed one agent with an incapacitating spray. One of two 
agents shot and killed the man.
    I am concerned right now that people are crossing our 
international border from Canada to bring crime and violence. 
The fact that you do not think it is serious--the levels of 
drugs that come across our Northern border, the level of 
illicit contraband, the level of counterfeit prescription 
drugs, the level of threats to our community to me strikes me 
as very serious.
    And so do you share my concern that Congress should be a 
lot more vigilant and use our resources to protect the 
integrity and security of our Northern border? And if so, why 
don't you think there is more attention on our Northern border?
    Mr. Costigan. I agree that we should pay attention to the 
Northern border, and I would say that I am thankful for being 
here to be able to testify regarding that issue.
    As far as what kind of resources we dedicate to it, I think 
that the Congress has to make that decision how we dedicate 
those resources and where they are going to put it.
    Senator Booker. General, I appreciate your longstanding 
service to the United States of America and to this country. I 
am wondering if you could shed some more light on what I 
consider to be a serious threat. Illegal immigration on the 
U.S.-Mexico border is at a 40-year low. We have a lot of work 
to do. There are serious crimes going on on the border. There 
are border towns and communities that are facing horrific 
circumstances because of drugs and cartels. I have heard about 
it. I have read about it. I turn on the news, and I see it 
every day. But our Northern border has thousands and thousands 
of illegal immigrants every year crossing into this country of 
undocumented immigrants, and there is a tremendous drug problem 
on our Northern border as well.
    Do you agree with me with the severity and the urgency to 
address this problem?
    General McCaffrey. Let me go to the first point you made 
because it is the toughest one. Normally I have current 
numbers, the Monitoring the Future study, et cetera. As a 
general statement, when you hold up a mirror to America and 
say, ``Who is using drugs here in this country?'' as a general 
statement, some of the lowest rates of drug abuse in American 
society, first of all, are the armed forces. And, also, if you 
are talking young people, it is African Americans who have a 
lower rate to include cocaine use than does the general 
population. And yet the consequences are dramatically 
different, and for a variety of reasons. If you are a Honduran 
kid selling drugs on the streets of Los Angeles, we are going 
to arrest you the first night. You will not have bail. You will 
not have a dad who has a lawyer. There is a whole series of 
social, cultural, economic factors that come into play. It 
deserves a serious discussion to address that issue, without 
which I think it is a major factor bearing on the 
disproportionate focus of the criminal justice system on 
minority populations.
    And, by the way, one of the highest rates of drug abuse in 
American society are health professionals. So if you are a 
plastic surgeon in San Francisco, a 40-year-old female, and you 
end up in one of our CRC health group treatment facilities, you 
are going to get 30 days of inpatient care. You are going to 
have 2 years of supervised care afterwards. You are going to 
respond because the DEA is holding your license to write 
prescriptions. But not so much if you are in Chicago. So I 
think that point you make is a complex one, but we need to look 
at it.
    Now, when it comes to cross-border concerns, solving the 
problem of controlling the U.S.-Canadian border is a tough one. 
But I have always been uneasy about saying there is an 
equivalence between the problems in Mexico, the problems in the 
United States, and problems in Canada.
    Senator Booker. And forgive me, General, for interrupting 
you. I make no equivalency. The sheer numbers----
    General McCaffrey. No, I did not say you did. I am just 
saying I am always uneasy about that argument. If you are on 
the U.S.-Mexican frontier right now, a U.S. citizen or law 
enforcement, you will not walk across the frontier for any 
reason unless you have an IQ below 70. Tijuana, different, but 
as a general statement, those border communities now, there may 
be gun fights going on across the frontier for a week at a 
time, survivors stumbling across the frontier. It is a flipping 
nightmare over there. It is a good deal living next to Canada. 
I mean, it might be slightly better at the Vatican, but the 
Canadians are a law-based society, first-rate law enforcement, 
economically vital to U.S. national interests--as is Mexico, I 
might add. So I do not think there is an equivalency.
    Now, how you go about securing 5,000 miles of border with 
Canada, you have to have a common immigration policy for 
starters. If you are a Chinese citizen with a master's degree 
in physics, your preferred port of entry is to go into Canada 
and then come across the frontier into the United States.
    Senator Booker. And just if I can tread upon the Chairman's 
good graces, my last, final follow-up is: It was said earlier 
about jihadists from Crimea. If you were a terrorist trying to 
cross over a border, what is easier crossing, the north or the 
south?
    General McCaffrey. Well, you have to get into Canada for 
starters. So there is first-rate intelligence cooperation 
between Canadian and U.S. authorities. So I would be reluctant 
to fly into Canada also. Once you are in, clearly you can get 
into the United States much more easily from that direction.
    But back to the U.S.-Mexican border, half a million people 
walk into this country every year illegally, so the border is 
not controlled. Even though it is safe in the major border 
cities, you can still cross the frontier, pay the nice man 
$1,000, and he will drive you across the frontier.
    Senator Booker. Right, and the point is that we just saw 
Canadian homegrown terrorists who caused some serious 
incidents. So someone from Canada who is already radicalized, 
it would be very easy for them to come across our border, 
correct?
    General McCaffrey. Yes. Again, though, the insight--
Canada's culture of civilization and peace is pretty intense 
compared to the United States. If I was a terrorist, I might 
move out of the United States into Canada where I would feel 
safer.
    Chairman Johnson. Senator Booker, before you leave, because 
you were not here with the opening--and I just need to assure 
you there was no racial intent, absolutely no purpose behind 
this to bring race into this at all. This hearing is about 
laying out the reality. I am happy to hold a hearing on the 
problems with the Northern border. Right now we are talking 
about transnational crime. We had a picture\1\ given to us by a 
sheriff from Mission, Texas, showing the impunity with which 
the drug cartels operate on the other side of the border. This 
was a turnback situation, and that is the only purpose of that, 
was to lay out that reality. If you have a good picture that 
illustrates a particular reality on the Northern border, happy 
to put it out here. But there was absolutely no racial intent 
of that particular picture. This was just showing the impunity 
of the drug cartels and how they operate on the Southern 
border. OK.
---------------------------------------------------------------------------
    \1\ The picture submitted by Senator Johnson appears in the 
Appendix on page 552.
---------------------------------------------------------------------------
    General McCaffrey, real quick, I know in our office you 
said you did not really particularly like talking about the 
total dollar value of the drug problem in the world. I know the 
U.N. reports it is about a $320 billion per year business. 
Quite honestly, I was actually surprised it is that low. I 
thought it would be a bigger problem.
    I will ask any of the witnesses here. Do we have any sense 
in terms of the dollar value of the human-trafficking 
component, the sex trafficking, and then the amount of money 
the drug cartels also make off of the illegal immigration? I 
separate human trafficking/sex trafficking from the illegal 
immigration smuggling as well. Anybody have any sense in terms 
of just the dollar value, the enormity of that?
    General McCaffrey. Let me add a quick interjection. I tried 
to get law enforcement to stop briefing me on the dollar value 
of drugs seized. They have no value. It is all situational. If 
you are a dentist in Miami, you will spend 5,000 bucks a 
weekend on cocaine. If you are a poor boy in Rio, you can get a 
basyca, cocaine paste cigarette, for $2. The supply of illegal 
drugs always grossly exceeds the demand. That is the key. And 
then when you get to the synthetic, manufactured drugs, there 
is, of course, an unending supply.
    Chairman Johnson. You are saying the supply exceeds the 
demand?
    General McCaffrey. Always, across the board.
    Chairman Johnson. Because it is so lucrative. I mean, there 
is so much money to be made in it.
    General McCaffrey. It is so easy to make them. There is no 
industrial--we are not talking Mercedes cars or growing fine 
wine. So the supply out there is unconstrained. And so it 
depends on who you are how much you will pay for the drugs. It 
is better to measure shattered lives, it is better to go to 
Monitoring the Future and talk about kids dropping out of 
school, better to go to the hospital emergency rooms, all of 
which we do, and see who is on what drug when they come in.
    Chairman Johnson. I understand. So much of this, let us 
face it, it is driven by the profit motive, and there is 
enormous amounts of money to be made, and I am just trying to 
get my head around that.
    Mr. Torres, this is almost totally aside, but you made a 
comment--I am new to public policy, just came to the Senate in 
2011. But you said you were part of the bin Laden Unit. Is that 
what the name of the unit actually was back in 1997?
    Mr. Torres. Right. It was the Usama, with a ``U,'' Usama 
bin Laden Unit. It was created in early 1998, and I left that 
unit in 2000 to run the Denver office, but it continued for 
years.
    Chairman Johnson. OK. Again, that just caught me by 
surprise. I was not aware of that, that we knew so much about 
Osama bin Laden that we actually had a unit set up within the 
FBI.
    Ms. Kempshall, you talked about the scouting networks. What 
laws are in place--or are there no laws in place--that we can 
arrest those individuals that we basically know are scouts? I 
mean, is there any control that we can have? Because we were 
down on the border, and literally we were standing right next 
to a scout. I know we were. He was on his phone. He was 
communicating our position to members of his gang on the other 
side. What laws are in place?
    Ms. Kempshall. It is a scary feeling, isn't it, when you 
know someone is watching you and calling out your positions as 
a law enforcement official to the bad guys that you are trying 
to apprehend. It has been a challenge for us to prosecute the 
scouts because it was just nothing specific for them. And I 
think it is important that there are consequences to their bad 
actions, because if they are not facing significant jail time, 
then they are just going to continue to do it and be replaced, 
because it is an opportunity to get into the United States, a 
slap on the wrist, they go back, and then family members can 
come back and replace them.
    So it is important that laws are created that these scouts 
will face significant----
    Chairman Johnson. So currently we do not have laws.
    Ms. Kempshall. They are very difficult to prosecute.
    Chairman Johnson. And, of course, if we did have laws, they 
would be using minors, which is another problem, correct?
    Ms. Kempshall. That is a significant problem, because we 
are seeing that across--the children are being used to bring 
drugs in across the ports, because in the Federal system it is 
very difficult to prosecute a minor. So now we have to have 
that prosecution handled by a county attorney in a border town 
that has very limited resources. But the law enforcement 
community feels like you cannot let these crimes go unpunished, 
or they are going to continue.
    Chairman Johnson. That was a shock to me when I was down on 
the border, and I was talking to local law enforcement, and a 
couple things were revealed to me that were shocking.
    First of all, I have always viewed this jurisdictional 
battle between the Feds and locals was to actually be able to 
take control of a case, prosecute it. Those are not the 
jurisdictional battles. They are actually fighting over not 
taking the case because it is so costly.
    The other surprise was that I was told by local law 
enforcement that unless there are 500 pounds of marijuana 
involved, they do not even bother. Can you confirm that, that 
what was told to me is basically true?
    Ms. Kempshall. At one point in time, there was a minimum 
mandatory for Federal prosecution. I do not know that that is 
in place today. but I think that you see that we have had a 
plus-up of Border Patrol, and when you plus-up one agency--
which is important, because the Border Patrol agents have an 
incredibly difficult job in Arizona and across the border. But 
we needed to plus-up the rest of the infrastructure, the 
Marshals Service, the judges, the jail systems. The Federal 
system, the infrastructure for the entire criminal justice 
Federal system was at a breaking point when we had so many 
illegal immigrants being arrested, the drugs were coming across 
the border; they were having the minors bringing them across; 
the scouts in the mountains. It was just a difficult way to get 
these people prosecuted.
    Chairman Johnson. Let us talk about what might work. 
General McCaffrey, you were talking fencing will in the right 
spot if it is constructed properly. I know Operation Strong 
Safety, when I read that report, it sounds pretty strong that 
having more boots on the ground, more enforcement officers at 
the border, sounds like that actually works. I do not know how 
many more we would need. I am looking at the budget right now, 
the Border Patrol, those 60,000 agents cost about $12 billion 
per year. Obviously, we need a cost-benefit analysis on that. 
But, Chief Deputy Martinez, can you talk a little bit about 
boots on the ground, how effective Operation Strong Safety has 
been?
    Mr. Martinez. It has been very productive, and it has 
helped us tremendously on our end. Being 70 miles north of the 
Rio Grande River, it has helped us where we see minimal 
dropoffs, we see groups of 20 versus groups of 70 being crossed 
through the brush. And a lot of this issue has to do with boots 
on the ground, but with that you also need your technology to 
work hand in hand so we can make every effort to interdict 
every single person that comes across, because that one person 
that is----
    Chairman Johnson. You can detect, but if you do not 
apprehend, it does not do you much good. But then if we 
apprehend and we just process----
    Mr. Martinez. That is correct. And just to reinforce what 
you just mentioned is the fact that if you do not have the 
prosecution at the level it should be at--I am referring to the 
USA. If they are not capable of handling this type of volume of 
cases these cases are going to walk because they have done it 
before in Brooks County. We literally have caught the scout. We 
literally have caught the smuggler with the people.
    Now, once they interview the people being transported, if 
they can tie in that particular scout to that smuggling 
organization well that is a plus. But if they do not that 
person is going to walk. Pretty much he is going to walk 
because he probably does not have any type of identification on 
him, no driver's license or anything like that.
    Chairman Johnson. So what percent of those scouts walk? 
What percent of people you want to prosecute we just do not?
    Mr. Martinez. A very good percentage of them walk.
    Chairman Johnson. OK. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    We have not talked about southbound inspections, and as you 
know, the drugs go north and money and guns go south. And I 
just want to ask you to each take maybe less than a minute to 
talk about this issue and perhaps what more we can do, ought to 
do, to slow the flow of weapons and cash or other illicit drug 
proceeds into Mexico, but also into Canada. Just take about 
half a minute on each of those. General McCaffrey, would you 
lead us off?
    General McCaffrey. I think we are remiss. We owe the 
Mexicans better work. When I hear ``money seizures,'' I kept 
asking, ``What is our annual money seizure rate?'' And somebody 
had mentioned a figure of $45,000. We know that it is literally 
billions of dollars moving across the frontiers back into 
Colombia, Peru, Ecuador, Mexico. They go in $100 bills, and 
these are industrial strength shipments, and we are not even 
remotely seizing a fraction of it.
    The same with weapons. When we get to weapons, you get into 
this political sensitivity that is just beyond belief. How can 
we possibly allow people to buy semiautomatic AK weapons on our 
side of the border by the dozens without in some way 
controlling this?
    And now, finally, there is just no easy solution. I stood 
there at the Bridge of the Americas, I guess, in El Paso, and 
you look into Mexico. If you tried to stop north-south traffic, 
there is no infrastructure to do that. You would back traffic 
up for 20 miles the first day. There is no plazas to inspect 
them.
    And, by the way, when you look across the bridge--I was 
sitting with a Border Patrol officer when I was doing this. It 
was getting dusk. There is no taillights going on on cars 
hitting the Mexican side of the border. They are not looking at 
them either. So there is just nothing there that comprehensibly 
finds guns and dollars going back into Mexico.
    Senator Carper. All right. Thank you.
    Very briefly, 30 seconds, what can and should we be doing 
to stop the flow of weapons and money heading south?
    Mr. Torres. Sure. Back in 2010, we surged a number of 
resources from throughout the country down to the border for 
that purpose exactly, to inspect guns and money going south.
    Unfortunately, to do that we had to pull resources from all 
the major cities, and so my counterpart in New York at the time 
was screaming and yelling, ``I have all these issues in New 
York, and I have to send people to the southwest border.'' Yet 
it is the drugs from the southwest border that are coming up to 
New York that is creating the impact. And so ultimately it is 
about the resources to create those teams and make them 
permanent.
    Senator Carper. Thank you.
    Ms. Kempshall, just very briefly.
    Ms. Kempshall. Yes, sir. It is critically important that we 
not only stop the money southbound, because that is why the 
drug cartels are in the business, but also the weapons. And so 
we are using intelligence to help drive those operations and 
coordinated activity between law enforcement investigations and 
our port officials so that we are having investigations and 
interdiction operations work together to help focus our efforts 
on the appropriate targets.
    Senator Carper. All right. Thank you.
    Mr. Martinez, very briefly, same question.
    Senator Carper. Yes, sir. We had the State interdictor 
officers in Brooks County. Within 3 days, they were at half a 
million dollars. Within 3 days. So you do have a fixed 
checkpoint on the main corridor, just extend it over to the 
southbound lane and secure it there.
    Senator Carper. All right. Thank you.
    Mr. Costigan. Of course, ours is a little different. Ours 
is going north instead of south. Concerns for us are usually 
guns going north to the Canadian--different culture. Our guns 
cause them problems up there also.
    But in order to work with our limited resources, I believe 
that we need to increase our risk assessment activities so we 
can properly utilize the limited resources that we have to 
target what we need to target.
    Senator Carper. All right. Thanks.
    The last question I would have, I just want you all to give 
us some advice. Let us just say you are sitting on this side of 
the dais and not that side, and you are Senators for a day or 
at least for a hearing. Give us some ideas what you would do 
next, maybe one or two things that each of you would do if you 
were in our jobs to address the problems that we are talking 
about here today. General.
    General McCaffrey. I think it has come out all morning: a 
coherent, comprehensive, long-term plan to provide enhanced 
security all along that frontier, combined with sensible 
immigration policy.
    Senator Carper. All right. Thank you.
    Mr. Torres. Yes, I absolutely echo those thoughts. 
Ultimately, if I were sitting in your chair--I know how 
difficult it can be, but it is really developing and working 
together to come up with a comprehensive immigration plan as 
well as securing the border.
    Senator Carper. That sort of goes out to the size of the 
haystack, does it not?
    Mr. Torres. Right, exactly.
    Senator Carper. OK. Ms. Kempshall, what would you do? A 
couple of things.
    Ms. Kempshall. Senator, I think that you are in this 
hearing taking very important steps. You are understanding the 
threat, because before I lived in Arizona and Texas, I lived in 
Georgia, and I did not have a full appreciation of when 
somebody talked about the challenges along the southwest border 
what they were. And I think it has to be a holistic approach. 
There is no easy fix for a problem of this size. Just as I said 
in my statement, it is an immense drug-trafficking problem, and 
no one agency can solve that problem. But if you bring agencies 
together, understand their missions, and understand how we can 
bring those missions together to secure the border, we are in a 
much better situation. And then let those agencies talk to you 
about what tools they need to enhance their capabilities along 
the southwest border, because I know when I worked in 
Washington for DEA, I may not have had a full appreciation of 
the challenges that law enforcement had out in the field. But 
when you bring those law enforcement agencies together and let 
us come talk to you and say, ``This is what we need, this is 
what is working, and this is what is not working,'' we will be 
better equipped to handle that problem.
    And you mentioned it earlier about the guest worker 
program. When you hear ``illegal immigration,'' I may think one 
thing. You may think another. But we have to define that. We 
have guest workers that we need to come in to work our fields. 
But then we have the folks that I deal with that are truly 
coming into our country to bring evil in, to destroy our 
communities, to make sure that they have continuing sources for 
their supply of illegal drugs. And so that is where the 
conversation needs to begin.
    Senator Carper. OK. Good. Thank you so much.
    Mr. Martinez, what would you do?
    Mr. Martinez. Yes, sir. I would continue the information-
sharing collaboration as we are doing now, implement technology 
to assist in that. Of course establish an immigration plan that 
is going to be bipartisan, that is going to help the country, 
the Nation as a whole, and understand the mission of it.
    Senator Carper. All right. Thank you. Mr. Costigan.
    Mr. Costigan. I would agree. I think we need to continue 
information sharing like you are doing here, but also continue 
and encourage information sharing through other entities with 
all the agencies involved. If we fail to share the information, 
we will not be able to take effective action against what our 
problems are.
    Senator Carper. All right. Thank you.
    Mr. Chairman, my last year as Governor I was given the 
opportunity to be the founding vice chairman of something 
called the American Legacy Foundation, which is the money 
flowed out of the tobacco settlement between all the States and 
the tobacco industry. And the idea was to go after the root 
cause. And what we did is we created the Truth campaign, and it 
was a public media strategy developed by young people to 
convince other young people not to smoke, not to use tobacco, 
and if they were, to stop. Enormously successful.
    And in Montana, they actually used the same kind of 
approach to deal with meth, and my recollection, if I am not 
mistaken, Bryan, that was enormously successful as well.
    I just would leave us with a thought. There are actually 
some strategies that work pretty well with tobacco and with 
meth, and one of my favorite sayings is, as the Chairman knows, 
find out what works, do more of that.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    Well, obviously coming from a manufacturing background, I 
solved a lot of problems, and root cause analysis is essential. 
But you have to first understand the reality. That is what we 
try to do here.
    Senator Carper kind of asked our wrap-up question. I have 
learned that from him, giving all the witnesses an opportunity 
to make a final point. I guess I will go and do the same thing. 
But, Ms. Kempshall, when you think about your closing comment, 
you talked about intelligence. I would kind of like to hear 
something about that. But, in general, this hearing really was 
about transnational crime, that reality, that element of this. 
And, again, my concern is the nexus between transnational 
crime, the growing threat of Islamic terror, international 
terrorists, homegrown extreme violence.
    As Ms. Kempshall was talking about, there are two parts to 
this: we have illegal immigrants coming here working, and we 
have people coming here to do this country harm--whether it is 
drug cartels, human sex trafficking, I mean evil people. And 
that we must stop.
    But, again, just go down the list, your final thoughts, 
potentially address my final points here. General McCaffrey.
    General McCaffrey. Well, I thank you for bringing attention 
to this issue. One of the other cautions when I give talks to a 
Rotary Club or Chamber of Commerce, people say, ``Well, what 
happens when violence comes across the frontier?'' It is 
already here. There are 1,000 communities right now, 200 major 
metropolitan areas, where the principal threat to the American 
people and organized crime comes out of Mexican cartels. So we 
should not talk about when it happens. It is already taking 
place.
    Chairman Johnson. Mr. Torres.
    Mr. Torres. Transnational crime has to cross one of our 
borders, whether it is a land border, a seaport, airport, or 
even our cyber border. And we see the impact of that in our 
communities every single day. While it may be occurring on the 
southwest border or on the Canadian border or even at Dulles 
Airport, ultimately it ends up in our back yards with regards 
to drugs, national security, human and sex trafficking--we saw 
too much of that--and so thank you for focusing on this today.
    Chairman Johnson. Thank you. Ms. Kempshall.
    Ms. Kempshall. Senator, I think that we must understand 
when it comes to drug-trafficking organizations that these are 
criminal organizations, and they bring their drugs to the 
United States because we have an appetite for illegal drugs. 
And I think to address that problem, we must continue those 
education efforts. We must continue to teach our children the 
dangers of drug abuse, even experimenting once with dangers of 
illicit drugs. And we also must use that intelligence that we 
develop from our investigations and our interdictions to make 
Arizona, one of the primary gateways, an undesirable route for 
the cartels. If we can push them out of their comfort zone, 
then we can make them more vulnerable. And if it is more 
difficult for them to bring their drugs into the United States 
and there is less of an appetite for their product in the 
United States, then we are going to break the backs of these 
drug cartels. But the only way that we can do that is to 
appropriately target our limited resources on the most 
significant drug-trafficking organizations impacting our 
communities.
    So I think it is a multiple approach: education, and using 
intelligence to drive our enforcement strategies, combining 
Federal, State, local, and tribal resources against those 
significant targets.
    Chairman Johnson. Thank you. Chief Deputy Martinez.
    Mr. Martinez. Yes, sir. Until the United States is serious 
about securing the border, the transnational criminal 
organizations will continue to operate on the border, within 
small communities, and throughout major cities of the Nation. 
We need to have a balance here because of our humanitarian 
issue that we have in Brooks County with all those bodies 
dying. We need to make sure that our national security issues 
are addressed to where we can identify the bad guy versus those 
that come in to assist the economy. Also, the crime is here, 
and it will continue to grow.
    Thank you.
    Chairman Johnson. Mr. Costigan.
    Mr. Costigan. Over 30,000 Americans died last year from 
drug overdoses. I think that is a threat to our communities 
every day. As we deal with that, I think what we can do as law 
enforcement, we have to encourage intelligence and information 
sharing to accomplish our mission and make it stronger.
    Chairman Johnson. Well, again, thank you all. I know you 
spent a lot of time on your testimony. It was extremely 
helpful. It helps us create that record, lay out that reality. 
So, again, thank you for your thoughtful testimony, your 
thoughtful answers to our questions.
    This hearing record will remain open for 15 days, until 
April 8 at 5 p.m., for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:01 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   SECURING THE BORDER: UNDERSTANDING
                    AND ADDRESSING THE ROOT CAUSE OF
            CENTRAL AMERICAN MIGRATION TO THE UNITED STATES

                              ----------                              


                       WEDNESDAY, MARCH 25, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:02 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Ernst, Carper, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing is called to order.
    I want to thank all the witnesses for your thoughtful 
testimony. We have got a lot of witnesses, so I got to read a 
bunch of testimony last night. I appreciate it. It is very 
illuminating.
    The purpose of these hearings--this is our third in a 
series of hearings on border security and a broken immigration 
system--really is to just lay out the reality. I come from a 
manufacturing background and you just cannot solve a problem 
unless you really identify it properly, define it, understand 
the reality, acknowledge it, admit the problem. So, that is 
what we are going to be talking about.
    This particular hearing is titled, ``Securing the Border: 
Understanding and Addressing the Root Causes of Central 
American Migration to the United States.'' Of course, we all 
witnessed the surge last year. It created a real humanitarian 
crisis. I was down in McAllen, Texas, with Senator Carper and 
Senator Sasse, and I do have to say, as we saw how Customs and 
Border Protection (CBP), how our civil servants rallied and 
responded to the problem, it was really inspiring. I mean, they 
probably cut some bureaucratic corners, which they should have 
done, because they really responded well. So, again, I just 
want to kind of call them out. They did a fabulous job and they 
will continue to do a fabulous job.
    I do have a chart\1\ up here real quick, and this is 
actually--the numbers are taken out of Mr. Noriega's testimony 
talking about the history of unaccompanied children coming in 
from Honduras, Guatemala, and El Salvador, and I do have a line 
of demarcation marked there, which was the Deferred Action on 
Childhood Arrivals (DACA), which I realize did not apply to 
children coming to this country. That was really for children 
who came in, I believe it was before 2007. But, that was not 
the message that was delivered in Guatemala.
---------------------------------------------------------------------------
    \1\ The chart submitted by Senator Johnson appears in the Appendix 
on page 734.
---------------------------------------------------------------------------
    So, I think if you take a look at cause and effect, I think 
you would be hard pressed not to at least consider the fact 
that that deferred action, that policy of this Administration, 
did incentivize people to come to this country illegally and 
subject themselves and their children to a pretty horrific 
journey. So, we need to understand that.
    But, we also need to understand, and I am sure Senator 
Carper will speak to this, is the conditions in Central 
America. I would come. It is a rational economic choice. I 
mean, this is the land of unlimited opportunity. We understand 
that. What we need to do is we need to make that a legal 
process.
    So, if we can lay out the reality of the problem and really 
address all the components--and this is just one of the 
components, this is just going to be one of these hearings--we 
are going to be in a far better position to actually go to the 
root cause, and Senator Carper and I are both big into root 
causes, and so we can start, hopefully, to pass some pieces of 
legislation that will start addressing the individual 
components and put this Nation on a path to a functioning legal 
immigration system.
    I have a written statement for the record\1\ that I will 
ask to include, without objection.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 645.
---------------------------------------------------------------------------
    Senator Carper. Oh, oh, oh----
    Chairman Johnson. There you go. Really bipartisan up here. 
[Laughter.]
    And, I will turn it over to our Ranking Member, Senator 
Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. And I also have a statement\2\ I would ask 
unanimous consent to be included in the record.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Carper appears in the 
Appendix on page 646.
---------------------------------------------------------------------------
    Yesterday, one of our witnesses was General Barry 
McCaffrey, and when he was the Nation's Drug Czar, he came to 
Wilmington, Delaware. I was Governor then. And, he wanted to 
see a prison that we--called Gander Hill Prison in almost 
downtown Wilmington. We had a couple thousand inmates. And, 
somehow, we had figured out how to reduce the rate of 
recidivism by half, from about 75 percent down to about 35 
percent. He wanted to know why.
    And, we ended up--before we toured the prison, he came in, 
brought an ABC News camera crew, and before we toured the 
prison, we went into a room about a quarter of the size of this 
room and we met with 50 inmates. They were all in their white 
suits. And, a bunch of them, I knew their parents, knew their 
families, and had spoken at their schools and been at their 
churches. And, we had about half an hour to kill with them 
before we did the prison tour and learned about the program.
    And, I said, General McCaffrey, why do we not just talk to 
these guys and find out how they ended up here in this prison. 
And, so, about five or six of them spoke for maybe 5 minutes 
apiece to talk, to answer the question, how did they end up in 
that prison.
    They all told pretty much the same story. ``I was born when 
my mom was young. I never knew my dad. By the time I got to 
kindergarten at the age of five, the other kids in my class 
knew not just their alphabets, they could actually read. They 
knew their numbers. They could do a little bit of addition and 
subtraction. And, as it carried on from there, they went faster 
and faster; I went slower and slower. And, eventually, I am in 
the third grade and acting out, in the fourth grade out in the 
hall by my desk, and in fifth grade, sixth grade, in the 
principal's office, in seven, eighth grade, suspended. As soon 
as I was older, I got expelled and never came back.''
    One guy said, ``I ended up on the outside. I was not a good 
athlete. I was not popular with girls. No talents or skills. 
Did not know how to really support myself. I wanted to feel 
good about myself and I learned if I could take drugs or 
alcohol, I could feel good about myself, and so that is what I 
did. I broke the law, got caught, and I ended up in this 
prison.''
    The root causes there are pretty well demonstrated in the 
responses from all those prisoners, and we decided then and 
there that we were going to address root causes, not just the 
symptoms of problems in Delaware, but really starting with the 
basic building block for a society: Families. How do we 
strengthen families, make sure our kids are not bringing kids 
into this world, and on and on and on. And, actually, pretty 
successful, I might add.
    Ever since then, I have been a real big believer in root 
causes, not just addressing symptoms of problems, but root 
causes. We spent a quarter-of-a-trillion dollars in the last 10 
years strengthening our border defenses with Mexico. We could 
probably, easily, spend another quarter-of-a-trillion dollars.
    But, an analogy I used yesterday, this is a little bit like 
the needle in the haystack. The needle is people trying to get 
in illegally, or trying to get contraband in illegally, and the 
haystack is all the number of people who are trying to get 
there. I said, the key for us is to make the haystack smaller 
and to develop better techniques of finding those needles, if 
you will.
    And, part of it is, of making the haystack smaller, is 
reducing the number of people who feel compelled to bail out of 
Honduras, Guatemala, and El Salvador to try to get to our 
country, because there is lack of hope, lack of opportunity, 
fear, corruption, hopelessness.
    And, we have seen a situation a little bit similar to this 
in Colombia 15, 20 years ago, where we had a failed nation. A 
little bit before that, we had a bunch of gunmen who rounded up 
a bunch of Supreme Court justices--remember this? They shot and 
killed 11 of them just like that. And, you had the leftist 
guerrillas there. You had the crimes and drug narco guys, and a 
failed nation. And, somehow, they turned it around, and they 
did it, but we helped them. And, today, they are in a position 
to help Guatemala, Honduras, and El Salvador. Mexico is in a 
position to help, as well.
    But, as we continue to find ways using force multipliers to 
make the 21,000, 22,000 Border Patrol men and women we have on 
the border more effective to make all those folks and another 
22,000 people that are literally working in the ports of entry 
on the border of Mexico, how do we make them more effective? We 
use it with technology. Drones have done well. Tethered 
aerostats have done well. Towers on the ground, mobile towers, 
stationary towers, stationary aircraft with the vehicle and 
dismount exploitation radar (VADER) systems, you name it. There 
is a lot that we can do faster, more places, bring in boats 
into the Rio Grande River. There is a lot of stuff we can do in 
terms of force multipliers.
    And, my hope is that, ultimately, we will do some 
immigration reform and that would be a way to reduce the size 
of the haystack, as well.
    But, we have an obligation, I think, moral obligation, 
since given our addiction to drugs, methamphetamines, heroin, 
cocaine, which helps make the lives in these three countries 
miserable--given the fact that we contribute to their misery, 
maybe we have an obligation, a moral obligation, to figure out 
how to contribute to their success.
    It is not all on us. And, I am encouraged by the 
Administration, the President, and the Vice President is sort 
of riding point on this, is to figure out what is working down 
there. What can actually work. And, I will give you one example 
and I will stop.
    I was in Guatemala about a year ago. I have been in all 
three countries down there a couple of times. And, I was in 
Guatemala meeting with the President of Guatemala and I said to 
him, Mr. President, I am told that in your prisons here, this 
is a place where, frankly, police do not police, prosecutors do 
not prosecute too often, judges do not administer justice, 
correctional systems do not correct behavior. And, I said, I 
was meeting with the President in one of the last meetings 
before I came home on a Congressional Delegation (CODEL) and I 
said, Mr. President, I understand that the drug lords in 
prison, in your prisons, they get access to cell phones. They 
can actually do their business while they are in prison, 
incarcerated. I said, did you know that?
    And he kind of, like, shrugged, and I said, and did you 
know that there is actually a technology we have in our prisons 
in America where you can actually put a cone of silence so that 
people with cell phones in a prison cannot communicate in or 
out? Did you know that? And, not much of a response. And, I 
said, and did you know you have those systems in your prisons, 
as well? And, kind of not much of a response. And, I said, and 
you know you do not use them.
    Well, we heard in our meeting that we had yesterday with a 
bunch of our Ambassadors, U.S. Ambassadors to Honduras, 
Guatemala, El Salvador, and Belize, that is changing and we are 
part of making sure that they have supermax down there and the 
bad guys are in the supermaxes and they cannot communicate. 
They do not get the cell phones. And even if they could, they 
could not use them.
    That is just one of the many things that we need to do to 
help restore the rule of law. We can help. They have got to do 
it in the end, and part of what is needed is really strong, 
courageous leadership, because the people who stand up and do 
these tough things, they really put their lives on the line. We 
know that and they know that and we need to support them.
    The key is trying to meet our moral obligation to these 
folks. They are our neighbors. Golden Rule, who is my neighbor? 
They are our neighbors. But, to do so in a cost effective way. 
That is the challenge for us. Find out what works. Do more of 
that.
    Thanks very much.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, and if members of both panels could stand and raise 
your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Kandel. I do.
    Mr. Noriega. I do.
    Mr. Franco. I do.
    Mr. Olson. I do.
    Mr. Bersin. I do.
    Mr. Palmieri. I do.
    General Tovo. I do.
    Chairman Johnson. Thank you.
    Our first witness is William Kandel. He is an Analyst in 
Immigration Policy with CRS's Domestic Social Policy Division. 
He covers family based immigration policy, unaccompanied alien 
children (UAC), inter-country adoptions, naturalization, 
immigrant integration, and the demography and fiscal impacts of 
the foreign-born population.
    Senator Carper. Are you saying he is a demagogue? 
[Laughter.]
    Chairman Johnson. I am going to have to read these 
beforehand. [Laughter.]
    Prior to CRS, he conducted demographic and social science 
research on rural America and farm workers for the USDA 
Economic Research Service. Mr. Kandel.

   TESTIMONY OF WILLIAM A. KANDEL,\1\ ANALYST IN IMMIGRATION 
    POLICY, CONGRESSIONAL RESEARCH SERVICE, U.S. LIBRARY OF 
                            CONGRESS

    Mr. Kandel. Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you for the opportunity to 
testify about last year's surge of unaccompanied alien 
children. I will be summarizing my written testimony with these 
brief remarks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kandel appears in the Appendix on 
page 648.
---------------------------------------------------------------------------
    My testimony addresses specific questions given to me by 
the Committee regarding apprehensions, pending cases, asylum, 
no shows, and returns and removals. Please note that the data 
presented in this testimony on UAC outcomes for any given year 
may correspond to children who were apprehended in a prior 
year. For example, an asylum decision in fiscal year (FY) 2014 
may affect an unaccompanied minor who was apprehended in 2012.
    CBP data indicate that 68,500 unaccompanied children were 
apprehended in fiscal year 2014, over three times the 
apprehensions in fiscal year 2009. During that 5-year period, 
the UAC composition, which was first dominated by children from 
Mexico, shifted to one dominated by children from Guatemala, 
Honduras, and El Salvador. In fiscal year 2014, CBP also 
apprehended 68,400 family units, 90 percent of whom also 
originated from Guatemala, El Salvador, or Honduras.
    In fiscal year 2014, about 57,500 unaccompanied minors, or 
84 percent of those apprehended, were transferred to the 
Department of Health and Human Services (HHS) Office of Refugee 
Resettlement (ORR). They remained in ORR custody an average of 
35 days while awaiting placement. In fiscal year 2014, ORR 
discharged 87 percent of its unaccompanied minors to family 
relatives, 9 percent to non-relatives, and the remaining 4 
percent back to DHS, largely because they aged out of UAC 
status.
    Data received after my written testimony was submitted to 
the Committee indicate that in fiscal year 2014, the U.S. 
Citizenship and Immigration Services (USCIS) received 2,800 
requests for UAC asylum. In that year, the agency adjudicated 
547 UAC asylum cases and approved 289, or just over half.
    As of March 2014, the average wait times for all 
immigration hearings nationwide was 19 months. However, 
expected wait times for UAC hearings can extend beyond 19 
months.
    Data from the Executive Office of Immigration Review (EOIR) 
covering 7 months, from July 2014 through February 2015, 
indicate that DHS put 25,100 unaccompanied minors into removal 
proceedings. Of those, EOIR scheduled 23,800, or 95 percent, 
for an initial hearing. Of those scheduled, 6,100, or one-
fourth, were given a decision by an Immigration Judge. Of the 
6,100 decisions, 4,300 unaccompanied minors, or 70 percent, 
were ordered removed. The remaining 1,800 cases resulted in 
administrative closings and completions, case terminations, 
voluntary departures, and one case of immigration relief. For 
62 percent of the decisions rendered, the unaccompanied minors 
failed to appear in court. Those decisions all resulted in 
removal orders.
    Regarding removals, in the first 9\1/2\ months of fiscal 
year 2014, ICE removed 1,457 unaccompanied minors. CBP data 
received after my written testimony was submitted to the 
Committee indicate that 95 percent of all Mexican unaccompanied 
children who were apprehended in fiscal year 2014 were returned 
voluntarily to Mexico.
    This concludes my remarks. Thank you for the opportunity to 
testify and I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Kandel.
    Our next witness is Ambassador Roger Noriega. He has more 
than two decades of public policy experience, focusing on U.S. 
interests in the Western Hemisphere. Ambassador Noriega served 
as Assistant Secretary of State for Western Hemisphere Affairs 
from July 2003 to October 2005, and as U.S. Ambassador at the 
Organization of American States from August 2001 to July 2003. 
Ambassador Noriega.

   TESTIMONY OF THE HONORABLE ROGER F. NORIEGA,\1\ VISITING 
  FELLOW, AMERICAN ENTERPRISE INSTITUTE, AND FORMER ASSISTANT 
 SECRETARY FOR WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Noriega. Thank you very much, Mr. Chairman and Senator 
Carper. I commend the Committee for holding this series of 
hearings this week focusing attention on the government's 
fundamental responsibility for securing our borders.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ambassador Noriega appears in the 
Appendix on page 659.
---------------------------------------------------------------------------
    No event in recent years has underscored the vulnerability 
of our Southwest border as dramatically as the wave of illegal 
immigrants, many of them children, crossing in record numbers 
last year. The American people learned quickly how our 
resources on the border can be overwhelmed, diverting attention 
from the critical mission of detecting greater threats. 
Moreover, it underscored the real world consequences of our 
government sending mixed signals about border enforcement and 
of potential amnesty at the same time that it fails to engage 
effectively with our neighbors that are facing rising 
insecurity and instability.
    Mr. Chairman, I have worked on Central America for nearly 
30 years and rely on that experience in assessing the root 
causes of the 2014 border crisis and making several 
recommendations on how you might bring this problem under 
control.
    First, Mr. Chairman, it is important to recognize that the 
surge of unaccompanied alien children from Central America's 
Northern Triangle countries actually began in 2012, as you 
asserted, when CBP recorded the apprehension of 10,000 
unaccompanied children from those three countries, compared to 
an average of 3,900 in each of the three prior years.
    So, although CBP is now recording that the number of UACs 
encountered is down 42 percent so far this year compared to 
last year, it is important to remember that that figure in 2014 
was five times higher than that recorded in 2012, and 12 times 
higher than what it was in 2011. We will not have a real handle 
on this problem until the numbers are back down to where they 
were 3 or 4 years ago.
    My second point, Mr. Chairman, is although insecurity and 
poverty have driven people to flee the country for decades, I 
believe that the new pull factors attracting people to make the 
dangerous trek are of paramount concern because they are 
entirely preventable.
    Last summer, my contacts in Central America reported brazen 
radio advertising campaigns by alien smugglers drumming up 
business by claiming that a new ``permiso'' was being issued to 
minors reaching U.S. territory, allowing them to stay virtually 
indefinitely. A Government Accountability Office (GAO) study 
released last month confirms this aggressive and misleading 
marketing by alien smugglers, commonly referred to as coyotes.
    The increased number of persons being allowed to stay 
pending hearings under the Trafficking Victims Protection 
Reauthorization Act (TVPRA) appears to be the origin of this 
campaign. And, the June 2012 decision by President Obama to 
defer removal action of childhood arrivals also fueled 
expectations of mass legalization, benefiting people, 
particularly minors, who made their way to a U.S. territory.
    Journalist Richard Pollak, who interviewed dozens of people 
in Guatemala last summer, reported in August, ``Coyotes may 
appear to be uninformed and unsophisticated smugglers, but they 
pay close attention to U.S. immigration laws. One smuggler 
asserted, 'Obama has helped us with the children because they 
are able to stay in the United States. That is the reason so 
many children are coming,' '' That is a smuggler talking, a man 
who knows his business all too well.
    To get ahead of this problem, Mr. Chairman, the President, 
Congress, and enforcement agencies must work together to ensure 
the clarity and strict enforcement of U.S. immigration laws.
    My third and final point is with respect to the 
responsibility of regional governments to make their countries 
safe for their own people. They have proposed a very ambitious 
development program called the Alliance for Prosperity, and 
President Obama has proposed that we contribute $1 billion to 
this effort in fiscal year 2016. I believe the United States 
should accept some of the responsibility for remedying the 
insecurity and violence that is fueled by U.S. demand for 
illicit drugs. However, this transformative plan will not work 
unless the Central American governments commit their own 
resources to this project, and, more importantly, demonstrate 
the political will to change the culture of corruption that has 
undermined economic growth and social justice in Central 
America for decades.
    Mr. Chairman, there are too many governments in the region 
where political power is seen as a means to benefit your 
family, your friends, your party, and yourself. Moreover, we 
cannot pretend that we care about drug corruption and gang 
violence when we say and do nothing about the fact that the 
President of El Salvador, for example, has a key advisor who is 
well known for laundering billions of dollars for the Colombian 
cocaine smugglers and that his political party, the Frente 
Farabundo Marti para la Liberacion Nacional (FMLN), has made 
common cause with street gangs to win elections.
    We should help, but that starts by using tough diplomacy 
and robust law enforcement to help the good people of Central 
America rescue their countries from a culture of corruption and 
crime.
    Also, Mr. Chairman, it is not clear from the President's 
budget proposal that the Administration has identified a clear 
set of priorities that are worthy of U.S. assistance in this 
far-flung proposal, and I am relying on my experience and being 
one of the principal staffers that helped develop Plan Colombia 
and then implement it later in the Executive Branch.
    Congress should ask the President to empower an official, 
an individual official in the Executive Branch, to identify 
priorities, to work with the Congress to craft a legislation, 
to coordinate the implementation of projects, respond to robust 
congressional oversight, and engage each of the Central 
American governments to ensure that it is pulling its weight 
and executing programs effectively.
    Mr. Chairman, Central America's problems will always find 
their way to our doorstep, literally, as long as a desperate 
people have to abandon their homes and wander in the desert to 
find a future. Thank you.
    Chairman Johnson. Thank you, Mr. Ambassador.
    Our next witness is the Honorable Adolfo Franco. He is the 
Executive Vice President of the Direct Selling Association. 
Prior to this, Mr. Franco was Assistant Administrator for Latin 
America and the Caribbean for the U.S. Agency for International 
Development (USAID). Mr. Franco also has served in various 
capacities at the Inter-American Foundation, including General 
Counsel, Senior Vice President, and President. In 2003, Mr. 
Franco was appointed as a member of the Board of Directors of 
the Inter-American Foundation. Mr. Franco.

    TESTIMONY OF THE HONORABLE ADOLFO A. FRANCO,\1\ FORMER 
ASSISTANT ADMINISTRATOR FOR LATIN AMERICA AND THE CARIBBEAN AT 
         THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Franco. Thank you very much, Mr. Chairman, and I want 
to thank you and Senator Carper for this opportunity to appear 
before this distinguished Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Franco appears in the Appendix on 
page 673.
---------------------------------------------------------------------------
    I do want to commend you, though, Mr. Chairman, for 
arranging a hearing on a complex and controversial subject that 
deserves closer examination and calmer deliberation as we just 
saw a few minutes ago. We cannot hope to reform our immigration 
laws and stem the tide of illegal immigration unless we do 
understand the causes, at the outset, what is causing this 
additional pressure on our borders.
    At the outset, as an Hispanic American, let me dispel any 
notion that Americans of Hispanic heritage or descent have 
views different from those of the vast majority of non-Hispanic 
Americans when it comes to illegal immigration. Most Latinos, 
as other Americans, whether Republican or Democrat, favor 
orderly, legal immigration to the United States at levels 
established by Congress, but are vehemently opposed to an 
executive amnesty for those who have migrated here illegally. 
As other Americans, Latinos respect the rule of law and 
understand that a country that loses control of its border 
loses its sovereignty.
    My purpose in testifying is not to flood you today with 
statistics of what our country has done to promote development 
and provide humanitarian assistance to Latin America and the 
Caribbean. I would be happy to provide those details. But, 
Members of this Committee and your staff are fully aware of the 
billions of dollars the United States generously provides in 
the Western Hemisphere annually through a variety of channels.
    In addition to USAID, where I served for many years, the 
other departments and agencies have programs that support 
democracy, health, justice, environmental reforms, and economic 
development programs throughout the region. There are also 
considerable resources dedicated for humanitarian and disaster 
assistance as well as indirect support that our government 
provides to the region through development banks and multi-
national organizations. Suffice it to say, Mr. Chairman, for 
many decades, the American taxpayer has been extraordinarily 
generous in helping our neighbors overcome the challenges they 
have faced.
    Unfortunately, after many years--and I was in this business 
for almost 30 years and, as my colleague, Secretary Noriega--I 
have learned the simple fact that America cannot solve our 
neighbors' problems. Nor can we spend our way to development 
any more than we can spend our way to prosperity at home.
    The fact is that the government cannot create wealth and 
the government cannot develop under-developed societies. 
Economic growth can only come from a vibrant private sector. 
The role of government is to create the environment and the 
security necessary to allow the private sector to create 
wealth. Without a commitment that can be made only by Latin 
Americans themselves, continuing to pour billions of U.S. 
taxpayer dollars into these countries will not change this fact 
but it will only make it worse by enabling governments to 
postpone unpopular reforms and create the kind of problems my 
colleague, Secretary Noriega, referred to--enable oligarchies 
and others in power to continue to resist those reforms.
    In that vein, Mr. Chairman, I can assure you that Vice 
President Biden's well-intended proposal to provide an 
additional $1 billion in development assistance to Central 
American countries without this prior commitment and 
demonstrable record for meaningful reforms will do nothing but 
reinforce bad habits and a dependence on foreign aid. We have 
yet to see the specifics or the proposal by the Central 
Americans themselves to provide additional complementary 
assistance to make any so-called plan work.
    Our resources, instead, would be more effectively spent on 
securing our borders and modernizing our immigration procedures 
in order to send a clear signal that we will enforce our 
immigration laws. Such an unambiguous message to smugglers and 
would-be illegal immigrants is a prerequisite to success and 
more important than anything else we can do in the short term.
    Today's hearing is focused on the pull factors that have 
led Latin Americans, particularly, of course, Central 
Americans, to immigrate illegally to the United States. At its 
core, the principal reason, and I agree with Senator Carper, 
continues to be economic opportunity, and our country provides 
it.
    It is clear to anyone that has any knowledge of our decades 
to promote prosperity in the region that foreign assistance, 
however, has done little to change that in terms of the plight 
of the poor. This situation is made even worse by endemic 
corruption, as referenced by my colleague, Secretary Noriega, 
by drug trafficking, violent gangs, and a general lawlessness 
that results from ineffective law enforcement that is often 
linked to the criminal activity itself, meaning that law 
enforcement is tied to the criminal activity.
    Unfortunately, an insecure border only compounds these 
problems because it gives an opportunity for human smugglers 
and these gangs which are linked to them in Central America and 
Mexico to prosper from this illicit business. These smuggling 
operations are a multi-billion-dollar business. According to a 
recent GAO report, 56 percent of our border, despite the 
efforts we have made, is not under operational control, and, 
thus, it is territory that is open for continued growth for 
illegal smuggling operations.
    Now, rightly or wrongly, the Obama Administration's recent 
executive actions on immigration have been widely perceived 
throughout Central America as an executive amnesty. It has been 
advertised as such. This will inevitably result in more illegal 
immigration and strengthen the human smuggling operations 
carried out by gangs and smuggling rings.
    The reality, Mr. Chairman, is that since 2011, the number 
of illegal immigrants apprehended at the U.S. border has 
increased by 43 percent, from 340,000 to 487,000. These 
estimates are important. What these numbers reflect is of those 
attempting to enter our country illegally, half of them 
ultimately are successful. The recent increase is largely 
attributed to children and families, many of whom believe, as 
Secretary Noriega mentioned, that U.S. immigration laws have 
changed.
    And, as a consequence of the President's statements and 
executive actions, in simple terms, there is a broad 
legalization in the United States of illegal aliens, and the 
simple fact is that the message being heard is if you can just 
get your children or yourself across the border by any means 
and stay here long enough, you will enjoy the full benefits of 
citizenship in the United States. That is the simple pull 
factor that is existing in Central America at this moment.
    Mr. Chairman, in conclusion, I would urge you and this 
Committee to consider--and these are not easy things--the 
following actions that Congress could take or send a message to 
stem the tide of illegal smuggling and immigration.
    First, restrict appropriations for the Department of 
Homeland Security so that no funds can be used to implement 
executive actions or policy directives that prevent enforcement 
officers from carrying out their responsibilities under current 
law and thereby enable large numbers of illegal aliens to avoid 
deportation and even to receive work permits not authorized by 
current law.
    Second, prevent illegal employment with a universal e-
Verify mandate and other measures to boost employer compliance. 
They have a responsibility, too. And, this will also address 
identity theft, which is rampant in our country.
    And, last, authorize the U.S. Border Patrol to keep illegal 
border crossers in custody in the immediate border region and 
ensure expedited removal. This will send a very clear message 
in Central America.
    By taking these actions, Congress would not only simply 
reinforce the rule of law, but also send a message that the law 
cannot be set aside by President Obama or, for that matter, any 
President at his own convenience whenever he decides there are 
obstacles to his own preferences. By Congress affirming a 
commitment to the enforcement of the immigration laws of the 
United States that are currently on the books, smugglers tied 
to drug cartels would diminish and our neighbors will 
understand the rule of law is not only paramount, but there, 
indeed, is no executive amnesty in the United States for those 
who successfully breach our borders.
    Mr. Chairman, I would be happy to answer any questions that 
you or Members of this distinguished Committee may have for me.
    Chairman Johnson. Thank you, Mr. Franco.
    Our next witness is Eric Olson. He is the Associate 
Director of the Latin American Program at the Woodrow Wilson 
International Center for Scholars in Washington, DC. Prior to 
joining the Wilson Center, he was a Senior Specialist in the 
Department for Promotion of Good Governance at the Organization 
of American States, served as Advocacy Director for the 
Americas at Amnesty International USA, and was a Senior 
Associate for Mexico in Economic Policy at the Washington 
Office on Latin America. Mr. Olson.

   TESTIMONY OF ERIC L. OLSON,\1\ ASSOCIATE DIRECTOR, LATIN 
   AMERICAN PROGRAM, WOODROW WILSON INTERNATIONAL CENTER FOR 
                            SCHOLARS

    Mr. Olson. Thank you very much, Mr. Chairman and Ranking 
Member Carper and Members of the Committee. I appreciate your 
organizing this hearing and your focus, your interest on the 
underlying issues, the causes of this crisis. I am delighted to 
be here today on behalf of the Woodrow Wilson Center, a 
nonpartisan think tank chartered by Congress as the official 
memorial to President Woodrow Wilson. Thank you very much.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Olson appears in the Appendix on 
page 677.
---------------------------------------------------------------------------
    I have submitted written testimony, so I am going to, in 
the few minutes I have, focus on three things. First, the 
current situation. I am just back from several days at the 
Mexico-Guatemalan border visiting migrant shelters and 
detention facilities and hearing from migrants and Mexican, 
Guatemalan, and U.S. officials. As you will recall, when I 
appeared before this Committee last summer, we were in the 
midst of the humanitarian crisis and the United States-Mexico 
border, where 50,000 Central American unaccompanied children 
were arriving, and a similar number of families.
    During my visit to the Guatemala-Mexico border, I observed 
that migrants are still very much coming to the United States, 
not at the levels they were in 2004--that was a historically 
high level--but above the 2013 levels, and the reason is, in my 
estimation, in large part, because the underlying drivers of 
the migration, the fundamental issues here that people are 
facing, are still in existence, have not changed significantly.
    Violence and homicides are still at record levels. They 
have gone down some in Honduras and Guatemala, but are up in El 
Salvador. Economic despair continues. Family reunification is 
still a powerful incentive. High rates of corruption and 
penetration of the State institutions by criminal groups have 
meant police, justice ministries, and prisons are incapable of 
providing the law enforcement and justice people need to 
survive.
    Many families and young people are faced with dire choices, 
a Sophie's choice, if you will, in which they must either reach 
an accommodation with criminal groups, watch their children 
join up, watch their children die, or flee. It is not 
surprising that many decide to flee.
    What has changed in the last several months? Efforts by the 
United States and Central American governments to send the 
message that the trip is treacherous, that it is dangerous, 
that they run the risk of being trafficked, and that they will 
not be received with open arms in the United States have had an 
impact and dissuaded many from coming. Furthermore, the Mexican 
government has stepped up its efforts, as I observed, to detain 
and deport Central Americans. Detentions are up 25 percent, and 
although their deportations are not up that much, they are 
still significantly up.
    And, Mexico has done much to dissuade migrants from using 
the freight trains, the so-called ``bestia,'' or beast, by more 
aggressively patrolling the train lines. The result is that 
trafficking routes and migrant routes have shifted to more 
vulnerable areas where there are not protections from shelters. 
So, we do not know if the violence has actually increased 
against them on the route or not.
    The second point I would like to focus on is that this 
context requires a comprehensive strategy designed to address 
the underlying challenges and push factors in Central America. 
I recognize, as my colleagues have said, that there are pull 
factors, but those pull factors would exist for Mexicans, as 
well, and we have not seen the rise in Mexican child migrants 
the way we have from Central America.
    So, I return to the need to focus on the driving factors, 
the push factors. Fortunately, we have before us a real 
opportunity with two complementary plans that deserve support, 
the Alliance for Prosperity from the Central American 
countries, and President Obama's plan. What is different is now 
we have a plan from the Central American governments that did 
not exist before, and I agree, without a plan and a commitment 
from them, we should not proceed.
    But, these plans are promising because they focus on both 
the economic and the security challenges facing the region in 
ways that previous plans--the Central America Regional Security 
Initiative (CARSI)--did not. It focused exclusively on 
security. They also focus on building capable law enforcement 
institutions, especially civilian police, public prosecutors, 
and prison reform is essential, and they seek to promote the 
rule of law as the fundamental building block for better 
security and government capacity.
    Furthermore, the risks of doing nothing in Central America 
are too great. The possibility that thousands of people will 
continue to die and more children will be forced to flee, the 
ability of criminal networks to further erode government 
capacity in Central America to provide basic security and 
services, are very great. And, the stakes are too high for 
Central America, Mexico, and the United States to do nothing.
    Conversely, and this is my third and final point, we know 
that simply throwing money after the problem is not an option. 
Unless the problems of corruption and lack of rule of law are 
addressed head on, then there is little hope that there will be 
any change and that these plans will succeed. Investors and the 
private sector will not invest at needed levels if the rule of 
law is not strong and there are no assurances of a level 
playing field. Children and families will continue to face 
violence and economic uncertainty.
    I believe the Central American governments are aware that 
there will be no blank check from Congress and this 
Administration and are willing to accept specific conditions to 
ensure progress, but those conditions are essential, and we 
need to be clear and we need to articulate them very 
specifically. I have listed several in my testimony. If you 
permit me, I will just highlight a couple of them before I 
conclude.
    In Guatemala, I think Guatemala has to renew the mandate of 
the International Commission Against Impunity in Guatemala 
(CICIG). That mandate runs out in September. There will be a 
new Guatemalan government, and to ensure continuity in building 
the rule of law, Guatemala needs to commit itself to renewing 
the CICIG mandate.
    Honduras must support reform of the national police and the 
public prosecutor's office, especially with regard to 
investigative capacity and community relations. They are not 
investigating cases, they are not holding people accountable 
for crime, and people have lost confidence in their police and 
their prosecutors. Also, greater transparency in the 
President's Special Security Fund, which only he manages. All 
countries need to overhaul their prison system, but especially 
El Salvador, which is the most crowded and where there is more 
criminal activity coming out of the prisons.
    Support for civil society dialogue between government, the 
private sector, and non-governmental organizations is 
essential. Corruption can be fought when civil society is 
active in holding government accountable.
    And, finally--I see you are going to call on me here--let 
me just say----
    Chairman Johnson. I was just shifting in my chair here.
    Mr. Olson [continuing]. We should look at creating 
mechanisms like the Millennium Challenge Account or the 
President's Partnership for Growth that establish specific 
markers that are constantly and continuously being evaluated 
for progress. I think we must have those conditions before we 
go ahead and support these plans.
    Thank you very much.
    Chairman Johnson. Thank you, Mr. Olson, for your testimony, 
and your perceptive ability, sir. [Laughter.]
    Let me start with you.
    Mr. Olson. Yes.
    Chairman Johnson. I mean, if you take a look at that 
chart\1\----
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 734.
---------------------------------------------------------------------------
    Mr. Olson. Yes.
    Chairman Johnson [continuing]. There is no doubt about the 
fact that, obviously, Central America is not as developed as 
America, conditions here. There are far greater opportunities. 
There is a huge wage disparity. There has been for quite some 
time. We do see one action to change, is the Deferred Action on 
Childhood Arrivals. The conditions were similar in 2009, 2010, 
2011. Other than Deferred Action on Childhood Arrivals 
occurring in 2012, did something else change? I mean, was there 
some dramatic shift in wage disparity or increased violence? I 
have actually seen homicide rates decline over that time period 
in some of those countries.
    So, did something else happen that I am not aware of that 
would lead us to look at a different root cause in terms of the 
surge? I am just talking about the surge. The conditions, the 
pull factors, the push factors that existed for quite some time 
certainly contributed to the 3,000 to 4,000, to 4,000 in 2009, 
2010, 2011. Other than Deferred Action on Childhood Arrivals, 
was there some other proximate cause to this surge from Central 
America?
    Mr. Olson. Yes. Thank you. That is a very important, 
relevant question, and it is a complicated response. A couple 
things. One, in 2012, Honduras had the world's highest homicide 
rate, over 90 per 100,000.
    Chairman Johnson. What was it in 2009?
    Mr. Olson. Much lower. So, I think homicide rate and 
violence rates increasing during that period was a factor. I am 
not saying it is the only factor.
    We saw the economies of Central America declining over that 
period, as well. I think, if I am remembering right--and I do 
not have the data in front of me--El Salvador's growth rate in 
2012 and 2013 was around one percent. So, the economies did 
decline.
    But, I want to make one other point--or two other points on 
this. I do agree that there is some element that explains that 
is related to the point about DACA. But, there are two other 
points that have to be clear. We did not see an equal increase 
in Mexican children coming to the United States or Nicaraguan 
children, for that matter, all of which you could say generally 
are in the same region, where coyotes, where traffickers are 
very outspoken.
    The second thing----
    Chairman Johnson. Mexican children, you returned the rate 
of, what, 97 percent, according to----
    Mr. Olson. I am sorry?
    Chairman Johnson. Mexican children get returned at the rate 
of 95 percent. I do want some other people to answer some 
questions.
    Mr. Olson. But, can I just add one other thing----
    Chairman Johnson. Very quickly.
    Mr. Olson. That chart only goes to 2009. If you go back to 
2005, there would be another enormous spike, not at the 2014 
level, but at another spike. In other words, this has been an 
up and down cycle and it is not fair to just----
    Chairman Johnson. Oh, OK.
    Mr. Olson [continuing]. Pick a set of years----
    Chairman Johnson. I will look at that.
    Mr. Olson [continuing]. And not the whole thing.
    Chairman Johnson. I will look at that.
    Mr. Franco, do you have any comments on that?
    Mr. Franco. Oh, I do, Mr. Chairman. I have a lot of 
respect. I have known Eric for 30 years. I have a lot of 
respect for you, but anybody who does not look at that chart 
and draw the conclusion anybody would draw, which is the 
President's actions have been the chief pull factor that 
changed--look, we have been around this region, all of us, for 
30 years. There was violent civil war in that region in the 
1980s. When I was at USAID, San Salvador was the murder capital 
of the world. We did not have this surge. We did not have the 
surge in the 1980s of children showing up. This has to do, and 
is tied, and anybody who is really serious about it understands 
it to be the case.
    The reason, Eric, there is a difference--Mr. Chairman, 
there is a difference--this is not ``Crossfire.'' The reason 
there is no--disparity between Mexicans and Central Americans 
is because the law is different, and that is precisely what we 
wanted to do--or, I should not say ``we.'' I have advocated for 
a period of time is, let us apply the rules and laws we apply 
to Mexican children to Central American children and you would 
have the surge end. It is a simple fact.
    Now, that does not mean that there are not problems in the 
region. That does not mean there is not gang violence. That 
does not mean that we do not have a role, and we do. And, with 
all due respect to my colleague, no one is advocating doing 
nothing. As I testified, we have as a country, and you as a 
Congress, poured and continue to pour billions of dollars. The 
question is, is this the way to solve the problem?
    The one thing my colleague did not mention was the border, 
and that is under your control, to enforce the laws of the 
United States, and that will send a very clear message to 
smugglers and would-be illegal immigrants. That is just a 
simple fact.
    And, if the President's, frankly, I think, illegal 
executive actions are rescinded, that will also send a very 
clear message in Central America that the laws of the United 
States are going to be upheld.
    Chairman Johnson. Let me go to Ambassador Noriega. To what 
extent has Central America improved their governments, reduced 
levels of corruption, that we could have some assurance that if 
we spend more money down there, it is going to be put to good 
use? Is there any evidence of that?
    Mr. Noriega. Well, these sorts of things--there are cycles. 
People come in, for example, the new President of Honduras came 
into office a year ago with a crusade against corruption. I was 
there the day of his inauguration. The following day, they were 
walking a guy from the Ministry of Education--he was on the 
cover of all the newspapers--in handcuffs for corruption. So, 
they start this. He started this. In his inaugural address, he 
said to the criminals, the party is over. Now, the rest of the 
story is the levels of corruption continue pretty appreciably.
    I would note that all of the things that Eric, my dear 
friend, mentioned in terms of any recommendations he would 
specifically make, none of them cost any money. And, I note, 
for example, and Vice President Biden has done terrific work on 
this, he brought the leaders together in early March and they 
made a commitment to very specific benchmarks, and this is 
really important. The Hondurans agreed to police service reform 
by June 2015. They also agreed to deploy an additional 6,000 
police over the next 3 years. El Salvador said they would have 
a bill criminalizing bulk cash smuggling by June 2015. 
Guatemala said that they would introduce legislation to 
transition from an inquisitorial to an accusatorial judicial 
system by December 2015.
    These things do not cost money. And, frankly, I commend the 
Vice President for leading this effort in dragging these 
commitments out of these people and getting it on paper and 
getting the commitment and we will be able to measure against 
those things. But, again, a lot of the things that have to be 
done to jump-start economic growth in the country that will 
then create economic opportunity, revenue to the State, and 
allow it--have a more effective state to apply the rule of law 
against all parties without fear of favor, to start that rule 
of law, a commitment to rooting out corruption, does not cost 
any money. And, they can take advantage, then, of the Free 
Trade Agreement that we extended to them 9 years ago.
    Chairman Johnson. So I do not lose this line of 
questioning, you said you were pretty instrumental in being 
involved in Plan Colombia. Can you talk about, briefly, what 
were the key aspects? Why did that work? Has it worked as well 
as what is advertised? I would imagine there are still 
problems. But, I mean, what would be different in what happened 
with Colombia versus what may or may not happen in the other 
Central American countries?
    Mr. Noriega. Well, a measure of how well it has worked is 
that everybody takes credit for it. [Laughter.]
    Everybody calls it bipartisan. But, in point of fact, a 
couple of key ingredients. Congressional engagement--this was 
legislation that was driven, frankly, by House Republicans 
who--like Ben Gilman from New York--I used to work for him, 
full disclosure, Dennis Hastert, who went on to become Speaker. 
These people knew these issues very well. They traveled----
    Chairman Johnson. But, again, what was different in 
Colombia?
    Mr. Noriega. OK. So----
    Chairman Johnson. Or, what is common in Colombia that we 
could count on doing something----
    Mr. Noriega. Let me jump forward. Political will. Few 
people come along in these countries that have the backbone, 
the vision, the tireless commitment of Alvaro Uribe in 
Colombia, who worked 7 days a week, 24/7, really. I saw. I 
would visit and his ministers looked like they were all going 
to pass out from exhaustion because he ran them ragged.
    He insisted that the State be accountable to the people.
    And, frankly, I do not see that level of political 
leadership from these folks in Central America, and that is 
what it requires. And, again, that does not cost any money----
    Chairman Johnson. That was one leader.
    Mr. Noriega. That was one leader and----
    Chairman Johnson. People following him.
    Mr. Noriega. It was essential, and the key point is it is 
not really there now. We can insist on greater accountability. 
We can insist on some of the issues that I mentioned about El 
Salvador being cleaned up by the President. We can use our own 
law enforcement to bring sanctions against individuals and to 
send a very clear signal that the United States is changing the 
way we engage in the region, and that does not really cost a 
lot of money.
    Chairman Johnson. OK. Thank you.
    Senator Carper, you ready.
    Senator Carper. Again, our thanks to each of you for 
joining us today, for your testimony and your willingness to 
stick around and answer some of our questions.
    I want to follow up on Plan Colombia. I always like to say, 
find out what works, do more of that. The key for any 
organization, country, State, sports team, school, hospital, 
military unit, the key to success has always been leadership. 
You have got great leadership, amazing things can happen. If 
you have lousy leadership, good luck.
    He said I was Vince Lombardi. He is from Wisconsin. They 
have a football team here and Vince used to coach that.
    Ambassador Noriega, you have spoken about Plan Colombia, 
why it was successful. I want to ask the other members, because 
I like to find out what works, do more of that. So, let me just 
ask others. Mr. Olson, anything you know about Plan Colombia 
that you think we might want to take away as a lesson for this 
time through? Mr. Olson.
    Mr. Olson. Certainly. I think we were very clear and there 
was an actual plan and metrics along the way that we followed. 
And, sure, there was a strong leader in Colombia, but, 
political will is not a static thing. You can build it. You can 
strengthen it. You can hold people's feet to the fire. And, I 
think that that was an important factor in Colombia, as well. 
We conditioned that aid. We did not give blank checks.
    We conditioned it on specific procedures and steps that 
were taken by the Colombian people, the Colombian government, 
and I think we need to take some lessons from that, as well, in 
Central America. We need to be clear about what the metrics 
are, what we expect from people, and hold them to it. I think 
that is key. And, I think, if all the presidents in Central 
America do not want to go along that pathway, then we do 
reserve the right to pull back, because there is no guarantee.
    But, again, I think that simply to say, the solutions to 
all this is on the border, I, frankly, do not think that that 
is really looking at the underlying causes and the drivers 
here. And, I would say, that has really got to be the focus and 
we have to put our energy in that.
    Senator Carper. Good. I would say it is some of both. I 
think it is some of both, and I am sure you agree with that.
    Down in Honduras last fall, I met with their President, 
President Hernandez, and he talked with our Ambassador Nealon 
and me about the willingness of our country to extradite folks, 
bad guys, drug kingpins. And, they were not just interested in 
seeing these guys extradited and sent to this country for a 
couple of months or a couple of years. They wanted us to put 
them away for a long time. And, by doing that, frankly, you 
provide some breathing room for--insurance of personal safety 
for the leaders of these countries, their families, and their 
top aides.
    And, since that time, I think there have been eight drug 
kingpins that have been extradited, and I think we have a 
couple guys, bad guys, who turned themselves in because they 
felt the heat. I think there is another one that we are working 
on. So, that is the kind of thing that we can do to kind of 
bolster the leadership and give them the sense that they are 
not all in this by themselves.
    Mr. Franco, just a little bit, please, if you would, on 
Plan Colombia. Why do you think it worked? Are there any 
lessons that we could take away? Use your microphone, please.
    Mr. Franco. Happily. As my colleague, I worked on that when 
I was serving as Counsel on the House International Relations 
Committee and then as Assistant Administrator at AID. I 
actually had the good fortune to meet with President Uribe the 
day before he was inaugurated and was there for his 
inauguration.
    To draw the contrast for a moment, when we met with the 
administrator at the time, Andrew Natsios, the three of us in a 
hotel room, he said something and I want to underscore what 
Secretary Noriega said, and this is this notion that we are 
putting something together. We were actually helping the 
Colombians put forward what they had envisioned.
    Plan Colombia in many ways is Colombia's plan that we 
assisted. This is the difference here, and it is an important 
one, Senator Carper. This is not us designing something in 
Washington, and I know there is some consultation, but that we 
are going to hang a billion-dollar here program, and, of 
course, they will take it. The Colombians wanted this. The 
Colombians were committed to doing it and they wanted our 
assistance along the way.
    I do think having an enlightened, committed leader with 
integrity is important, and that is Alvaro Uribe, was an 
enormous vision. By way of the differences that he made, the 
day he was sworn in and we were at the palace, the Palacio 
Narino, there were--when we were in the palace, there were 
rockets fired at it. That was the insecurity that existed in 
Bogota at the time.
    Senator Carper. Those were not rockets in celebration of 
his inauguration, were they?
    Mr. Franco. No. We thought they were initially, but they 
were not. They were different types of rockets that were 
coming.
    So, what worked is that commitment to it, and there was a 
lot of congressional oversight. Sometimes, the Colombians 
thought it was overkill, frankly, by, particularly, members of 
the Senate at the time. But, at the end, I think they 
recognized that it created legitimacy. So, it was an engagement 
on our part on a plan they were committed to. It was their 
plan.
    Senator Carper. Good. OK.
    Mr. Franco. What I have yet to see is where it is a Central 
American plan coming from them themselves.
    Senator Carper. Yes. A couple of critical elements, one, 
leadership, two, a plan, and a plan where there is buy-in, not 
just our buy-in, but, frankly, the buy-in from the three 
countries. One of the things that I find encouraging is that 
all three countries have agreed and signed onto this Alliance 
for Prosperity. I do not know that we--I do not believe we 
wrote it, and I do not think any one of those three countries 
wrote it. But, I think they worked on it together. They 
collaborated. And, basically, we--I sure hope we played a role. 
I hope the Inter-American Development Bank (IDB) played a role. 
I hope Mexico, I hope Colombia played a role, because we all 
need to be involved.
    So, let me come on to Mr. Noriega, and then Mr. Kandel, 
same question, and the issue is Plan Colombia. What can we 
learn from it? Maybe what can we not learn from it? Just 
briefly.
    Mr. Noriega. I will just add just one additional thing----
    Senator Carper. Yes.
    Mr. Noriega [continuing]. Because you have all identified 
this quite explicitly. The Colombians had a security tax and 
they literally raised taxes----
    Senator Carper. That is a good point.
    Mr. Noriega [continuing]. And they had a revenue stream 
committed to national defense.
    Senator Carper. Yes. My recollection is what happened in 
Colombia is the folks who--what is the word for the folks that 
have more money? What do they call them? No, no, no. What is 
the word for the folks that needed to step and do their share, 
the wealthier people? Elites? Elites. Yes, the elites. Thank 
you. [Laughter.]
    The elites, and I think that is what happened in Colombia, 
basically. The Colombian elites basically said, if you want us 
to fight crime and provide a better environment here, you have 
to be a part of the revenue package, and they--I do not know if 
they agreed to it, but they became--and, part of what, when you 
really look at Honduras, Guatemala, and El Salvador, the elites 
do not do all that much in terms of revenue. They do not do a 
very good job of collecting revenues in that country.
    As our Chairman knows, we have something that GAO comes up 
with about every 2 years called High-Risk List, and tax gap is 
always on that, because we are not collecting all the taxes 
that are owed. But, they have it big time. They have it on 
steroids, tax gap on steroids. So, that is a big one.
    And, we can look at Colombia. You are right. How did the 
elites help out, and they did.
    Mr. Noriega. If I could just add----
    Senator Carper. Please.
    Mr. Noriega [continuing]. I met with the foreign ministers 
from Central America last week when they were here, and I----
    Senator Carper. So did we. How did it go?
    Mr. Noriega. Well, the food was pretty good---- [Laughter.]
    No. But, I said quite explicitly to them, you need to have 
an answer to the question, how much are you putting forward. 
And, they talked--and, quite frankly, I do not think they have 
given it a lot of thought, and so--and, they think of this 
billion dollars as $333 million for these folks, 333--they are 
thinking of it as a slush fund, and they will do some cool 
things with it along the lines of this plan----
    Senator Carper. Yes. As I understand----
    Mr. Noriega [continuing]. But where is their revenue? They 
have to put up their revenue.
    Senator Carper. Mr. Noriega, as I understand it, there is 
around $500 million that actually is divided among the three 
countries. About 20 percent would go to, I think, to El 
Salvador, I think 25 percent to Honduras, and maybe 30 percent 
to Guatemala. The whole billion does not go to those three 
countries, and I hope there are some strings attached to it.
    Mr. Kandel, I am over my time, just, please, quickly, what 
can we learn from Plan Colombia or not learn?
    Mr. Kandel. I am afraid that is outside my area of 
expertise, but I am happy to----
    Senator Carper. Do you want to make something up? 
[Laughter.]
    Mr. Kandel. I would be happy to consult with my colleagues 
to see if they have----
    Senator Carper. OK. That is fair enough. We will let you do 
that.
    OK. Thanks. I am out of time----
    Chairman Johnson. I will give him something----
    Senator Carper [continuing]. But not out of questions.
    Chairman Johnson [continuing]. That is in his area of 
expertise. I am viewing you as the numbers man here. We have 
not really talked about some of the factors in our immigration 
law that might be related to the pull factor, incentivize some 
of this. There was an amendment to the William Wilberforce 
Trafficking Victims Protection Reauthorization Act that did 
grant a greater adjudication process, a lengthier process, for 
immigrant children other than Mexico and Canada. You were 
talking about we returned 95 percent of Mexican children. 
Again, that is kind of a real deterrent from sending somebody 
here if you get sent back right away.
    Can you speak to the statistics, because you had them in 
your testimony, in terms of the difference between return rates 
for Mexican children, not a whole lot of Canadians coming in 
here, but that versus Central America, and what that amendment 
may or may not have done in terms of the pull factor?
    Mr. Kandel. Well, I do not have statistics on the return 
rates for Central American children. They are very difficult to 
calculate. But, we do know that----
    Chairman Johnson. You do statistics on how many we have 
returned from the last surge, which was primarily--a large 
chunk of that really was from Central America, so----
    Mr. Kandel. That is right, but the returns do not 
correspond to the apprehensions, so it is very difficult to 
sort of come up with a rate for----
    Chairman Johnson. OK. Do not worry about it. So, just give 
us the numbers, then.
    Mr. Kandel. What numbers are you requesting?
    Chairman Johnson. Well, again, just tell us again how many 
people have been given Notice to Appear, how many people have 
appeared, how many people were returned of that latest surge. 
It is not a high percentage. I mean, it is--we had tens of 
thousands come and we have returned 1,400, I think, in your 
testimony.
    Mr. Kandel. That is right.
    Chairman Johnson. Does anybody want to speak to the 
incentive factor of that lengthened adjudication process? 
Ambassador.
    Mr. Noriega. After day one, they did not look back over 
their shoulder saying, ``Gosh, I have got to report for that 
hearing.'' They are home free. And, their expectation is that 
by the time they need to appear, there is going to be an 
amnesty or a legalization.
    During that crisis, I realized that very few people in this 
town really understood immigration law. It is just so many 
patchworks over patches. What they are looking at is the 
practical impact, and the fact was that word got back to 
Central America that once you are in the country, they hand you 
a little permiso and you are home clean and I collect my money 
and I am----
    Chairman Johnson. And, in your testimony, you talked about 
the advertising they were doing. It was very effective. Now, we 
have had a counter-advertising program for that. Is that 
effective? Has that been somewhat effective, at least?
    Mr. Franco. Frankly, I do not think so, because so long as 
we have an executive decree, or an executive action that is 
taken by the President, people will twist those around, so long 
as that is the message. Misinterpreted, misrepresented, 
granted. But, just as--the fact of the matter is that unless 
you are returned quickly at the border, you will overstay. So 
long as the President's words can be twisted--remember, the 
profile of the person that makes this trek and the social, 
economic, and educational background of the people involved, 
these are not Ph.D. people or lawyers that are doing this. So, 
so long as that remains the message, we will continue to see 
these additional pressures for illegal immigration----
    Chairman Johnson. The message also is when they see a 
friend go and not come back----
    Mr. Franco. Oh, absolutely----
    Chairman Johnson [continuing]. They figure they got----
    Mr. Franco. Absolutely. And, I take a little bit of 
exception with this idea of the bestia. I noticed there was 
coverage by Spanish television today. I watch the Spanish news 
programs every night and I see the train and I see it 
completely going. I really think that I am sure the Mexican 
authorities would like to do, and cooperate with us, but they 
are quite limited since large amounts of Mexico are under gang 
control and gang protection.
    So long as this remains big business--and we did not really 
get into it, it is a $6 billion business, smuggling involved, 
just like drug trafficking--and, so long as the executive 
action is perceived as even gravy or an additional incentive, 
our problems will continue to mount.
    Chairman Johnson. There has been a decline in the number of 
children coming here this year. Do you contribute that to 
greater enforcement on the Mexican, the Southern border, or the 
border between Mexico and Central America?
    Mr. Olson. I mean, I was just there, and I defer, or differ 
from my colleague here. It is very clear that the Mexicans have 
taken efforts to remove people off the trains. Now, that does 
not mean they are still not coming in other routes, but the 
trains are much less a problem than they were in the past, 
where people were falling off, being extorted, were even 
killed.
    Now, it is true----
    Chairman Johnson. So, let me just say here----
    Mr. Olson. But----
    Chairman Johnson [continuing]. So that is border security 
on the Mexican----
    Mr. Olson. Right.
    Chairman Johnson. So, border security worked from that 
standpoint.
    Mr. Olson. Well, as I said in my testimony, Mexico is doing 
more to detain and deport Central Americans. So, without a 
doubt, that has had an impact on the number of people coming to 
the United States. I was in their detention facility on the 
South. It was at maximum capacity the day we were there. And, 
they are deporting people regularly, every day.
    Now, as, I think it was you, just suggested, there are a 
lot of children that are being trafficked, and this is a 
serious issue. Not all of them, but some of them are being 
trafficked into sex trade, forced labor, and other things. And, 
I do want to say that they should have an opportunity to 
request protection of the Mexican authorities, of the U.S. 
authorities, rather than be simply turned around to a situation 
where they are under the control of crime.
    Chairman Johnson. I think we----
    Mr. Olson [continuing]. I think that is an issue, too.
    Chairman Johnson. I think we do agree with that. There 
actually was a program--I am trying to get something. I am an 
accountant, so I like numbers. At yesterday's hearing, we 
talked about the drug trade being about $150 billion worth in 
the Americas. Mr. Franco, you just talked about the human 
trafficking being about $6 billion. I asked that question 
yesterday. Nobody had a figure. I would like to know where you 
got that.
    Mr. Franco. Sure.
    Chairman Johnson. Two-part question. We also did create a 
program, Central American Miners Refugee Parole Program. There 
has only been, like, 107 cases. It has just been a very small 
number of people. Is it just people do not know about it? I 
mean, from my standpoint, that is part of it. We do need to 
have a refugee asylum program, but we should really institute 
that in Central America, not on our shores. Mr. Franco.
    Mr. Franco. Yes, absolutely, Central America. I will differ 
now with my colleague, as well. Obviously, when there is any 
issue, whether it is this issue of human trafficking, or 
political asylum cases, or so forth, we need to have procedures 
to address those cases. Usually, in-country is where those 
things are best handled. There is no question these things 
exist.
    What I do believe is that chart says it all, though, from 
my perspective. I do not think it is fair for Congress to draw 
the conclusion--or accurate, I should say--for Congress to draw 
the conclusion that this uptick has to do with human or sex 
trafficking from Central America. I just do not believe that to 
be the case. They are trying to bootstrap others that are 
really favoring the recent decisions that, I think, have 
attracted--the President's recent actions that have caused this 
uptick--they are trying to bootstrap, or create a humanitarian 
or sex trafficking crisis, manufactured or fabricated or 
exaggerated or amplified for the purpose of justifying what we 
all know to be the case.
    There is a sense that the law in the United States has 
changed and, therefore, it is easier to come to the United 
States and ultimately get a work permit and Social Security 
number. Now, that is not what the President said. I understand 
that. But, that is what is being advertised and that is the 
driver and that is the pull factor, not the other isolated 
cases.
    Chairman Johnson. I am over time, but Ambassador----
    Mr. Noriega. Very briefly. I know that we will all agree on 
this, which is where those human rights violations, political 
asylum, and legitimate claims exist, they have to be 
adjudicated. We do have this program that was initiated to 
allow for family members here, who are lawfully here, to 
petition for their minor children, and several hundred, and, I 
guess, by February, 95 percent of the Salvadorans had applied 
for that.
    But, the solution to this problem is not to fix--make 
things better for people several thousand at a time from 
Central America when there are millions in the region who are 
suffering under conditions that the government can fix if it 
takes these issues seriously.
    They do need some support from us. We can offer that, in 
effective programs where they are accountable and all that. 
And, we do have an obligation to do that. But, that is where 
the problem has to be done, and the governments have a long way 
to go before they have vindicated their responsibilities.
    Chairman Johnson. Thank you. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I want to dwell for a moment on what works and just throw 
out an idea that might be helpful for us. Senator Booker was 
telling me yesterday, Mr. Chairman, that he had done some 
checking and about 40 percent of the people that are here 
illegally out of the 11 or 12 million that are here came here--
they came here legally. They came here on visas, then they were 
here on a visa overstay and they just never went back.
    The folks at Johnson and Johnson came up with a clever 
idea, and the idea is called text4baby, text4baby, and the way 
it works is this. For a mom, and maybe a dad, with a young 
child, newborn, and they have appointments that they are 
supposed to make for check-ups, supposed to get immunizations, 
all kinds of scheduled things to do in order to take care of 
their baby, everybody almost in this country has a cell phone 
and what we do now, and Johnson and Johnson started this 
program, is a text4baby, like, ``One week from today, your baby 
is due for X.'' ``Three days from today, your baby is due for 
X.'' ``Tomorrow, your baby is due for X.'' And, it actually 
works. We have done it in Delaware to great effect.
    So, we came up with the idea and said, well, why do we not 
maybe do something like not text4baby, but text4visaoverstay, 
like, ``Your visa expires in 2 weeks.'' A week later, ``Your 
visa expires in one week.'' Just the idea that somebody is 
looking, somebody is noticing, somebody is watching. And, it 
works for text4baby. We think it might work for, potentially, 
visa overstays, and even if it cuts them by a third, that is 
certainly progress.
    One of the things I have loved about my time in public life 
is job creation and job preservation. I have gotten to be 
Treasurer, Congressman, Governor, Senator from my State. Before 
that, I was in the Navy for a long time. But, I have always 
loved job creation and job preservation. I never created a 
single job in those roles. But, what I did do was help create a 
nurturing environment for job creation. That is what I did.
    In Delaware, the 8 years I was Governor, I was fortunate to 
be Governor during the same years Bill Clinton was President, a 
robust economy. Even I looked like I knew what I was doing most 
days because of the economy being so strong. We had 8 years of 
balanced budgets, 7 years of reduced taxes. We cut down some of 
our debt, got AAA credit ratings for the first time in State 
history. So, it was a pretty good run and created, I am told, 
more jobs in 8 years than in any 8-year period in the history 
of our State. I did not create one of those jobs, but we 
certainly worked hard to create the nurturing environment.
    What does that include? Workforce. What does that include? 
Sound budget policies, actually, investing in the right kind of 
stuff. What does it include? It includes transportation 
investments and infrastructure investments, common sense 
regulation, access to capital, energy costs, affordable health 
care, all that stuff.
    And, I think if these three countries are going to be 
successful, they are going to have to create a nurturing 
environment for job creation and job preservation, and that is 
a role for government. They have very weak government systems, 
as you know, and we can help bolster them and show them how to 
make them better, maybe more effective.
    One of the big problems they have in these three countries, 
as you know, cost of energy. Their electricity is generated 
largely by petroleum in most of these places. They have access, 
as it turns out, to very low cost natural gas from Mexico, and 
the idea is to bring it down, pipeline, bring it down and use 
that to create electricity for maybe half the cost. That is a 
nice element to incentivize job creation.
    We have not really talked about the Inter-American 
Development Bank, and I want those of you who know something 
about that to share with us what role the Inter-American 
Development Bank might play as one of our partners in this. 
Again, I say, this is not all on us, the United States, and 
these countries are not good enough or strong enough to do it 
all themselves. But, if they get some help, including from the 
Inter-American Development Bank, they might be able to just 
pull this off.
    Can somebody who knows about the IDB just talk about it, 
please. Ambassador Noriega.
    Mr. Noriega. I am sure Adolfo knows more than I do, but I--
--
    Senator Carper. Is that true?
    Mr. Franco. I do not know more than he does----
    Mr. Noriega. About this, at least, but I pushed the button 
first, so---- [Laughter.]
    I know this very discretely about the IDB, is they wrote 
that plan. They wrote this plan for Central America. Their 
hands are all over it, and I have talked----
    Senator Carper. Well, that is actually kind of encouraging.
    Mr. Noriega. It is very encouraging because it is an under-
used, under-utilized resource, extraordinarily bright people 
there. And, so they put this plan--now, this is what makes my 
heart break, is that 9 years ago, we ratified CAFTA. This plan 
should have been adopted after CAFTA, because what this is all 
about is spreading economic opportunity to people from all 
walks of life through the rule of law, through logistical 
improvements, to breaking down barriers within the region. They 
are talking now about a customs unit within Central America.
    But, the IDB can play an important role in some intelligent 
lending. It comes along with the most important value added 
being technical assistance, and they sort of accompany the 
execution of these projects. I would hope that the IDB would 
stay front and center as they execute this plan in Central 
America.
    Senator Carper. Good. Do you see a role for--and then we 
will come to Mr. Franco--do you see a role, eventually, for the 
Inter-American Development Bank with respect to this pipeline 
coming in from Mexico, or is that something that there is just 
plenty of reason in terms of private sector----
    Mr. Noriega. Right.
    Senator Carper [continuing]. They have this extra natural 
gas, or do they not need the IDB?
    Mr. Noriega. Right. My guess is they have--the market will 
work there, and, I think, let the market work. The IDB could 
very easily, and maybe they are involved in financing the 
project. But, in point of fact, you can also talk about an 
isthmian energy market, so you are backing energy as it is 
required up and down from Colombia and into Mexico, backing it 
up and down Central America as the demand requires. It helps 
build a bigger market, lowers prices. But, again, I think that 
the IDB could conceivably play a role, technical assistance and 
maybe financing.
    Senator Carper. Good. Thanks. That is one outfit, we 
probably need to spend some time with them. I need to know more 
what their capabilities are. I have always heard they have 
really smart people, and that is good. Yes.
    Mr. Franco, please.
    Mr. Franco. Well, I worked very closely with the Inter-
American Development Bank over many years, and the current 
President used to be the Ambassador to the United States from 
Colombia and he worked very closely with us on Plan Colombia.
    Senator Carper. What is his name?
    Mr. Franco. Luis Moreno. And, so, I have a lot of respect 
for it.
    I see it a little bit differently than Secretary Noriega. 
Yes, I think there is IDB all over it, and that is partly a 
good thing and, then, partly a bad thing, from my perspective. 
I reiterate what I said about the fact that there has to be the 
buy-in and the design and their plan, meaning from Central 
Americans. I do not think we really disagree on that.
    But, when they are involved, there is a seriousness and 
benchmarks and conditions and so forth, although IDB loans can 
be forgiven, and there can be bad loans and the rest of it. So, 
those investments should not be lulled into the false sense of 
security that it is a commercial bank doing this, which would, 
of course, in terms of these activities. But, their involvement 
is good and the focus will be one on things that are actually 
quite achievable.
    But, I reiterate what I said that there is a stark 
difference between that and what we had seen in the case of 
Colombia, and that is the involvement in the development and 
the commitment by the Central Americans themselves to the 
actual plan. And, I do agree with an earlier comment that was 
an important one that Secretary Noriega made, is that he has 
already met with the foreign ministers and they are already 
seeing this, I want to say, as a slush fund or so forth, where 
the money is being divvied up, and it is, ``Where do we sign,'' 
so to speak, and that is my concern, Senator.
    Senator Carper. Thanks.
    Mr. Olson, I am out of time, but just a quick comment on 
this, please.
    Mr. Olson. Yes. I believe that the IDB is deeply involved. 
One of the projects they are involved in is what is known as 
the Pacific Corridor that is supposed to expedite commercial 
traffic from Guatemala to Panama City. Right now, private 
enterprise says that the average speed of a truck is 15 
kilometers an hour between that corridor because of all the 
problems along the way, bad infrastructure, but also 
inefficiencies at the border where people have to wait for days 
to get across.
    So, these are areas in which the IDB is trying to 
modernize, help facilitate trade, and encourage the Central 
Americans to take the steps they need to have a more modern 
economy. And, as you pointed out, without a good economy and 
growth and jobs, poverty grows and it impacts the violence and 
ingovernability of those countries.
    So, I think the role of the IDB is really important, and 
they are involved in other things, as well, but I give that as 
one example.
    Senator Carper. Thank you all.
    Chairman Johnson. Thank you, Senator Carper.
    One of the good ideas I stole from our Ranking Member here 
was giving the witnesses a chance to make that final point. We 
do have another panel, so I would ask you to keep it short. I 
will use this if you get too long.
    But, Mr. Kandel, if you could start.
    Mr. Kandel. Well, getting back to your question, the TVPRA 
does treat Mexican children differently than children from 
Central America. So, if you look at the process, the rates are 
very high for Mexico in terms of return. For Central American 
kids, they get promptly screened, promptly referred or 
transferred to ORR custody, and promptly reunited with their 
families. The average time that they spend is 35 days at ORR 
custody. So, it is once they have to wait for an immigration 
hearing, that is when the time extends, and that largely 
explains the amount of delay that it takes for them to finally 
get removed.
    Chairman Johnson. Thank you.
    Senator Carper. Just for clarification, under the, I want 
to say, 2007 law signed by President Bush, does it 
differentiate the way we treat kids from these Central American 
countries as opposed to kids from Mexico in terms of what we do 
with them and the turnaround times? It does, does it not?
    Mr. Kandel. Yes.
    Senator Carper. Thanks.
    Chairman Johnson. That was the point. Ambassador Noriega.
    Mr. Noriega. My colleague, Eric Olson, referred to the 
Millennium Challenge Corporation (MCC), and it is a very good 
model--it was initiated under President Bush and we were both 
part of it, as the administration--because it holds governments 
accountable to achieving certain requirements in order for them 
to participate. They made in September a disbursement of $287 
million to El Salvador and everybody that I know of that knows 
anything of El Salvador is scratching their heads as how in the 
world did they rationalize that decision.
    So, MCC, a very important program because of the model, 
where you have to meet certain benchmarks and requirements. I 
mean, we have lost that, and El Salvador just----
    Senator Carper. What do you mean, we have lost that? I do 
not----
    Mr. Noriega. They do not have a rigorous application of 
those requirements. That was a political decision, that we 
wanted to make nice with the new government in San Salvador, 
and so we gave them $270 million. March 1, they held an 
election for Congress. It went more than 2 weeks before they 
could even give the first results. So, you are supposed to have 
the rule of law and democracy. They cannot even hold an 
election, and the suspicion everybody has is that the 
government was figuring out how many people they wanted in 
Congress.
    So, I mentioned before the senior folks involved in money 
laundering, billions of dollars for the Fuerzas Armadas 
Revolucionarias de Colombia (FARC), the FMLN making ``get out 
the vote'' packs with the Mara Salvatrucha gang. I mean, there 
is something seriously wrong there, and I think if you want to 
start somewhere, look at what is going on in El Salvador and 
that is where we ought to see if we can have some real 
accountability.
    Chairman Johnson. In other words, your point, MCC lowered 
its standard.
    Mr. Noriega. Absolutely.
    Chairman Johnson. Mr. Franco.
    Mr. Franco. I was not really going to talk about, Mr. 
Chairman, about MCC, but since we were both involved in setting 
it up, I had to tell you, I completely concur and was 
disappointed. When we were in the Bush Administration, of 
course, the President, President Bush, was very centrally 
involved. It was really his idea to do this. And, there were a 
lot of push factors at the State Department and AID to say, 
well, you have got to help this country along, whatever--and, I 
am telling you, the criteria was so rigid. We have had one of 
the winners, it is the country in the Pacific with Hurricane 
Vanducho, that we said, what are we doing giving assistance to 
this? It met the criteria.
    Well, our instincts were to go to the hot spot, so to 
speak, but those were rigidly applied, and I think that is an 
example of something that they could all learn from, and I 
would hope that that seriousness would return to the program.
    Just quickly on the issues today, not to reiterate what I 
have said, but I think it is an important point, Senator 
Carper, particularly when you look at that, is--and there was a 
big debate here in the Congress and the public arena of why all 
these children were showing up and Mexican children were not 
showing up. The law is different.
    In a simple layman's term here, and I hope this is being 
watched in Delaware and in Wisconsin, Mexican children are 
returned and Central American children are not. There is gang 
violence in Mexico. There are a lot of problems in Mexico. You 
had normalistos slaughtered in Mexico. A lot of people have 
traditionally immigrated illegally from Mexico. But, children 
were not coming, and the law was changed in 2007. If the same 
law were applied to Central American children, I do not believe 
you would have 110,000 children show up in July or in an uptick 
immediately.
    Second, Senator Carper, I completely agree. The overstay 
issue is not--we do not focus enough on the overstay issue, 
because the border is symbolic. You can see it. You can 
actually see people. But, overstay--and it is not limited to 
Central America. The Brazilian overstay is quite high, the 
rates, and other countries are very high. The overstay issue is 
why we need to have the resources for the Immigration Service 
to modernize and to do the things you were talking about with 
the baby cell phone ideas, to modernize, to monitor, because 
what, frankly, has happened is they just do not know, and 
people just coming to the country, and we just do not know 
where they are.
    So, I think those types of resources and that type of 
enforcement. Again, it might not be the sexy thing to do or the 
type of thing when you see pictures of people coming over and 
so forth, but they are the things within the control of our 
government, and that is where the resources should be applied.
    Chairman Johnson. Thank you, Mr. Franco. Mr. Olson.
    Mr. Olson. I think the take-away here should be that this 
is a very complicated issue that is driven by both pull and 
push factors. I think it is clear that the United States broken 
immigration system is an issue that needs to be dealt with. 
But, my message to you, more than anything else, is to not lose 
sight of the importance of U.S. involvement in Central America 
to deal with these underlying issues. People are dying. For us 
to walk away from this carries with it a great deal of risk for 
both the United States, Central America, and Mexico, and I 
think we can work with the plans we have before us if we are 
careful to condition them, require people to comply, and stay 
focused. I think, for my estimation, that is the root of the 
problem and the root of the issue we need to focus on. Thank 
you.
    Chairman Johnson. Again, thank you all for your thoughtful 
testimony and your thoughtful answers to our questions, and if 
we can call up the next panel.
    Senator Carper. Thanks much.
    [Pause.]
    Chairman Johnson. Welcome, everybody. Is everybody all 
settled, all comfortable?
    Our first witness will be Secretary Alan D. Bersin. Mr. 
Bersin serves as the Assistant Secretary and Chief Diplomatic 
Officer for the U.S. Department of Homeland Security, Office of 
Policy. Mr. Bersin also serves as Vice President of INTERPOL 
for the Advance Region and is a member of the INTERPOL 
Executive Committee. From 2010 to 2011, Mr. Bersin served as 
Commissioner of U.S. Customs and Border Protection. In 2009, he 
served as Assistant Secretary and Special Representative for 
Border Affairs at DHS. He has also served as Chairman of the 
San Diego County Regional Airport Authority and as California's 
Secretary of Education. Secretary Bersin.

TESTIMONY OF THE HONORABLE ALAN D. BERSIN,\1\ ACTING ASSISTANT 
SECRETARY AND CHIEF DIPLOMATIC OFFICER, OFFICE OF POLICY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Bersin. Good afternoon, Mr. Chairman. Thank you for the 
invitation to address the issues regarding Central America, the 
factors of push and pull that bring us to this moment. 
Secretary Johnson appreciates this Committee's interest in this 
important issue and I look forward to responding to your 
questions and to answering, as well, the questions of the 
Ranking Member. Good afternoon, Senator Carper.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Bersin appears in the 
Appendix on page 683.
---------------------------------------------------------------------------
    We have reached a turning point in Central America. The 
internal leadership in the region has shown a willingness and 
commitment to partner with the United States. Does this mean 
that they are where they need to be or their countries are 
where they need to be in terms of turning around the cycles 
that have led to the push out of their countries? No. But, we 
can assure you, I think, Mr. Chairman, Ranking Member, that if 
we take no action at all, that we should expect the situation 
to continue along the same vein that it has been moving.
    The wave of unaccompanied children crossing from Central 
America, crossing the U.S.-Mexico border this summer, presented 
not only a security crisis, as you know, but a humanitarian 
one. But, it did get us to focus on Central America. It did 
lead this Nation to ask, what is to be done and what needs to 
be done in Central America and elsewhere to deal with the 
issue. I look forward to engaging in a dialogue with you with 
respect to that matter.
    The root causes for migration from Central America to the 
United States are not in dispute in terms of the push factors. 
I look forward to engaging with the Chairman and the Ranking 
Member with regard to those factors, but also with regard to 
the so-called pull factors into the United States.
    In the absence of comprehensive immigration reform, we are 
dealing with a broken immigration system that has a whole 
variety of consequences and will continue to have them as long 
as we do not attend to this national challenge.
    Central America's economic growth has lagged well behind 
that of the rest of Latin America, with economic productivity 
growing slowly or remaining flat over the last decade and 
under-employment hovering between 30 to 40 percent in the 
Northern Triangle countries. Thirty to 40 percent 
unemployment--we should not look very much beyond that, 
together with the violence that is attendant to the societies 
down there and the fact that there is a family unification 
issue that none of us in our own individual circumstances would 
deny. And, as I said, if we do not take action, Mr. Chairman 
and Ranking Member, we should not expect a different result.
    Demographic trends exacerbate every challenge we face. 
Sixty-three percent of the 43 million citizens of Central 
America are under the age of 30, with the highest growth rates 
in Honduras and Guatemala, where jobs are not being created 
fast enough to absorb the burgeoning labor pool.
    To address these issues, our best guide is to look back a 
generation to where Mexico was. In the previous panel, I 
understand the Chairman and the Ranking Member focused on 
Colombia, and I will be pleased to respond to your questions in 
that respect. But, I think the closer analogy in terms of the 
scale of the problem we face, in terms of the causes of the 
problem we face, I think Mexico is a better model for the 
actions that we might contemplate taking with regard to Central 
America.
    Over the last 5 years, the United States and Mexico have 
revolutionized their security and trade relationship, achieving 
unprecedented levels of cooperation. Mexico, over the last 
generation, has become the second largest economy in Latin 
America and the 13th largest economy in the world. The OECD in 
Paris predicts that within one generation, by 2042, Mexico will 
have a larger economy than Germany. Trade between our country 
and Mexico now amounts to $1.3 billion daily and more than $460 
billion yearly.
    Let me pause there, Mr. Chairman and Ranking Member, and I 
look forward to responding to your questions. Thank you very 
much.
    Chairman Johnson. We appreciate that.
    Our next witness is Francisco Palmieri. He is the Deputy 
Assistant Secretary for the Caribbean and Central America in 
the Bureau of Western Hemisphere Affairs. Prior to this 
assignment, he served as Deputy Executive Secretary in the 
Executive Secretariat and as the Director of the Bureau of 
Western Hemisphere Affairs Office of Policy, Planning, and 
Coordination. He has served in the Dominican Republic, El 
Salvador, Honduras, and as a Senior Desk Officer for Venezuela. 
Secretary Palmieri.

TESTIMONY OF FRANCISCO PALMIERI,\1\ DEPUTY ASSISTANT SECRETARY 
   FOR CENTRAL AMERICA AND THE CARIBBEAN, BUREAU OF WESTERN 
          HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Palmieri. Thank you, Mr. Chairman, Ranking Member 
Carper, other Members of the Committee. This is an excellent 
opportunity to testify on the U.S. strategy for engagement in 
Central America.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Palmieri appears in the 
Appendix on page 689.
---------------------------------------------------------------------------
    Last summer's increase in migration of unaccompanied 
children provided a strong reminder that the security and 
prosperity of Central America are inextricably linked with our 
own. We also saw how a combination of U.S. leadership and 
rising political will in the region can successfully tackle 
shared challenges. It remains imperative that the United States 
support the leaders of El Salvador, Guatemala, and Honduras to 
address the region's security challenges. The stakes are high, 
and our joint efforts demand more than business as usual.
    Last summer, in partnership with Mexico and the Central 
American governments, we achieved several important successes. 
The United States' public messaging campaigns about the dangers 
of the journeys for the children and families, assisted by host 
countries' efforts, effectively countered false rumors spread 
by alien smugglers about non-existent immigration benefits in 
the United States.
    The Mexican government has taken significant steps to 
dismantle human smuggling and trafficking organizations and to 
effectively shut down the use of the la bestia train route. In 
2014, Mexico apprehended 127,332 migrants, including 10,923 
unaccompanied children.
    Senator Carper. What time frame?
    Mr. Palmieri. In 2014. Over the past 2 years, the U.S. 
Government took a hard look at our own approach in Central 
America. Although security is paramount and will remain so, we 
realized we needed to broaden our vision for how we achieve it. 
We developed an inter-agency strategy that balanced three 
inter-related and interdependent objectives. These objectives 
are prosperity, governance, and security.
    Without significant progress on all of these fronts, 
Central America will continue to face extreme violence and 
widespread poverty. These conditions will compel tens of 
thousands of Central Americans to flee their homes each year. 
Conversely, a secure, democratic, and prosperous Central 
America can provide an environment in which its citizens can 
thrive at home instead of migrating elsewhere for safety and 
opportunity.
    The President requested $1 billion for fiscal year 2016 to 
support the U.S. strategy for engagement in Central America. 
Our request maintains and expands our current focus on 
security, including the investments we have made through the 
Central America Regional Security Initiative, and will support 
new investments for prosperity and governance consistent with 
the strategy.
    As Vice President Biden recently said, the cost of 
investing in Central America, where young people can thrive in 
their own communities, pales in comparison to the costs of 
another generation lost to violence, poverty, desperation, and 
immigration. Six million young people will seek to enter the 
labor force in the next decade. Without job opportunities, 
these youth may end up participating in the illicit economy or 
coming to the United States.
    Security is at the heart of our agenda, but it cannot be 
achieved without strengthening our efforts in the areas of 
governance and economic prosperity. Economic growth and good 
governance are security issues.
    As I said previously, we believe the essential condition 
for success is present, political will in the region. The 
Presidents of El Salvador, Guatemala, and Honduras have a plan. 
They are already making progress, and they have publicly 
committed themselves to near-term time lines for continued 
action.
    Northern Triangle leaders are implementing their own 
Alliance for Prosperity Plan. We want to work with the U.S. 
Congress to help Central America and strengthen U.S. national 
security. The U.S. strategy aligns with and supports the goals 
and objectives of the Alliance for Prosperity. If we join 
Central American governments who move forward in this way, we 
will help set Central America on a new trajectory. I believe 
doing so will help secure America.
    I look forward to your questions.
    Chairman Johnson. Thank you, Secretary.
    Our next witness is Lieutenant General Kenneth Tovo. 
General Tovo serves as the Military Deputy Commander of the 
U.S. Southern Command in Miami, Florida. Southern Command 
conducts military operations and promotes security cooperation 
throughout the 16 million square mile area of Latin America and 
the Caribbean. Lieutenant General Ken Tovo was commissioned 
from the U.S. Military Academy into the infantry in 1983. After 
serving his initial tour in the 82d Airborne Division, he 
transferred to Special Forces. General Tovo.

   TESTIMONY OF LIEUTENANT GENERAL KENNETH E. TOVO,\1\ USA, 
    MILITARY DEPUTY COMMANDER, U.S. SOUTHERN COMMAND, U.S. 
                     DEPARTMENT OF DEFENSE

    General Tovo. Chairman Johnson, Ranking Member Carper, 
distinguished Members of the Committee, thank you for the 
opportunity to speak here today. General Kelly regrets that he 
cannot be here with you. He is currently meeting with political 
leaders and defense officials in Central America to discuss 
many of the same issues that we will discuss today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tovo appears in the Appendix on 
page 694.
---------------------------------------------------------------------------
    I would like to echo my colleagues from DHS and State 
Department. A secure, prosperous, and well governed Central 
America is in our national security interests. The United 
States and Central America are bound by more than geographic 
proximity. We are bound by shared culture, values, and 
religions. We are bound by more than $30 billion in trade 
between our nations. And, we are bound by shared security 
concerns, like transnational organized crime and illicit 
trafficking.
    In the United States, we feel the direct impact of drug 
trafficking in our workplaces, in our neighborhoods, and in our 
families. As a result of our demand for those drugs, we 
contribute to many of Central America's challenges, including 
weak governance, corruption, and criminal violence.
    Last year, as we have discussed, challenges like violence 
and poverty drove almost half-a-million migrants from Central 
America and Mexico, including over 50,000 unaccompanied 
children and families, to seek a better life here.
    Unfortunately, children and families are not the only 
things moving along the smuggling routes that lead into our 
country. Criminal networks move hundreds of tons of drugs, 
hundreds of thousands of people, and countless weapons into and 
out of the United States, Mexico, Central America, and beyond. 
In return, billions of dollars in illicit proceeds pour back 
into criminal coffers, and some of that money winds up in the 
hands of corrupt officials or in the hands of terrorist groups 
like the FARC and Lebanese Hezbollah. Illicit trafficking and 
threat finance are real threats to our Nation's security and 
the region's stability.
    As General Kelly mentioned during his recent testimony, it 
takes the collaboration of all our interagency partners, the 
Central Intelligence Agency (CIA), DHS, the Drug Enforcement 
Agency (DEA), and other law enforcement and security agencies, 
to protect the Southern approaches to the Nation. Our partners 
in the region also play a huge role in this mission. We are 
working closely with security and defense forces in Central 
America to help them disrupt the flow of illicit trafficking, 
dismantle criminal networks, and secure their borders.
    Our primary focus right now is the Northern Triangle of 
Guatemala, Honduras, and El Salvador, countries that have been 
dealing with citizens' security crises in recent years, and we 
are seeing some remarkable progress in that region.
    But, we should not lose sight of the fact that challenges 
like illicit trafficking are regional issues. They do not just 
affect Central America. They affect every single nation in the 
hemisphere.
    Many countries are understandably concerned about the 
balloon effect that may come with success in the Northern 
Triangle, which is why defense officials from the United 
States, Mexico, Central America, Colombia, and Chile are 
meeting in Honduras this week to discuss ways to increase our 
collaboration. This is one promising sign of many.
    At SOUTHCOM, we believe that there is a window of 
opportunity in Central America. Our partners are investing in 
their own security and economic prosperity. Organizations like 
the Inter-American Development Bank and the Millennium 
Challenge Corporation are lending their support and expertise. 
And, most importantly, we are seeing real political will in the 
region. This is perhaps the most promising sign of all.
    We only have to look to Colombia to see the payoffs that 
come from a committed partner and a sustained U.S. engagement. 
With our support, I am optimistic that we can see the same sort 
of turnaround in Central America.
    Thank you, and I look forward to your questions.
    Chairman Johnson. Thank you, General.
    I would like to just start, again, referring to that chart 
and graph over there, again, trying to get to the root cause. 
Do any of you three gentlemen, can you think of something--
again, we have had the income disparity, we have had crime and 
violence in Central America for many years. We had 3,300, then 
4,400, then about 4,000 in 2009, 2010, 2011, then we had 
Deferred Action on Childhood Arrivals and we got 10,000, 
20,000, and then 52,000. To me, that looks like cause and 
effect. Is there another explanation that is plausible? Mr. 
Bersin.
    Mr. Bersin. So, if I might, Mr. Chairman, the one thing 
that everyone agrees with in the context of discussing 
immigration is that our system is broken and that it has been 
broken. And, regardless of where you end up in an argument, 
everyone starts off with the premise that the system is broken.
    In fact, even when people argue that the executive actions 
are the cause of the increase in Central American migration, it 
seems to me that there is a little bit something disingenuous 
about it in this respect. This would be tantamount to a 
statement in a securities prospectus having to do with a 
business being willfully misrepresented by a broker who then 
fraudulently induces an investor to invest in the business, and 
then we end up blaming the business for having put the 
statement in the prospectus.
    Whatever people believe about the----
    Chairman Johnson. My question was pretty simple. Is there 
another cause that you can point to----
    Mr. Bersin. Yes----
    Chairman Johnson [continuing]. That caused that surge or 
spike other than the proximate cause we see here with the 
Deferred Action on Childhood Arrivals?
    Mr. Bersin. Yes. The smugglers----
    Chairman Johnson. You have got a broken system, but you are 
breaking it further.
    Mr. Bersin. The smugglers----
    Chairman Johnson. I do not know where you were going with 
your----
    Mr. Bersin. The distortions by the smugglers and human 
traffickers of the State of facts is actually what caused the 
problem. I do not think there is actually any dispute about 
that.
    Then, I think you can argue about what is the cause and 
what is the effect of the particular executive action, Mr. 
Chairman. But, I think it jumps to an unwarranted conclusion to 
say that the cause of the rise was something other than the 
distortion of a set of facts by the smugglers and traffickers 
who profited enormously from this phenomenon.
    Chairman Johnson. What action caused the distortion of the 
facts?
    Mr. Bersin. Well----
    Chairman Johnson. I mean, something started, and we had 
Deferred Action on Childhood Arrivals and then the smugglers, 
the coyotes distorted the facts, which built upon the problem. 
But, the proximate cause was Deferred Action on Childhood 
Arrivals.
    Mr. Bersin. With all due respect----
    Chairman Johnson. I mean, again, you said that was not in 
dispute----
    Mr. Bersin. With all due respect, it is in dispute, because 
that would be the same as blaming that businessman for having 
put a statement in a prospectus that is actually--you could 
argue whether or not it is a good business proposition, but the 
distortion of that proposition is actually the cause of the 
fraud, not the statement in the prospectus. Thank you, sir.
    Mr. Palmieri. If I could add, Mr. Chairman, looking at your 
chart, there was also, as we know, a massive out-migration from 
the Western highlands of Guatemala, a very rural area that does 
depend very much on rural agricultural products. And, one of 
the things that has struck the entire Central American region 
is a coffee rust that decimated coffee harvests. We do include 
in the President's request programmatic support to help 
stabilize rural farm incomes and to help these coffee growers 
get their feet back on the ground, as well.
    Chairman Johnson. I have got the information by country, 
and we went from about 1,300 in El Salvador to 16,000; 1,500 in 
Guatemala to 17,000; Honduras went from 900 to 18,000. So, this 
was across the board. It was not just simply at Guatemala.
    General, do you have any comments on it, or----
    General Tovo. I would just add, Mr. Chairman, that I think 
that we all can agree that there are both push factors and pull 
factors. On the pull side, the misinterpretation and, if you 
will, the strategic communications plan used by the coyotes to 
spread the misunderstanding of the policy was one aspect. I 
think we could also probably look at the economic downturn in 
the region around this same time, as well as the increasing 
violence that was also probably a factor. I think it is a 
combination of a variety of things.
    Chairman Johnson. But, we also had an economic downturn 
here.
    You have all testified, boy, if we have a secure, 
democratic, prosperous Central America, we have got no 
problems, which I would agree with. How do you create a secure, 
democratic, prosperous Central America when you have, from our 
previous panel, pretty much rampant corruption? We did meet 
with U.S. Ambassadors to those countries yesterday, and there 
is corruption in the police departments. You can continue to 
add policemen to the force, but if that is a totally corrupt 
system--it was interesting to me talking about the gangs. I 
would have thought the gangs were related to drug trafficking, 
but it is really transit through Central America. The gangs are 
all about extortion rackets.
    So, how do you throw another billion dollars into that 
region and expect any kind of different result?
    Mr. Palmieri. Sir, we think that the level of political 
will by the three leaders is an opportunity for us to join them 
in efforts to institute some very real reforms.
    For example, in Honduras, the government signed an 
unprecedented agreement with Transparency International to open 
an office in their country to ensure that their budget process 
is more transparent and to have an outside civil society 
organization holding its government officials more accountable.
    In addition, they have fired over 2,000 corrupt police in 
the last year and are committed publicly now to the Vice 
President on March 2 and 3 that they will begin hiring new 
police, vetting them, and putting them through a very rigorous 
training program that we hope will make them more responsive--
--
    Chairman Johnson. Do you think it would be----
    Mr. Palmieri [continuing]. To their local communities.
    Chairman Johnson. Do you think it would be prudent to make 
sure they meet those metrics and we actually see a measurable 
reduction in corruption before we dramatically increase the 
amount of aid we give them?
    Mr. Palmieri. I think it has to go hand in hand, sir. They 
have to be willing to take some real steps. We have to be sure 
that they are going to follow through on those activities. But, 
it is very important that U.S. leadership be part of this 
effort, and U.S. assistance is a concrete way for us to hold 
them and the people who are actually below the government 
leadership level to follow through on the commitments their 
leaders are making by leveraging U.S. assistance to insist on 
those reforms.
    Chairman Johnson. OK. Senator Carper.
    Senator Carper. General Tovo, I was kidding you before. I 
said, I understand General Kelly could not be with us today, 
but I am told he sent his next best person, and that was you. 
That is a high compliment. If he were here, what do you think 
he would be saying to us? It could be just the same thing that 
you are saying, but you have heard him talk a lot about these 
issues. He is literally working on them today. What do you 
think he would be saying to us that relates to what Senator 
Johnson and I are asking?
    General Tovo. Sir, first and foremost, I will tell you that 
he will tell you that we have a window of opportunity that he 
believes--he has met with all of the three Presidents we are 
talking about in Guatemala, Honduras, and El Salvador, and he 
believes that we have got a fairly unique opportunity where we 
have got leaders who are committed to providing their nations 
and their citizens the level of security and economic 
development that they deserve.
    He would also add that Central America matters, given the 
proximity to our Nation and, of course, the networks that pass 
through Central America and enter our Nation fairly freely, and 
that we ought to be concerned and we ought to do everything we 
can to improve the environment in Central America that has 
allowed those networks to flourish and to help our partners be 
better able to control their land, sea, and air domain and 
prevent the flow of trafficking.
    Senator Carper. The three of you had a chance to hear our 
first panel, and my guess is you heard from each of them 
something you agreed with and probably something you did not 
agree with. But, in terms of what you heard from the first 
panel, for each of you, what are some things you heard that you 
said, boy, that is right, they got it, and maybe in some other 
cases, no, I do not think so, each of you.
    Alan, would you go first.
    Mr. Bersin. I thought the general conclusion that we had no 
choice but that there were significant problems and challenges 
facing us in this investment, I think the Ranking Member just 
raised the issue of corruption, and no question that corruption 
is an endemic problem, but also, it is a problem around the 
globe. And, the issue is by not taking action, the Edmund Burke 
term, all that is necessary for evil to triumph in the world is 
for enough good men and women to do nothing. We do not really 
have a choice just to say we are not going to take an action. I 
think the previous panel generally thought that we needed to be 
careful and prudent, but that we needed to take this action at 
this time, that there is a window of opportunity.
    I obviously disagreed with Mr. Franco's depiction of the 
executive actions as being the prime cause of the pull into the 
country, as opposed to the traffickers' distortion of the 
facts, however you agree or disagree with them.
    I also thought that Colombia is a guide, but as I indicated 
in my opening remarks, I think Mexico is a better guide.
    Senator Carper. OK. Thanks. I would say with respect to 
Mexico, one of the--I think it has dawned on Mexico in the last 
year or so that they have a dog in this fight in terms of 
allowing our folks to come illegally into their country because 
a lot of them will want to settle in Mexico, and that is not 
always in Mexico's best interest.
    And this train, it used to be people would get free 
transportation pretty much all the way to the American border 
and I am convinced that that just does not happen anymore.
    Mr. Bersin. The growth in their economy has made them a 
receiving country, not the sending country. The outflow, as the 
Pew Foundation indicates, of Mexicans from the United States is 
actually greater than the inflow, legal and illegal, now. It is 
a function of economic development.
    Senator Carper. OK. Thanks.
    Mr. Palmieri, what did you hear from the first panel that 
you said, oh, they got it. That is right. And, maybe an example 
of two where not so much.
    Mr. Palmieri. Yes. I would agree with Mr. Bersin that the 
role of Mexico in the way it was characterized in the first 
panel has been really a key element in helping us lower the 
levels of unaccompanied children reaching our border since last 
summer. Mexico has really stepped up its game, and that would 
be one of the key areas of agreement I would have.
    Although I am not a member of the MCC organization, I would 
take great disagreement with the characterization that El 
Salvador somehow was given a more lax standard for its more 
recent compact.
    Senator Carper. OK. Drill down on that a little bit.
    Mr. Palmieri. The scorecard indicators that MCC uses are 
published. They are public. The countries have to meet them. If 
they do not meet those indicators, they do not qualify for a 
compact. In the case of El Salvador, my understanding is that 
they did meet all of those indicators, and not as it was 
portrayed in the previous panel, there was no relaxing of that 
standard.
    Senator Carper. All right. Thanks. General Tovo.
    General Tovo. Sir, we have hit on it a bit already, but----
    Senator Carper. That is all right. Repetition is good.
    General Tovo. OK. Great.
    Senator Carper. Do not worry about it.
    General Tovo. Last fall, we had hosted a conference in 
SOUTHCOM with all of the Central American leaders, Mexican 
representation and the Colombians, and it was designed----
    Senator Carper. At what level, presidents or----
    General Tovo. We are talking Ministers of Defense.
    Senator Carper. OK.
    General Tovo. Ministers of Defense and their chiefs of 
defense----
    Senator Carper. OK.
    General Tovo [continuing]. So, SECDEF and chairman of the 
Joint Staff equivalent. We began the conference primarily with 
the Colombian Minister of Defense, but a bit from the Mexicans, 
as well, describing the actions that they took under Plan 
Colombia, and, similarly, what the Mexicans have undertaken to 
meet very similar challenges, with the idea that we would--once 
again, not apples to apples, comparison in the environments, 
but that there are lessons that can be drawn from both.
    And, really, you heard a little bit of it in the earlier 
panel, but the fact that much of the resourcing requirement, 
certainly about 95 percent of the treasure, but all the blood 
and sweat came from the nations themselves, as well as the 
mobilization of the elites and the business leaders and all the 
other things that particularly Colombia undertook to really 
have the transformation that they have experienced in the last 
14 or 15 years, and then had an opportunity to dialog with the 
various Central American leaders on how they could apply some 
of those same things.
    So, I do believe that the Mexican experience and the 
Colombian experience both provide opportunities to guide all of 
our collective effort going forward for our Central American 
effort.
    Senator Carper. OK. Thank you.
    Can you all talk just for a minute about our relationship 
with Mexico. How do you assess their efforts to curtail Central 
American migration through their country to our borders? They 
have this, like, multi-tier approach on the border. But, would 
you, Alan, just lead us off.
    Mr. Bersin. Again, we should recognize, Senator Carper, 
that the Mexicans are doing this because they perceive it to be 
in their interest for their reasons, and we are, in part, the 
beneficiaries of that determination. So, they have introduced 
not just the enforcement action. This is part of an immigration 
system that they are starting to create. They have provided for 
all Central Americans have a right to get a border crossing 
card, in effect----
    Senator Carper. Into Mexico.
    Mr. Bersin. Into Mexico, into the four contiguous border 
States, and they are permitted to stay there for a period of 
time----
    Senator Carper. What, a month or so?
    Mr. Bersin. It is a month--I am not certain, Senator----
    Senator Carper. OK.
    Mr. Bersin [continuing]. Whether it is a month or more than 
that.
    Senator Carper. I think it is a month or so. OK.
    Mr. Bersin. But, in any event, the point is that there is a 
legal permission to enter into Mexico, and what they have done 
is said, like very much as our border crossing card situation 
in the Southwest of the United States with Mexico operates. 
People can cross into California, for example, and move 25 
miles north, 40 or 50 miles in New Mexico, and the same in 
Arizona, but you cannot go beyond that. Mexico has then put an 
enforcement structure, a layered security system in that is 
actually checking people from going further north. And, we have 
been the beneficiary of that legal system, together with an 
enforcement capacity.
    Senator Carper. OK. I know my time has expired. Do you all 
have anything you would like to add, General? OK. Thanks.
    Chairman Johnson. I have got a few more questions.
    General Tovo, you talked about Hezbollah. We had, yesterday 
in our hearing, we really did talk about the transnational 
criminal element, the whole big problem, which I really look at 
as sort of the root cause of all this, is the drug trafficking, 
human trafficking. Can you expound a little bit more in terms 
of what you know about the nexus between drug traffickers and 
terrorist organizations.
    General Tovo. Mr. Chairman, certainly in a classified 
setting, we can give you a lot more detail. But, suffice it to 
say from open source, I think we know that in at least several 
occasions over the past decade and a half, terrorists have 
attempted to use our borders, our open borders, to do us harm. 
I think you may recall around the turn of the century, we had 
some attacks that were coming out of Canada, the Canadian 
Northern border. And, of course, back in 2011, we had Iranian 
Quds Force reported in the open source to be working with 
Mexican drug traffickers to try and commit an assassination 
plot right here in the Capitol of the Saudi Ambassador. So, two 
instances.
    On a broader scale, however, we know that some of these 
organizations do receive financial benefit from the drug trade. 
A topic of much discussion amongst the intel community about 
how much cooperation and convergence, as we call it, there 
really is. There is dispute about that. But, I think it is fair 
to say that there is a good amount of profit that Lebanese 
Hezbollah makes off of illicit trafficking writ large on at 
least the order of tens of millions, and much of it is funneled 
through the money laundering system and fuels their operations 
back in the Middle East.
    Chairman Johnson. I appreciate your answer. We will have a 
secure briefing on this. We need to delve into that further.
    You did mention balloon effect. Can you describe what you 
are talking about there.
    General Tovo. Sure enough. Essentially, it is the effect we 
have when we are able to disrupt the drug flow in a particular 
region, and being an adaptive and an agile business operation, 
the----
    Chairman Johnson. It just flows elsewhere.
    General Tovo [continuing]. The traffickers find a new 
place. We have limited assets applied against this problem and, 
consequently, we cannot cover everywhere. And, so, in previous 
years, the Eastern Caribbean was the main vector, kind of right 
up into Florida, if you will. We were able to stymie that route 
and now it is primarily the isthmus through Central America. 
About a year or two ago, it was about 90/10, 90 percent through 
Central America and isthmus, 10 percent Eastern Caribbean. We 
have really concentrated on the last couple years through an 
operation we call Operation Martillo on the coastal waters 
around the Central American isthmus. It is now about 80/20. So, 
we do see the narcos adjust their flow based on where we place 
our effort.
    Chairman Johnson. Right. We certainly saw the effect there 
in McAllen, Texas.
    Mr. Bersin, you talked about the absence of comprehensive 
immigration reform. We have passed, and I have talked about 
this in my opening statements the last two hearings, we have 
passed, I do not know how many bills, six, seven, eight over 
the last two decades, starting with 1986, when we had, 
basically, amnesty for a little under four million illegal 
immigrants in this country. And, then, I just listed the number 
of bills we passed to solve this problem. I have also listed 
the number of illegal immigrants coming into this country.
    So, the purpose of my efforts here is to really lay out the 
reality and start passing laws that actually work. Tell me what 
in the Senate comprehensive immigration bill would have 
actually reduced incentives for illegal immigration. What would 
have worked about that bill?
    Mr. Bersin. Mr. Chairman, I think there were border 
security considerations that were important in that bill----
    Chairman Johnson. So, specifically, what was in that bill 
that was really good about border security, the elements we 
have got to be looking at to work----
    Mr. Bersin. Additional resources for protecting the border.
    Chairman Johnson. How would those have been employed?
    Mr. Bersin. They have been employed to great effect over 
the last generation in a bipartisan way----
    Chairman Johnson. No, I mean, in the Senate bill. Do you 
know specifically how those border resources would have been 
employed? I knew we threw a bunch of, a couple billion--a 
number of billions, tens of billions of dollars at it at the 
very last moment. Was there a really well thought out plan 
there?
    Mr. Bersin. The combination of elements that would have 
included additional personnel, better technology. I mean, we 
actually know and have spent $18 billion a year for a long time 
on border security and it has had its important effect in terms 
of reducing the flow of illegal migration into the country and 
creating a deterrent. And, we actually know and we have spent 
the money that has achieved that result both in Republican and 
Democratic administrations.
    In addition to that, Senator, there was a----
    Chairman Johnson. Let me just say, the number of illegal 
immigrants continues to rise in this country. After all those 
efforts, the Secure Fence Act of 2006, I mean, all those 
efforts, it just continues to rise.
    Mr. Bersin. I respectfully disagree with you, sir. The 
number of illegal migrants coming into the country is actually 
at a 70-year low, and I was there, present at the creation when 
we were arresting a million people a year in San Diego alone. 
So, with all due respect, the number of migrants entering 
illegally in the country today is at an all-time low in my 
lifetime, professional----
    Chairman Johnson. I was referring to the number of people 
in this country illegally continues to increase. It has 
flattened out for a little, we have had kind of a sluggish 
economy, no doubt about that.
    Mr. Bersin. The comprehensive immigration reform actually 
created a system by which people could actually earn their way 
to legal status and come out of the shadows, and that would 
have a great effect on the communities of this country, I 
think, by----
    Chairman Johnson. You do not believe, like Deferred Action 
on Childhood Arrivals, that would create an incentive for 
illegal immigration prior to securing the border?
    Mr. Bersin. No, sir, not in the way that the distortions 
that took over a summer ago had an effect. I think that, in 
fact, when there is a system that is operating and that permits 
people to move through specified stages, that, in fact, this 
would not lead to the kind of surge that we saw in the summer 
of 2014.
    Chairman Johnson. Well, I guess that is a basic 
disagreement, because I look at Deferred Action on Childhood 
Arrivals as a huge incentive for what caused that. And, again, 
you denied that. You are saying it is the distortion of that.
    My concern would have been to offer a path to citizenship 
prior to securing our border would have been an incentive for 
illegal immigration, not having an adequate guest worker 
program, and two-hundred-sixty-two billion in benefits for non-
U.S. citizens, all those things are incentives for illegal 
immigration, and from my standpoint, what immigration reform 
has to be is eliminating those incentives, be honest, taking a 
look at things that we do, like treating children from Central 
America differently than we treat from Mexico, trying to look 
at those things honestly, lay the reality out there and say, 
let us try and eliminate or drastically reduce those incentives 
for illegal immigration. I do not believe the Senate bill did 
that.
    I just have to say that because I hear time and time again 
that if we just would have passed that bill, everything would 
have been coming up roses. No. We passed a number of bills. We 
have not fixed the problem. So, the purpose of this Committee 
is laying out the reality, accepting some of these truths--just 
accepting them, and we are not. So, I do not want to delude 
ourselves in this hearing.
    Mr. Bersin. Mr. Chairman, let me just respond to one point 
you made that I think may make the larger point. The difference 
that was made in the last panel between the difference of how 
we treat Mexican children and how we treat Central American 
children, that accounts for a difference. It does. But, let us 
actually look--and I was honored to be involved with Attorney 
General Reno in the original Reno v. Flores settlement that 
actually created a system for dealing with Mexican children.
    Dealing with Central American children who are further--
they are not contiguous to our borders--created a problem. 
Republicans and Democrats together passed the Wilberforce Act 
in 2007-2008. It provided a certain judicial process. But, what 
has not happened, with all due respect, Mr. Chairman, is we 
never resourced the Immigration Court to be able to actually 
enforce the law the way it was intended to be enforced by the 
legislation. If, in fact, we had an Immigration Court that 
could timely deal with these cases, you would create a 
deterrent, sir, in very much the same way as we have seen in 
the Mexican system.
    Last year, the administration attempted to ask the Congress 
for three-plus billion dollars to deal with the unaccompanied 
minor surge. A significant portion of that was intended to 
remedy that problem and provide an infrastructure of law that 
would permit us to actually deport people if they could not 
establish asylum, if they could not establish other conditions 
that the Act provided for.
    So, that is part of the broken immigration system, sir.
    Chairman Johnson. OK. Thank you. Senator Carper.
    Senator Carper. Let us just stay on immigration reform for 
a moment. I tend to be a glass half full guy. Some people say 
we will never get immigration reform. I hope that is wrong. 
But, when you look back at the legislation about a year and a 
half ago, I can point out any number of things that I was not 
enthusiastic about, but I still believe that part of the 
solution for the issues that are before us is comprehensive 
immigration reform done right.
    Let me just ask, starting with you, General Tovo, just 
think about immigration reform and give us a little advice, 
because we will have another chance to pursue this maybe even 
this Congress. I hope so. Give us some advice on maybe looking 
back at what we tried to do a year and a half ago, maybe some 
parts of that you thought made sense, maybe some that you did 
not. Just give us some advice on what to do more of or less of 
this time through.
    General Tovo. Senator, I would like to cede any time on 
that one to the right here. It is purely a policy question that 
I am not equipped to handle.
    Senator Carper. All right. Thank you. Mr. Palmieri.
    Mr. Palmieri. Again, I would defer to the Department of 
Homeland Security on the issue.
    Senator Carper. Oh, you do not want him to answer this, do 
you?
    Mr. Palmieri. But, I will say one thing that I think a 
comprehensive immigration reform could have assisted, is in 
making clear what the ground rules are and taking away the 
ability of alien smugglers to distort what is happening in the 
United States and to transmit messages and exploit vulnerable 
people who think that there may be some potential benefit for 
them if they can get to our border.
    In addition, I think a comprehensive immigration reform 
undertaken now, given some of the demographic patterns we see 
in Mexico and even in Central America over the next 10 to 15 
and 20 years, with declining birth rates, might be able to get 
us to a situation where we would not see increasing levels of 
illegal immigration in the United States.
    Senator Carper. All right. Thank you. Mr. Bersin.
    Mr. Bersin. Senator Carper, I would like to defer to the--
-- [Laughter.]
    Genius to my right----
    Senator Carper. If you keep this up, we will have to bring 
back the first panel. [Laughter.]
    Mr. Bersin. Senator, I will leave it to others to talk 
about specific legislation, but I will say that the elements 
that were in that bill, not perfect, to be sure, as the 
Chairman pointed out, actually had the four key pillars----
    Senator Carper. Go ahead and reiterate those. Just restate 
those.
    Mr. Bersin. The need for border security. The need to 
provide for people to come out of the shadows, however you 
arrange that. The need to deter through workplace enforcement, 
the hiring of illegal labor in the United States. And, fourth, 
we need to actually address the business needs for high-skilled 
labor. Those are the four big pillars, and I think the 
legislation got those right, although reasonable people can 
differ about the extent to which changes could be made and 
improvements offered. That never happened in terms of any 
conference between the Houses, the Senate and House.
    Senator Carper. We talked in some of our of our earlier 
hearings about force multipliers. We have not done that today 
in any great extent, but I think a lot of the force multipliers 
is the kind of technologies that can be deployed between the 
ports of entry to make our Border Patrol folks more effective, 
but also the force multipliers that we can deploy at the ports 
of entry to enable us to better pick out those who are bringing 
in contraband drugs, whatever. I also think of immigration 
reform as a force multiplier, done right, force multiplier in 
its own right.
    We talked earlier a little bit and with this panel, but 
especially with the last panel, about Plan Colombia. But, in 
Plan Colombia, we provided a variety of assistance to support 
the Colombian government in their efforts to combat the drug 
cartels, and in Mexico, we supported the Merida Initiative to 
help restore the rule of law in that country and provide more 
economic opportunity.
    Can we discuss, what lessons can be applied from those 
programs to the assistance that we are discussing today for the 
Northern Triangle? Some on Plan Colombia, if you will, but 
especially on the Merida Initiative. General Tovo, would you 
like to take that first, please.
    General Tovo. Sure. I will focus on Plan Colombia, because 
Mexico is in the NORTHCOM area and they are much more able to 
answer the Merida Initiative questions, as I think Mr. Palmieri 
can, as well.
    I think--we talked a little bit about this already, but the 
keys of Plan Colombia were really the commitment and the 
national leadership to the plan. It was a Colombian----
    Senator Carper. National leadership in Colombia?
    General Tovo. In Colombia.
    Senator Carper. Yes.
    General Tovo. Certainly, it had good support here in the 
United States, but it was a Colombian plan developed with 
support from the United States. It involved mobilization of the 
right sectors of society to support the plan. It involved their 
sacrifice and their skin in the game, if you will, and their 
money, their taxes. And, so, I think those are all things that 
have been emphasized to our partners in Central America and 
they have already started doing some of those things.
    Honduras has a security tax that largely funds their 
military. They are working to see how they can mobilize their 
business elites in the power sectors of Honduran society.
    So, I think they are on the right track, and I think taking 
those kind of lessons and then continuing to reinforce them 
with our partners in Guatemala, El Salvador, and Honduras are 
very important.
    Senator Carper. Good. Thanks for that. Mr. Palmieri.
    Mr. Palmieri. Yes. I also agree with the concept of Plan 
Colombia as it could be applied in Central America. Alvaro 
Uribe did talk about making sure he first secured the 
environment, that he had mayors able to go back into 
communities. But, once they were there, he believed, too, that 
you needed to fill the vacuum with some economic opportunity 
and then to hold leaders, local leaders and government 
officials, accountable for the delivery of services.
    That is part of what we are trying to do with the request. 
It includes funds for good governance activities to help these 
governments hold their and improve their local officials' 
ability to deliver social services.
    And, I agree with Chairman Johnson that we need a detailed 
plan and we need to see the countries taking actions. That has 
to be the leading indicator, that they themselves are doing 
things first. And, while we do see some evidence that they are 
taking action, I think it is an important requirement, as it 
was in Plan Colombia, that there be a detailed plan.
    Senator Carper. Good. Thanks. Mr. Bersin.
    Mr. Bersin. Just two points, Senator Carper. One is that, 
and without gain-saying anything that General Tovo, Mr. 
Palmieri have said, or the previous panel, about the importance 
of this being owned by the country, no question about that, but 
let us not underestimate the extent to which the United States 
was a partner with both Colombia and is a partner with Mexico, 
not dictating, but providing the technical assistance, 
providing funding, and let us not forget that General Alejo, 
who was President Uribe's chief architect in the law 
enforcement area, started out as an officer in a trans-national 
criminal investigative unit that was a vetted unit run by the--
organized by the United States. So, this is a partnership and 
we need to help them jump-start it while holding them 
accountable and having metrics that would test the business 
proposition of the investment.
    And, then, the second point I would make is this is--I wish 
it were not the case, but this is invariably a longer-term 
process. This is not 2 years. It is not 3 years. Plan Colombia 
was 10 or more years. We are just seeing the end of that 
investment actually possibly reaping the benefits. The same 
thing with Mexico. But, look at the progress we have seen in 
Mexico since Merida in 2006. It takes a while to do it, but 
there are milestones along the way to which we have to hold our 
partners accountable, but also ourselves.
    Senator Carper. Thank you.
    Mr. Chairman, I think we have gotten some good input here 
today, and we have certainly gotten it from this panel. We got 
it from the first panel, as well, and we thank you all very, 
very much.
    Chairman Johnson. OK. I agree with that, and let us give 
the panel the last opportunity. We will start with the General. 
Any final comments?
    General Tovo. Mr. Chairman, yes. Thanks. I appreciate it. I 
would just like to close with we believe the networks that 
bring people drugs, money, guns, north and south, and then 
south to north, are a national security threat to this country. 
I think we should be concerned about it. And, we should have 
the view that the defense does not start on the goal line. We 
should not start the defense of our Nation against those 
threats on the goal line. And, helping establish our neighbors' 
ability to maintain stability and security within Central 
America helps extend that defensive zone.
    And then, last, I think what we have all talked about is 
the importance not only of the plan that the Central Americans 
have developed, but the supporting plan from the USG as a 
holistic effort that really works on more than security, 
because security is kind of first principle, but that it does 
need to have a focus on good governance, eliminating, as best 
as possible, corruption, and provide an opportunity, because if 
the people in Central America have opportunity and they can 
live in a secure environment, they will stay there.
    Chairman Johnson. Thank you, General, and by the way, thank 
you for your service to our country. Mr. Palmieri.
    Mr. Palmieri. Yes, sir. I just wanted to follow up quickly 
on one item. I do think the Commission Against Impunity in 
Guatemala is a critical anti-corruption effort that we should 
see the Guatemalan government take, even ahead of any 
assistance arriving there.
    Second, sir, I do think----
    Senator Carper. I am sorry. Could you just elaborate on 
that just a little bit.
    Mr. Palmieri. Yes. The Commission Against Impunity was 
established in Guatemala in the last decade. It is focused on 
improving the prosecutorial capabilities of the Attorney 
General's office. It has tackled some high-profile impunity 
cases, some of them which dated from the internal war in 
Guatemala, others that have dealt with more recent phenomena, 
like corruption in the prisons. It is a critical force 
multiplier in terms of an external entity helping 
professionalize the Attorney General's ability in Guatemala to 
attack corruption issues.
    Second, I just want to thank the Committee for this hearing 
on this topic. Vice President Biden has made very clear to all 
of us working on this issue, and he has worked very hard on 
this issue, that we have to do this in partnership with the 
U.S. Congress, that to request this level of money to support 
our national security interest in Central America means that we 
have to constantly be willing to come up and have a dialogue, 
to keep you informed, and to produce the detailed plans that 
show that this money will be used effectively, and that what we 
do in Central America can produce a different outcome this next 
time.
    Thank you, sir.
    Chairman Johnson. Thank you. Mr. Bersin.
    Mr. Bersin. Thank you for the opportunity, Mr. Chairman. I 
give and have given my friends in several of the governments in 
Central America a copy of Doris Kearns Goodwin's book, The 
Bully Pulpit, the story of Teddy Roosevelt and William Howard 
Taft, and I do that because, in fact, it reminded me of 
something I had forgotten, which is that we had a very serious 
corruption problem in this country at the turn of the 20th 
Century and that it was Teddy Roosevelt, the Progressive Era, 
that actually turned that system around, with the help of the 
journalists, which is what Kearns Goodwin writes about.
    But, we need to engage with Central America, and I give it 
to them to demonstrate both that they are not in a situation 
they cannot reverse, and I would submit that we have to be at 
their side serving both as a model for Central America, but 
also as an example that you actually can renew your society and 
that we do it all the time when we have problems and we need to 
support their effort to do that in their society.
    Thank you, sir.
    Chairman Johnson. Well, thank you again. Thank you all for 
your thoughtful testimony, your thoughtful answers to our 
questions.
    This hearing record will remain open for 15 days, until 
April 9 at 5 p.m., for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 4:24 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  SECURING THE BORDER: DEFINING THE CURRENT POPULATION LIVING IN THE 
                  SHADOWS AND ADDRESSING FUTURE FLOWS

                              ----------                              


                        THURSDAY, MARCH 26, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ernst, Carper, and 
Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    I want to wish everybody good morning and welcome. Thank 
you for your time and effort and your willingness to come in 
here and testify and lay out the reality of the situation.
    This is our fourth hearing in a series, and we will 
continue this, because the problem of trying to secure our 
border, trying to fix a broken immigration system, is pretty 
complex and the reality is actually quite difficult to 
describe. So, what we are trying to do is kind of a step by 
step approach here, and each one of these hearings is trying to 
focus on one of the issues, one component of the problem, 
trying to lay out that reality.
    Today's hearing really is about defining the current 
population of people in this country illegally. I think we all 
zero in on that 11 to 12 million person figure. But, what are 
they doing? Where did they come from? Where are they living 
now? Who is working? How much are they making?
    Rather than me continue to talk about it, I have seen the 
testimony and there is going to be a lot of information that 
will be revealed here today, so I guess I would rather just 
kind of leave it up to the witnesses and turn it over to our 
Ranking Member and then hop into the testimony.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman.
    Thanks to all of you for joining us today and for your 
preparation and for your willingness to respond to some of our 
questions.
    Mr. Chairman, I want to thank you for calling the hearing. 
Too often, border security discussions begin and end with how 
to create more and better barriers at our Southern Border. We 
have been down there recently. I have been down all along the 
borders over several years and have a lot of ideas we talked 
about, and the Chairman has a number of ideas. We agree on a 
bunch of them about how to better secure our borders, and there 
are a lot of things we can do, are doing, and I hope we will do 
more.
    But, I think, as we look deeper, we need to ask maybe three 
key questions, and one of those, as the Chairman has said, is 
basically who are the undocumented individuals that are living 
here? Give us some idea who they are. How and why does this 
undocumented population, why do these folks come to our 
country? And, also, what is a pragmatic way forward for these 
individuals and for our country?
    Finding the answers to these questions will help us better 
secure our borders and also finally address the immigration 
issues that Congress has been debating for a number of years 
now. I hope that we will actually address it. We tried to in 
the Senate, as you know, a year and a half ago.
    But, we are told there are roughly 11 to 12 million folks 
that are here living in the United States without permission. 
We probably do not know as much about them as we would like, 
but some things are pretty clear.
    Not all, but most of these individuals are productive, law 
abiding members of our communities. Indeed, some of them are 
children or young adults who literally do not remember any 
other home. Some of them do not even know they were born in 
another country. Many others are parents of U.S. citizens.
    Second, for all of the focus on unauthorized entry along 
our Southern Border, experts believe that close to half of the 
undocumented population entered our country legally and then 
overstayed their visa or violated its terms. I think maybe the 
number is about 40 percent who were legal when they came here. 
They just continued to stay until they were not.
    That brings us to my third point, and that is jobs. Jobs 
are why the lion's share, not all, but the lion's share of 
undocumented immigrants came to the United States in the first 
place, and it is why a lot of them choose to stay. Some of 
them, frankly, have a hard time getting out of here once they 
get here, so that is a challenge. Some of them, as the Chairman 
and I have talked about in our other hearings this week, some 
of them like to come here and work for a while and be able to 
go back and forth. We are interested in exploring how that 
might be part of an immigration reform bill that we take up.
    But, we need to take a hard look at our labor needs and 
provide adequate ways for immigrants to work here legally when 
we do need their help, and also to make sure that when people 
come here to get advanced degrees, that instead of going back 
home and competing against us, we find a way for them to stay 
here and be part of making our Nation more economically robust.
    But, I think all three of these factors point in one 
direction, and that is comprehensive immigration reform, not 
amnesty, not just you are here so we are going to make you 
citizens. I am not interested in doing that, and I do not think 
many of us are.
    Congress needs to begin a new and real debate on a 
comprehensive and thoughtful immigration policy for the 21st 
Century. First, we need a policy that is fair, one that will 
significantly reduce our Nation's budget deficit and one that 
will strengthen our economic recovery that is now underway. 
And, that policy must also continue to slow the flow of 
undocumented immigrants to our borders with Mexico and allow 
those living in the shadows to step forward, undergo background 
checks, demonstrate proficiency in English, remain gainfully 
employed, stay out of trouble, pay a fine, and contribute to 
our Nation in lawful ways.
    Last Congress, two-thirds of the Senate came together and 
overwhelmingly passed such a measure. In fact, one of the co-
authors was a member of our Committee, Senator McCain. It was 
not perfect, but it took significant steps to try to fix our 
badly broken immigration system while reducing our deficit by 
nearly $1 trillion over the next 20 years and increasing our 
gross domestic product (GDP) over the next 20 years by some 5 
percent. Had it been enacted, it would also have improved our 
security, in part by making it easier for border security 
officials to focus on the people or things that pose a true 
risk, such as the transnational threats that we heard about 
earlier this week.
    I know that some of my colleagues would rather focus on one 
or two pieces of the immigration and border safety puzzle, for 
example, how many Border Patrol Agents we should hire, how much 
more fencing we should build along our borders. Those are 
legitimate questions. But, the issues and challenges that we 
have been discussing in these hearings are more complex than 
that and they certainly cannot be solved just by providing more 
security. They can be solved, in part, by providing much 
smarter security, a lot of force multipliers at the ports of 
entry (POE) and also between the ports of entry that we have 
talked about in previous days.
    But, I continue to believe our best hope for progress is 
trying to tackle several of these areas in a comprehensive way. 
Let us try to do all the above. Again, the bill the Senate 
passed two years ago was not perfect, but it was a good start 
and something that members of both parties were able to come 
together around, and I hope we can recapture that spirit and 
get to work on a bill soon--not this week, but soon.
    I also think we must look beyond our border and try to 
support efforts to address the root causes that are pushing 
some people to our country, and particularly dangerous and 
sometimes desperate circumstances that some Central Americans 
face, as we heard again yesterday.
    With that, I look forward to the hearing, Mr. Chairman. 
Thanks for all these hearings this week. I think it has been 
enormously helpful for us and, hopefully, it will enable us to 
provide leadership for our country.
    Chairman Johnson. Well, thank you, Senator Carper. I think 
you can tell by the emphasis we are putting on border security 
and our immigration system, that this is a top priority of this 
Committee and I want to work with you and start working toward 
some solutions to provide greater security and solve some of 
these problems.
    I guess as is some of my tradition, I have a written 
opening statement for the record\1\ that I would like to 
introduce, without objection. I have my fingers crossed here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 813.
---------------------------------------------------------------------------
    Senator Carper. OK.
    Chairman Johnson. OK, thanks. [Laughter.]
    And, I have a chart.\2\ It is just displayed over there. 
Every Senator has one by their desk, but it is just very 
quickly laying out currently where we think the population of 
the undocumented population is, and you can see California has 
the largest population, then Texas, then Florida, New York, New 
Jersey, Illinois, Georgia, 400,000. Then it drops off pretty 
quickly. We have a complete list, as well. It is just, again, 
trying to lay out where they are, and that is really what I am 
looking forward to in the testimony.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 906.
---------------------------------------------------------------------------
    It is the tradition of this Committee that we swear 
witnesses in, so if you would stand up and raise your right 
hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Passel. I do.
    Mr. Garza. I do.
    Ms. Zavodny. I do.
    Mr. Johnson. I do.
    Mr. Rosenblum. I do.
    Chairman Johnson. Thank you.
    Our first witness is Jeffrey Passel. Mr. Passel is the 
Senior Demographer at the Pew Research Center's Hispanic Trends 
Project in Washington, DC. Mr. Passel has developed measures of 
immigration trends, especially estimates of the unauthorized 
immigrant population and components of change. The previous 
positions include Principal Research Associate at the Urban 
Institute from 1989 to 2005 and various positions at the Census 
Bureau from 1974 to 1989. Mr. Passel.

 TESTIMONY OF JEFFREY S. PASSEL, PH.D.,\3\ SENIOR DEMOGRAPHER, 
          HISPANIC TRENDS PROJECT, PEW RESEARCH CENTER

    Mr. Passel. Chairman Johnson and Ranking Member Carper, 
thank you for the invitation to testify. I must say, this is 
the first time I have had to swear to the truth of my 
estimates, but I will take that---- [Laughter.]
---------------------------------------------------------------------------
    \3\ The prepared statement of Mr. Passel appears in the Appendix on 
page 816.
---------------------------------------------------------------------------
    Chairman Johnson. We will cut you a little slack. 
[Laughter.]
    Mr. Passel. Since the Great Recession began in 2007, there 
have been some marked shifts in the unauthorized immigrant 
population. This group peaked at over 12 million in 2007, 
having grown steadily by about half-a-million per year from 3.5 
million in 1990. After 2007, the trend changed sharply as the 
numbers dropped by almost one million over the next 2 years, to 
11.3 million in 2009. Since then, the unauthorized immigrant 
population has remained essentially unchanged. The number 
coming each year has plummeted, but arrivals and departures are 
roughly in balance.
    The six States with the largest unauthorized immigrant 
populations saw their numbers grow after 1990, but their share 
of the total dropped from 80 percent to 60 percent in 2007. In 
the rest of the country, the unauthorized immigrant population 
grew much faster and increased roughly seven-fold, from about 
700,000 to 4.7 million in 2007.
    The stable numbers since 2009 mask some important regional 
variations. The unauthorized immigrant population rose in seven 
States, largely on the East Coast but including Nebraska and 
Idaho, and the numbers fell in 14 States spread around the 
country: six in the West, three in the South, three in the 
Midwest, and two in the Northeast. Many of these trends and 
shifts can be traced to the very large drop of unauthorized 
immigrants from Mexico, who numbered almost seven million in 
2007, but 5.9 million in 2012.
    Although unauthorized immigrants represent about 3.5 
percent of the Nation's population, the 8.1 million 
unauthorized immigrant workers account for about 5 percent of 
the labor force. And, although the total number has dropped a 
little bit since 2007 overall, the number in the workforce has 
really not changed very much.
    My written statement addresses labor force participation 
and State variation, but in the time I have left, I would like 
to focus on the industries where the immigrants work.
    Because of lower levels of education and their status, 
unauthorized immigrants tend to hold low-skilled jobs and are 
over-represented in certain sectors of the economy. Three 
industry sectors combined have over half of all unauthorized 
immigrant workers: business services and related industries, 
leisure and hospitality, and construction. These three have 
less than a third of U.S.-born workers. Manufacturing and 
agriculture also have concentrations of unauthorized immigrants 
compared with natives.
    If we look at this a different way, looking at the share of 
the workers in a particular industry who are unauthorized, it 
becomes clear that they are found in particular subsets of each 
major industry. They represent about a quarter of workers in 
landscaping and private household employment and about a fifth 
of workers in apparel manufacturing and crop production. These 
shares are much larger than the 5 percent they are overall in 
the workforce.
    If we look at occupations, especially in construction and 
agriculture, we can see even higher concentrations. For 
example, unauthorized immigrants are about a third of drywall 
installers and farm laborers and about a quarter of roofers and 
painters.
    But, even with these high concentrations, it is worth 
pointing out that whenever we look at a job category, be it a 
broad one or a very detailed one, there are more U.S.-born 
workers than unauthorized immigrant workers.
    The industry concentrations of unauthorized immigrants vary 
considerably across the States, depending, in part, on where 
the immigrants have come from and the nature of each State's 
economy. In 15 of the 44 States where we have reliable data, 
the leisure and hospitality industry has the largest number of 
unauthorized immigrant workers. These States are largely in the 
West and Northeast, but not surprisingly include Florida and 
D.C. Construction leads in 11 States, mostly in the South, and 
manufacturing leads in another 11 States, mostly in the 
Midwest.
    If we go back and look at the share of the industry's 
workers who are unauthorized immigrants, we get a slightly 
different picture. In almost three-quarters of the States, 
agriculture is the industry that has the largest share of its 
workers who are unauthorized. But, the agricultural sector is 
generally pretty small, so it rarely has the largest numbers of 
unauthorized immigrants workers in a State.
    Construction also tends to have a high share of its workers 
who are unauthorized. It is first in 11 States and second or 
third in 24. Here again, the States where the construction 
workforce has the largest concentration of unauthorized 
immigrants tends to be in the South.
    The construction industry, and to some extent production, 
have lost jobs overall since 2007. So, the number and share of 
unauthorized immigrant workers in these industries has dropped. 
As a result, the number of States where construction is one of 
the most concentrated industries is considerably smaller than 
in 2007.
    Again, thank you for the invitation and thank you for your 
attention. There is a good deal more material in my written 
statement, and we are releasing a report today at the Pew 
Research Center that goes into some detail on the occupations 
and industries of unauthorized immigrant workers.
    I will be glad to try to address any questions you might 
have.
    Chairman Johnson. Thank you, Mr. Passel. And, you are 
correct. You have provided us a wealth of information in your 
testimony, which we truly appreciated.
    Mr. Passel. There will be a quiz later, though. [Laughter.]
    Chairman Johnson. I have a meeting. [Laughter.]
    Our next witness is Daniel Garza. He currently serves as 
Executive Director of the LIBRE Initiative. In 2006, Mr. Garza 
became the President of Televisa's HISPANIC PODER Group and 
shortly thereafter joined Univision to host and co-produce 
``Agenda Washington'' a weekly Spanish language news talk show 
covering the issues impacting the U.S. Hispanic community. 
Prior to that, he served as Deputy Director of External and 
Intergovernmental Affairs in the Office of the Secretary at the 
Department of Interior and Associate Director of the Office of 
Public Liaison in the White House. Mr. Garza.

  TESTIMONY OF DANIEL GARZA,\1\ EXECUTIVE DIRECTOR, THE LIBRE 
                           INITIATIVE

    Mr. Garza. Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you for inviting me to testify 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Garza appears in the Appendix on 
page 848.
---------------------------------------------------------------------------
    As our G.I.s were winning the battles against the fascist 
powers of Europe, laborers like my grandparents and uncles came 
in droves to harvest the bounty of our fields and orchards, 
laborers with diligent hands to plant seeds and saplings, to 
cultivate the ground and irrigate the land, to make sure trees 
were pruned, that blossoms were kept warm from the cold, and 
sprouts were thinned, and vegetables and fruits were fumigated, 
picked, sorted, packed, stacked, and transported to market and 
to our soldiers abroad.
    During the 1970s and 1980s, not much had changed. This was 
still the way of life for millions like our family, moving 
along the highways through the States of California, the State 
where I was born, Nebraska, and Washington, following the crop 
seasons. It was a way of life that took its toll. And, while my 
parents were legal residents, it was much harder for those 
living in the shadows.
    I recall at 16 a fellow worker walked over to my father and 
said he had decided he would be moving back to Mexico after 5 
years of hard living in the United States. Overworked, poorly 
paid, unappreciated, and just tired, he said he had had enough. 
My dad placed his hand on his shoulder, held it there for some 
time, and wished him well. He was gone by the end of the peach 
harvest season, never to be seen again. Some would call it 
self-deportation.
    At 17, I had dropped out of high school myself, having to 
work the orchards and fields in order to help the family make 
ends meet. But, by the fall of 1987, Dad had determined it was 
time for us to leave the fields for good, and after 20 years of 
farm work, he had no retirement, no health plan, no vacation or 
sick leave days accrued. Quietly and without fanfare, we got in 
our car after filling the last bin of apples and drove home.
    My parents invested their entire savings in a small 
business, a motel in the city of Toppenish, Washington. And 
after spending borrowed money and renovating the place, Dad's 
investment started paying off. I worked to get my General 
Educational Development (GED) and went off to college.
    Seventeen years after having dropped out of high school, I 
was appointed by President George W. Bush as his Associate 
Director for the Office of Public Liaison at the White House to 
serve as his representative to the U.S. Latino community. 
Honestly, growing up, I never would have thought it possible.
    And, that is what strikes me most about this exceptional 
country. It is that my parents, with their fourth grade 
education and all, my uncles, my cousins, and my friends from 
school who all started out as farm laborers left the fields 
long ago. They moved on to become professionals, middle class 
Americans living in urban and metro areas. Their children have 
become lawyers, teachers, engineers, counselors, and computer 
programmers. They have good, high paying jobs.
    And, my family is but one of millions of examples of that 
immigrant character that helped make our Nation the most 
powerful and prosperous nation on Earth, a Nation of second 
chances. Our Nation's enduring ability to absorb waves upon 
waves of the least of these teaches me not to fear waves of 
poor immigrants coming to America. Instead, I fear a growing 
government that threatens to restrict our economic freedoms, 
resulting in fewer opportunities and in less opportunities. 
Part of our economic framework, if we are to adequately address 
market demand for labor, must include policy remedies that 
serve to legalize the relationship between willing employers 
and willing employees.
    Thirty years ago, the 1986 Immigration Reform and Control 
Act (IRCA) provided legal authorization for the undocumented 
population at the time, but did little to accommodate for 
future flow of immigrants. As a result, today, more than 11 
million undocumented immigrants live in the United States. They 
risk their lives and endure the high cost of illegally crossing 
the border to find work because there is no viable legal 
option.
    In reality, the vast majority of immigrants reflect the 
best of America. They are entrepreneurs, hard workers, 
dedicated students, family oriented and God-fearing. 
Immigration reform should address the children brought here 
through no fault of their own and allow for the undocumented 
population to ultimately become citizens after paying back 
taxes and any other appropriate penalties.
    But, at a minimum, the United States should put in place a 
pragmatic, viable, market-based worker visa program that 
legalizes voluntary employer-employee arrangements in a way 
that provides immigrant workers fixed legal certainty and 
allows our private sector to adequately respond to market 
forces.
    To be successful, work visas must be provided for 
employment at all skill levels, avoiding the exceedingly 
complex, cumbersome H-2 visa program's requirements that 
effectively serve as a deterrent to participation. The program 
must be flexible and induce participation. That means charging 
reasonable fees, matching a willing worker with a willing 
employer, approval of application extended to the applicant's 
immediate family, renewal that is required every 3 years, and a 
program that allows for circularity and time for visa holders 
to see improved job opportunities if they so wish.
    If those who qualify for the program are not to receive an 
advantage in applying for permanent residency, a path to 
citizenship, that is, they are not to be disadvantaged for 
having received work authorization, either.
    A more robust legal immigration system would serve to 
positively impact our economy, improve our Nation's security, 
and decrease pressures on the border by dramatically reducing 
unlawful immigration. It is a testament to this Nation, to our 
free market system, and to the industrious character of those 
who came to America that so many of us, millions who started 
out with nothing, achieve beyond our expectations. It was the 
dream of our parents. It is the dream for so many to this day, 
as well.
    And, this is why our staff and volunteers work across the 
country with communities that are so often marginalized to 
provide services at no cost, such as English language tutoring, 
driver's license exam training, and instruction to launch 
businesses, such as entrepreneurship workshops. Our aim is to 
help develop a person's skill to better position themselves in 
the marketplace, allowing them to move on and up like millions 
of immigrants before them did.
    At the LIBRE Initiative, we believe freedom drives 
progress. It is the freedom enshrined in our founding charters 
that actuated the vast capacities of hard working, industrious 
Americans and made our Nation great, the kind of capacity so 
readily found in our immigrant community today.
    Thank you, and God bless you.
    Chairman Johnson. Thank you, Mr. Garza. That was a well-
timed statement right there. [Laughter.]
    Senator Carper. And well delivered.
    Mr. Garza. I went through it a couple of times.
    Chairman Johnson. Our next witness is Madeline Zavodny. Ms. 
Zavodny is a Professor of Economics at Agnes Scott College in 
Decatur, Georgia. She is also a Research Fellow of the 
Institute for the Study of Labor in Bonn, Germany, and an 
Adjunct Scholar at the American Enterprise Institute. Most of 
her research focuses on economic issues related to immigration. 
Ms. Zavodny.

     TESTIMONY OF MADELINE ZAVODNY, PH.D.,\1\ PROFESSOR OF 
 ECONOMICS, AGNES SCOTT COLLEGE, AND ADJUNCT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Ms. Zavodny. Senator Johnson and Senator Carper, thank you 
for inviting me to appear here today to discuss unauthorized 
immigration and how to structure a guest worker program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Zavodny appears in the Appendix 
on page 853.
---------------------------------------------------------------------------
    I have three things I will talk about. The first is why 
people become unauthorized immigrants. Second, what we know 
about unauthorized immigrants in the U.S. labor market. And, 
then, how best to design a guest worker program in the future.
    So, the first question is, why do people become 
unauthorized immigrants, and I think the answer here, if you 
think about it from a big perspective, is that almost no 
unauthorized immigrants want to be unauthorized. There is just 
no way for them to become legal immigrants, or there is a 
pathway, but it is so onerous that they instead choose to 
remain unauthorized. The reason for this is because of the many 
complexities and the many failures of U.S. immigration policy.
    Our current immigration policy results in large numbers of 
unauthorized immigrants because there is a large, broad-based 
demand for these workers. Yet, it is extremely hard for most 
people to receive a visa to live and work in the United States. 
If you do not have a relative here who can sponsor you or you 
are not highly skilled and can find an employer willing to 
sponsor you for legal permanent residency, you have very few 
other alternatives for how to enter and work in the United 
States.
    The current H-2A and H-2B temporary worker programs are 
costly and cumbersome, and the H-2B program is capped at 66,000 
visas a year. As a result, most employers hire unauthorized 
immigrants instead of using the H-2A and H-2B programs. Here is 
a startling statistic: the number of workers hired through the 
H-2A and H-2B programs annually is equivalent to about 1.3 
percent of the unauthorized immigrant workforce in the United 
States.
    The wage gains to immigrant workers are considerable, and 
the unauthorized are no exception. Research shows that the 
average Mexican worker who migrates to the United States earns 
about 2.5 times as much as he would in Mexico, taking into 
account differences in the cost of living. That is an annual 
wage gain of about $9,000. The gains are even larger for most 
immigrants from Central America.
    Of course, wage gains are not the only reason why people 
become immigrants or unauthorized immigrants. They also desire 
to live with family members here, to have their children attend 
better schools, and to live in safer communities.
    The second question is, how do unauthorized immigrants 
affect the U.S. labor market? And, despite the large number of 
unauthorized immigrants in the United States, their economic 
impact is quite small. Conventional estimates suggest that 
current levels of unauthorized immigration add about 0.03 
percent to U.S. GDP each year. It is a very small number, 
mainly because the U.S. economy is so very big.
    Despite their small overall economic impact, unauthorized 
immigrants are very important as a source of low-skilled labor 
in the U.S. economy, and increasingly so over the years, as 
U.S. natives have become much more likely to finish high school 
and go on to college. So, low-skilled immigrants, in general, 
tend to be unauthorized.
    As Jeff Passel noted, they tend to be concentrated in 
construction, manufacturing, and food services. They also tend 
to hold jobs within those industries and occupations that are 
more physically arduous than low-skilled U.S. natives do, as my 
research with Tamar Jacoby shows.
    Several studies show that unauthorized immigration has 
little effect on U.S. natives' earnings. In my written 
testimony, I cite a number of studies that have found that 
unauthorized immigration has not had a discernible negative 
impact on natives' wages or employment. There is also a 
broader, sizable body of research on immigration in general, 
most of which also concludes that immigration has little 
adverse effect on competing natives. Meanwhile, low-skilled 
immigration creates jobs higher up the skill ladder and leads 
to lower prices for goods and services that low-skilled 
immigrants produce.
    Estimates suggest that about one-half of unauthorized 
immigrants are in the formal sector, or working on the books, 
and about half are in the informal sector, off the books, not 
paying taxes. Research suggests that E-Verify requirements 
drive immigrants into informal employment, or off the books. As 
these requirements have become more common across States in 
recent years, informal sector employment probably has risen 
among unauthorized immigrants.
    The third question I would like to discuss today is how 
best to design guest worker programs. The United States 
actually has the biggest guest worker program in the world--it 
is just not a legal program. We have the largest number of 
unauthorized immigrants of any country in the world. For 
decades, we have chosen to tolerate a large and growing 
population of unauthorized immigrants rather than adopt the 
substantial reforms needed to reduce unauthorized immigration.
    One of these reforms would need to be a well-designed guest 
worker program, combined with more interior enforcement. So, a 
well-designed guest worker program would, first of all, respond 
to the business cycle. As Daniel Garza noted, it needs to be 
flexible.
    Second, it needs to be market driven. Employers need to be 
able to hire the workers who have the skills they seek, not 
have those workers chosen by bureaucrats or a computer 
algorithm.
    Third, a well-designed guest worker program would encourage 
circularity. It would encourage people to return home.
    Fourth, and I think most importantly, a well-designed 
worker program would include portability. It would allow guest 
workers to easily move across employers. This is the best way, 
if you are concerned about effects on competing natives, to 
protect natives from unfair competition. We need to allow guest 
workers to move to employers who want to hire them and are 
willing to pay them higher wages than their current employer.
    The fifth component of a good guest worker program is to 
have more interior enforcement, particularly at workplaces. In 
particular, we should require all employers to use E-Verify. 
Research shows that this has been successful, in States that 
have done it, at reducing the unauthorized immigrant population 
there.
    Thank you.
    Chairman Johnson. Thank you, Ms. Zavodny.
    Our next witness is Randel Johnson. He is the Senior Vice 
President for Labor, Immigration, and Employee Benefits at the 
U.S. Chamber of Commerce. Before joining the Chamber, Mr. 
Johnson was Republican Labor Counsel and Coordinator for the 
U.S. House of Representatives Committee on Education and the 
Workforce. He has served in positions at the U.S. Department of 
Labor (DOL), National Association of Manufacturers, and the 
Department of Labor's Office of Administrative Law Judges 
(ALJ). Mr. Johnson.

   TESTIMONY OF RANDEL K. JOHNSON,\1\ SENIOR VICE PRESIDENT, 
  LABOR, IMMIGRATION, AND EMPLOYEE BENEFITS, U.S. CHAMBER OF 
                            COMMERCE

    Mr. Johnson. Thank you, Chairman Johnson and Ranking Member 
Carper. As Senator Carper hinted at, we have been at this quite 
a while, and it was about 14 years ago when my boss testified 
just one floor down in front of the Judiciary Committee on the 
Friday before 9/11 in support of immigration reform. So, I am 
pleased to see the Senate is back at it and perhaps we can get 
some action in the House.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 862.
---------------------------------------------------------------------------
    Senator Carper. Who was your boss?
    Mr. Johnson. Tom Donahue.
    Senator Carper. OK. That is good. I have heard of him.
    Mr. Johnson. And, we testified before Senator Brownback and 
Senator Kennedy at the time.
    I am here to testify, as Madeline focused on, on temporary 
worker programs, how they, if properly structured, would help 
both increase national security and expand our economy, and I 
appreciate the opportunity, Senator Johnson.
    Now, my written statement is quite lengthy. It is full of 
wonderful footnotes, such as Mr. Passel's, and I hope they are 
helpful to your staff. But, as I have been at this for a while, 
let me see if I can cut to the chase fairly quickly.
    With regard to temporary worker programs and national 
security, frankly, this ought to be a no-brainer. Madeline 
touched on this, as did Daniel, but, essentially, IRCA, one of 
the failures of IRCA--everyone recognizes this--that it did not 
provide a mechanism by which employers could legally fill jobs 
with immigrants when they cannot find Americans available and 
willing to do those jobs. So, vacancies occur and those 
vacancies created a magnet which drew migrants from other 
countries, and to reiterate, as Madeline mentioned, because 
there is not a legal way to fill those vacancies, people came 
illegally.
    Thus, if we provide a legal mechanism in an expanded 
temporary worker program to fill those jobs, that would help 
end illegal immigration, particularly when combined with 
improved border security, which we all acknowledge has to 
occur.
    And, frankly, when combined with a mandatory employment 
verification system--and the Chamber does support a mandatory 
employment verification system, much to the shock of many 
people--these programs, to your point, Senator Carper, about 
overstays, would help eliminate the problem of people coming 
here illegally and not returning and disappearing into the 
fabric of our Nation, because people could be tracked in these 
expanded temporary worker programs, they could not find a job 
outside of that temporary worker program, and the new mandatory 
employment verification system, if properly run, would prevent 
them from doing that.
    Now, and, of course, to enter into these programs, and I 
have a lengthy footnote on this, people would have to go 
through a rigorous security clearance process just as they do 
under current temporary worker programs, and, frankly, when was 
the last time we ever heard of someone coming into the H-2B 
program or the H-1B program committing a felony in this country 
or whatever? And, I think the press tends to focus on those 
stories. I have never heard of that, just because these people 
come in, they are thoroughly screened, and then they leave 
afterwards.
    Now, so it is a two-fer. They come in, they are screened, 
and they also take pressure off of illegal immigration.
    Now, a few Department of Homeland Security (DHS) past 
Secretaries have said, ``I do not see how you can have a good 
security policy without a good guest worker program,'' Tom 
Ridge. ``The only way to truly get enforcement done is to 
create legal pathways to satisfy what is an undeniable work 
need,'' Michael Chertoff. ``I am in favor of creating an 
effective guest worker program to regain true control of the 
United States-Mexican border,'' Janet Napolitano. I also have 
other quotes from experts in my written testimony.
    So, let us go to the economics of it. I think Madeline and 
Daniel have touched on this. It certainly makes sense that if 
an employer cannot fill a job with a U.S. worker, they should 
be able to recruit from overseas to fill that job. If an 
employer cannot fill a job, he cannot produce the product or 
service it needs, and, therefore, the whole GDP will suffer, as 
will our economy.
    Now, look. General demographic trends dealing with 
educational, higher education among U.S. workers, an aging 
workforce, and a declining birth rate, tell us we are going to 
have shortages in many kinds of jobs. It does not tell us 
exactly where in this country, what those jobs will be, under 
what conditions those shortages will occur. So, you have to 
look at the demographic trends. Congress should get ahead of 
that curve for a change. But, also, look at how these programs 
are structured so that, in fact, a U.S. worker who tests the 
local labor market before--ensuring that a U.S. worker is not 
available before they can use immigrant labor. But, surely 
those are fairly simple concepts that we can agree to.
    Now, when you look at the micro level of how these programs 
are to be structured, I spent much time in negotiations with 
the unions, people from all across the political spectrum. It 
is a very complicated area, but it can be done.
    And, we should not get hung up on shortages, as some 
Committees have, because no one can almost ever agree to what a 
shortage is because data is all over the place. I have talked 
to people at the Bureau of Labor Statistics (BLS). They cannot 
agree to how to measure it. But, it is clearly coming in 
certain areas, but it is general demographic trends combined 
with a well-structured temporary worker program can, again, 
help increase border security and expand the economy because it 
helps employers fill jobs they need to fill.
    Madeline has touched on the limited scope of the existing 
programs. I will not reiterate that except to say, again, 
looking at these limited programs needs to be read against the 
backdrop of 145 million workers. I mean, we are talking about a 
pimple on the back of an elephant. It amazes me that these 
programs raise so much controversy. But, I think that also 
tells you there is room that they need to be expanded.
    Now, I know there are some who would argue employers simply 
use these programs to pay U.S. workers less or avoid paying 
U.S. workers and go to cheap immigrant labor. Nothing could be 
further from the truth. These programs are highly regulated. 
There are something like 250 pages in the Code of Federal 
Regulations (CFR) in small print telling what employers must 
do. There are protections built into these programs to prevent 
that, such as paying wages and prevailing wages.
    And, last, with regard to enforcement, let me just say to 
my friends on the left, who I work with quite closely on this 
issue, Senators, are never going to be satisfied with enough 
enforcement. There will never be enough Wage and Hour 
Inspectors. We can have that discussion, but it has to be 
combined with how do we limit frivolous lawsuits being brought 
against employers, such as having the Department of Labor pay 
the attorneys' fees of the employer, et cetera, when he or she 
proves innocent. So, the discussion is not just about how do we 
have more enforcement, hire more inspectors. It is also, how do 
we make sure the Department is not chasing employers who are, 
in fact, good faith employers trying to do the best they can to 
comply with the laws.
    And, with that, Senators, I will close my statement. Thank 
you.
    Chairman Johnson. Thank you, Mr. Johnson.
    Our next witness is Marc Rosenblum. He is Deputy Director 
of the U.S. Immigration Policy Program at the Migration Policy 
Institute (MPI). Previously, Dr. Rosenblum worked as a 
Specialist in Immigration Policy at the Congressional Research 
Service (CRS) and served on the National Research Council's 
Committee on Estimating Costs to the Department of Justice 
(DOJ) of Increased Border Security Enforcement by the 
Department of Homeland Security.
    I have noticed the really long titles of a lot of people 
coming before the Committee, but Mr. Rosenblum.

  TESTIMONY OF MARC R. ROSENBLUM, PH.D.,\1\ DEPUTY DIRECTOR, 
     IMMIGRATION POLICY PROGRAM, MIGRATION POLICY INSTITUTE

    Mr. Rosenblum. Thank you, Chairman Johnson, Ranking Member 
Carper, Members of the Committee. I appreciate the opportunity 
to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rosenblum appears in the Appendix 
on page 881.
---------------------------------------------------------------------------
    Why is the United States home to 11 million unauthorized 
immigrants and what can we do about it? People move to improve 
their economic prospects, support their families, and escape 
violence or other adverse circumstances. In addition to these 
structural factors, immigration policy matters because illegal 
immigration only occurs when more or different people move than 
the law permits. While the supply and demand of visas are never 
perfectly aligned, effective immigration enforcement can limit 
illegal immigration even when visas are scarce, but poorly 
considered policies may actually exacerbate illegal flows.
    So, to summarize 50 years of U.S. immigration history in 
about a minute, Mexican and other--and there are a lot of 
footnotes in my testimony, too--Mexican and other immigration 
grew in the 1970s because, as America transitioned from an 
industrial to a service economy and as globalization increased 
competition, demand for low-skilled, low-wage workers swelled, 
especially compared to the increasingly educated U.S. 
workforce.
    Mexico experienced rapid population growth and poor job 
creation during this period, so the two labor markets were 
highly complementary. Most Mexican migration was illegal 
because these changes occurred just after Congress passed the 
1965 amendments to the Immigration and Nationality Act (INA) 
imposing the first numerical limits on legal Mexican flows.
    Congress recognized these trends by 1971, but did not agree 
about how to respond until 1986, and IRCA's enforcement 
policies were ineffective. In fact, enforcement during the 
1980s and 1990s not only failed to prevent illegal entries, the 
rising cost of crossing the border also contributed to shifts 
in immigration patterns from mostly circular flows by single 
men to more permanent settlement by whole families.
    Further investments since 9/11 have begun to pay off. New 
border and interior enforcement has contributed to falling 
immigration apprehensions and a shrinking stock of unauthorized 
immigrants, as Jeff Passel described. But, these gains have 
been costly. The United States has spent $208 billion on 
Federal immigration enforcement since 2001, and we spend more 
money on immigration control than on all other Federal criminal 
law enforcement activities combined. We are now at a point of 
diminishing returns in terms of what can be accomplished 
through enforcement without addressing the underlying imbalance 
between the structural drivers of immigration and out-of-date 
admissions policies. I think we all agree on a lot of this.
    Changes are needed to all aspects of the immigration 
system, not just the H-2s, beginning with the basic rules 
governing family and employment visas. One challenge is that 
family-based categories and per country numerical limits are 
badly misaligned. As a result, more than four million relatives 
of U.S. citizens and lawful permanent residents have been 
approved for visas, but face wait times of up to 25 years for 
their visas to be issued. These backlogs have become an 
important driver of unauthorized immigration. Congress should 
create a fast track to process these visas and make immediate 
relatives of lawful permanent residents (LPRs) exempt from 
quota limits to reduce future backlogs.
    With respect to employment-based flows, the policy 
challenge is how to support economic growth by providing 
employers with access to needed workers while also ensuring 
that immigrants do not undermine Americans' wages and working 
conditions. The current system fails on both of these counts. 
The system does not meet employers' needs because visa limits 
were set up in 1990 and do not reflect today's economy, 
employers face long wait times to hire permanent immigrants, no 
visa exists in most low-skilled industries, and temporary 
workers are subject to poorly designed recruitment rules that 
are a bad match to actual hiring practices. As a result, many 
industries do rely extensively on unauthorized workers.
    But, even when employers follow the rules, current 
procedures failing to prioritize U.S. workers and temporary 
visas leave immigrants highly vulnerable to wage theft and 
other forms of exploitation, which also harms Americans.
    To modernize this system, Congress should develop a 
mechanism to periodically adjust visa numbers up or down in 
response to changing economic conditions. Congress should 
permit foreign workers to change jobs and provide them with 
additional labor protections. Currently, employers own their 
temporary workers' visas, which means workers cannot leave 
abusive situations. Most workers should be admitted on 
provisional visas that allow them to qualify for permanent 
residence after a given time period, assuming they meet certain 
additional criteria.
    And, Congress should simplify and streamline hiring rules, 
as previous witnesses have said, for foreign workers, replacing 
today's complex bureaucracy with a simple fee-based system that 
favors U.S. workers by making foreign workers more expensive 
than Americans. Higher fees would be a bargain compared to the 
hoops employers jump through today. And, fees could be used to 
improve U.S. workforce development and job matching.
    An important step to secure the border is effective 
worksite enforcement. Employers now face about a one-in-10,000 
chance of being fined for knowingly hiring an unauthorized 
worker. These odds give them no practical incentive to play by 
the rules.
    Finally, a critical step for border security is to 
regularize most existing unauthorized immigrants. Unauthorized 
immigrants are deeply integrated into American communities. 
Nine million of them have lived in this country for 5 years or 
more. Eight million are employed across every U.S. industry. 
Four million are parents, mostly of U.S. citizens. Nine-
hundred-thousand are children and 800,000 are elderly.
    Cities are refusing to cooperate with U.S. Immigration and 
Customs Enforcement (ICE) because Americans do not support the 
mass deportation of their neighbors and coworkers. But, the 
status quo is unacceptable because millions in hiding undermine 
national security, a large illegal workforce pits employers 
against needed worksite changes, and a large unauthorized 
population preserves a magnet and an infrastructure for future 
illegal flows.
    Enforcement will always be an essential component of a 
well-functioning immigration system, but policy choices about 
the legal system are at least as important--how many may enter 
and under what conditions. As long as immigration policy fails 
to answer these questions more thoughtfully, our efforts to 
secure the border will remain expensive and much less effective 
than they need to be.
    Thank you.
    Chairman Johnson. Thank you, Mr. Rosenblum.
    Let me first start by saying there is very little that I 
disagree with in terms of what has been said in testimony. 
Shortly after the 2014 election, realizing I would become 
Chairman of this Committee, I immediately said the top priority 
of this Committee is border security and looking at our 
immigration law, and I was always adding a twist to it. 
Certainly, part of any, I think, effective border security bill 
would be a guest worker program. Coming to the United States 
for work is the number one incentive for illegal immigration. 
Let us make that a legal process. There would be a whole lot 
less people that we would have to worry about coming in here 
illegally. It would be a lot easier to secure the border.
    The problem with this is that, unlike the way I started in 
business with negotiations trying to figure out things we 
agreed on, President Obama did poison the well. I mean, I was 
actually having those conversations and the minute President 
Obama issued those executive memorandums, those discussions 
stopped, and that is unfortunate.
    But, one thing I would disagree with is that I do not think 
the Senate comprehensive bill was a good first step, and I just 
kind of want to walk through that with you, Mr. Johnson, in 
terms of the disconnect of how that would have worked and how 
it would not have worked.
    Before there was any kind of path to citizenship, and we 
can argue whether or not that is the appropriate thing or not, 
we would have had to, I believe, according to the bill, obtain 
effective control of the border, 90 percent. Now, we have had 
testimony here in earlier hearings that the union of Customs 
and Border Patrol (CBP) believes we are probably only 
apprehending 30 to 40 percent is all the people we are 
apprehending, which implies 60 to 70 percent are still getting 
across the border.
    We see the problems of the drug cartels and transnational 
crime units. General McCaffrey was in here saying that we are 
only interdicting somewhere between five and maybe 15 percent, 
is the testimony we have had from a couple different sources, 
of the drugs coming in. So, we are so far from that 90 percent.
    And, the guest worker programs that were set up in the 
Senate bill were meager.
    I just do not see how that bill would have operated, 
whatsoever. We would still have had these 11 million people, 
not really being able to do anything with them, about them, 
because the trigger that we were counting on, 90 percent 
effective control of the border, was pretty much unattainable 
in any kind of near-term future, and the guest worker program 
is just grossly inadequate I mean, 200,000 maximum low-skilled, 
337,000 agricultural workers, high skilled, about 180,000. We 
are talking about eight million.
    So, I just want to understand your comment in terms of that 
evaluation of the adequacy of that bill.
    Mr. Johnson. Well, there was a lot of history to that bill, 
a lot of negotiations that went into it over close to a year 
and a half, and with regard to the temporary worker program in 
there, again, of course, that was created against a backdrop of 
lesser skilled workers, non-seasonal, of which there are zero 
programs now.
    Chairman Johnson. Again, I am stipulating----
    Mr. Johnson. Right.
    Chairman Johnson So, our system right now is completely 
broken. I do not see how this helped. That was my----
    Mr. Johnson. Well, no. It is zero now, so it certainly 
helps with regard to temporary worker programs. The numbers 
that were negotiated in there were a product of negotiations 
between Republicans and----
    Chairman Johnson. Do you disagree they were grossly 
inadequate?
    Mr. Johnson. I would say that we were looking forward to 
trying to raise those numbers in a--they were what we had to 
agree to at the time. And, the construct, however, in there, 
was very streamlined in terms of the recruiting process that 
employers would have to go through. It did allow for 
portability, which Marc brought up, which we supported to 
prevent bad employers from taking advantage of the system. The 
underlying construct of it was quite good.
    Some of the labor protections that were negotiated may have 
been a little over the top, in retrospect, for the record. But, 
yes, the numbers were a product of compromise.
    Chairman Johnson. From my standpoint, there are two glaring 
problems here. One is just a timing problem. I think there is a 
lot of agreement that we are not going to deport 11-12 million 
people. We are not. I mean, I think people recognize that.
    How do we put them on some sort of path of legalization and 
documentation? I think most people would like to do something 
like that, recognize that problem and get them out of the 
shadows. That is not good for anybody.
    The other question is, and this is going to Ms. Zavodny, 
there is a dispute as to whether or not the undocumented 
workers have or have not depressed wages. There was a rather 
interesting hearing in the Judiciary Committee last, I think it 
was last week, and there was testimony taken that Southern 
California Edison is terminating 800 American citizens, 
apparently highly skilled, and going to be hiring, I guess, 
probably H-1B visa workers. Eric Schmidt from Google says that 
there are a thousand applicants for every person he hires.
    So, we hear that there is a huge shortage of technical 
workers, and then you take a look at this and there is contrary 
evidence. So, I just kind of want you to speak to the contrary 
evidence on the record. It is very difficult to get the truth, 
and until we can really figure out what reality is and get 
people agreeing on it, we are going to continue to be at 
loggerheads on this issue of how do you create an effective 
guest worker program and how do you acknowledge the reality of 
what is the effect on American workers' wages, because that is 
a legitimate concern.
    Ms. Zavodny. Certainly, it is important to think about what 
happens to U.S. natives' wages and employment when we increase 
immigrants, but the bulk of studies unquestionably find that 
there is almost no effect. This seems counter to supply and 
demand, if you think about what we teach in Economics 101 
classes--what I am teaching tomorrow morning--but, the reason 
for that is because there is not a zero-sum number of jobs.
    When immigrants come, jobs also get created. Immigrants buy 
stuff. Having immigrants here may allow businesses to pursue 
opportunities that they otherwise would not pursue because they 
may have different skills than natives have. It may slow off-
shoring or outsourcing. So, when you have low- or high-skilled 
immigrants coming here, the jobs that otherwise would go, maybe 
that Google would hire workers in Canada instead, or a low-
skilled company would instead set up a factory in Bangladesh 
instead of keeping apparel jobs in Los Angeles or something 
like that, so that you get those jobs being created. Plus, 
immigrants themselves often create businesses, and they have 
high rates of entrepreneurship.
    And, so, I think there are lots of reasons to understand 
from a theoretical reason why immigration does not necessarily 
cost natives jobs. And then when you look at the empirical 
evidence, again, the bulk of it does support that.
    There are studies on the other side, of course, and I think 
that----
    Chairman Johnson. They are used by both sides.
    Ms. Zavodny. Yes.
    Chairman Johnson. Let me quickly go to Mr. Passel. There 
are 8.1 million undocumented workers that are working. There 
are a bunch of them in Wisconsin working dairy farms. I have 
talked to dairy farmers and they tell me that they need these 
workers. I mean, who else is going to milk our cows? Legitimate 
point.
    Looking at the demographics of America, I know some people 
say we should do workplace enforcement and make sure everybody 
is documented and then hand all those jobs over to Americans. 
Increase wages, whatever. Do we have enough Americans to fill 
those jobs demographically?
    Mr. Passel. Well, first, I have to start by saying I am not 
an economist, so take----
    Chairman Johnson. Again, I am just looking for the 
demographics right now. I am talking about the number of people 
needed to do the jobs that need to be done.
    Mr. Passel. The overall demographics of the United States 
point to kind of a bulge of workers at the upper ages, the Baby 
Boom. And if you look at what is coming down the pipeline in 
terms of employment and potential employment, it would probably 
be useful to have more people in their 20s and 30s over the 
next 20 years to help support the U.S. economy----
    Chairman Johnson. Again, I am just saying, you have laid 
out all the areas where undocumented workers are working.
    Mr. Passel. Yes.
    Chairman Johnson. If they all went home, would we be able 
to fill those positions as a demographer----
    Mr. Passel. Looking at the education of the native American 
population, in the native population, the number and share with 
low levels of education has dropped dramatically. So, in that 
sense, immigrants with low levels of education move into jobs 
that, basically, there are not enough Americans who have 
dropped out of high school. We do not want people to drop out 
of high school. But, if you look at the jobs that the 
immigrants are doing, they are in a set of jobs where there are 
natives, but not as many, and not necessarily in the same parts 
of the country.
    Chairman Johnson. Before I turn it over to Senator Peters, 
does anybody else want to answer that question, provide input 
on it? Sure, Mr. Rosenblum.
    Mr. Rosenblum. I would just add that--and this sort of goes 
back to your first question, also--I mean, it is certainly more 
efficient to legalize those unauthorized workers than it is to 
deport them and recruit new people for those positions where 
they are already working. There is some debate about whether 
unauthorized workers drive down U.S. wages. There is no debate 
that legal workers have a better effect on wages than 
unauthorized workers. So, it is a win-win situation when you 
look at unauthorized workers who are working in the United 
States. Legalizing them improves their economic prospects and 
improves that of U.S. workers and that is a much more efficient 
sort of economic response than to deport them if they are here 
employed and to try to recruit new people into those positions.
    Chairman Johnson. And, Mr. Garza.
    Mr. Garza. If I could just add, there are reports that show 
that for every deportation, it costs us over $20,000 per 
person. So, it is a costly proposition for us, and the premise 
of my presentation was to show that immigrants who start off in 
America, it is a natural progression that they are going to 
achieve the American dream and move on and up. So, you have to 
replace those folks that are going up the quintiles 
economically. So, it is just critical that we have that kind of 
reform that would accommodate for future flows, not just the 
current flow.
    Chairman Johnson. OK. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thanks to the 
panelists for being here today and adding to this very 
important discussion for our country.
    I noticed that in the title of the hearing was, ``Defining 
the Current Population Living in the Shadows,'' although I 
heard a lot of testimony related to visa programs and other 
aspects and less about defining the current population that is 
actually living in the shadows. I would like to spend a moment 
talking about that and then getting some reaction from some of 
the panelists related to that. It is an issue that I feel very 
strongly about, and that is related to young people who come 
here to this country, who obviously did not have a choice when 
they came. They came with their parents who came here on an 
undocumented basis. And, when you hear those stories, they are 
just so compelling as to why we need to have reform in our 
immigration system to make sure that these young people, who 
really know no other life except that as of an American.
    I have examples of two individuals, a young woman who I 
know who entered the United States from Albania, when it was a 
war-torn country, and she entered this country when she was 5 
years old, and lived here her whole life, knows no other life. 
Currently, her mother works, or worked 16-hour days at a bakery 
that she created when she came here in order to save for her 
daughter's education. This young lady worked very hard in 
school. She graduated with a 4.4 grade point average (GPA), 
which is not an easy thing to do. I did not know you could get 
more than four points. I guess things have changed. But, she is 
a 4.4 GPA, and with her record, she was admitted into the 
University of Michigan. Her dream is to become a surgeon and a 
physician, and yet she is here on an undocumented basis and the 
government would like to deport her, which makes no sense to me 
whatsoever.
    We have another young woman who also had similar struggles 
who we have been talking to in our office, and she entered into 
the country with her folks in an undocumented basis when she 
was 10 years old. She was on a 4.0 student, took all advanced 
placement (AP) courses, graduated in the top one percent of her 
high school, had many struggles, but she did graduate from the 
University of Michigan. She has a triple major in political 
science, psychology, and sociology with a 3.9 GPA from the 
University of Michigan. And, if it was not for the Deferred 
Action for Childhood Arrivals (DACA) protections from the 
President, she would have been deported, which makes no sense 
to me.
    I have no idea how this is good public policy for the 
United States, where we have these young people who have come 
here, have lived here, are living the American dream, or 
working hard in school, moving forward.
    So, my question is to you, Mr. Garza, I know in your 
prepared remarks you state that immigration reform should 
address the children brought here through no fault of their own 
and allow for the undocumented population to ultimately become 
citizens after paying back taxes and any other appropriate 
penalties, and I certainly could not agree more after these two 
examples, and there are other examples. We get a lot of cases. 
Michigan has a very diverse population. The congressional 
district that I represented prior to being elected to the 
Senate was extremely diverse.
    So, if you would comment and, first off, I guess, do you 
support the President's executive action relating to DACA?
    Mr. Garza. We do not call on rescinding the executive 
action----
    Senator Peters. You do not? You do not support it.
    Mr. Garza. Not on rescinding it, no. We have made our 
feelings known about the Deferred Action for Parents of 
Americans (DAPA), the other one, that we felt was----
    Senator Peters. DAPA.
    Mr. Garza. DAPA, right, exactly, that we felt was executive 
overreach, that the President must have the permission and the 
consent of Congress before moving on a policy that confers 
benefits onto anyone, that that is the role of lawmakers and 
that he should respect that role, so that there is not any 
opportunity for rescinding that law, that folks do not enlist 
and then they are exposed or to deportation, possibly, and are 
victims of a good faith effort on their part, so we want to 
avoid all that. But, I could not agree with you more when it 
comes to Dreamers and the situation with the children who come 
here, who were brought by the parents, the parents who came 
here seeking opportunity.
    Senator, let me just say, back in the 1920s, we had an 
amendment. It was called Prohibition. And, that law said that 
nobody could produce, consume, or distribute alcohol, and it 
was illegal to do so. Yet, millions and millions of Americans 
violated that law. It was a felony to do so. Were they bad 
people? It was a bad law, is what it was. Sure, there were some 
bad elements during that situation, but the same is here.
    For want of opportunity, folks have violated the law. We 
can stipulate to that. But, it is to meet labor demand. They 
come here to work, not to violate the law. Are they bad people? 
No, it is a bad law and it is something that I think we can 
fix, that we can address and we can resolve, and it would 
alleviate the problem with these children, who have dreams, who 
have aspirations. And, we want to honor those aspirations and 
honor, really uphold, our own ideals as a Nation of immigrants 
and allow people to thrive.
    Senator Peters. I appreciate your comments related to the 
executive action, but I think we will agree that this is 
definitely Congress's action to take. It is unfortunate that 
Congress simply refuses to take this action. All of this debate 
we are talking about the actions that the President has taken 
or has not taken all could be moot if Congress just stepped up 
and passed comprehensive immigration reform, which deals with 
all the issues that we have been hearing about here today in 
this hearing, whether it is visas or the DACA program, the 
Dreamer program, go down the list, Congress needs to act.
    Unfortunately, too many of my colleagues are spending time 
pointing fingers and blaming the President for this or that, or 
accusing others for this, instead of getting the work done, 
just rolling up our sleeves and getting the work done. And, so, 
absent the President's action, these two young ladies that I 
talked about, they would be deported. It makes no sense 
whatsoever. I cannot think of any public policy reason why you 
would take two outstanding young women who are going to be 
great contributors to this country, who are pursuing their 
dreams, the very basis of what this country was built on.
    I look around--I think everybody in this room who is a U.S. 
citizen came here from somewhere else, their family did. My 
mother came here as a naturalized citizen. But, we all came 
from something else, somewhere else, to make this country. So, 
we have to take action.
    I would hope that groups like yours, instead of spending 
time attacking the President, would instead tell Congress to 
get our act together. Roll up your sleeves. Quit making this a 
political issue. Make this the human issue that it is that 
impacts families and let us take action on that. So, I would 
certainly hope that everyone on this panel would do that, as 
well.
    I am out of time. Thank you.
    Senator Carper [presiding.] I am Tom Carper and I approve 
that message. [Laughter.]
    Let me just say, this is a great panel.
    Randel Johnson, do people ever call you Randy?
    Mr. Johnson. Randy, like the baseball player. [Laughter.]
    Senator Carper. I had the pleasure--we live in Delaware, 
and Philadelphia is not too far from us, so we had a chance to 
watch him pitch from time to time. Boy, he was good. He was 
really good.
    Mr. Johnson. He was making more money back then, too.
    Senator Carper. It is amazing what they pay these guys 
these days.
    Well, happy you are all here, and I apologize for having to 
slip out. We had some people who came by to talk to me about 
building aircraft carriers. I am an old Navy guy. We are down, 
I think, from 11 to 10 carriers and they were trying to tell me 
why we ought to build an 11th carrier. It costs $13 billion. We 
are going to overhaul the George Washington, which is almost 25 
years of age. We can overhaul it for about $600 million and it 
will go another 25 years. Pretty good, huh?
    I was just telling them, I have taken a bunch of Boy Scouts 
down to the Norfolk Naval Station over the years for a weekend, 
just for a good experience for the kids. One year, we visited 
the Teddy Roosevelt, which is a nuclear carrier, and the 
captain of the ship came out on a Sunday morning to welcome the 
boys on board the Teddy Roosevelt. And he said to our Scouts, 
25 or so of them, and about a half-dozen adults, he said, 
``Boys, he said, ``when the Teddy Roosevelt goes to sea, it is 
1,000 feet long.'' And the boys went, ``Ooh.'' And he said, 
``Boys, when the Teddy Roosevelt goes to sea, it is 35 stories 
high.'' And the boys went, ``Ooh.'' And he said, ``Boys, when 
the Teddy Roosevelt goes to sea, it has 5,000 sailors on 
board.'' And the boys went, ``Ooh.'' And he said, ``And when 
the Teddy Roosevelt goes to sea, there are 75 aircraft on 
board.'' And the boys went, ``Ooh.'' And then the skipper of 
the ship said, ``And, boys, when the Teddy Roosevelt goes to 
sea, it refuels once every 25 years.'' And the adults went, 
``Ooh.'' [Laughter.]
    Every 25 years, we have to overhaul them for $600 million. 
And, having made a $13 billion investment, then we get another 
25 years out of the ship. That is smart. That is not cheap, but 
I think it is a good investment. And, as my dad would say, it 
is using common sense. My dad was an old Navy guy, too.
    But, let us think a little bit about common sense and let 
us think about not just values, but common views, a commonality 
of consensus. And, one of the great things about a Committee 
like this, or a hearing like this with a panel of witnesses 
like all of you is you are going to help us get to consensus. 
In fact, you are already making your contribution toward that 
and we appreciate that very much.
    Dr. Zavodny--that is a great name. Has that always been 
your name?
    Ms. Zavodny. Yes.
    Senator Carper. Yes, I would keep that one.
    Ms. Zavodny. Thank you.
    Senator Carper. Dr. Zavodny laid out for us, I do not know, 
about five or six elements of a well designed guest worker 
program, and you know what I am going to ask you to do is just 
mention those again, and then I am going to ask these men that 
are sitting around you for them just to comment on your points. 
I thought they were well taken.
    Ms. Zavodny. I am a professor. I give the quizzes, usually. 
[Laughter.]
    Here are those points. First, it would respond to the 
business cycle. Second, it would----
    Senator Carper. Go through these very slowly. First----
    Ms. Zavodny. Respond to the business cycle.
    Senator Carper. OK.
    Ms. Zavodny. That would be that you would increase the 
number of visas when the economy is growing faster.
    Senator Carper. Yes.
    Ms. Zavodny. Second, it would be market-driven so that 
employers would choose the workers with the skills that 
employers want.
    Senator Carper. Yes.
    Ms. Zavodny. Third, it would encourage circularity. I think 
this is the one on which we may disagree the most.
    Senator Carper. That is the ability to move back and forth?
    Ms. Zavodny. Right. And so, the current programs--I will 
say very little, very few good things about the current H-2 and 
H-2B programs, but they actually do this. There are very few 
visa overstays that we know about from the current worker 
programs.
    Senator Carper. That is interesting.
    Ms. Zavodny. Because you get to come back if you went home. 
You can come back again and again and again and earn money for 
your family.
    Senator Carper. Yes.
    Ms. Zavodny. The fourth category is portability, so this is 
being able to move across employers.
    And then the fifth is increased interior enforcement at 
workplaces, particularly through mandatory E-Verify.
    Senator Carper. OK. All right. Let us just take them one at 
a time. Just go back to the first one. Just mention the first 
one again.
    Ms. Zavodny. Sure. So, the first one is that it is 
responsive to the business cycle, that when times are good, we 
increase the number of visas.
    Senator Carper. Yes. I would welcome--Marc, do you want to 
start us off with your thoughts, and then we will----
    Mr. Rosenblum. Sure. So, I certainly agree. I think 
everybody probably at this table agrees that the system should 
be more responsive to business cycles, but that means not only 
going up when the economy is booming, but also going down when 
it is contracting.
    Senator Carper. Good.
    Mr. Johnson, the real Randy Johnson.
    Mr. Johnson. Right. Yes, well, I think it is pretty clear, 
I do agree with that. The question is, when we talk about 
escalators, what is the formula, and I can tell you that we 
spent many weeks trying to figure that formula out when we were 
negotiating with the AFL-CIO on the program that wound up in 
the Senate bill. So, the concept is easy. How do you measure 
that business cycle? What is the escalator in terms of how the 
numbers go up and down----
    Senator Carper. What did you all finally agree on, do you 
know?
    Mr. Johnson. It was a mixture of weights and this and that. 
It is complicated.
    Senator Carper. Yes. Dr. Rosenblum.
    Mr. Rosenblum. Yes, if I could just come back in on this. 
The complicated formula that they came up with in S. 744 is 
very complicated. One of the things that MPI has recommended is 
for Congress to commission an expert panel along the lines----
    Senator Carper. Like this one.
    Mr. Rosenblum. Yes, like this one, but along the lines of 
the Congressional Budget Office (CBO) or the Congressional 
Research Service that would advise Congress on how to adjust 
numbers up or down on a regular basis, because it is such a 
complicated issue and we are not going to come up with a 
formula just by looking at the unemployment rate and wages. You 
are going to want a bipartisan panel of serious people to 
figure this out and then make recommendations to Congress, and 
then ideally have a mechanism for those recommendations to be 
binding unless Congress overrides them.
    Senator Carper. And, Randy, having gone through the 
negotiations with the labor folks, what did you learn about 
making the next negotiation, or should we just take in full 
cloth what you came up with in that negotiation?
    Mr. Johnson. Well, those were different times and different 
situations. There is the old saying, as you all know better 
than anybody, Senator, there is no deal until there is a whole 
deal. So, everything depended on other parts of the bill and 
what did we give here, what----
    Senator Carper. Yes.
    Mr. Johnson. And, so, I hate to just make a category--it 
just all depends on lots of other factors.
    Senator Carper. OK. That is a good point. All right. Mr. 
Garza, thank you very much, all of you, for your testimonies. I 
thought your testimony was especially heartfelt.
    Mr. Garza. Thank you.
    Senator Carper. I appreciated that story, because, really, 
you told a story. I once asked Bill Clinton why he was such an 
effective communicator and he said, ``Well, what I do is try to 
tell a series of stories in order to make more complex points. 
And,'' he said, ``people understand stories. They get involved 
in the story and they understand.'' So, you told us quite a 
compelling story.
    Mr. Garza. Thank you so much. Well, it comes from my 
parents, who were just wonderful people, wise beyond their 
fourth-grade education, and so I learned so much from them, I 
wanted to share that.
    Senator Carper. I always tell people--people say, why have 
I--or ask me why I have had some success in my life. I always 
start off with, I picked the right parents. [Laughter.]
    Mr. Garza. That does have a lot to do with it.
    I could not agree more. I think it does have to respond to 
market forces. I think we have to have a sensible, predictable 
labor force that matches the right skills, but also, the market 
is dynamic. The market turns. It ebbs and it flows, and I think 
we need to have a system, or at least a reform that responds in 
real time.
    So, I think folks get the information in Central America, 
in Mexico, and in other parts of the world about what is 
happening in the economy in Mexico and they also move in real 
time. Look, I mean, the fact is, man is in motion. Man has 
always been in motion, seeking opportunity. We need to have a 
dynamic program that allows to marry a willing worker with a 
willing employer.
    Senator Carper. OK. Dr. Passel.
    Mr. Passel. I am going to have to beg off on this. My 
organization, the Pew Research Center, is what we call a fact 
tank and we assiduously avoid taking positions on policies. We 
try to provide data that can be used to address them. So, we do 
not study the mechanisms for providing guest workers, so I will 
not venture an opinion on this.
    Senator Carper. All right. Fair enough.
    Let me ask another question. This is a little off the 
beaten path, but how many of you have ever met anybody who was 
born in Iowa? Raise your hand if you actually met somebody born 
in Iowa. No? Iowa.
    How many of you have ever met anybody born in, say, in 
Montgomery County, Iowa? Montgomery County.
    And, how about in Red Oak in Montgomery County, Iowa? Well, 
if you have not, you are just about to meet one and she is 
going to ask some questions, as well, and her name is Joni 
Ernst. Joni, welcome.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you very much, Senator Carper. I 
appreciate you having this hearing today.
    Senator Carper. We did it just so I could tell them where 
you were born. [Laughter.]
    Senator Ernst. I do want to apologize. We do have a lot of 
hearings this morning. But, I appreciate your testimony today. 
This is a very important topic for all of us.
    So, my first question, Mr. Garza, if you would, please, in 
the eyes of someone that is crossing the border illegally from 
Mexico or from Central America, would you say it is their best 
belief or their belief that if they can just get into the 
United States, that they will be granted citizenship or legal 
status in a much faster manner through the President's recent 
Executive Orders (EOs) rather than going through the legal 
process?
    Mr. Garza. Regrettably, there is a lot of distortion, a lot 
of communication that gets down to Central Americans, people 
who are in desperate need to improve their lot in life, and 
unfortunately, I think when ``la necesidad'' exists, they are 
more prone to believe just about anything. There are coyotes 
and traffickers who will deal in distortions and appeal to 
people's good faith and sell them a bad bill of goods, and that 
has happened. It has occurred, a lot of it directly because the 
executive action allowed for that opportunity to distort the 
truth, and a lot of folks came and surged the border.
    I mean, I saw that. I live five blocks from Anzalduas 
Bridge in Mission, Texas, and so we had to deal, then, with the 
result of that, with the repercussions. And, luckily, we have 
good people in our community in McAllen, Texas, who got 
together, who provided resources, who provided toys to the 
children and acted compassionately. But, yes, the feedback that 
we got from them was that there was a lot of distortion of the 
truth.
    Senator Ernst. Do you think a lot of that is coming from 
the governments in that area, or is it more from the 
traffickers that are trying to funnel people with other illicit 
types of goods to the United States? Where do you think a lot 
of that is coming from?
    Mr. Garza. Honestly, I could not tell you with certainty, 
but I do know that it is coming from the traffickers. I do know 
it is coming from that illicit market, and they trade in human 
beings and sex slaves and the drug cartels that push this 
information. I cannot tell you with certainty that it comes 
from the governments. That would be a crying shame.
    Senator Ernst. Yes. I agree, it would be.
    Any thoughts from the panel on that, just belief--yes, sir. 
Go ahead.
    Mr. Rosenblum. I know that the governments are very 
actively discouraging that misinformation. I think the United 
States believes that those governments are working pretty 
closely on an information campaign to combat that. So, I would 
not hold the governments responsible.
    But, the other thing, I think it is also easy to 
overestimate the importance of the President's executive action 
in enticing people to come, and the reason I say that is that 
what we saw in the last 2 years is a huge surge of children 
coming from Central America, but no change at all, and actually 
a slight decline, in children coming from Mexico. So, if there 
is a general view that if you get here, you get DACA, you would 
expect that the Mexican numbers would come up, but they have 
not. They have been flat or slightly down. So, there is clearly 
something happening in Central America that is causing people 
to come. It is not just that everybody is responding to DACA 
because we do not see Mexicans responding to DACA.
    Senator Ernst. OK. Any other thoughts on that from the 
panelists?
    [No response.]
    OK. Well, I appreciate that very much.
    How many do you anticipate, in light of the 
Administration's policies from 2014, how many do you 
anticipate, those that are living in the shadows now, how many 
do you anticipate will come forward after the declaration? 
Maybe you can address that, Dr. Rosenblum.
    Mr. Rosenblum. From the executive action?
    Senator Ernst. Yes.
    Mr. Rosenblum. Well, I mean, as you know, there was the 
2012 announcement of the original Deferred Action for Childhood 
Arrivals program, and we estimate that about 1.2 million 
unauthorized children are eligible for that program and a 
little over half have come forward.
    The 2014 announcement would have expanded the program for 
children and created a new program for parents, and both of 
those are on hold, pending the lawsuit in Texas. But, we 
estimate that, I believe the number is another 4.9 million 
would be eligible for those two programs if they are fully 
implemented. So, that is the maximum that you would expect to 
see, depending on what share of that population takes advantage 
of the program.
    Senator Ernst. Anyone else? Yes, sir.
    Mr. Passel. Our numbers of the eligible are in the same 
range. They are a little bit lower. We have no idea who is 
likely to come forward. We have two examples. We have the 1986 
IRCA legislation and we have the DACA program. In both of 
those, if you look at estimates of how many people might be 
eligible, it looks like 60 to maybe 70 percent of the people 
who were eligible actually came forward. Under DACA, our 
estimate is at 1.1 million and about 600,000 so far have come 
forward, and under IRCA, the estimates were there were about 
2.5 million or so eligible and 1.6 million came forward under 
the general program there.
    So, in the range of half to two-thirds if you have decent 
estimates of how many might be eligible. The Migration Policy 
Institute, the Pew Research Center and DHS have done some 
estimates, and they are all in the same ballpark of four to 
five million people who might be eligible.
    Senator Ernst. And, it does look like the estimates vary, 
of course, by State. A lot of States will be impacted in a 
greater manner than probably most States like Iowa. I was 
surprised to see in the Pew research that we have in Iowa about 
40,000 unauthorized immigrants. That is the information that 
was provided to us. And, that is about 3.5 percent of Iowa's 
total population. Obviously, States like California or Texas or 
others would be impacted greater by any further executive 
actions or, one way or another, what happens with this court 
decision.
    So, I appreciate the testimony today. I look forward to 
hearing more as we move forward. Thank you.
    Thank you, Mr. Chairman.
    Senator Carper. Thanks so much for coming and for your 
questions----
    Senator Ernst. Thank you.
    Senator Carper [continuing]. And for letting us introduce 
you.
    Before you got here, Senator Lankford, I queried the panel 
and gave them a little quiz on the background of Senator Ernst. 
I am not going to do that with you, but it was a lot of fun to 
do that with her. But, this guy has a great background and 
great preparation for this job, as well, so you are on.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Deal. Thank you.
    I have a couple of questions just about countries of origin 
and where I think it is pretty commonly understood that the 
population that is here without documentation, illegal, 
whatever term that you want to use, are really from four 
countries, and I want to see if you all agree: Mexico, El 
Salvador, Honduras, and Guatemala, the vast majority. Do we 
know what percentage, if the numbers are somewhere around 11 
million, let us say, 11.5 million, what percentage of those are 
from those four countries?
    Mr. Passel. I will take that. Actually, Mexico is truly an 
order of magnitude larger than the others. Our most recent 
estimates are that Mexico accounts for about 5.8 to 5.9 million 
of the 11.2 million, so it is over half, about 52 percent.
    El Salvador, we estimate around 675,000, so it is a good 
deal smaller, but does represent about 5 or 6 percent of the 
total. And, Guatemala and Honduras are a little bit below that, 
around half-a-million to 400,000.
    So, if you put all of those numbers together, it is a 
little bit over seven million. So, somewhere around 70 percent 
of the unauthorized immigrants are from those countries. But, 
again, it is really Mexico that is the driver of this. The 
others are large relative to the populations of their countries 
and relative to the number of legal Hondurans, Guatemalans, and 
Salvadorans here, but the numbers are just a lot smaller than 
the Mexicans.
    Senator Lankford. So, what percentage do you think of those 
are connected in some way to the protected temporary status 
from Hurricane Mitch back in the 1990s or from the temporary 
protected status was given to the Salvadorans from the 1980s?
    Mr. Passel. The numbers, if I recall correctly, are about a 
third of the Salvadorans that are included in that are covered 
under the temporary protected status. For the others it is a 
little bit smaller, a quarter of the others.
    Senator Lankford. Do you assume that a majority of those 
that are coming, then, as family members, are connected in some 
way as family or connection to those that were given temporary 
protected status before?
    Mr. Passel. I really do not know.
    Senator Lankford. Did we see a large influx before that, I 
guess is part of my question. So, you go back to prior to that 
temporary protected status. Was there a large influx of 
individuals from Honduras and from El Salvador into the United 
States, or did that accelerate after that temporary protected 
status?
    Mr. Passel. I think the numbers, in general, from all 
countries, accelerated in the late 1990s and early 2000s. It 
seems that the ebbs and flows that we have seen are more tied 
to the economic booms and recessions so that we did see the 
numbers, in general, particularly Mexicans, grow rapidly in the 
2000s and in the 1990s. They slowed a little after 2001, and 
then they picked up as the U.S. economy picked up. And then 
after 2007, the numbers dropped a good deal.
    Senator Lankford. Right, but we are not seeing the large 
influx of Nicaraguans or folks from Costa Rica or Belize, 
Nicaragua obviously having a very tough economy right now, as 
well.
    Mr. Passel. No, but there are only about 2.5 million 
Nicaraguans.
    Senator Lankford. Right.
    Mr. Passel. It is not a big country, so----
    Senator Lankford. Has there been a breakdown that you have 
seen that you would consider reliable within the United States 
of where these different groups land? So, that is, Salvadorans 
end up typically in these three or four areas. Obviously, 
Mexicans, the largest population, very diverse around the 
United States. But, of those from those three Central American 
countries, have you seen a reliable breakdown of where they 
land?
    Mr. Passel. We have put out some of that and we have some 
unpublished data on that. A report we put out back in November 
had the top three countries for every State in terms of their 
unauthorized and we have some more detail on it that we have 
not published.
    Senator Lankford. OK. I would be interested in getting 
that, so thank you all for your work. Thanks for allowing me to 
be able to step in.
    Senator Carper. We are just glad you came. This man has 
been down in that part of the world and shows every intent of 
going back and being a part of working all of this out, which 
is good.
    Senator Ernst, do you have other questions?
    Senator Ernst. Thank you, Mr. Chairman. Of course. I will 
just quickly follow up.
    So, it is very frustrating, because we do have a legal 
immigration process in place. I think many of us would agree or 
disagree, that it does need to be modernized in some form or 
manner, and I know you have had some discussions on that 
already. Mr. Garza, you did mention, also, in your written 
testimony, that most immigrants would not risk their lives to 
illegally come to this country if we had a viable legal option, 
and yet we do have 41 million immigrants that are here in this 
Nation and most of them have come here legally.
    So, it is very frustrating, I think, to many of the other 
legally immigrated populations to see illegal immigrants come 
here and gain some sort of status, whether it is through 
executive action or other. Can you give us some more 
information, maybe, from those populations on their frustration 
with this, or are they not frustrated at the fact that people 
come here illegally and then are granted status?
    Mr. Garza. Sure. I think, like all Americans, folks who 
came here as immigrants have a vested interest in, obviously, 
having a healthy society, a vibrant society, where rule of law 
is respected. You see that both in the Latino community, in the 
black community, and in the Anglo community.
    Look, as Anglos, I think we are just as proud of our 
country as anybody else. We have shed our blood on foreign 
battlefields to protect this country and our ideals, our 
Constitution. Ideally, what you want is everybody to respect 
the rule of law. But, sometimes you have a broken system where 
labor demand is--cannot be accommodated, where, also, those who 
seek opportunity, there is no viable option for them to come to 
America. And, so, what you have is a misalignment of labor 
demand and what the law is.
    The IRCA Act did accommodate for the three million, at the 
time, that were here illegally, but it did not accommodate for 
future flows, which is why we have the condition we have today. 
And, these are, like we have all said, good, decent, hard 
working, otherwise law-abiding folks who are searching for 
opportunity. Public policy must allow people to thrive and 
people to participate in a rational activity of selling their 
labor and buying labor.
    Remember, because in all of this, if I could say in 
parentheses, that there are millions of Americans who are also 
violating the law by hiring folks who are here unauthorized.
    Senator Ernst. That is correct.
    Mr. Garza. And so, in a way, the law has to be accommodated 
for them, too, where we can legalize their relationship, for 
these kind of business relationships. So, we are unable to do 
that with the current law, Senator.
    Senator Ernst. OK. Thank you. I appreciate that.
    And, I am sorry, Ms. Zavodny, is that correct?
    Thank you so much. Immigration bills typically, they score 
high from the CBO because CBO estimates that many will become 
part of the formal economy. What percentage of the unauthorized 
population is currently already working in the formal economy?
    Ms. Zavodny. The best estimates that we have are from 2007 
from the Congressional Budget Office and they are that about 
half of unauthorized immigrants who are working are on the 
books, so that they are paying payroll taxes and, in many 
cases, Federal income taxes, as well.
    The one caveat I would add to that is that the 2007 
estimate and my best guess would be that the fraction is maybe 
a little bit lower now because of States that have adopted E-
Verify. In those States, there has been a move out of those 
States, first of all, by unauthorized immigrants, but among the 
unauthorized immigrants who have stayed in States that have 
adopted E-Verify, there is also a movement toward working off 
the books because it is much harder to get a formal sector job.
    Senator Ernst. Right. Thank you very much. I appreciate 
that.
    I do think that most of us agree that we are a Nation of 
laws. We are a Nation of immigrants. We need to enforce the 
laws, but I do think that there is room for movement with our 
legal immigration process. It is just finding what we can agree 
upon and implementing those changes. So, I do appreciate your 
testimony today and look forward to working with all of you in 
the future on this tough issue. Thank you.
    Senator Carper. Thanks for your questions. Thanks for being 
so faithful in your attendance.
    Senator Ernst. Thank you. Thank you, Senator Carper.
    Senator Carper. How many other Committees do you serve on 
now?
    Senator Ernst. I am on three other Committees.
    Senator Carper. I said to her yesterday when she was 
leaving, there was a time I served on five Committees, and we 
have some people who do that today, and it is really hard to be 
able to do justice to all of those.
    I am going to go back, Dr. Zavodny, to the five points that 
you made, and I would ask the other witnesses to just quickly 
walk through them. The first one, I think, dealt with being 
able to respond to the business cycle. And the second point 
dealt with enforcement. And, one of the things that you said in 
your testimony, I just want to repeat it again. You said a well 
designed program would allow employers to hire workers who have 
the skills they seek. But, you also go on to say, of course, a 
guest-worker program needs to involve enforcement of minimum 
wage laws, overtime pay requirements, and workplace safety and 
health relations. Payroll tax treatment and employer-sponsored 
health insurance requirements for guest workers must also be 
equivalent to those for domestic workers.
    Let me just ask, do each of the other four witnesses agree 
with that statement? And, just say yes or no. Dr. Rosenblum.
    Mr. Rosenblum. Certainly, and there has been----
    Senator Carper. OK. That is all you have to say.
    Mr. Rosenblum. Yes. [Laughter.]
    Senator Carper. Good. Mr. Johnson.
    Mr. Johnson. Right. Yes, the Chamber does agree on all 
those principles and we long have agreed on those.
    Senator Carper. All right. Good. Mr. Garza.
    Mr. Garza. I am sorry. Could you repeat those principles--
--
    Senator Carper. I would be happy to.
    Mr. Garza [continuing]. Because you drilled down, is what 
you did.
    Senator Carper. Sure. I will just use Dr. Zavodny's words. 
Of course, a guest worker program needs to involve enforcement 
of minimum wage laws, overtime pay requirements, and workplace 
safety and health regulations. Payroll tax treatment and 
employer-sponsored health insurance requirements for guest 
workers must also be equivalent to those for domestic workers.
    Mr. Garza. Yes.
    Senator Carper. Thank you. Dr. Passel.
    Mr. Passel. Pass.
    Senator Carper. OK, good.
    The third point that you made, Dr. Zavodny, dealt with 
circularity, and I think you said a guest worker program should 
encourage circularity by allowing guest workers to come back to 
work in the United States in the future if they return home 
when their contract is up. Another good way the current H-2A 
and H-2B programs encourage circularity is by not allowing 
temporary foreign workers to bring their family members with 
them.
    Dr. Rosenblum, your reaction to that.
    Mr. Rosenblum. Certainly, if we had more legal visas, we 
would likely see more circularity. Historically, workers have 
traveled back and forth between the United States and Mexico a 
lot more than they do today. I think that I would prefer to see 
a guest worker program that had provisional visas that would 
allow people to potentially remain in the United States. So, 
you do not want to compel circularity if people are successful 
workers in permanent positions and their employers want to 
promote them and they may have families here. So, a flexible 
system allows but does not require circularity.
    Senator Carper. OK. Fine.
    Ms. Zavodny. May I interrupt? I am not an immigration 
lawyer, I am an economist, and Randy Johnson points out that I 
was wrong. The H-2A and H-2B programs do allow workers 
currently to bring their immediate family with them.
    Senator Carper. OK, good. Thanks. Thanks for noting that. 
Gosh, he is even smarter than I thought.
    Mr. Johnson. See, we have a small business guide in 
immigration law. It is very useful.
    Senator Carper. There you go.
    Mr. Johnson. We will send up a couple of boxes.
    No, we agree with those principles. I think there is often 
an issue in these debates in terms of what conditions would 
someone who works in a so-called temporary worker program be 
able to move to green card status, and the Senate bill had a 
very complicated sort of deal on that depending on points. And, 
then, there are those who would prefer that a true temporary 
worker program be temporary, which is people can come, but they 
must leave, on sometimes a three-to-one--work 3 years, stay out 
of the country for one year, come back, and that sort of thing. 
So, that is an area of much debate within both Republicans and 
Democrats. But, we certainly agree that there needs to be 
circularity.
    Senator Carper. OK. Thanks.
    Mr. Garza, just very briefly.
    Mr. Garza. Absolutely. I think we feel that circularity is 
fundamental to any temporary worker program. I think the 
current focus on border enforcement right now is trapping 
people here and keeping them from actually going back to their 
countries of origin and that should change.
    Senator Carper. Thank you. Dr. Passel.
    Mr. Passel. Just to pick up on that point, one of the 
things that we have seen over the past 7 or 8 years, and the 
mechanism seems to be the one that Dr. Rosenblum addressed in 
his testimony. The enforcement at the border seems to be 
keeping people in the country as much as stopping people from 
coming in. So, when we look at the unauthorized population 
today, over 60 percent have been here 10 years or more. And, if 
we go back to 2007, it was about a third of them who had been 
here 10 years or more. So, the period of enforcement has led to 
people staying longer and we are not seeing many new people, 
but the ones that are here are definitely staying.
    Senator Carper. OK. The fourth point that Dr. Zavodny made 
is, unlike the current H-2A and H-2B programs, a well-designed 
program would allow visa portability or for guest workers to 
easily move across employers. Would you react to that, Dr. 
Rosenblum?
    Mr. Rosenblum. It is a very important issue and definitely 
a way to strengthen workers' ability to sort of defend their 
labor rights.
    Senator Carper. OK. Thank you. Mr. Johnson.
    Mr. Johnson. Yes, with a caveat, which is I think you have 
to look at the degree and the length of the program. For 
example, Senator, if it is a very short-term program, you 
cannot expect an employer to go through a lot of these costs of 
recruitment, and then they can part within 10 days, by the time 
they come over here with the employer that went through all 
that work.
    So, sometimes in these programs we have talked about 
portability after 3 months. But, it sort of depends on the 
length of the program. The shorter it is, the less sense it 
makes. Also, those you have to port to--you can port to--should 
also, of course, have gone through a process of showing there 
is a shortage of American workers, and the construct we had in 
the AFL-Chamber deal went through that.
    So, that is a little bit of a longer answer than you 
perhaps wanted, but yes, we agreed with portability with some 
exceptions depending on the program length.
    Senator Carper. Good. Thank you. Mr. Garza.
    Mr. Garza. We feel portability honors and upholds the 
ideals of a free market and the free market should benefit both 
the employer and the employee. And so, I think the employee who 
comes in under a visa should be free to seek either better 
opportunities, and they have, I think, the preference, really. 
And, look, let me just say, also, that when I was 15, I was 
working with my father in the hot fields and a crew came over 
and asked Dad if he could go to the farm owner and ask for a 
raise, because he spoke English. Dad went in and asked for the 
raise and the farm owner fired him for asking for a raise. My 
dad was a permanent resident. He had options. What if he had a 
visa? What was he going to do?
    So, there should be opportunities in the free market for 
folks to sell their labor to who they want, when they want.
    Senator Carper. All right. Thanks.
    Just very briefly, Dr. Passel.
    Mr. Passel. And, again, that is something that we do not 
take a position on----
    Senator Carper. All right. Thanks.
    I am going to come back, and we have a fifth point, but on 
the next round, I want to come back to the fifth point and ask 
for your reaction to that one related to E-Verify. Thanks.
    Thanks, Mr. Chairman.
    Chairman Johnson [presiding.] Thanks, Senator Carper.
    I think it is a reality that the more we have secured the 
border, the more we have locked in here and we have reduced 
that circularity.
    I am by no means an expert in the Bracero program. Anybody 
here able to speak to that? Mr. Rosenblum. So, what I have done 
in the past, and let me do it real quick, we have a history of 
passing laws that are going to fix these problems. They do not 
fix the problem. So, I have been starting in the 1986 
Immigration Reform and Control Act, and we had about 3.9 
million illegal immigrants. Then, the 1990 Immigration Act, 
about 3.5 million. In 1996, another act, 6.2 million. In 2001, 
part of the PATRIOT Act, 9.6 million. In 2002, we are up to 
10.2 million people. In 2004, a piece of legislation, we are up 
to 11 million. The Secure Fence Act of 2006, 11.7 million. It 
just has not worked, and that is kind of my concern.
    So, talk to me--when we had the Bracero program, I do not 
think we had good, accurate information in terms of how many 
people might have been in this country illegally, but it is, by 
the way, a rational economic choice for people to come from 
Central America and Mexico. With that kind of wage 
differential, I mean, you can literally come up here, work 
agriculture for 2 or 3 months, earn a year's worth of salary, 
and go home, as long as they can go back and forth. So, just 
talk a little bit about how the Bracero program worked and why 
it was ended.
    Mr. Rosenblum. Well, so the Bracero program was a very 
large, mostly--eventually all-agricultural guest-worker 
program. At its peak, it admitted about 450,000 Mexican 
temporary workers a year. It did succeed in, for the most part, 
most Mexican immigrants working in the United States during the 
program worked in the program. There was certainly some 
leakage. Some people left and became unauthorized immigrants, 
but I think the view is that a lot of people moved back and 
forth--it was a circular program--the way it was intended.
    I think the program was very criticized on the left 
because, although it had wage and working condition guarantees, 
they were not enforced, and this is an issue that will matter 
in any new or expanded temporary worker program we have today. 
I mean, to say you are going to have wage and hour guarantees 
and working conditions guarantees does not mean very much if 
they are not going to be enforced. And, when you look at the--
so, just to give one quick statistic, between 2009 and 2013, 
there were 251,000 H-2B visas issued and 60 H-2B employers 
investigated. So, just to put wage and hour requirements on 
paper does not mean they will be enforced, and so that was what 
the real critique of the Bracero program was----
    Chairman Johnson. I would argue, just passing a law does 
not necessarily mean we are going to fix the program.
    Mr. Rosenblum. Right.
    Chairman Johnson. And, Mr. Johnson, I hate to pick on you, 
but, again, I just kind of want to go back, because I hear it 
all of the time, if we just would have passed the Senate 
comprehensive immigration bill, literally, everything would be 
coming up roses and we would have fixed this problem.
    I just want to go back to, from my standpoint, why this 
just was not going to work. So, you have 8.1 million 
undocumented workers in this country. The Senate bill called 
for 90 percent control of the border, basically, when we have 
heard testimony, again, it is maybe only 30 or 40 percent, 
maximum 75 percent. We have heard other things. We have 40 to 
50 percent. Nobody knows. That is the problem. Nobody knows.
    So, we have a guest worker program, a number of guest 
worker programs, just quick off the top of my head, maybe 
allowing a half-a-million workers of the 8.1 million. So, that 
is 7.5 million workers. What is happening to those folks? I 
mean, how was this ever possibly going to work?
    Mr. Johnson. Senator----
    Chairman Johnson. And, again, I will stipulate, I realize 
it was a negotiated bill, but I am just trying to get to the 
point, this was not a panacea. This was not the solution to the 
problem. Trying to find solutions, I am afraid I have to 
highlight that reality so that we do not delude ourselves 
saying, all we had to do was pass that bill and we would have 
fixed it. We would not have fixed it. Unless I am wrong. Tell 
me where I am wrong.
    Mr. Johnson. Senator, I worked 10 years in the House as a 
staffer. I would never call what came out of the Senate a 
perfect bill, just as a matter of principle. [Laughter.]
    Chairman Johnson. Well, again, would it have any chance of 
working even slightly?
    Mr. Johnson. We always thought there would be changes in 
the House and we always told our negotiators in the House, let 
us do something different and let us meet in conference. So, we 
knew there had to be improvements along the road.
    The Senate bill was--yes, I know you do not want me to say 
it to you--it was a matter of compromise, but it got us down 
the road. And, no, it would not have worked perfectly. There is 
no perfect mousetrap, but at least it would have gotten----
    Chairman Johnson. What would have happened to the 7.5 
million people in this program? I mean, what would have 
happened? Do you really--when do you think----
    Mr. Johnson. Well, no----
    Chairman Johnson. When do you think it would have changed 
from 90 percent----
    Mr. Johnson. I think you are missing the----
    Chairman Johnson [continuing]. Over the border?
    Mr. Johnson. The 7.5 million, who I think you are referring 
to, are the undocumented who are here.
    Chairman Johnson. They are working right now----
    Mr. Johnson. Right.
    Chairman Johnson. The bill is----
    Mr. Johnson. No, they would----
    Chairman Johnson [continuing]. Calling for about a half-a-
million, but again, you would not----
    Mr. Johnson. Right, they would----
    Chairman Johnson [continuing]. None of those things would 
kick in until we had 90 percent effective control of the 
border, which I am seeing as kind of a tough thing to do in any 
short time period.
    Mr. Johnson. Well, I think how you would have defined 
effective or not would----
    Chairman Johnson. Well, I think the definition----
    Mr. Johnson. The problem of triggers, actually, because 
triggers are no good unless you can define what the trigger is, 
because then you would never trigger the trigger, and that was 
an issue of definition that, I think, would have needed some 
more work----
    Chairman Johnson. I guess my point--we had a real timing 
problem here.
    Mr. Johnson. But they would have been put on a sort of 
probationary status that would have allowed them to work. 
However, they could not become citizens, at the earliest, 
within 13 years. So, during that probationary period, they 
would have been tested out, had to keep their nose clean, keep 
a job. If they lost their job, I think, 60 days, they would 
have been deported. So, there was a process. That was different 
than the process we created for the temporary-worker programs.
    In past bills, I think the McCain-Kennedy bill, we actually 
had a system by which the undocumented would move through the 
expanded temporary-worker programs. We did not do that this 
time--not we--you guys did not do that this time around.
    Chairman Johnson. I was not----
    Mr. Johnson. You were not. So, in those cases--but, in the 
Senate bill, the legalization problem was separate from the 
temporary-worker program issue, which was the AFL-Chamber deal, 
than the undocumented.
    Senator, the Senate bill was not perfect. There is no 
perfect mousetrap. It could have used some work. We would have 
done that if we had been able to get to conference and I think 
we could have gotten a decent bill out of a conference.
    Chairman Johnson. OK. Does anybody else want to speak to 
that? Mr. Passel.
    Mr. Passel. It seems to me you are talking about two 
different things. One is the stock of people who are here and 
the other is the new flows of people who are coming. The stock 
of people who are here is this 8.1 million workers, and what 
gets done with them is up for discussion.
    The question is, what about the new flows of people, and 
what we have seen. If you look back at the periods you were 
talking about in--oh, right around the first 5 years of this 
century, there were on the order of 800,000 new unauthorized 
immigrants coming into the country every year with, based on 
the data we have, 500,000 to 600,000 of them were coming into 
jobs.
    For Mexico, the peak flows of people were around 2000, when 
over 700,000 Mexicans came to the United States. Almost 80 
percent of them came as unauthorized immigrants.
    What we are seeing now in the case of Mexico is 150,000 
people coming every year, and 80 percent of them are coming as 
legal immigrants. So, the number of folks that are coming ever 
year as unauthorized immigrants is down to maybe a third of 
what it was at its peak. We are talking about maybe 200,000 or 
so. And, roughly that many are leaving each year. So, that is 
why the numbers of unauthorized immigrants are constant.
    So, I do not know what sorts of programs might work or 
might not work, but the current flows of people who are coming 
as unauthorized immigrants are much smaller than they were 10 
15 years ago.
    Chairman Johnson. OK. Well, thank you. I really do not have 
any further questions.
    Did you want to ask a couple more questions, or--OK. Go 
ahead.
    Senator Carper. Thank you. Mr. Chairman, we are drilling 
down on five recommendations made by, or characteristics or 
qualities that Dr. Zavodny suggested should be used and kept in 
mind as we design a guest worker program, if you will.
    The last one we got to, it says--I will just read it. It 
says, your words, Dr. Zavodny, more interior enforcement, 
particularly at workplaces, is vital to the success of a guest 
worker program. Requiring all employers to use E-Verify would 
help choke off the jobs magnet that attracts most unauthorized 
immigrants. That is what you said, and are you going to stick 
to that?
    Ms. Zavodny. Yes.
    Senator Carper. OK. Dr. Rosenblum, would you respond?
    Mr. Rosenblum. Sure. So, let me make two points. One, more 
worksite enforcement is essential. It cannot just be E-Verify, 
as Dr. Zavodny also testified. What we have seen in E-Verify 
States is more off-the-books employment. So, E-Verify does not 
prevent off-the-books employment. It does not prevent identity 
fraud, either, so you have to have physical inspections at work 
sites to check and see if people are actually unauthorized and 
to check and see that they are actually enforcing whatever wage 
guarantees are in there, because those are the two huge 
problems that we are not upholding the provisions that are 
written into law.
    And, just one other point, if I could quickly make. There 
is this mantra of, well, it should be market driven, and free 
markets, we all love free markets. But, what we are talking 
about, making a free-market, temporary-worker program, is 
expanding labor and not changing business. So, to just open it 
up and make it free-market does not help U.S. workers. You have 
to open it up and make it free-market and include protections 
for U.S. workers. So, that can either be through a higher fee 
or through some kind of elaborate non-market recruitment 
mechanism. So, to just make it free-market, what that does is 
undermines the positions of U.S. workers, unless you also build 
in protections.
    Senator Carper. Thank you for making that point.
    Mr. Johnson, what do you think----
    Mr. Johnson. Marc is putting out a lot of things there. 
First of all, the free market is a misused term here. There are 
many protections laden throughout existing temporary-worker 
programs. There are many protections we put into the AFL-
Chamber deal, and there would be many protections in any new 
temporary-worker program.
    So, the free-market or market-driven is a little bit of a 
misnomer here, including paying exactly what you are paying 
U.S. workers to the immigrant workers, or prevailing wage, 
which could actually be slightly higher. If the community, if 
the wage is higher, the immigrant worker in some cases would be 
paid more. The unions like that because it deters so-called 
hiring. There would not be recruitment from the domestic labor. 
There are a lot of protections that would be interlaid in any 
of these kinds of programs.
    With regard to enforcement, my members comply with the law 
as long as they can understand it. It is obviously not always 
clear. But they are concerned about over-zealous regulators 
coming in on workplace raids, on fishing expeditions. And, as 
long as there is some kind of deterrent built into these kinds 
of negotiations that make sure that what the government is 
doing, they do it carefully, and when they overstep their 
bounds, there is some kind of penalty for doing that, we are 
all in. But, just adding more Wage and Hour Inspectors to the 
Department of Labor or whatever because it feels good, because 
there is a suspicion employers are out there violating the law, 
is not going to pass muster with us.
    Senator Carper. OK. Mr. Garza.
    Mr. Garza. I would agree with Mr. Johnson, and this is 
where the Libertarian in me comes out, that we resist further 
excessive enforcement in the private sector. I think we have 
enough bureaucrats. We have enough laws. Fines are good enough. 
Any addition to that, I think, would have to be resisted if not 
completely looked at.
    Senator Carper. Dr. Passel.
    Mr. Passel. Again, I have no position on this.
    Senator Carper. OK. We have several million people in the 
country who are looking for work. Our congressional delegation 
has hosted over the last several years job fairs up and down 
our State, and we just did our latest one in the central part 
of our State on Monday. We had, I think, oh, maybe 40 or more 
employers who came. We had close to 500 people who came looking 
for work. I made some brief remarks to the people that were 
there as we kicked it off with Senator Coons and with 
Congressman John Carney.
    There are several million people who are looking for work, 
and some of them--a bunch of them are long-time unemployed. 
And, as we all know, there are several millions of jobs that 
need to be filled and we do not have--the employers have a 
tough time finding the skills. So, a lot of the folks who are 
here looking for work, a lot of jobs that we hear need people, 
there is a mismatch in the skills.
    And so, part of what a guest-worker program would be able 
to do is help better fill those jobs. Meanwhile, we still have 
all these people over here who need work and they need to be 
productive and making contributions in our society.
    So, part of what we had at our job fair were University of 
Delaware, Delaware State University, Delaware Technical 
Community College, Wilmington University, and other job 
programs, training programs for folks, including those who work 
with our GIs coming back and who have a great, robust G.I. 
Bill, as you know.
    But, I also have concerns, and some of you voiced these, as 
well, about sometimes you have employers who do not play by the 
rules and who do not--they hire folks they know that they are 
illegal and they hire them and they do not pay them well, they 
do not treat them well. And, sometimes, you have folks who are 
over here in the couple million people looking for work, they 
want to work desperately. They want to work desperately, and 
they are just fearful that somebody else is going to come in 
from another country and maybe work as hard as the person 
desperate for work here.
    How do we, on the one hand, try to be fair to the American 
or the Americans who are desperate for work, looking for work, 
maybe do not have the skill sets, but maybe they are in the 
wrong State. Maybe they just do not live in the right part of 
our country. What do we do about them? How do we sort of 
protect their interest, if you will? And, Dr. Zavodny, if you 
have any thoughts on that, I would welcome them.
    Ms. Zavodny. Sure.
    Senator Carper. I just put my--I am the Golden Rule guy--I 
think we all are--and how do I want to be treated if I were in 
their shoes? That is the question I am sort of asking here.
    Ms. Zavodny. The long-term unemployed are certainly a 
concern, that as the economy has begun growing again and the 
unemployment rate is falling, we do have a pool of people who 
are going to have a difficult time finding a job, and some of 
them have exited the labor force completely and we would like 
them to come back into the labor force and be able to make the 
economic contribution that they can and that they want to, 
certainly.
    So, what I would think is the best solution here, as Marc 
Rosenblum has mentioned, is to have fees for visas and use 
those fees for training programs that would operate probably 
through community colleges. We have an excellent system of 
community colleges in the United States that work with local 
businesses and local workforce development agencies to ensure 
that workers in the community develop the skills that 
businesses in the community want, and I think that that is the 
best solution that we could come up with.
    I do not think it is ever going to be perfect. Not everyone 
who wants a job is going to have one at every point in time. 
But, cutting off immigration is not the way to help unemployed 
natives find jobs.
    Senator Carper. OK. Others, please. Just briefly. Dr. 
Rosenblum.
    Mr. Rosenblum. I mean, yes, obviously, I agree with 
Madeline since she agrees with me---- [Laughter.]
    But, to have more programs to help U.S. workers with 
training and things like that would be very important. I just 
also observe that, there are, as Randy points out, there are 
all kinds of provisions in the existing H-2 programs that try 
to put U.S. workers first in line, but those are not well 
designed, and the reason is that employers want to make their 
own hiring decisions. But, the two audits that we have of those 
programs found that in 1998, just 0.05 percent of people who 
applied to the certification process ended up hiring a U.S. 
worker, and in 2003, just 2 percent.
    So, those programs are not the answer, so we need some 
other answer, and I think using fees to fund better retraining 
and job placement is a better answer. And then, you do let the 
employers make their own decisions and you put the U.S. workers 
in a better position to compete for those jobs.
    Chairman Johnson. Let me step in here, because we are going 
to start having votes and I want to wrap up. I do want to give 
everybody a chance to summarize if you have a final quick 
thought.
    I will make a comment, though. We have a lot of job-
training programs. I would check the effectiveness of those, as 
well, on the Federal level. We spend a lot of money.
    I do have two questions, either in your closing statements 
or before that, I would like you to respond to. One of the 
points I was making when I was talking about trying to 
incorporate a guest worker program would be something where the 
States have far greater participation in it. Let the States set 
the number of guest workers for their State in their different 
industries. Let them set the prevailing wage rates. I mean, I 
would kind of like anybody who would want to comment on that, 
quickly.
    And, then, the other one. I did talk about the hearing they 
had in the Judiciary Committee, I think it was last week. It 
was pretty powerful testimony running totally counter to what 
we are talking about here in terms of guest workers. And again, 
I would like somebody on this panel providing some kind of 
rebuttal, if you can.
    But, I will leave that, and then we will just go down the 
line and let everybody have a closing thought. Does anybody 
want to respond to those first two points? Mr. Johnson.
    Mr. Johnson. Well, Senator, first of all, on the State 
idea, I mean, because you would have to authorize the States to 
do that, I think that because labor markets on one hand, labor 
markets are not as national as we like to pretend they are. 
Employers have to recruit from certain pockets of workers, 
though it depends on the kind of job they are recruiting for. 
But, I think State boundaries might be too--I am just throwing 
this out----
    Chairman Johnson. Sure.
    Mr. Johnson [continuing]. An artificial boundary for 
setting shortages, because workers, of course, can cross State 
lines, et cetera----
    Chairman Johnson. Yes, but the employer is confined to a 
State, potentially, but----
    Mr. Johnson. Right, but Metropolitan Statistical Areas, 
depending on the certain kind of jobs, I mean, it is an 
interesting idea.
    I would say defining shortages, again, by occupation is a 
difficult conundrum which lots of experts quote-unquote, will 
disagree on how you do that, as distinguished from a more 
market-driven employer-based system, which is not sort of 
artificially driven by quotas set by the government.
    Chairman Johnson. OK. Well, again, I would hope that those 
industries would be inputting the system on a State basis 
rather than inputting to a national model, national number.
    Does anybody else want to comment on that or speak to the 
Senate Judiciary Committee----
    Mr. Garza. I like the idea of Federalism. Anything that 
decentralizes decision-making from Washington and gets it 
closer to the private sector when it comes to responding to 
market forces in real time, we would be open to that.
    Chairman Johnson. OK. Does anybody want to--yes.
    Ms. Zavodny. As much as I think States' rights are 
important, Federalism is good, I do not think it works here 
with a guest-worker program because you want the portability, 
the ability of workers to move to better jobs. And, if you 
restrict them to remaining in the State that brought them in--
--
    Chairman Johnson. It would be a problem.
    Ms. Zavodny [continuing]. Then they cannot do that.
    Chairman Johnson. OK.
    Mr. Johnson. Senator, I would, with regard to the Senate 
hearing in the Judiciary, we did submit a lengthy statement on 
that. I am sure Senator Grassley and Senator Sessions will 
probably disagree, but frankly, the witnesses were not--it was 
not a balanced panel. Had the panel been more balanced, there 
would have been more people talking about the shortages of 
science, technology, engineering, and math (STEM) workers and 
what employers do now to try and recruit in the domestic labor 
force before they use the H-1B program. So, I do not think it 
was a fair and balanced hearing with regard to what is really 
going on out there in the real world under the H-1B program.
    Chairman Johnson. Well, I would appreciate information that 
would be the----
    Mr. Johnson. Good.
    Chairman Johnson [continuing]. Bring the fair and balance 
to that, because, again, I am trying to determine the reality 
of the situation.
    We will start with Mr. Passel there, and if you have a 
quick closing thought here.
    Mr. Passel. I think we are at a very interesting time. We 
have seen the numbers drop and then we have seen the numbers 
level off in recent years. The driver of the growth in the 
unauthorized population over the last 30 years has been in 
Mexico, and right now, the number of unauthorized Mexicans in 
the United States is continuing to go down, meaning that more 
are leaving than are coming. And, we have gone through a period 
here of about 6 or 7 years where what seems to have happened in 
Mexico is that the United States is not viewed as the primary 
outlet for labor. Also, Mexico as a result of falling 
birthrates, does not have the population surpluses that it used 
to have.
    So, the dynamic going forward could be quite different, 
especially with regard to Mexico and the Southern Border, so 
that, yes, apprehensions at the Southern Border went up in the 
last year, but the apprehensions of Mexicans actually went 
down.
    Chairman Johnson. Right. So, that speaks to the supply and 
demand----
    Mr. Passel. Yes.
    Chairman Johnson [continuing]. Equation changing. Mr. 
Garza.
    Mr. Garza. I would say that in the absence of a reform that 
would put people on a path to citizenship, we feel that a work 
visa program is a viable alternative that would offer a 
predictable legal and needed workforce necessary to meet our 
Nation's labor demand. Immigrants seeking opportunity, willing 
to work hard, and make sacrifices for their children to improve 
their lot in life, that is the American dream.
    Chairman Johnson. Thank you. Ms. Zavodny.
    Ms. Zavodny. We are never going to have any unauthorized 
immigrants, and if we do, I do not want to live here, because 
what would that mean? It would mean we had a horrible economy 
and we had no civil liberties, right?
    And so, the goal really needs to be to minimize or at least 
reduce unauthorized immigration substantially, and the best way 
you are going to do that is to have a viable guest-worker 
program, in addition to the interior enforcement.
    Chairman Johnson. OK. Mr. Johnson.
    Mr. Johnson. Well, I agree with Madeline on that. Senator, 
I agree with Madeline on that, and it is a two-prong 
combination of expanded temporary-worker programs and a 
sensible pathway to legalization.
    Chairman Johnson. OK. Mr. Rosenblum.
    Mr. Rosenblum. I would echo those comments and observe that 
we really have made extraordinary investments at the border and 
in the interior on the enforcement side. And, to go to your 
point, Mr. Chairman, about sequencing and triggers, I mean, in 
terms of sequencing, we have done a lot of enforcement first, 
and the way we are going to get a bigger return on those 
investments is by addressing these demand-side issues.
    Chairman Johnson. OK. Well, again, thank you all for all of 
the hard work that went into your testimony and your thoughtful 
answers to our questions.
    This hearing record will remain open for 15 days, until 
April 10 at 5 p.m., for submission of statements and questions 
for the record.
    This hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]




                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
